<html>
<title> - DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 2003</title>
<body><pre>[Senate Hearing 107-696]
[From the U.S. Government Printing Office]




                                                 S. Hrg. 107-696, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY 
    ACTIVITIES OF THE DEPARTMENT OF DEFENSE, TO PRESCRIBE MILITARY 
    PERSONNEL STRENGTHS FOR FISCAL YEAR 2003, AND FOR OTHER PURPOSES

                               ----------                              

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               ----------                              

                      MARCH 6, 12, APRIL 10, 2002


         Printed for the use of the Committee on Armed Services






                                                 S. Hrg. 107-696, Pt. 5

DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON ARMED SERVICES
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

                                S. 2225

     TO AUTHORIZE APPROPRIATIONS FOR FISCAL YEAR 2003 FOR MILITARY 
    ACTIVITIES OF THE DEPARTMENT OF DEFENSE, TO PRESCRIBE MILITARY 
    PERSONNEL STRENGTHS FOR FISCAL YEAR 2003, AND FOR OTHER PURPOSES

                               __________

                                 PART 5

                   EMERGING THREATS AND CAPABILITIES

                               __________

                      MARCH 6, 12, APRIL 10, 2002


         Printed for the use of the Committee on Armed Services




                   U.S. GOVERNMENT PRINTING OFFICE
81-926 PDF                  WASHINGTON : 2002
----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2250  Mail: Stop SSOP, 
Washington, DC 20402-0001



                      COMMITTEE ON ARMED SERVICES

                     CARL LEVIN, Michigan, Chairman

EDWARD M. KENNEDY, Massachusetts     JOHN WARNER, Virginia
ROBERT C. BYRD, West Virginia        STROM THURMOND, South Carolina
JOSEPH I. LIEBERMAN, Connecticut     JOHN McCAIN, Arizona
MAX CLELAND, Georgia                 BOB SMITH, New Hampshire
MARY L. LANDRIEU, Louisiana          JAMES M. INHOFE, Oklahoma
JACK REED, Rhode Island              RICK SANTORUM, Pennsylvania
DANIEL K. AKAKA, Hawaii              PAT ROBERTS, Kansas
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
E. BENJAMIN NELSON, Nebraska         TIM HUTCHINSON, Arkansas
JEAN CARNAHAN, Missouri              JEFF SESSIONS, Alabama
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                     David S. Lyles, Staff Director
              Judith A. Ansley, Republican Staff Director

                                 ______

           Subcommittee on Emerging Threats and Capabilities

                 MARY L. LANDRIEU, Louisiana, Chairman

EDWARD M. KENNEDY, Massachusetts     PAT ROBERTS, Kansas
ROBERT C. BYRD, West Virginia        BOB SMITH, New Hampshire
JOSEPH I. LIEBERMAN, Connecticut     RICK SANTORUM, Pennsylvania
BILL NELSON, Florida                 WAYNE ALLARD, Colorado
JEAN CARNAHAN, Missouri              TIM HUTCHINSON, Arkansas
MARK DAYTON, Minnesota               SUSAN COLLINS, Maine
JEFF BINGAMAN, New Mexico            JIM BUNNING, Kentucky

                                  (ii)


                            C O N T E N T S

                              ----------                              

                    CHRONOLOGICAL LIST OF WITNESSES
     Nonproliferation Programs of the Department of Energy and the 
   Cooperative Threat Reduction Program of the Department of Defense
                             march 6, 2002

                                                                   Page

Crouch II, Hon. J.D., Assistant Secretary of Defense for 
  International Security Policy..................................    18
Brooks, Ambassador Linton F., Deputy Administrator for Defense 
  Nuclear Nonproliferation, National Nuclear Security 
  Administration.................................................    23

Special Operations Military Capabilities, Operational Requirements, and 
                         Technology Acquisition
                             march 12, 2002

Holland, Gen. Charles R., USAF, Commander in Chief, U.S. Special 
  Operations Command.............................................    57
Schulte, Harry E., Acquisition Executive, Special Operations 
  Acquisition and Logistics Center, U.S. Special Operations 
  Command........................................................    68

   Technology for Combating Terrorism and Weapons of Mass Destruction
                             april 10, 2002

Sega, Hon. Ronald M., Director, Defense Research and Engineering.   114
Marburger III, Hon. John H., Director, Office of Science and 
  Technology Policy..............................................   125
Klein, Dr. Dale, Assistant to the Secretary of Defense for 
  Nuclear, Chemical, and Biological Defense Programs.............   139
Younger, Dr. Stephen M., Director, Defense Threat Reduction 
  Agency.........................................................   144
Waldron, Robert E., Assistant Deputy Administrator for 
  Nonproliferation Research and Engineering, National Nuclear 
  Security Administration........................................   149

                                 (iii)

 
DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        WEDNESDAY, MARCH 6, 2002

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

     NONPROLIFERATION PROGRAMS OF THE DEPARTMENT OF ENERGY AND THE 
   COOPERATIVE THREAT REDUCTION PROGRAM OF THE DEPARTMENT OF DEFENSE

    The subcommittee met, pursuant to notice, at 2:40 p.m., in 
room SR-222, Russell Senate Office Building, Senator Mary L. 
Landrieu (chairman of the subcommittee) presiding.
    Committee members present: Senators Landrieu, Carnahan, and 
Roberts.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Richard W. Fieldhouse, professional staff member; and 
Arun A. Seraphin, professional staff member.
    Minority staff members present: L. David Cherington, 
minority counsel; Edward H. Edens IV, professional staff 
member; and Mary Alice A. Hayward, professional staff member.
    Staff assistants present: Andrew Kent and Thomas C. Moore.
    Committee members' assistants present: Menda S. Fife, 
assistant to Senator Kennedy; Marshall A. Hevron and Jeffrey S. 
Wiener, assistants to Senator Landrieu; Peter A. Contostavlos, 
assistant to Senator Bill Nelson; David Schanzer, assistant to 
Senator Carnahan; John Gastright, assistant to Senator 
Thurmond; Robert Alan McCurry, assistant to Senator Roberts; 
Kristine Fauser, assistant to Senator Collins; and Derek 
Maurer, assistant to Senator Bunning.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. Good afternoon, everyone, and welcome to 
our hearing. This hearing will be on the Department of Energy's 
nonproliferation programs and the Department of Defense's 
Cooperative Threat Reduction (CTR) programs.
    Senator Roberts and I are very pleased to have both of our 
witnesses with us today. I think in both cases, it is your 
first time before this subcommittee, but neither one of you is 
new to this very important work.
    We have Ambassador Linton Brooks, now Deputy Administrator 
for Defense Nuclear Nonproliferation, National Nuclear Security 
Administration (NNSA). Ambassador, it is good to see you again. 
We look forward to your testimony. J.D. Crouch, Assistant 
Secretary of Defense for International Security Policy, 
welcome.
    Today we are here because of the very real threat of 
nuclear, radiological, biological, or chemical weapons finding 
their way into the hands of our enemies. The evidence of such a 
threat has prompted this administration to set up shop for high 
level officials in weapons of mass destruction or WMD-proof 
facilities so that they can resume control of the Nation should 
an attack occur.
    I think the public would want to know that Senators on this 
committee and throughout Congress are taking every possible 
step to neutralize this threat so as to ensure that America is 
safe from such a dire scenario.
    Let me begin by referring to excerpts from this week's Time 
magazine. Time reports that ``for a few harrowing weeks last 
fall, a group of U.S. officials believed that the worst 
nightmares of their lives--something even more horrific than 
September 11--was about to come true. In October, an 
intelligence alert went out to a small number of Government 
agencies, including the Energy Department's top-secret nuclear 
emergency search team (NEST), based in Nevada. The report said 
that terrorists were thought to have obtained a 10-kiloton 
nuclear weapon from the Russian arsenal and planned to smuggle 
it into New York City.''
    The report came from a very reliable field agent, and 
coincided with statements from a Russian general who said he 
might be missing a missile.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Landrieu. Fortunately, this information was not 
accurate, but the chance of such an event occurring in the 
future is certainly in the realm of possibility. A 10-kiloton 
weapon, according to Time, would have killed 100,000 New 
Yorkers and irradiated an additional 700,000.
    For well over a decade now, Senators Nunn and Lugar and a 
few others have recognized the potential of the threat posed by 
the proliferation of weapons of mass destruction from Russia 
and the Former Soviet Union (FSU). Unfortunately, they faced, 
in some instances, powerful opposition, opposition unwilling to 
either recognize the threat or all too eager to characterize 
nonproliferation programs as foreign aid. Compared to the 
critics who claimed that these programs did not belong in the 
DOD budget, and did not appreciate the reality of this threat, 
Senators Nunn and Lugar may have been ahead of their time, but 
their assessment of this threat was, I think, 100 percent 
accurate.
    In President Bush's State of the Union speech, the 
President stated, ``Our Nation will continue to be steadfast 
and patient and persistent in the pursuit of two great 
objectives. First, we will shut down terrorist camps, disrupt 
terrorist plans, and bring terrorists to justice. Second, we 
must prevent the terrorist regimes who seek chemical, 
biological, or nuclear weapons from threatening the United 
States and the world.''
    I completely support these goals and agree with the 
President. I intend to lead this subcommittee in support of 
these endeavors.
    The fiscal year 2003 request represents a 35 percent 
increase over last year's budget request for these programs, 
and it is 5 percent over what this Congress, in a bipartisan 
fashion, appropriated last year. We must sustain and enhance 
this level of funding for DOE and DOD nonproliferation programs 
in order to meet their worthy goals and objectives.
    But adequate budget funding is only the first step. We must 
dedicate these additional resources and current resources to 
the best possible ways to prevent proliferation, retain Russian 
and former Soviet scientists, and turn their offensive weapons 
training into tools for peace and prosperity. We must lock down 
and account for nuclear, chemical, and biological stockpiles 
with greater effectiveness and efficiency. We must create 
opportunities for Russian and former Soviet scientists to 
collaborate with American scientists in research and 
educational institutions to share knowledge that can assist our 
medical and public health professionals to effectively counter 
chemical and biological attacks or outbreaks, and we must be 
creative in thinking how to develop new and innovative efforts 
to quickly neutralize this threat. We simply do not have time 
on our side.
    To illustrate how real this threat is and how imperative it 
is that we act now, I would like to share some shocking reports 
coming out of one of the newly independent Russian states. Just 
recently, on February 25, a Newsweek article tells of accounts 
where workers at the premier bioweapons facility from the 
Soviet era now state that keeping track of the pathogens stored 
there is ``next to impossible.''
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Landrieu. Vials of anthrax are kept in coffee cans, 
which are stored in a 40-year-old refrigerator, secured with a 
simple padlock. Drunken thieves have broken into this facility, 
and the article goes on. Fortunately, they knew not of the 
trove of toxins in front of them and only stole some spare 
parts. But imagine what could happen if more deliberate thieves 
with more devious intentions breached this facility.
    Most shocking are the stories Russian and former Soviet 
scientists have to tell. These well-trained and capable 
scientists were approached, according to this article and 
others, by al-Qaeda to work in Afghanistan. Fortunately, U.S. 
intelligence believes these scientists refused these overtures. 
Nevertheless, there is no way to tell how long these 
scientists, many of whom are now unemployed, making less than 
$2,000 a year, can refuse lucrative offers such as these.
    There are simply too many stories of destitute Russians and 
former Soviet biological and chemical engineers, very brilliant 
people with doctoral degrees, driving cabs or peddling cheese 
and vegetables to make a living. When a Russian general cannot 
account for the whereabouts of a warhead, we must take extreme 
caution, pay extreme attention, and make every effort to 
neutralize this particular threat.
    We must also provide opportunities so that these scientists 
can peacefully make a living and use their keen minds to better 
this world. To fail to take these efforts jeopardizes our 
security.
    So, in closing, I just want to ask a few questions--and I 
will have more for the record. How can we best allocate our 
resources to prevent nuclear, biological, and chemical 
proliferation? How can we best account for Russian and former 
Soviet stockpiles? How can we improve the living conditions of 
these scientists via peaceful means? How can we collaborate 
more with Russian scientists and American scientists to expand 
fellowship and create peaceful means and peaceful approaches? 
Finally, what new ideas or programs may be effective toward 
this important end?
    I hope you will also let us know about parts of the 
programs under your jurisdiction that you do not find are 
working well or find not effective, because we do not have the 
time or the money to work on programs that are not actually 
increasing our security and minimizing these threats.
    So, to summarize, I believe the threat is real. I believe 
that we need to make these programs more robust, and I plan to 
lead this subcommittee in that way. But I also want to make 
sure that the money that we are spending is truly minimizing 
the risk and increasing our security, and that we will not be 
at all hesitant to scrap a program if it is not working so that 
we can put the money where it will work. The American people 
deserve no less, and I think they are expecting our best 
effort.
    Senator Roberts may have an opening statement, and then we 
will take our usual round of questions after hearing your 
testimony.
    Senator Roberts.
    Senator Roberts. Thank you, Senator Landrieu, and I would 
like to associate myself with your remarks. Some of my remarks 
will be repetitive, but I will try to get through them in an 
expedited fashion.
    I want to extend a very warm welcome to Dr. Crouch and to 
Ambassador Brooks. As the distinguished Madam Chairman has 
indicated, this is the first time that I think both of you have 
testified before this subcommittee on these programs, so we 
appreciate your taking time out of your very valuable schedule 
and we look forward to your remarks.
    Today, we are in a different world since this subcommittee 
last met, in our review of the budget request for these very 
critical threat reduction programs. Many of the emerging 
threats we identified in previous years' subcommittee hearings 
are now the established threats of today. They are no longer 
emerging. No one, and certainly not this subcommittee, could 
have imagined the events of September 11, but this subcommittee 
did, in fact, really identify with almost unthinkable accuracy, 
the threat posed by a biological weapon and our abilities to 
deal with it.
    So, today we find ourselves the victims of bioterrorism. 
While we feared that such a weapon might be a product of the 
Soviet-era bioweaponized strain, I do not think any of us in 
the Hart Senate Office Building ever imagined that it might be 
homegrown. That story still has to be told and the 
investigation is ongoing.
    Now we are concerned that a dirty bomb--that is how it is 
described in the press at least--will be the next threat on the 
horizon. If we all sat down and listed 100 things, Madam 
Chairman, that we thought the terrorists would do, they would 
probably do 101. But once again, our fears are that the Soviet-
era nuclear materials might be the ingredients of such a 
device. I hope this remains a theoretical threat and not one 
that will be played out anywhere in the world.
    Now, the administration has demonstrated its full support 
for these programs with the President's fiscal year 2003 budget 
request. On December 27, 2001, the President stated, ``This 
administration is committed to strong, effective cooperation 
with Russia and the other states of the Former Soviet Union to 
reduce weapons of mass destruction and prevent their expansion 
and proliferation.''
    This spirit of cooperation was also demonstrated by 
Presidents Putin and Bush in a November 2001 joint statement 
when they said, ``Both sides agree that urgent attention must 
continue to be given to improving the physical protection and 
accounting of nuclear materials of all possessor states, and 
preventing illicit nuclear trafficking.''
    I share these views. I support these programs. These 
programs warrant the best management and implementation and 
oversight possible to ensure that they achieve their missions 
and protect us from terrorist acts.
    So, I look forward to working with you to ensure that you 
have the tools you need to effect good management and execute 
solid implementation.
    With my cough and frog in my throat, I think I will simply 
ask that the rest of my statement be put in the record. I will 
get a glass of water and we can move to the testimony and the 
questions and we will sum up at that time. Thank you, Madam 
Chairman.
    [The prepared statement of Senator Roberts follows:]
               Prepared Statement by Senator Pat Roberts
    Thank you, Senator Landrieu. I would like to extend a warm welcome 
to you, Dr. Crouch, and to you, Ambassador Brooks. I believe this is 
the first time both of you have testified before this subcommittee on 
these programs. I appreciate the time you have taken to prepare, and I 
look forward to receiving your remarks.
    Today we are in a different world since the subcommittee last met 
to review the budget requests for these critical threat reduction 
programs. Many of the emerging threats we identified in previous years' 
subcommittee hearings are now the established threats of today. While 
no one, and certainly not this subcommittee, could have imagined the 
horrific events of September 11, this subcommittee did in fact identify 
with almost unthinkable accuracy the threat posed by a biological 
weapon and our abilities to deal with it. Today, we find ourselves 
victims of bioterrorism. While we feared that such a weapon might be a 
product of a Soviet-era bio-weaponized strain, we never imagined that 
it might be home grown. Now, we are concerned that a ``dirty bomb'' 
will be the next threat on the horizon. Once again our fears are that 
Soviet-era nuclear materials might be the ingredients of such a device. 
I hope this remains a theoretical threat and not one that will be 
played out anywhere in the world.
    The administration has demonstrated its full support for these 
threat reduction and nonproliferation programs with the President's 
fiscal year 2003 budget request. On December 27, 2001, the President 
stated that the ``administration is committed to strong, effective 
cooperation with Russian and the other states of the Former Soviet 
Union to reduce weapons of mass destruction and prevent their 
proliferation.''
    This spirit of cooperation was also demonstrated by Presidents 
Putin and Bush in a November 2001 joint statement, ``Both sides agree 
that urgent attention must continue to be given to improving the 
physical protection and accounting of nuclear materials of all 
possessor states, and preventing illicit nuclear trafficking.''
    I share these views and support these programs. I believe these 
programs warrant the best management, implementation, and oversight 
possible to ensure that they achieve their missions and protect us from 
terrorist acts. I look forward to working with you to ensure that you 
have the tools you need to effect good management and execute solid 
implementation.
    I hope you will be able to provide the subcommittee today with a 
clear and detailed discussion of how your budget requests meet your 
mission and what you expect to accomplish with these requested funds 
for fiscal year 2003. I believe you are doing critical work in 
protecting our Nation and I commend you for your perseverance and 
dedication. I thank you for the time and attention you have placed in 
preparing your remarks for this hearing.
    Senator Landrieu, thank you for holding this hearing. This 
concludes my opening remarks.

    Senator Landrieu. Well, with his cough and my sniffles, we 
are both hoping to get through this hearing, but we are very 
interested in what you have to say. Mr. Secretary, please 
proceed.

   STATEMENT OF HON. J.D. CROUCH II, ASSISTANT SECRETARY OF 
           DEFENSE FOR INTERNATIONAL SECURITY POLICY

    Dr. Crouch. Madam Chairman and Senator Roberts, it is a 
pleasure to be here today. Thank you for giving the Defense 
Department an opportunity to review CTR programs with the 
Subcommittee on Emerging Threats and Capabilities.
    I have a longer statement which I would ask that you might 
consider putting in the record, and I am just going to briefly 
summarize it here.
    Senator Landrieu. Without objection.
    Dr. Crouch. By holding this hearing so soon in the 
legislative year, I think the Senate is sending a high profile 
message that the CTR program is important to the United States, 
and the Department of Defense and the administration could not 
agree more. Over the last decade, the CTR program has made 
important contributions to U.S. national security by 
dismantling some 795 ballistic missile launchers, 92 heavy 
bombers, 21 ballistic missile submarines, and 729 ballistic 
missiles. The CTR program also contributed to our 
nonproliferation goals by improving the security around former 
Soviet nuclear, chemical, and biological weapons facilities. 
There is more to do.
    With that in mind, we appreciate Congress' decision to 
fully fund the President's fiscal year 2002 request and urge a 
similar commitment in fiscal year 2003.
    September 11 and the anthrax attacks here in the United 
States have prompted the Defense Department to consider how the 
CTR program might contribute to the global war on terrorism. 
You will note that our budget request includes a new program 
area called ``weapons of mass destruction proliferation 
prevention.'' This new area is intended to help programs 
managed by the State Department and the Department of Energy to 
enhance capabilities among non-Russian former Soviet states to 
deter, detect, and interdict unauthorized movement of weapons 
of mass destruction and related materials across their 
respective borders.
    CTR assistance would help to train military forces, border 
guards, customs, and other security personnel in the techniques 
and tactics necessary to secure their borders against 
proliferation of weapons of mass destruction.
    CTR would also help train these forces to respond 
effectively to terrorist incidents at their borders.
    The CTR program has made considerable strides by 
establishing cooperative relationships with our partners and 
helping them dismantle strategic delivery vehicles as soon as 
they are removed from operational systems. We have tried to 
leverage that success by recasting both the objectives and the 
management structure of the CTR.
    With respect to management, we have brought CTR's policy 
making office under a new deputy under secretariat, though it 
will still report through my office to the Under Secretary of 
Defense for Policy. The new Office of Deputy Under Secretary 
for Technology Security Policy and Counterproliferation will be 
responsible for the Department's input to the interagency 
export licensing process through DTSA, the Defense Technology 
Security Administration, as well as development of the 
Department's counterproliferation policies.
    We believe that there are crosscutting national security 
issues among these areas, technology security, 
counterproliferation and nonproliferation, and cooperative 
threat reduction, that we can better address when the 
Department's expertise in these areas is under one management 
structure.
    We expect CTR to play a key role as we try to realize 
policy and management synergies across these three areas.
    To go further, we have recast CTR's objectives to sharpen 
the focus on emerging WMD and proliferation threats and the 
individual scientists whose skills are a part of that threat. 
We are particularly focused on the growing threat of biological 
weapons and bioterrorism. A significant portion of the funds 
requested for the biological weapons proliferation prevention 
program will be used for targeted, collaborative biological 
research, to encourage higher standards of openness, ethics, 
and conduct among scientists, and preempt the potential brain 
drain of former BW scientists to rogue states.
    DOD will partner with international science and technology 
centers to initiate projects with scientists in Russia, 
Kazakhstan, Ukraine, Uzbekistan, and Georgia. This 
collaborative research will help enhance the transparency of 
Former Soviet Union biological weapons facilities.
    Through this type of effort, DOD has developed continuous, 
routine access to bench-level scientists and leveraged their 
expertise to develop measures to counter bioterrorism. We want 
to do more in this regard.
    In the past, I would also note, these projects have been 
thoroughly reviewed by experts from the National Academy of 
Science, U.S. Army Medical Research Institute of Infectious 
Diseases (USAMRIID) and the intelligence community. In light of 
September 11, we have directed that all these projects and all 
future projects will be vetted to prevent access to information 
or technology that might be useful to terrorists.
    We intend to expand research cooperation with the 
ministries of health in Kazakhstan, Uzbekistan, Georgia, and 
Ukraine to build infectious disease surveillance networks in 
areas once closed to the West. Such networks will improve our 
ability to detect, characterize, and monitor disease outbreaks 
with natural or bioterrorist origins. This has taken on greater 
importance with the deployment of U.S. forces in Central Asia 
and their potential exposure to emerging infectious diseases, 
some of which are poorly understood in the West.
    Within current authorities and with congressional support 
for new flexibility, there is a range of emerging opportunities 
for CTR. Planned program activities already help support the 
new strategic framework with Russia and can be leveraged to 
increase transparency. There are also potential vehicles for 
promoting new codes of conduct in the developing U.S.-Russia 
relationship.
    In the new security environment, CTR's technical and 
regional expertise offers a potentially valuable resource in 
emergency situations involving the proliferation of WMD or 
related matters. We want to work with Congress to determine 
whether the current range of authorities and notification 
structures permit CTR to be as flexible as it might be in an 
emerging crisis. Whether it be responding to a specific 
proliferation threat, keeping WMD and related technologies out 
of terrorists' hands, or other scenarios, CTR may well have a 
key role to play in securing U.S. interests after September 11.
    In this and all other CTR endeavors, the Department looks 
forward to working with Congress and with this committee in 
particular which has played such an important role in founding 
and improving this program.
    Thank you, Madam Chairman.
    [The prepared statement of Dr. Crouch follows:]
                Prepared Statement by Dr. J.D. Crouch II
    Thank you for inviting me to discuss the Department of Defense 
Cooperative Threat Reduction Program.
    The Soviet Nuclear Threat Reduction Act of 1991--the Nunn-Lugar 
Act--charged DOD with establishing a program to assist the Soviet Union 
and any successor states to destroy, safeguard, and prevent the 
proliferation of weapons of mass destruction (WMD). The Department of 
Defense created the Cooperative Threat Reduction (CTR) program to 
implement the Nunn-Lugar Act. This program continues as an important 
element of our national security strategy of the 21st century. The 
administration's review of nonproliferation and threat reduction 
assistance to Russia concluded that CTR has significantly contributed 
to U.S. national security. Through CTR, the U.S. has assisted states of 
the Former Soviet Union (FSU) to dismantle, consolidate, and secure 
weapons of mass destruction and their associated delivery systems, 
infrastructure, and technology. Similarly, CTR's defense and military 
cooperation with the states of the FSU has also supported the objective 
of preventing proliferation.
    Based on sustained support from Congress, DOD has obligated nearly 
$3 billion since 1992. This investment has produced real dividends. 
Moreover, the DOD CTR program helped deactivate 5,829 nuclear warheads 
and eliminate 797 ballistic missile launchers, 92 heavy bombers, 21 
ballistic missile submarines, and 736 ballistic missiles. Belarus, 
Kazakhstan, and Ukraine acceded to the Nuclear Nonproliferation Treaty 
in 1993 and 1994 based on promises of United States assistance to rid 
their countries of nuclear weapons. [Note: Belarus and Kazakhstan 
acceded to the NPT in 1993; Ukraine in 1994.] The CTR program helped 
fulfill this promise by 1996. CTR has also helped: (1) eliminate WMD 
infrastructure; (2) improve accountability for, and storage and 
transport security of, Russian nuclear warheads; and, (3) provide 
secure storage for weapons grade fissile material.
    Five years ago, CTR initiated a biological weapons (BW) threat 
reduction and proliferation prevention program. The massive, highly 
covert Soviet offensive BW program left a legacy of vulnerable 
technology, pathogens, and expertise. Our first project in this area 
was the dismantlement of the Stepnogorsk anthrax production and 
weaponization facility in Kazakhstan. This facility was built to 
produce and weaponize over 300 tons of agent during a wartime 
mobilization period. Today, its dismantlement is nearly complete. In 
cooperation with the U.S. Departments of State, Energy, Agriculture, 
and Health and Human Services, DOD has been cooperating with biological 
research and production centers in Russia and Kazakhstan. These 
research projects have given us greater insight into the scope and 
magnitude of the FSU's BW program and are intended to prevent the 
proliferation of BW expertise to rogue states and terrorists. The BW 
proliferation prevention program has grown to include securing 
dangerous pathogen collections and dismantlement of additional former 
Soviet BW production and research facilities.
    CTR has enjoyed sustained bipartisan congressional support since 
its inception. The President's fiscal year 2003 budget request includes 
$416.7 million for DOD's CTR program, a slight increase over the $400 
million fiscal year 2002 appropriation.
                             recasting ctr
    September 11 offered a vivid illustration of what a motivated 
terrorist organization can accomplish. The specter of terrorists armed 
with chemical or biological weapons is especially chilling. In the post 
9/11 environment, we need to ensure projects are vetted especially well 
from both counter-intelligence and counter-terrorism perspectives. 
CTR's current focus and organizational history lend themselves to 
addressing the new challenges we face in the post-9/11 environment. CTR 
needs evolve if it is to remain relevant to the most pressing national 
security threats facing the U.S. With continued support from Congress, 
we believe this important program can serve national security in the 
future as well as it has since its inception.
    In this regard, we have recast both the objectives and the 
management structure of CTR. With respect to management, we have 
brought CTR's policy-making office under a new deputy under 
secretariat, though it still reports through my office to the Under 
Secretary of Defense for Policy. The new office is the Deputy Under 
Secretary of Defense for Technology Security Policy and 
Counterproliferation. This office is responsible for the Department's 
input to the interagency export licensing process, through the Defense 
Technology Security Administration, as well as development of the 
Department's counterproliferation policies. We believe that there are 
cross-cutting national security issues among the areas of technology 
security, counterproliferation and nonproliferation that we can better 
address when the Department's expertise in these areas is under one 
organic management structure.
    We expect CTR to play a key role as we try to realize policy and 
management synergies across these three areas. To go further, we have 
recast the objectives of the CTR program to sharpen the focus on 
emerging WMD and proliferation threats.
                 recast objectives for the ctr program
    DOD has revised CTR program objectives to reflect high priority 
security and proliferation concerns in the FSU. These overarching 
objectives are to:
    1. help dismantle Former Soviet Union WMD, delivery systems, and 
associated infrastructure;
    2. help consolidate and secure FSU WMD and related technology and 
materials;
    3. help increase transparency and encourage higher standards of 
conduct; and
    4. help support defense and military cooperation with the objective 
of preventing proliferation.
   dismantling fsu wmd delivery systems and associated infrastructure
    The potential proliferation of FSU nuclear weapons, delivery 
systems and related technologies continues to pose a threat to U.S. 
national security. Several CTR program areas assist the FSU in 
dismantling these items at their sources.
    The President's fiscal year 2003 budget request includes $70.5 
million for the Strategic Offensive Arms Elimination (SOAE) program 
area to assist Russia in reducing its strategic nuclear delivery 
systems. While this is a reduction from previous years, we have 
significant unobligated balances that we plan to apply to SOAE. One of 
the larger areas under SOAE--elimination of strategic nuclear 
submarines--will require only about $15 million to $20 million total 
funding per year in fiscal year 2003 and the future. Russia has fewer 
than 20 strategic ballistic missile submarines (SSBNs) remaining to 
dismantle, and we expect their launchers will be eliminated and the 
SSBNs dismantled at the rate of about two per year. In fiscal year 
2001, DOD helped Russia eliminate 4 SSBNs, 80 SLBM launchers, 99 SLBMs, 
24 SS-18 launchers, and 29 ICBMs.
    In addition, Strategic Nuclear Arms Elimination projects have 
eliminated all of Ukraine's START-accountable nuclear delivery system 
launchers and are helping to dismantle WMD infrastructure and delivery 
systems (i.e., SS-24 missiles, Tu-22M bombers, and Kh-22 nuclear 
capable air-to-surface missiles).
    This year, DOD initiated a CTR project with Uzbekistan to eliminate 
the Soviet biological weapons testing complex on Vozrozhdeniye Island 
and to destroy anthrax that the Soviet military buried there. In 
addition, DOD is helping dismantle the former Soviet chemical weapons 
research, development, and testing facility at Nukus. In fiscal year 
2001, this project dismantled and removed all pilot plant reactors, 
vessels, and piping along with lab equipment, filtration systems, and 
ducting.
    The administration's review of nonproliferation and threat 
reduction assistance to Russia endorsed the construction of a CW 
destruction facility at Shchuch'ye. Therefore, DOD is requesting $133.6 
million for the Chemical Weapons (CW) Destruction program in Russia. 
These funds also will continue demilitarization of a former CW 
production facility in Russia. DOD is assessing whether the Secretary 
of Defense can certify CW destruction facility assistance for Russia in 
accordance with requirements of the Fiscal Year 2002 National Defense 
Authorization Act. In the past 2 years design and site preparation have 
moved forward. This has permitted completion of construction 
procurement packages for over $200 million worth of work. Thus, once 
Russia meets the six conditions, DOD will be able to obligate the 
requested funds for this project promptly.
    In addition, we have completely eliminated all strategic arms from 
Kazakhstan. The fiscal year 2003 budget request includes $8.8 million 
for the WMD Infrastructure Elimination-Kazakhstan program to continue 
efforts to consolidate and secure fissile and radioactive material, 
destroy equipment and facilities that were used to support the 
deployment and operation of Soviet WMD and delivery systems, including 
liquid missile propellant and a chemical weapons production facility.
  consolidate and secure fsu wmd and related technology and materials
    DOD's CTR and the Department of Energy's nonproliferation programs 
support U.S. efforts to prevent the proliferation of FSU WMD and 
related technology by consolidating and securing nuclear weapons, 
fissile material, chemical weapons, and dangerous pathogen collections.
    DOD is seeking $19.7 million for the Nuclear Weapons Transportation 
Security program with Russia to continue assisting in consolidation of 
nuclear weapons from Russia's Ministry of Defense (MOD) operational 
sites to Ministry of Atomic Energy (MinAtom) nuclear weapons 
dismantlement facilities. In fiscal year 2001, DOD funded 53 rail 
shipments designed to carry nuclear warheads to dismantlement sites. We 
also funded the maintenance of 79 Russian railcars and contracted for 
specialized emergency response vehicles and nuclear weapons recovery 
equipment to support MOD training for accidents or incidents involving 
nuclear weapons.
    We continue to be concerned with the potential for theft or 
diversion of Russian nuclear weapons. The $40.0 million for the Nuclear 
Weapons Storage Security program area is significantly lower than 
requested each of the last 2 years as a result of significant 
unobligated prior year balances. We need to complete integration of 
enhanced storage site security systems, as well as secure better access 
to sites under Russian law. We hope Russia revises its existing 
statutes by summer 2002, at which time the program will be able to 
obligate funding. During fiscal year 2001, we completed testing and 
finalized selection of a suite of security equipment to be installed at 
weapons storage sites. We think that the installation of physical 
security measures--preferably those which can be utilized without 
extensive training--is a good interim solution, pending eventual 
dismantlement of nuclear weapons stocks.
    While the fiscal year 2003 budget requests no additional funds for 
the Fissile Material Storage Facility at Mayak, Russia, we anticipate 
completing construction of this facility in calendar year 2002. Once 
operational, it will provide centralized, safe, secure, and 
ecologically sound storage of up to 50 metric tons of weapons-grade 
plutonium and 200 metric tons of highly enriched uranium (HEU) removed 
from nuclear weapons. Russia plans to begin loading it with fissile 
material from dismantled nuclear weapons in late 2002 or early 2003.
    Increased cooperation with former biological weapons designers and 
engineers in the FSU has enabled us to identify and gain access to 
research and production centers that house dangerous pathogens, 
technology, and expertise. The fiscal year 2003 budget request includes 
$55 million for the Biological Weapons Proliferation Prevention (BWPP) 
program area to consolidate, secure, or eliminate dangerous pathogen 
collections at former Soviet biological research and production 
centers, and to dismantle former Soviet BW research and production 
facilities. In fiscal year 2001, DOD continued four ongoing pathogen 
bio-security projects and developed bio-security projects at six 
additional sites; continued dismantlement of the former BW production 
facility at Stepnogorsk, Kazakhstan; and initiated dismantlement of the 
former BW test facility at Vozrozhdeniya Island.
    increase transparency and encourage higher standards of conduct
    A significant portion of the funds requested for the BWPP program 
area will also be used for targeted collaborative biological research 
to encourage higher standards of openness, ethics, and conduct among 
scientists and preempt potential ``brain drain'' of former BW 
scientists to rogue states. DOD will partner with State Department's 
International Science and Technology Centers to initiate projects with 
scientists in Russia, Kazakhstan, Ukraine, Uzbekistan, and Georgia. 
This collaborative research will enhance the transparency of FSU BW 
facilities. Through this effort, DOD has developed continuous, routine 
access to bench-level scientists, and leveraged their expertise to 
develop measures to counter bio-terrorism.
    DOD intends to expand research cooperation with Ministry of Health 
institutes in Kazakhstan, Uzbekistan, Georgia, and Ukraine to build 
infectious disease surveillance networks in areas once closed to the 
west. Such networks will improve our ability to detect, characterize, 
and monitor disease outbreaks with natural or bio-terrorist origins. 
This has taken on greater importance with the deployment of U.S. forces 
in Central Asia and their potential exposure to emerging infectious 
diseases poorly understood in the west. Additionally, such networks 
will assist public health officials in the affected republics.
    support defense and military cooperation with the objective of 
                        preventing proliferation
    The fiscal year 2003 budget requests $40 million for a new 
initiative designed to enhance non-Russian FSU military, internal 
security forces, border guards and customs agents capabilities to 
prevent, deter, detect, and interdict illicit trafficking in WMD and 
related materials, and to respond effectively to trafficking incidents 
at the border. This initiative will provide training, equipment, and 
infrastructure designed to enhance recipient countries' capabilities to 
prevent WMD or related materials from falling into the hands of 
terrorists and rogue states.
                     emerging opportunities for ctr
    Within current authorities, and with congressional support for new 
flexibility, there are a range of emerging opportunities for CTR. 
Planned program activities already help support the new strategic 
framework with Russia and can be leveraged to increase transparency. 
They are also potential vehicles for promoting new codes of conduct in 
the developing U.S.-Russia relationship.
    In the new security environment, CTR's technical and regional 
expertise offer a potentially invaluable resource in emergency 
situations involving proliferation of WMD or related matters. We want 
to work with Congress to determine whether the current range of 
authorities and notification structures permits CTR to be as flexible 
as it might be in an emerging crisis. Whether it be responding to a 
specific proliferation threat, keeping WMD and related technologies out 
of terrorists' hands, or other scenarios, CTR has a key role to play in 
securing U.S. interests post-September 11.
    In this and all other CTR endeavors, we look forward to working 
with Congress, which has played such an important role in founding and 
improving this program.

    Senator Landrieu. Thank you, Mr. Secretary.
    Ambassador.

STATEMENT OF AMBASSADOR LINTON F. BROOKS, DEPUTY ADMINISTRATOR 
FOR DEFENSE NUCLEAR NONPROLIFERATION, NATIONAL NUCLEAR SECURITY 
                         ADMINISTRATION

    Ambassador Brooks. Thank you. Like my colleague, I have a 
longer statement, which I would appreciate being placed in the 
record, and I will summarize it.
    Senator Roberts. Super. [Laughter.]
    Ambassador Brooks. I appreciate the opportunity to appear 
before you to talk about the National Nuclear Security 
Administration's nonproliferation programs.
    As Senator Roberts mentioned, this is my first opportunity 
to testify before this subcommittee. I am conscious of the 
great support that we have received from this subcommittee in 
the past as we try to stem the spread of nuclear weapons, 
nuclear materials, and nuclear knowledge. I look forward to 
continued close cooperation.
    I also want to note at the beginning that our progress has 
benefitted immensely from a cooperative relationship with 
Russia that President Bush has forged. In this new 
relationship, we have also benefitted very strongly from the 
personal involvement and leadership of the Secretary of Energy. 
Secretary Abraham and the Minister of Atomic Energy in Russia 
have worked together to accelerate our protection efforts to 
try to remove bureaucratic roadblocks. We have been very 
fortunate in the support that we have received from both the 
Secretary and from the NNSA Administrator, General Gordon.
    That is particularly important because, as it is to 
everybody in this room, in the aftermath of September 11, it is 
clear to me just how complex the threat environment is. The 
sophistication required to carry out the September 11 attacks 
make some of the threats that we are trying to guard against in 
Russia look a little less far-fetched.
    We have made enormous strides in Russia in securing nuclear 
materials and in protecting nuclear technology and expertise. 
But the unfortunate fact is that only a relatively small amount 
of HEU or plutonium is necessary for a nuclear device. 
Therefore, we cannot allow our guard to drop. We have to 
continue to accelerate these efforts because it is very clear 
that the people who perpetrated September 11 would not hesitate 
to use nuclear weapons if they were able to get them.
    The programs in the National Nuclear Security 
Administration are one element--in our view obviously an 
important element--of U.S. efforts to reduce such threats. We 
are built around four pillars: technology research and 
development, promotion of international nuclear safety, threat 
reduction efforts in Russia and elsewhere, and finally general 
support for international nonproliferation regimes.
    Our budget request for these initiatives is $1.3 billion. 
It is a 36 percent increase from the last budget of the 
previous administration. I make that point only because I hope 
that there will be nobody in the room who will have any doubt 
of this administration's firm commitment to stemming 
proliferation and supporting these important programs.
    Let me turn now and review briefly the programs.
    Our research and development effort is built around 
detecting proliferation, monitoring for nuclear explosions, and 
responding to biological and chemical attacks. We are 
requesting $283 million for these initiatives. They improve 
existing detection capabilities and response times for a wide 
variety of chemical threats. For example, we developed the 
prototype biological agent system that was deployed at the 
Olympics. We developed the system recently demonstrated in the 
Washington Metro for detecting and responding to chemical 
attack. We are developing a new generation of nuclear 
detonation sensors that will fly on global positioning system 
satellites. It is easy to ignore research and development 
because it does not contribute to solving today's problem, but 
it is absolutely crucial if we are to prevent tomorrow's 
problem.
    We have also been accelerating, particularly since 
September 11, nuclear material protection programs in Russia. 
These programs are based on the philosophy of low technology, 
high pay-off solutions; low technology so that they can be 
effectively maintained. With the full funding of our request, 
we expect to complete all the scheduled work in Russia by 2008. 
That is 2 years earlier than we would have expected to complete 
it 6 months ago. We will also be accelerating the Second Line 
of Defense program. This is a program to install monitors to 
detect nuclear materials at border crossings and is intended to 
provide a second line of defense if material in the Russian 
Federation and elsewhere comes into the hands of terrorists or 
other rogues. In fiscal year 2003, we will install new 
equipment at 21 additional sites in Russia, Kazakhstan, and 
Ukraine.
    Senator Roberts mentioned the notion of so-called dirty 
bombs. Our fiscal year 2003 request includes an effort to look 
at so-called radiological dispersal devices. We have not looked 
at them in the past because they are not directly 
nonproliferation related, but they do have a use for 
terrorists, and we will look to see whether there is something 
useful that can be done to secure them in the Russian 
Federation.
    Our budget requests $39 million for programs to prevent the 
migration of knowledge from Russia. We have combined the 
Nuclear Cities Initiative (NCI) and the Initiatives for 
Proliferation Prevention (IPP) into a new program called 
Russian Transition Initiatives. The programs now share a common 
manager and common procedures while preserving their separate 
focus on scientists and on infrastructure. We are pleased with 
the success we have had with finding peaceful employment for 
former weapons scientists. We are seeing a number of commercial 
initiatives that are directly relevant to how we address 
terrorist threats.
    On the Nuclear Cities portion, 2 weeks ago we negotiated an 
agreement to ensure access to the closed cities. This builds on 
the written agreement of last fall to cease all nuclear weapons 
work at the Russian facility, Avangard, and we look forward now 
with some of these bureaucratic obstacles out of the way to 
increased effectiveness on this program.
    In another new effort for me, the administration, as a 
result of its review of nonproliferation programs, has decided 
to transfer the responsibility for shutting down plutonium 
production reactors in Russia from the Department of Defense to 
the Department of Energy. These reactors are still producing 
plutonium. They are also producing heat and light for their 
associated communities. We will provide replacement heating and 
lighting capability, and based on our budget request, we hope 
to have all of these reactors shut down by 2007. We believe it 
is important to move forward with this effort. We are working 
to have unobligated prior year balances transferred from the 
Department of Defense in the amount of $74 million. Some of 
that money comes encumbered with some restrictions on fossil 
fuel plants, and we will be working with the committee to find 
a way to lift those restrictions.
    In nonproliferation and international security, we will 
continue our export control activities, our support for the 
International Atomic Energy Agency (IAEA), and our efforts to 
safeguard nuclear materials outside of Russia. We will also 
continue efforts to explore how technology can work to improve 
regional stability and thus reduce demand for weapons of mass 
destruction.
    Finally and perhaps the most spectacular new part of this 
budget, our fiscal year 2003 request would fund the program to 
dispose of surplus weapons grade plutonium through the 
irradiation of mixed oxide, or MOX, fuel in commercial nuclear 
reactors. This was the result of a major review of this program 
conducted beginning last spring. Our revised program will 
confirm our commitment to dispose of 34 metric tons of 
plutonium, and match that commitment with the disposition of a 
comparable amount of Russian plutonium. It will result in a 
savings of about $2 billion over the next 20 years compared to 
the previous program. It will result in less technical risks, 
lower peak year funding, and a 3-year acceleration of the 
program.
    We are now working with the Russians to seek comparable 
efficiencies in their own program and with other countries to 
provide financial assistance to Russia in meeting their 
obligation.
    With the end of the Cold War and especially since last 
September, all of us have had to think hard about security, 
especially nuclear security. It is the administration's view 
and my view that we attack the problem on many fronts, working 
with our colleagues in the Defense Department and our 
colleagues in the State Department to cut off the supply of 
materials and tighten international borders. It will take a 
sustained effort to meet these objectives. That is why I am so 
honored to have these new responsibilities where I hope to help 
make a difference. In doing that, I will benefit, I hope, in 
the future, as my predecessors have benefitted in the past, 
from the support of this committee.
    Thank you very much for your attention and I look forward 
to your questions.
    [The prepared statement of Ambassador Brooks follows:]
           Prepared Statement by Ambassador Linton F. Brooks
    Good morning, and thank you, Madam Chairman, for the opportunity to 
come before the Subcommittee on Emerging Threats and Capabilities of 
the Senate Armed Services Committee to discuss the Department of 
Energy's National Nuclear Security Administration's (NNSA) nuclear 
nonproliferation programs. This is my first opportunity to address this 
subcommittee since assuming my responsibilities as the Deputy 
Administrator for Defense Nuclear Nonproliferation. Before addressing 
our specific programs, I want to say how important I consider this 
subcommittee's contribution as the United States works to establish 
sound approaches to stemming the spread of nuclear weapons, materials, 
technology, and expertise. I appreciate the subcommittee's support and 
I look forward to continuing working together in the future.
    For all Americans, the events of September 11 were a rude 
awakening. The attacks forced the United States to come to grips with 
its own vulnerability. Americans now have to accept just how 
dramatically the threat has changed. At this somber moment, there is 
some reason for optimism. The good news is that the Cold War is over; 
President Bush has been masterful in moving this Nation beyond that 
conflict once and for all, and establishing a new, cooperative 
relationship with Russia. As the President has said, ``We're 
transforming our relationship from one of hostility and suspicion to 
one based on cooperation and trust, that will enhance opportunities for 
peace and progress for our citizens and for our people all around the 
world. Russia and America share the same threat and the same resolve.''
    As we transform our relationship, there are few better examples of 
our success than our cooperative nonproliferation programs with Russia. 
Here we have benefited from the support and leadership of the Secretary 
of Energy, Spencer Abraham. No one has been more energetic and 
dedicated than Secretary Abraham in putting into action the President's 
vision. He has established a strong partnership with his counterpart, 
Russia's Minister of Atomic Energy Alexander Rumyantsev. Shortly after 
the Crawford summit, the Secretary and Minister Rumyantsev agreed to 
accelerate our material protection efforts in Russia, to work together 
to foster international cooperation in protecting nuclear material and 
to enhance the international nuclear weapons nonproliferation regime, 
and establish a process to ensure that their subordinates followed up 
on their decisions.
    As a result of the Secretary's efforts, our Material Protection, 
Control, and Accounting (MPC&A) program has been accelerated, and we're 
enjoying unprecedented access in Russia--better than we've ever 
experienced. The Department has also been in the forefront of 
international efforts to improve the physical protection of nuclear 
materials. Since September 11, the Secretary has addressed the 
International Atomic Energy Agency twice--including an unprecedented 
appearance before the IAEA's Board of Governors. We are fortunate to 
have the strong support of both the Secretary and NNSA Administrator 
General Gordon.
    So I feel confident about where our relationship with Russia is 
headed. But President Bush had it right: Even with the collapse of the 
Soviet empire, the United States is hardly ``out of the woods.'' We 
need to be concerned about the new threats our country faces--nations 
acquiring nuclear weapons technologies, as well as terrorist networks 
and entities that will apparently stop at nothing in their pursuit of 
WMD. These are threats that are immediate and, in many ways, more 
dangerous than what the United States experienced in the past. The 
terrorists with whom we are at war do not appear to perceive the same 
constraints that Russia demonstrated during the Cold War. Their wanton 
disregard for the value of human life has been amply demonstrated. They 
are prepared, in fact determined, to use the most destructive weapons 
available to them--deterrence is not yet a word in their vocabularies.
    The events of September 11 have given this discussion a very real 
and immediate meaning. As the NNSA develops and implements its non-
proliferation activities, we've also had to think hard about how 
counterterrorism activities are integrated into what we do. In some 
ways, there are strong correlations; in other ways, the linkages are 
not as immediately clear, but there nonetheless.
    The problem that we confront--at the heart of the relationship 
between our nonproliferation and counter-terrorism concerns, is two-
sided--it has a supply and demand side component. There are now any 
number of actors--so called ``rogue'' states, as well as terrorist 
organizations--that are seeking somehow to attain WMD capabilities and 
expertise. The international community sees a crisis in the fact that 
accelerated measures are needed to improve the physical protection of 
nuclear materials worldwide, to improve control and accounting over 
this material, and to strengthen export controls and prevent illegal 
trafficking and handling of nuclear materials. But these rogue actors 
view this crisis as an opportunity.
    In Russia and elsewhere, enormous strides have been made in 
securing this material. But the fact remains that the theft of only a 
few kilograms of HEU or plutonium, the deadly ingredients needed to 
fashion a nuclear device, would be enough for a weapon. This under-
secured material--the supply side of the problem--is just too tempting 
a potential target of opportunity for those who would seek to use it 
against the civilized world. Indeed, the IAEA reports that in the last 
decade alone, there have been almost 200 attempts to illicitly acquire 
such material, and that's just the known cases.
    So these are the risks that our programs are trying to address. The 
prospect that weapon-usable material could be stolen or sold to 
terrorists or hostile nation states, and used against American citizens 
is a clear and present danger that cannot be underestimated.
    NNSA is working hard to reduce this threat. Our programs are key 
elements to U.S. efforts to reduce terrorist threats, while denying 
opportunities for rogue actors to acquire materials that can make WMD. 
These programs are designed to detect the proliferation of WMD 
worldwide; prevent the spread of WMD material, technology, and 
expertise; and reverse the proliferation of WMD, while at the same time 
improving nuclear safety and security worldwide. We pursue these 
objectives through technology research and development; promotion of 
international nonproliferation and security objectives and nuclear 
safety; and our non-proliferation programs with Russia.
    Before I turn to specific details, let me make one overriding 
point. There was concern on the part of some last year that the 
administration was not committed to non-proliferation. I believe that 
critics confused prudent review of programs with lack of interest. In 
any event, the budget before you--which is 36 percent above the last 
budget of the previous administration--should resolve any lingering 
doubts of the seriousness with which we are approaching these important 
issues.
                  technology research and development
    NNSA nonproliferation and verification research and development 
initiatives advance the U.S. ability to detect proliferation, monitor 
for nuclear explosions, develop biological and chemical response 
technologies, and conduct demonstrations that will help find the means 
to detect potential threats to national security more quickly.
    As this description indicates, the charter for our R&D work goes 
beyond nuclear nonproliferation and includes important work in areas 
such as biological and chemical detection. Over the past year, for 
example, NNSA deployed a prototype biological agent detection system 
used at the Winter Olympics, demonstrated a prototype chemical agent 
detection and response system in the Washington Metro, began to operate 
a new generation of nuclear detonation detection sensors on GPS 
satellites, and continued to demonstrate highly accurate thermometry 
from space, with the DOE Multispectral Thermal Imager satellite that 
was launched in March 2000.
    Looking ahead, our research and development programs will emphasize 
efforts that will produce direct near-term applications that can be 
fielded in 2 years or less. Our request of $283,407,000 will allow us 
to advance our efforts to develop and test technologies for detecting 
terrorist and proliferation activities involving WMD and transition 
those capabilities to responsible user agencies; perform increased DNA 
sequencing and assay development for an increased number of biological 
agents, and develop the concomitant detection capabilities, improve 
existing detection capabilities and response times for a wide range of 
chemical threat agents; and improve the sensitivities of nuclear 
explosion monitoring capabilities.
         international nonproliferation programs: a fresh look
    As you likely know, the administration recently completed a 
comprehensive and detailed review of its nuclear nonproliferation 
programs with Russia. This review was exhaustive and took some months 
to complete. We felt it important to take the time necessary to do it 
right, and to ensure that these programs were thoroughly considered for 
their continued usefulness and viability.
    I could not be more pleased with the outcome of that review, which 
reaffirmed the fundamental importance of our programs and concluded 
that most U.S. programs to assist Russia work well, are focused on 
priority tasks, and are well managed. The review recommended expansion 
of some programs, adjustment of others, and in some cases, 
consolidation. We are actively engaged in implementing the 
recommendations of that review.
    The International Nuclear Materials Protection and Cooperation 
program is already a success story and gives us much to build upon. The 
program provides high payoff, low-tech solutions to the pressing 
problem of under-secured nuclear materials in Russia. Security upgrades 
have been completed or are underway on about a third of the estimated 
600 metric tons of Russia's weapons-usable material; hundreds of trucks 
and railcars have been made more secure through hardening and other 
measures; steps are being taken to consolidate nuclear material at 
fewer locations, reducing its vulnerability to theft or sabotage; and 
our experts are working with their Russian counterparts to more 
effectively respond to any terrorist threat.
    With full funding of our request, NNSA will complete this program 
by 2008--2 years ahead of schedule. NNSA will work to accelerate the 
rapid and comprehensive security upgrades on at-risk plutonium, highly 
enriched uranium, and naval nuclear weapons at over 40 Russian Navy 
sites. This is real threat reduction.
    We are planning to complete the transition of the Material 
Consolidation and Conversion Pilot Project to a full-scale program. 
Under that program, which has already converted 1.2 metric tons of HEU 
to low-enriched uranium (LEU), we hope in fiscal year 2003 to eliminate 
an additional 2.9 metric tons of HEU the same way. We will also work to 
harden an additional 70 trucks and 9 railcars, in order to reduce their 
vulnerability to attack or sabotage.
    In related efforts, NNSA will accelerate the Second Line of Defense 
program, installing radiation detection equipment at 21 additional 
strategic transit and border sites in Russia, Ukraine, and Kazakhstan.
    The fiscal year 2003 budget requests $39.3 million to fund NNSA 
programs to prevent the adverse migration of WMD expertise from the 
former Soviet Republics. The Nuclear Cities Initiative has been 
refocused and consolidated with its highly successful sister program, 
the Initiatives for Proliferation Prevention, under a new program 
called Russian Transition Initiatives. The two programs share a common 
senior manager, and both now focus on projects with commercial 
applications. Last year, IPP successfully garnered an additional $56 
million in private investment funding to further augment its technology 
commercialization efforts. No other nonproliferation program in the 
U.S. Government has been as successful attracting private equity funds 
to help commercialize its own efforts.
    By finding commercial, peaceful employment for former Russian 
weapons scientists, we not only create commercial opportunities for 
U.S. industry, but we also dramatically reduce the talent pool 
available to those states that would employ those individuals for their 
own evil ends.
    These scientists are involved in any number of programs that will 
play a big role in how we address today's threats. Needle-free injector 
systems for mass inoculations; light-weight radiation detectors to 
detect smuggling of nuclear materials; and other innovative projects 
will have direct relevance to our counter-terrorism efforts--what a 
tremendous resource to have on our side, as we seek innovative 
solutions to the threats that confront us today.
    NCI also had a highly successful year. It negotiated a written 
commitment from the Russian Ministry of Atomic Energy (MinAtom) to end 
nuclear weapons work at the Avangard plant by the end of 2003, and 
successfully negotiated and signed an access arrangement with MinAtom 
to regulate the terms of access to closed nuclear cities. This 
arrangement should provide a significant impetus to NCI efforts. 
Indeed, it is fair to say that NNSA is in its strongest position it has 
ever enjoyed, with respect to the access we stand to gain and our 
ability to facilitate the downsizing of Russia's nuclear complex.
    As part of its review, the administration has decided to transfer 
from the Department of Defense to the Department of Energy 
responsibility for the elimination of weapons-grade plutonium 
production in Russia. This will lead to the eventual shutdown of 
reactors in Russia that are still producing plutonium, and the 
provision of required heating and electricity for the local communities 
with fossil fuel plants. Beginning with the fiscal year 2003 request, 
DOE will assume responsibility for obtaining the required funding and 
for accomplishing this important nonproliferation objective by the end 
of 2007. We believe it is important to move forward with this, through 
the transfer and use of the DOD unobligated prior year balances in the 
amount of $74 million. We will need legislative help on this, as well 
as with removing restrictions against the use of this money for the 
construction of the fossil fuel plants.
    Our Nonproliferation and International Security request of $93 
million is essential to help attack the demand as well as the supply 
side of the proliferation problem. This includes our efforts to address 
under-secured nuclear materials worldwide, provide opportunities for 
regional security programs that may help to reduce proliferation 
incentives, support the International Atomic Energy Agency, and 
strengthen international nonproliferation problems. It will support 
NNSA efforts to develop capabilities to help monitor warhead 
dismantlement efforts in Russia, and develop lab-to-lab contacts with 
Russia to support U.S. counter-terrorism efforts. This budget funds 
efforts to accelerate work with known and emerging nuclear suppliers to 
control the export of dual-use and nuclear technologies, and to provide 
support for work to improve foreign regulatory, legal, and industrial-
level export control systems.
    The fiscal year 2003 request would fully fund the program to 
dispose of surplus U.S. weapons-grade plutonium through the irradiation 
of mixed oxide (MOX) fuel in commercial nuclear reactors. This reflects 
an important decision of the Bush administration: After considerable 
study, we have reaffirmed our commitment to dispose of 34 metric tons 
of U.S. surplus weapons-grade plutonium, while an equal amount is 
disposed of in Russia. The United States will turn this material into 
MOX fuel for use in commercial nuclear reactors.
    Some challenged this program because of the cost of U.S. disposal. 
By revising our plans to focus excusively on MOX (thus dropping the 
companion immobilization program proposed by the previous 
administration), we've scaled back the cost for U.S. disposal to $3.8 
billion over 20 years, a savings of almost $2 billion over the life of 
the program. We've also reduced peak year funding, accelerated the 
completion of the program by 3 years, and reduced technical risk. The 
United States is also working with other countries to provide 
assistance to Russia in meeting its obligations.
    As a result of these efforts, Russia will eliminate enough 
plutonium to make over 4,200 nuclear weapons. We are working closely 
with Russia to improve the efficiency of Russia's program, and we are 
working with our allies to secure adequate international support.
                               conclusion
    It's now impossible to separate nonproliferation and counter-
terrorism concerns, and I hope it is clear from my comments today that 
NNSA understands how the threat has evolved, and is taking proactive 
steps to address it.
    With the end of the Cold War, all Americans have had to re-think 
their concepts of security--including nuclear security. For me 
personally, I have come to the conclusion that security from 
proliferation and terrorist threat is only attainable if we attack the 
problem on many fronts, from many directions. The U.S. needs to cut off 
the supply of dangerous materials, as our programs to improve the 
security of weapons-usable material in Russia seek to do. We have to 
reduce the demand, by reducing the motivation for proliferation and 
squashing the power centers of those that would want to harm us. We 
have to make it more difficult for these materials to leave Rusia and 
other places by tightening international borders, and we have to 
tighten our own borders, as our programs carried out in conjunction 
with the Coast Guard seek to do.
    This is a multi-faceted task, and it's not one that will be 
completed overnight. It will take a long, sustained effort. That's why 
I'm so honored to be in my current position, where I have the 
opportunity under General Gordon to help make progress on all these 
fronts. It will be difficult, but I have no doubt that we have the will 
and the determination to get the job done.
    I hope I've given you a broad sense of our budget priorities, and I 
look forward to working with you over the coming year to advance our 
common interest in reducing proliferation threats.
    I'll be happy to take your questions.

    Senator Landrieu. Thank you very much.
    We have been joined by Senator Carnahan. We have given 
brief opening statements, but if you would like to submit an 
opening statement, Senator, or make any remarks at this time, 
please go ahead.
    Senator Carnahan. I have a brief opening statement, if that 
is all right. Thank you, Madam Chairman.
    I also want to welcome this distinguished panel today. I am 
looking forward to hearing the witnesses' testimony and their 
answers to questions on the Cooperative Threat Reduction 
program, as well as the Department of Energy's nonproliferation 
programs.
    The newspapers in recent days have been filled with 
troubling stories about the deployment of nuclear detection 
devices and the existence of a shadow government to take over 
should a nuclear attack cripple our capital city. The nuclear 
threat is very real and we need to address this issue on as 
many fronts as possible.
    Our nonproliferation programs are, as former Defense 
Secretary William Perry said, ``defense by other means,'' and 
for the amount we spend on them, we buy a lot of prevention. It 
is far more effective to destroy weapons on site than to deal 
with them once they have fallen into the hands of the enemy. It 
is far more effective to provide security for nuclear materials 
across the globe than to try and detect this material when 
terrorists attempt to smuggle it across our borders.
    Our threat reduction programs generally enjoy bipartisan 
support, but there are some detractors who believe these 
programs are needless foreign aid. They are not. The programs 
are essential to our national security.
    The questions before this subcommittee are how much of our 
defense budget should be dedicated to these programs and should 
the programs be expanded to address the new threats facing our 
Nation.
    Madam Chairman, failure is not an option. We want the 
history books 20 years from now to say that we did everything 
in our power to prevent terrorists from gaining access to 
nuclear or radiological devices. We do not want them bemoaning 
the road not taken.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you, Senator. I appreciate your 
efforts on this subcommittee.
    We are going to have a round of questions of 6 minutes and, 
if we have time, come back for a second round.
    Let me begin by asking a question about border control. 
Both of you mentioned this in your opening statements, and in 
this budget before us, DOE has worked with Russia now for many 
years to install, as you mentioned, sophisticated, rugged 
radiation detection devices. In this budget, DOD has proposed 
to use as much as $80 million for a similar program. Have you 
two discussed these programs? Is something being done jointly 
on similar technologies or some coordination of these efforts, 
or is that necessary? If so, why? If not, why not?
    Dr. Crouch. I would just say that the answer is yes. There 
is a very effective, I think, interagency process that looks at 
all of these initiatives. I work very closely with Ambassador 
Brooks on these issues, as well as with colleagues at the State 
Department and the National Security Council staff. So, all of 
our new initiatives, as well as their new initiatives, have 
been vetted from an interagency standpoint, and we plan to make 
sure that we are not duplicating efforts. I know that one of 
the things the subcommittee is concerned about, and certainly 
that I am concerned about as somebody who works for the 
taxpayer, is that we do not do that. So, that is uppermost in 
our minds. But we do think that there are additional 
opportunities for promoting border security in these areas, and 
that is why we thought it was an area on which the Department 
would be able to help.
    Senator Landrieu. Ambassador?
    Ambassador Brooks. I agree with Dr. Crouch.
    We coordinate closely. To ensure that continued 
coordination, I have recently assigned a member of the Senior 
Executive Service full-time to work for the Director of the 
Defense Threat Reduction Agency (DTRA), who implements many of 
the defense programs to make sure that we are coordinated at 
the working level and the implementation level. We operate 
under a division of labor approach. My programs are technology 
detection programs. Dr. Crouch spoke also of training. We are 
also in different countries. His program is in several 
countries that I am not. Our efforts in the coming years are 
concentrated in Russia, Ukraine, and Kazakhstan.
    Senator Landrieu. I appreciate that. I think this 
cooperation is very important not only because I do think it is 
critical that we save money where we can but also so that we 
can spend it in places where we really need it. The cooperation 
I think is important, and I appreciate your statement.
    Let me ask this. Since there are always better ways to 
manage and better ways to restructure all of our work, could 
you both mention just briefly what are some of the roadblocks, 
either large or small, that you have seen in implementing some 
of the programs under your jurisdiction as effectively and as 
efficiently as you would like? Do any come to your minds, 
either large or small?
    I will give you an example of a small one. We understand 
the process of processing travel requests in a timely manner 
through the State Department is a real problem in terms of some 
of the programs that we are trying to implement for scientists 
moving backwards and forwards. That would be an example of a 
roadblock. Do any others come to mind, large or small?
    Ambassador Brooks. First, let me address specifically the 
question you mentioned about travel. If you recall, the Baker-
Cutler report, which was a review of the Department of Energy 
programs issued about 13 months ago, explicitly looked at that 
area and found that there were weaknesses. We have done a 
number of things to improve that process.
    First of all, when I was confirmed, there was in progress 
an ongoing review of working arrangements between the 
Department of State, Department of Energy, and the Moscow 
embassy. We reviewed and implemented the results of that 
review.
    Second, I have assigned an experienced nonproliferation 
officer to the cognizant bureau in the Department of State 
full-time, working on a variety of issues to improve our 
coordination but also ensuring that travel issues are promptly 
processed.
    Third, I have assigned my deputy to work with the 
Department of State to make sure that we do not have policy 
differences. These mostly come about because of some tension 
between our wanting to send enough people to get the job done 
and the Moscow embassy not wanting to overload the system. 
Since that assignment a few months ago, there has been in my 
view a complete improvement.
    Fourth, we have established an office of international 
operations reporting directly to my deputy that, among other 
things, manages travel for all of my programs and is intended 
to centralize and speed up the program.
    Finally, I conducted a review of travel procedures which is 
going to result within the next few days in some mandated 
simplification to our DOE procedures. Most of this will not 
actually happen now. It will just go to cumbersome bureaucracy, 
but cumbersome bureaucracy turns into a speed issue. So, I 
think that particular problem we have recognized and I am 
reasonably pleased we have attacked it.
    With regard to other obstacles, there is a growing 
authority in Russia from the security services. A growing power 
and influence on the part of the Russian security services, the 
Federal Security Bureau (FSB) in particular.
    What this means is that access that used to be easy is more 
difficult than it was 2 or 3 years ago. That's the reason why 
the access agreement we signed in September on material 
protection and the access arrangement was signed last month on 
nuclear cities are so important to us because we now need that 
to allow those in Russia who want to work with us to satisfy 
the requirements of their security bureaucracy. That is also 
why Secretary Abraham made such a point in his meeting with the 
Russian Minister of Atomic Energy to reach an agreement that 
they personally would hold their subordinates accountable for 
removing obstacles. I cannot speak for the Minister of Atomic 
Energy, but it is very clear to me that the Secretary is 
serious about that.
    Senator Landrieu. Thank you. My time is expired.
    Dr. Crouch. It sounds to me like Ambassador Brooks has 
spent more time on the travel issue than I have.
    Ambassador Brooks. I needed to.
    Dr. Crouch. We have not experienced, I do not think, the 
same level of difficulty in that particular area, so I do not 
really have a lot to say on that particular issue.
    I would underscore one thing, that this is a cooperative 
threat reduction program, and that means that we have to 
cooperate with the countries that we are dealing with. In some 
cases--he mentioned the issue of the increasing power of the 
FSB--we have to negotiate, in many ways, our way to get access 
to particular things. In Russia, this continues to be a problem 
and it is something that we bring up at high levels with the 
Russians when we meet with them, pushing transparency not just 
in this program, but across the board. So, this continues to be 
an obstacle, particularly in Russia, and we are trying to get 
them to come around to seeing the benefits of giving us the 
kind of transparency and access that we need to be really 
accountable to you and to the taxpayer for the expenditure of 
these funds.
    Senator Landrieu. Thank you.
    Senator Roberts.
    Senator Roberts. Yes, thank you, Madam Chairman.
    I have an overarching question for both of you that I think 
has keen implications for our national security, and prior to 
asking it, I want to underscore again my very strong support 
for the CTR programs, working closely with Senator Lugar and 
having personal visits with Senator Nunn. It is a special 
program. It is a unique program that has very unique standing 
now.
    We have worked hard in this subcommittee and in a 
bipartisan way to obtain the Russian commitments that you have 
just outlined. I think that they have come a long way in good 
faith, or at least the participants, in regards to the program, 
although I am troubled to some extent, Ambassador Brooks, about 
the influence of the security departments over in Russia or the 
security forces. We have worked hard for international support. 
We have worked hard for transparency. We have worked hard for 
access. We have worked hard for cost-benefit criteria that make 
sense. We have worked hard to make sure that the actual dollars 
go to the programs in Russia as opposed to agencies in the 
United States simply for planning purposes, although some of 
that is needed. So, I am a very strong supporter of these 
programs. As a matter of fact, I can report that since we have 
the broad jurisdiction, Madam Chairman, there are usually five 
or six from the House side that would be expressing some 
reservations, and we were able over several years to answer 
those concerns.
    Now, for my questions to both of you. What level of effort 
is your office undertaking to ensure that any money that is 
provided to Russia is not diverted to the Russian modernization 
of its military capability? With what degree of confidence can 
you assure us that no U.S. money provided under the CTR program 
is being used for Russian military modernization, and further, 
what would be required to state with confidence that no 
diversion is actually occurring? Feel free, either one of you, 
to respond.
    Dr. Crouch. That is a very serious question, Senator. I 
think it is certainly a question that we think about in the 
Department of Defense all the time when we look at these 
programs. I think there are, first of all, two different ways 
of looking at it. Is money directly going or is money 
indirectly going? I am going to assume that your main concern 
is the direct funding.
    Obviously, money is fungible. For example, if we were to 
cut up a submarine under the CTR program that the Russians 
would be required under START I to cut up, there is no doubt 
that we are saving the Russian federal budget money when we do 
that. Now, we believe that that is in our interest to do that, 
and so we have supported doing that.
    But I think a more serious issue is direct funding, and it 
is one of the things that we look at very closely when we look 
at programs, whether or not, for example, in the biotech area, 
could we possibly be indirectly funding biotech research. I 
mentioned in my prepared statement that not only do we have the 
National Academy of Sciences and the USAMRIID, as well as the 
intelligence community, look at those projects individually, on 
all future projects we are now having our export control people 
monitor those, as well as we are looking at them from a 
counterproliferation standpoint. What might be learned, for 
example, that we would not want learned about our own 
counterproliferation capabilities?
    In terms of assurances, I think it would be very difficult 
to assure you, the way I think your question was phrased, that 
no money is going for modernization. I do not know that I would 
ever be able to assure you of that. But I think that the way we 
have reorganized the office, the way we are paying attention to 
this potential, I think we have a pretty high confidence that 
there is little or no money for modernization. In fact, one of 
the things that is exceptional about the CTR program is the 
fact that we focus on specific projects. We are not providing 
money per se most of the time. We have a very strict auditing 
process. There are a lot of Americans involved in that process. 
So, we have a pretty good idea across the board that the things 
that we want to spend that money on, the money is actually 
being spent on.
    Ambassador Brooks. We have a comparable philosophy. We 
focus project by project. For each project, we conduct an 
internal review that involves the intelligence community to 
make sure that we are not providing improvements in military 
capability. We have turned down things where we have judged a 
possible military benefit--improved communications systems, for 
example, where you can see a benefit for safety and security, 
but you can also see a benefit for military readiness, and we 
have chosen to turn them down.
    In general, most of what we fund in terms of protection, I 
am not sure the Russians would fund. So, it is not quite the 
same situation as with the things they are obligated to do 
under START, but still the dollars that we spend are fungible. 
So, in that sense, any help has some benefit to them.
    We use a contract system which involves, among other 
things, not paying until the work is done and verified by U.S. 
personnel so that we are reasonably confident that we are 
getting what we pay for, and we involve U.S. personnel both in 
the design and the oversight of the work, although the work 
itself is mostly done in Russia by Russians.
    So, I think that that combination gives us reasonable 
assurance that the bulk of the money is going where we want it 
to and it is improving material protection. But like Dr. 
Crouch, 100 percent assurance of anything in Russia I think is 
not feasible--I cannot tell you that there is not a dollar that 
went in the wrong place. I can tell you there are not a lot of 
dollars that went in the wrong place.
    Senator Roberts. Madam Chairman, my time is expired. I do 
hope we have an opportunity for a second round, as I have some 
additional questions. Thank you.
    Senator Landrieu. We will.
    Senator Carnahan.
    Senator Carnahan. Ambassador Brooks, it is hard to imagine 
how the tragedy of September 11 could have been any worse, but 
at the same time many of us have wondered what the devastation 
would have been like had the terrorists used nuclear or 
biological weapons, if they had had these on the hijacked plane 
that crashed that day.
    Since that time, greater attention has been focused on 
terrorist access to weapons of mass destruction. What has your 
agency done differently since September 11 and have you 
developed additional programs that seek to address these new 
threats?
    Ambassador Brooks. In most cases what September 11 did for 
us, Senator, was give us a renewed sense of urgency. We were 
seeking to prevent materials and weapons from coming into the 
control of people we do not want to have control of them and 
whether those people are terrorists or rogue states does not 
much matter to the gate and the security system.
    Specifically, however, we have placed more emphasis on 
chemical and biological detection research. I mentioned that we 
have an experimental biological detection system called BASIS 
that was deployed at the Winter Olympics.
    We are also proposing in this budget to look at whether or 
not there is something we can do in Russia to secure 
radiological devices and things like radiographic sources. 
Those are things that are useful in making so-called 
radiological weapons which are interesting weapons to 
terrorists but not particularly interesting weapons to rogue 
states. We are suggesting spending about $15 million on it in 
2003.
    But I think that the real difference after September 11 is 
a renewed sense of urgency about the protection programs.
    Senator Carnahan. Our nonproliferation programs have a 
remarkable record in curbing the spread of nuclear material 
throughout the world. Recently, the Energy Department 
instituted upgrades to its security programs in Russia, helping 
to install gates and train guards and to board up facility 
windows. These upgrades were relatively low-cost initiatives, 
but I believe they are essential for enhancing security at 
former Soviet nuclear facilities.
    Would you describe these upgrades and explain their 
importance to the subcommittee?
    Ambassador Brooks. Certainly, Senator. We use a two-phase 
system in the work that we do. There is a division of labor 
between the Department of Energy and the Department of Defense. 
I do materials in the custody of the Ministry of Atomic Energy 
and I do weapons and unused fuel in the custody of the Russian 
navy, and the Department of Defense does the national strategic 
sites.
    We use an approach that starts with so-called rapid 
upgrades. Those are things that improve doors, improve tamper 
seals, relatively quick efforts. We have completed, for 
example, of the 53 Navy sites, rapid upgrades on 48 of them. We 
will complete four more this year and the final one next year.
    Then we move to much more expensive, several-million-
dollars-a-site, comprehensive upgrades. This uses more 
technology, and focuses on more sophisticated material 
controls. There we have only completed about a third of the 
sites and we will be completing more in the coming years.
    The emphasis here, however, continues to be on technology 
that is supportable locally. That is why we sometimes refer to 
this as a low-tech solution because ultimately the maintenance 
of this is a Russian responsibility and we need to make sure 
that we are not just putting in technology that can only be 
supported in the United States.
    Senator Carnahan. One final question, Mr. Ambassador. As 
you stated in your testimony, our nonproliferation programs 
have been quite successful in Russia and the Former Soviet 
Union, and these upgrades are simple and they are low-cost and 
low-tech. Are there ways to expand these efforts in a 
cooperative manner to other countries in the world that have 
nuclear facilities?
    Ambassador Brooks. Senator, we already do comparable 
efforts in some other countries. For example, in the former 
Soviet republics, we already worry about protection of unused 
reactor fuel or spent fuel that might be suitable for 
reprocessing.
    With regard to broader efforts, the most obvious question 
is the question of the Indian subcontinent, but once again, you 
will note, as Dr. Crouch said, we speak of cooperative 
programs. Although I think the Secretary of State has publicly 
said that we would be happy to assist if there were something 
for us to do, thus far those governments have not chosen to ask 
for assistance.
    Senator Carnahan. Thank you very much.
    Senator Landrieu. Thank you.
    Let me begin the second round with a question about Voz 
Island, which is, you may be aware, in the Aral Sea. It is 
partly controlled by Uzbekistan and Kazakhstan. The island was 
a Soviet open-air biological weapons test site. At one time 
about 800 people lived and worked and tested weapons there. 
With the collapse of the Soviet Union, this island was 
mothballed. We know that the Soviet Union used it to dispose of 
the anthrax virus, and we also know that we have been asked by 
the Government of Uzbekistan to help resolve the future of this 
island.
    Dr. Crouch, do you have any comments about our status on 
that project? Is it something that you think is important? Have 
we been asked to lead any research in terms of the disease in 
the surrounding population or the current dangers associated 
not just with their population, of course, which is one point, 
but the materials that are still there and located on that 
island?
    Dr. Crouch. At this point we are still examining 
specifically what we are going to do at Voz Island. At the 
request of the Government of Kazakhstan, we have already 
removed the containment and production equipment in the 
production and support buildings, and those have been 
destroyed. Currently we are negotiating a contract to dismantle 
the buildings there. The mutual U.S. Government and Government 
of Kazakhstan goal is to basically greenfield the area occupied 
by this production complex.
    As you, I think, alluded to, there is also a lot of other 
material around there, and we are currently in the process of 
looking at that. We have done some studies to see what, if 
anything, we might want to do in that area beyond the things we 
have already done.
    Senator Landrieu. Let me ask about the Nuclear Cities 
Initiative. I realize there has been a restructuring and this 
is just a small program overlaying our larger program. But 
could you clarify for the record, either one of you, how many 
cities are we specifically talking about? Are we confident of 
the list? You touched on it in your opening statement, but just 
a little bit more detail for the record in terms of the 
effectiveness of that program, how many cities, and just give 
us some more information, if you would.
    Ambassador Brooks. We have been concentrating our work on 
the City of Sarov and the Avangard plant there. In terms of an 
accurate listing of other cities, I wonder if I might submit 
that for the record just to make sure that I do not overlook 
something.
    [The information referred to follows:]

    There are 10 closed, nuclear cities under aegis of Russia's 
Ministry of Atomic Energy: Sarov (Arzamas-16); Snezhinsk (Chelyabinsk-
70); Zheleznogorsk (Krasnoyarks-26); Lesnoy (Sverdlovsk-45); 
Novoural'sk (Sverdlovsk-44); Ozersk (Chelyabinsk-65); Seversk (Tomsk-
7); Trekhgornyy (Zlatoust-36); Zarechnyy (Penza-19); and Zelenogorsk 
(Krasnoyarsk-45). We are confident of this list of 10 cities because 
the Russians have shared this information with us and it corresponds to 
what we have learned from other sources.
    We are currently working in only three of these cities: Snezhinsk, 
Zheleznogorsk, and Sarov. Our kidney dialysis project with Fresenius, 
which I will discuss in greater detail, is located in Sarov. In 
Snezhinsk our projects include, among others, an Open Computing Center; 
ITEC, which is a successful company that provides identification 
devices for a wide range of industrial facilities, including nuclear 
facilities, and supplies a broad range of security services; and an 
International Development Center. In Zheleznogorsk, our projects 
include, among others, a Software Development Center, Atomlink 
Telecommunications, which builds modern, business telecommunications 
infrastructure and which is developing an Internet service provider 
company in the city; and the development of a Technopark Business 
Incubator and Industrial Site.

    Ambassador Brooks. With regard to the effectiveness of the 
program, we have some examples of good success. The one that we 
have mentioned to this committee before is the production of 
kidney dialysis equipment through a partnership with a company 
called Fresenius. They will be visiting the Avangard Plant 
Technopark next week, I think.
    We have also seen some projects on commercialization of 
anti-terrorist equipment such as irradiation devices for 
screening material. We have seen an open software development 
center which we expect to employ about 100 people on a 
sustained basis.
    So, I think that we are beginning to see some very concrete 
successes. We have, as I alluded, made some changes to that 
program, putting a common manager in charge of Nuclear Cities 
and IPP, so that they can feed off of each other, and we have 
eliminated some of the community development efforts that were 
part of the program a couple of years ago so that we can focus 
really on things that are taking the technological 
sophistication of the Russian scientists.
    Dr. Crouch. Senator, if I may say that I think I gave you a 
full and complete answer to the wrong question. I was talking 
about Stepnogorsk instead of Voz Island when I gave you that 
information.
    Basically the end of my answer is correct, which is that we 
are still doing environmental reviews and other things to look 
at what we might do at Voz Island. The description I gave you 
was for what we have done at Stepnogorsk which is another BW 
production facility.
    Senator Landrieu. I appreciate your clarifying that because 
it is a very important issue and one of the larger sites that 
we would like to stay focused on.
    Let me just ask about our storage sites, and you have 
touched on this. We expanded our work to upgrade the security 
of the storage sites. Are there efforts underway to consolidate 
these storage sites under the CTR program and what is being 
done along those lines? Consolidation of the storage sites, if 
there is any information, nuclear weapons storage sites.
    Dr. Crouch. I am going to have to take that one for the 
record. I am not sure.
    [The information referred to follows:]

    The Department of Defense, through the CTR program, is working 
closely with the Russian Federation (RF) to help consolidate nuclear 
weapons storage sites. Under applicable international agreements, we 
are working with the RF Strategic Rocket Forces (SRF) to eliminate 
strategic offensive arms. Specifically, CTR is assisting the RF with 
the elimination of road-mobile, rail-mobile, and silo intercontinental 
ballistic missile (ICBM) launchers at the SRF bases and sea-launched 
ICBM launchers from RF Navy strategic Submarine bases, as well as with 
the transportation of nuclear warheads from the bases to consolidation 
sites, such as central storage sites, and dismantlement facilities.

    Senator Landrieu. If you would just give us an update so we 
can have this for our review. We had pushed for a consolidation 
of some of these sites, and just for the record, if you would 
submit that, that is fine.
    Ambassador Brooks. On the materials side but not the 
weapons side, we are seeing some consolidation. Most of it is 
in the sense of you have these very large sites and we are 
trying within those sites to consolidate material in a smaller 
number of buildings so you only have to protect a smaller area. 
But that effort is primarily on the fissionable materials side 
rather than on the warhead side.
    Senator Landrieu. Senator Roberts.
    Senator Roberts. Yes, thank you, Madam Chairman. You would 
actually think that we have been working together on this. I am 
going to back to the Stepnogorsk issue and Voz Island.
    I am glad for the clarification, Secretary Crouch, in 
regards to what you plan there with your continued study of the 
environmental situation.
    Staff who sits right behind me went to the Voz Island 
recently, and in that complex they have a dilapidated center. 
Nobody lives there. The sea is drying up. She was fascinated to 
find a copy of the American Journal of Veterinary Research 
simply lying around, along with several bottles. I had meant to 
bring two bottles to give to both of you that held either 
anthrax or tularemia or ebola or the plague. [Laughter.]
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Landrieu. But I would not allow him because we 
really want you all to stick around and help us on this 
problem, so I discouraged that. [Laughter.]
    Senator Roberts. We got some soap and a toothbrush and some 
hydrogen peroxide and everything was going to be fine. Actually 
they were not the bottles that held this. They were bottles in 
storage, but it certainly indicated something that you want to 
look at in the description of the evil empire.
    But here is a book from the American Veterinary Medical 
Association with all sorts of studies in regards to sheep, 
cattle, pigs, poultry, cats, and beagles. You can only imagine 
the things that went on in regards to some of the research that 
was going on at Voz Island.
    Here is an advertisement for a product that would help the 
pork industry called Entrogen.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Roberts. I am not even sure that that is on the 
market now. But it is from Lenexa, Kansas, which is something 
to note.
    But if, in fact, this is simply a place where you have some 
dilapidated buildings and nobody lives there and the sea is 
drying up, other than conducting the environmental impact 
statement, why would we want to make it a greenfield?
    Dr. Crouch. The greenfield response was focused on 
Stepnogorsk.
    Senator Roberts. Deservedly so, there.
    Dr. Crouch. Yes. I do not think we have made a decision one 
way or another on that. Recently DOD and the Ministry of 
Defense of the Government of Uzbekistan signed an agreement 
under which we would provide some assistance to destroy 
equipment and structures at that complex. Beyond that, it may 
well be--again, we have not made any final determinations on 
this--that it is best to leave things the way they are and 
maybe establish better security as opposed to trying to raze 
what might be under those greenfields.
    Senator Roberts. That was the point I was going to make 
next. I think you pretty well answered that.
    Let me talk about your new CTR project for border control, 
and please, Ambassador Brooks, jump into this if you feel that 
you might offer some substance here, which I am sure you can.
    In the fiscal year 2003 budget request, the CTR program is 
initiating a new project whose objective is to provide WMD 
equipment and training to improve border control capabilities, 
along the lines that Senator Carnahan was talking about in 
regards to various detection devices. I think somebody in their 
testimony pointed out that other agencies are also involved in 
the border control projects, which is now getting a lot of 
press.
    My question to you is, if we have many agencies of the 
Federal government working to stop bioterrorism, how do we 
avoid any duplication and what about the efficacy of the 
equipment? Especially DOE, because I think, at least from what 
I have been able to understand, if you do not have the best, 
you are on the crest of the wave in regards to detection 
devices.
    Then in addition, if it is basically in regard to anything 
that would be nuclear, are you also going to attempt to provide 
equipment that addresses the chemical and biological smuggling 
as well? It is my understanding this detection is not as 
refined, but at least we know because of the threats or when we 
ask all the experts, ``what keeps you up at night,'' why 
obviously, they list those as well.
    So, to avoid duplication and to get better coordination and 
avoid the possibility of having five, six, or seven different 
devices out there, where are we on this?
    Ambassador Brooks. Let me address the nuclear part. First, 
my programs are, in this area, exclusively nuclear, although 
while we have done some research on external detection of 
chemical and biological work--for example, if you have two 
identically appearing shells, I can tell you which one has 
chemical and which one has high explosive in it. We have not 
thus far tried to put that kind of capability into the border 
work we are doing in the Russian Federation.
    With regard to biological weapons, I am unaware of any 
technology right now that is likely, without incredible 
intrusiveness, to keep people from walking through border 
checkpoints with vials in their pockets. There is technology 
that will detect this stuff, but I do not think it is anywhere 
near the stage where it can be deployed. So, let me just 
concentrate on the nuclear.
    You said one thing, Senator, and I need to make sure I did 
not give an improper impression. We are the high-tech 
department, but we are using the same philosophy with these 
border detection devices in Russia that I referred to on 
material protection. That is, we are not deploying the best 
thing that I could make at Los Alamos and keep functioning with 
Los Alamos scientists. We deploy the best thing that I can 
build with Russian equipment and keep functioning with Russians 
at remote locations.
    Senator Roberts. But the transferability on our own borders 
is what I am interested in. I know we need to have that 
capability over there and we are doing the best we can under 
that kind of a situation. But it is my understanding that 
Customs, DOD, State, DOE, and probably DEA have similar 
devices, similar programs.
    Ambassador Brooks. Oh, yes, sir. I am sorry. I 
misunderstood the question. We are working with Customs in at 
least two ways. We are working technologically to make sure 
that we make available to Customs the results of the work done 
at the national laboratories. One thing, for example, which we 
hope will be funded in the 2003 budget, is research on how you 
detect radioactive materials in crates without slowing down the 
processing in large ports where containers go through at a very 
great rate. For example, we are looking at a sensor that might 
be mounted on a crane so that, since you have to lift these 
things with cranes anyhow, at the same time you would be 
checking. So, we are sharing that knowledge with Customs.
    We also have an agreement with the Customs Office of Anti-
terrorism to share what we have learned in monitoring overseas 
as they increase their efforts in monitoring in the United 
States. We are going to do about six small training courses for 
a little over 100 of their field offices. So, we are very 
conscious of the importance of making sure that the information 
that we gain about protection abroad is shared with those 
responsible for protection here.
    Senator Roberts. My time has expired, but let me just 
summarize: The United States spends close to $90 million on 
assistance to combat any nuclear material smuggling in about 30 
countries, mainly in the Former Soviet Union and Central and 
Eastern Europe. Assistance includes the radiation detection 
equipment and the conventional inspection tools and training. 
Six agencies now provide assistance, and this was the basic 
question that I had and the concern that I had. The Department 
of Energy has installed radiation detection equipment in 
Russia, and that is what you are talking about, which is 
basically the second line of defense. The Department of State 
and Department of Defense provide radiation detection equipment 
to countries other than Russia. The U.S. Customs Service and 
the U.S. Coast Guard and the FBI provide other equipment and 
training for customs and border guard and law enforcement 
agencies.
    My concern is it seems to me what we learn in one part of 
the world, we obviously can share in other parts, and I am not 
too sure we need six agencies to do this. I am also of the 
opinion that we probably use different detection devices. I do 
not know, with the six agencies involved, who has the oversight 
responsibility to say this particular device works best. Now, 
it could well be that you could have two or three for certain 
missions, but six agencies and $90 million and maybe six 
different detection means--I am not sure about that. I think we 
need to get a better handle on that. That was basically what I 
was concerned about.
    Secretary Crouch, do you have any comments?
    Dr. Crouch. Number one, our interest in this border 
security goes beyond the detection devices. We are involved in 
training programs. One of the reasons we are involved in this 
program is that we have some special relationships with 
specific countries. In some cases, we are working directly with 
ministries of defense because those are the agencies that 
happen to be responsible in those countries as opposed to their 
customs agencies. So, we think we have to be a little bit more 
flexible in how we deal with specific countries based on a 
country-by-country basis.
    I do not know the answer to whether there are six different 
devices or six different technologies for radiological 
detection.
    Senator Roberts. Well, we will find that out here fairly 
quickly.
    Dr. Crouch. Our program is also looking at the smuggling of 
CW and BW as well and is trying to provide tools and training 
for people working those borders to be able to identify those 
problems.
    Senator Roberts. We are going to have a report in the not 
too distant future--I am not sure about the exact date--from 
the GAO on this question, and I thought if there was any 
advance information--I have a whole series of questions that I 
may submit for the record. I know that it is 4 o'clock.
    Senator Landrieu. We have a little bit more time. I would 
like to ask just a few questions to wrap up and perhaps Senator 
Roberts would have one or two more, and then the rest we could 
submit for the record.
    I want to say that I think that the Senator raises a really 
good point on detection devices. The same question could be 
asked on every single aspect of homeland defense. Now we have 
many agencies and many departments getting ready to expend and 
invest millions, if not billions, of dollars in this effort. 
Our success in strengthening our security in large measure is 
going to be about how careful we are about not duplicating our 
efforts. While we could never hope for a seamless situation 
because you have all these many different agencies looking at 
the various aspects, but I think our committee has a real 
opportunity, as well as a responsibility, to really focus on 
this coordination and minimizing duplication, therefore 
stretching that dollar and increasing our security.
    Let me ask a follow-up on a similar question that Senator 
Carnahan asked when she asked about your thoughts on the 
possible expansion of the cooperative threat reduction in a 
little different way. She asked about the possibilities for 
expansion into other countries or other geographic areas and 
you all have commented for the record.
    But is there a way, post September 11, that we could think 
even more smartly about expanding this program to not just 
minimize the risk of attack but to use this program to maximize 
our ability to respond should such an attack occur, in other 
words, focusing more on lifting the knowledge of these 
scientists wherever they are, not just to keep them from 
harming us, but to help us set up more strategic defenses?
    To me this is a real opportunity that maybe we are not 
taking as we should because we have a lot of people in the 
world, our allies and partners, who could help us. It would 
seem to me that it would be a wise thing for us to be more 
aggressive in taking that knowledge and helping us to stand up 
our defenses against biological, chemical, and other threats.
    Do you have anything to say along that line? Would you 
agree with that or not?
    Dr. Crouch. I absolutely agree with it. I think the 
President has been very clear. We cannot let this come to us. 
We cannot wait around for the WMD equivalent of September 11.
    I will give you two examples. One of the things that we are 
very focused on is the biological threat, not minimizing the 
nuclear threat, but we just think because of its dual-use, low-
tech nature, relatively speaking, it is a weapon of choice, if 
you will, for a bioterrorist. So, there are two things that we 
are doing now. I am sure that there are others that we can do.
    One is, I think, in the past we have focused on getting 
into facilities, tearing facilities down, that sort of thing. 
That is useful, but I think we need better and more access to 
scientists, and that is one of the things that we have 
increased money for in our budget. It is going to be hard 
because in some cases, particularly in Russia, getting access 
to those scientists who are involved in the defense programs is 
going to be a very difficult problem.
    The other thing I mentioned is the idea of setting up 
disease surveillance networks. There is a lot of data out 
there. One of the things the former Soviet countries were 
actually pretty good at was keeping records, not only on these 
kinds of things, but on their own people. So, consequently we 
can mine some of that data, try to set up databases and network 
those databases in a way where we may be able to identify 
problems or identify strains, for example, or particular 
problems very early, and that will help our first responders, 
our emergency response to some kind of bioterrorist incident.
    So, there is more we can do but I think that we are headed 
in that direction.
    Senator Landrieu. Not to make light of it, and I want to 
hear your comment in a minute, but when we had anthrax in the 
Hart building where I think both my office and Senator Robert's 
office are, I thought to myself we could have used some 
scientists that really understood this. While we had some on 
our side, we could have used some more expertise, given what we 
went through and the lack of definitive information given out 
over quite a long period of time. So, that is just an example 
of what I am talking about.
    Ambassador?
    Ambassador Brooks. Madam Chairman, I think you have asked 
for a mountain and I am going to describe a small hill. But we 
have a couple of things that we are doing that are directly in 
that area. We have established a mechanism between our research 
and development people to look at where there are things that 
we would like to know, and we are trying to get particularly 
under the Initiatives for Proliferation Prevention, where we go 
and commission projects from scientists to focus some of these 
on counterterrorism--the Russian Kurchatov Institute, for 
example--has come up with several interesting ideas, some of 
which may have benefit in the United States and the threat. So, 
we are trying to start that effort.
    We are also working jointly with our colleagues in the 
Department of Defense. There is a program called the Warhead 
Safety and Security Exchange which has a provision for doing 
collaborative efforts in counterterrorism. It is not under Dr. 
Crouch's part of the Department. It is shared between me and 
the technical side of DOD. We are looking to revitalize that 
effort once again because we share your assessment that there 
are a lot of smart people out there who we want to go think 
about something. They may as well think about things that will 
help us. But I think we are, at least in my Department, in the 
relatively early days of having that in a structured process, 
but we have started it in the last couple of months.
    Senator Landrieu. What was the name of that program for the 
record? I did not catch it.
    Ambassador Brooks. There are two. The Initiatives for 
Proliferation Prevention is the program that is under my 
control, and then the Warhead Safety and Security Exchange. We 
are just beginning to see some counterterrorism projects there.
    Senator Landrieu. I would really encourage you both along 
that line.
    I have one more question and then Senator Roberts has a few 
to wrap up. This is on our plutonium reactor shutdown program. 
It has been transferred from DOD to DOE. The program is 
designed to provide an alternative power source for the last 
three Russian plutonium producing reactors. There has been 
considerable opposition in the House on this program. Primarily 
these objections were to DOD carrying out the program. As a 
result, there have been a number of prohibitions and 
restrictions placed on the funds from previous years.
    Ambassador, can you give us an update? Have some of these 
objections been addressed? What should we do to move forward 
since this is an important project?
    Ambassador Brooks. I want to be very careful not to speak 
for the House. At the staff level, we have discussed this issue 
with the House. I hope that the House will be sympathetic to 
removing the restrictions. It is an important program. We have 
$74 million that has come to us from the Department of Defense. 
We need to be able to go forward with that funding.
    Senator Roberts. Where are you with that?
    Ambassador Brooks. Well, we just assumed responsibility for 
the program about 6 weeks ago. We are in the process of 
discussions with the Russians on exactly the mechanism for 
going forward. The agreement under which this work will be done 
is obsolete because it was written at a time when we were using 
a different technical solution. So, we are working with the 
Department of State and the Russians to modify that.
    Senator Roberts. But you are not having any trouble with 
the Department of Defense?
    Ambassador Brooks. Oh, no. The Department of Defense has 
been hugely cooperative. As I understand the restriction, it is 
on actually building things. So, nothing is slowing me down 
right now. Right now I am doing planning and integration. There 
will come a time when I am going to need to spend that money to 
actually build things, and we will be working with the staffs 
of the relevant committees to remove the existing restrictions.
    Senator Roberts. But in your statement you said you were 
requiring some legislative assistance. If, in fact, DOD is 
being a nice guy, like Secretary Crouch, are you talking about 
legislative assistance in working with the House then?
    Ambassador Brooks. Legislative assistance may have been a 
poor choice of words. I need whatever will let me spend this 
money without looking like I am thwarting the will of Congress.
    Senator Landrieu. But let me ask the question again then 
because may not understand I, and if Senator Roberts does, he 
could help me out here. The House objected to DOD building the 
plant, and so we transferred it to DOE?
    Ambassador Brooks. Yes, ma'am.
    Senator Landrieu. So, were there other objections we do not 
know about?
    Ambassador Brooks. Not that I am aware of.
    Senator Landrieu. So, it looks like we can go forward.
    Ambassador Brooks. Yes, Madam Chairman. But I do not intend 
to start out my association with Congress by taking Congress 
for granted, so I just need to make sure that there are no 
remaining issues. I did not mean in the statement to imply I 
thought this was a big problem, but I did want to make it clear 
that I think we need to move forward with this.
    Senator Landrieu. Well, I am going to send Senator Roberts 
over to the House.
    Senator Roberts. No. I think Senator Landrieu can do much 
better.
    Senator Landrieu. Senator Roberts does a good job over 
there.
    Senator Roberts. She has a much more positive attitude. She 
is not obstreperous.
    Senator Landrieu. No. Now, you see he thinks flattery will 
get him everywhere.
    Senator Roberts. She can handle Curt Weldon far better than 
I can. [Laughter.]
    Senator Landrieu. We will do that together.
    That ends my line of questioning. Is there something you 
have, Senator Roberts?
    Senator Roberts. Shchuch'ye and the conditions tied to that 
destruction project in the 2002 Defense Authorization Act, it 
had six conditions the Secretary must certify. Only two remain 
outstanding, basically that the Russians certify the complete 
destruction of their chemical stockpile, not just that, but all 
over, and that the Secretary could certify that. Can you give 
me any status report on that Secretary Crouch?
    Dr. Crouch. Obviously, the Department fully supports the 
President's December 2001 decision to accelerate the 
construction of the Shchuch'ye facility. At this point, the 
Secretary is not in a position to be able to certify all of 
those conditions. We are working through that. We are working 
with the Russians on it, and we will be getting back to you 
when we can. But at this point, he has not done so and we are 
not in a position to do so.
    Senator Roberts. Well, four out of six is not too bad. You 
can get back to us.
    Ambassador Brooks, one final question. You started off the 
hearing by saying that the only thing that has changed in some 
of your work is an increase in the involvement of the security 
folks over in Russia. That gets me back to the first question I 
asked you, which I am not going to repeat. Do you want to 
amplify on that a little bit?
    Ambassador Brooks. It is our impression--and I think this 
is a shared impression with our colleagues in the Department of 
Defense--that the Russian security services are more powerful 
in all aspects of Russian life. Where that spills over into my 
programs is a much greater interest in restrictions on access, 
a much greater tendency to have x days in advance notification.
    This incident is trivial, but it is an example. One of the 
things that we do is we monitor the blending down of HEU that 
is being sold to the U.S. Enrichment Corporation. We had to go 
and do a routine source change-out of an instrumentation 
source. We used the identical procedures that we used last year 
in requesting that visit, but this year the request was denied 
because security services wanted to see a technical analysis 
that it really took 10 days instead of, say, 8.
    So, what we are seeing is a greater willingness on the part 
of the Russian Federation to defer to the security services 
even when that means slowing down cooperation. I think that is 
a part of what I think most of us observe who watch Russia, a 
greater influence of security services in all aspects of 
Russian life.
    That does not invalidate the programs. That is just a fact 
that has to be managed. But you asked what are some of the 
problems and that is clearly a problem.
    Senator Roberts. Well, it is a paradox of enormous irony 
because they come to us with goodwill to try to meet the 
requirements that we thought were reasonable in regards to 
access and transparency, only to find out that we may be moving 
in the other direction. I hope that is not the case.
    Thank you, Madam Chairman.
    Senator Landrieu. Thank you.
    I would like to close with a quote from the same Time 
magazine article I quoted earlier: ``In the days after 
September 11, doomsday scenarios like a nuclear attack on 
Manhattan suddenly seemed plausible. But during the 6 months 
that followed, as the U.S. struck back and the anthrax scare 
petered out and the fires at Ground Zero finally died down, the 
national nightmare about another calamitous terrorist attack 
went away. The terrorists did not.'' The article goes on to say 
that the terrorists are real, they have expanded, they are in 
many countries. So our work is very important.
    I thank you for your testimony today and look forward to 
supporting your efforts.
    Dr. Crouch. Thank you, Madam Chairman.
    Ambassador Brooks. Thank you, Madam Chairman.
    Senator Landrieu. The hearing is adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                 future work with biological scientists
    1. Senator Landrieu. Dr. Crouch, for several years the CTR program 
has been providing funding to support research for biological weapons 
scientists in the Former Soviet Union. These projects have, for the 
most part, been small, and yet they serve their function in providing 
work to these scientists, many of whom are paid either very little or 
intermittently, and some are not paid at all. As the CTR program 
enlarges the scope of its biological work, and as we learn more about 
the biological weapons work of the Former Soviet Union, I would like to 
explore the possibility of expanding the scope of the cooperative 
research with these scientists, particularly those in Central Asia and 
the newly independent countries. In expanding the scope of the CTR 
program, can we also make this program more focused and more tailored 
to broader U.S. and world goals?
    Dr. Crouch. An important component of the CTR Biological Weapons 
Proliferation Prevention (BWPP) program engages scientists in 
cooperative biodefense research. This program is intended to increase 
transparency and encourage higher standards of conduct among biological 
scientists. We intend to expand research cooperation with the 
Ministries of Health in Kazakhstan, Uzbekistan, Georgia, and Ukraine to 
build infectious disease surveillance networks to enhance the ability 
of the United States and CTR eligible countries in Eurasia to detect, 
characterize, and monitor disease outbreaks with natural or 
bioterrorist origins. DOD and the National Academy of Sciences advisory 
committee will actively solicit and develop research projects tailored 
to this goal. With the deployment of U.S. forces to Central Asia, the 
need to monitor and diagnose infectious diseases endemic to this region 
is very important to the health of our forces.
    As we expand this program, we also will expand the scope of our 
peer review process and initial review of projects to ensure that 
vulnerability and technology security assessments are conducted to take 
into account counterterrorism concerns.

    2. Senator Landrieu. Dr. Crouch, what are your thoughts on 
developing a broad-based vaccine research program?
    Dr. Crouch. Vaccines, where available, represent the single most 
effective element of our defense against many natural diseases as well 
as those under intentional development by potential adversaries. Many 
areas of the Former Soviet Union are experiencing a devastating 
resurgence of infectious disease incidence, which not only drives down 
regional life expectancies, but also potentially affects the rest of 
the world through human and animal travel opportunities. Therefore, CTR 
initiatives that address the development of safe and effective vaccines 
against acute infectious diseases will serve to protect both the local 
populations as well as deployed U.S. forces. Finally, advances in 
vaccine development and production technology gained through CTR 
initiatives can also assist our domestic vaccine capabilities and 
directly enhance U.S. healthcare in general.

    3. Senator Landrieu. Dr. Crouch, are there any other opportunities 
to have a more organized approach to research?
    Dr. Crouch. I believe there are. We are currently developing a 
comprehensive strategic plan for the entire biological aspect of the 
CTR program.

    4. Senator Landrieu. Dr. Crouch, how can U.S. industry and 
universities partner with these scientists?
    Dr. Crouch. We are reviewing possibilities for such partnering as 
part of the development of our strategic plan.

                 joint counter-terror work with russia
    5. Senator Landrieu. Ambassador Brooks and Dr. Crouch, President 
Bush has indicated a desire to work with Russia in a cooperative and 
joint way to address terrorism. From your perspectives, what is being 
proposed for nonproliferation programs to carry out this goal?
    Ambassador Brooks. Technical cooperation under the U.S.-Russian 
Warhead Safety and Security Exchange Agreement has been underway with 
the Russian Ministry of Atomic Energy and Ministry of Defense for the 
past 7 years. Joint cooperation to address nuclear threats has always 
been a part of the Agreement, and interactions and technology 
development have focused predominantly on the safety, security, and 
transparency of nuclear warheads. After September 11, however, U.S. and 
Russian national laboratories re-engaged on the topic of nuclear 
threats and have now generated dozens of project proposals focused on 
counter-terrorism technology development. These technologies will be 
developed to help both U.S. and Russian security specialists detect, 
manage, and mitigate the consequences of terrorist attacks. Other joint 
counter-terrorism analysis and information sharing is also being 
considered. In addition, a variety of counter-terrorism projects are 
planned or underway as part of our Russian Transition Initiatives 
(which includes the Nuclear Cities Initiative and Initiatives for 
Proliferation Prevention programs).
    Dr. Crouch. The Department of Defense under the CTR program has 
been destroying, consolidating, and enhancing security for weapons of 
mass destruction and related materials to prevent them from falling 
into the hands of terrorists. The CTR programs in Russia specifically 
carrying out these efforts under applicable international agreements 
are as follows:

        <bullet> Strategic Offensive Arms Elimination,
        <bullet> Nuclear Weapons Storage Security,
        <bullet> Nuclear Weapons Transportation Security,
        <bullet> Chemical Weapons Destruction,
        <bullet> Biological Weapons Proliferation Prevention, and
        <bullet> Fissile Material Storage Facility (being completed 
        with prior year funds).

    6. Senator Landrieu. Ambassador Brooks and Dr. Crouch, is there 
anything in the fiscal year 2003 budget request to support this goal?
    Ambassador Brooks. We have requested a total of $24.5 million in 
the fiscal year 2003 budget to support counter-terrorism initiatives 
with Russia. Of this amount, the Office of International Material 
Protection and Cooperation has requested $16 million to begin to 
improve security on vulnerable international stockpiles of material 
that could be used as a dirty bomb. The other $8.5 million, requested 
by the Office of Nonproliferation and International Security, will 
accelerate joint counter-terrorism technology development under the 
Warhead Safety and Security Exchange Agreement. Additional funding 
would enhance and mature technical counter-terrorism cooperation. 
Additional counter-terrorism-related projects are being considered for 
funding under the Russian Transition Initiatives.
    Dr. Crouch. The budget request includes several CTR program areas 
that will provide assistance to Former Soviet Union states that will 
help prevent terrorists and others from gaining access to weapons of 
mass destruction, related materials and expertise:

        <bullet> $40 million for Nuclear Weapons Storage Security 
        (Russia),
        <bullet> $19.7 million for Nuclear Weapons Transportation 
        Security (Russia),
        <bullet> $133.6 million for Chemical Weapons Destruction 
        (Russia),
        <bullet> $9.0 million for Weapons of Mass Destruction 
        Infrastructure Elimination (Kazakhstan),
        <bullet> $55.0 million for Biological Weapons Proliferation 
        Prevention (FSU), and
        <bullet> $40 million Weapons of Mass Destruction Proliferation 
        Prevention (non-Russia FSU).

    7. Senator Landrieu. Ambassador Brooks and Dr. Crouch, how does 
this statement transition from rhetoric to programmatic application?
    Ambassador Brooks. In the area of joint U.S.-Russian counter-
terrorism technology development, we have already secured formal 
Russian agreement to pursue 3 important projects and have selected 10 
additional projects from the dozens proposed by Russian national 
laboratories to meeting our most urgent needs. During the next few 
months, we will finish scoping these projects and securing formal 
Russian agreement to pursue them through the Warhead Safety and 
Security Exchange Agreement. Fiscal year 2003 funding will ensure that 
these projects begin as soon as possible in October 2002.
    Dr. Crouch. Under applicable international agreements and through 
the CTR program, we expect to apply the requested fiscal year 2003 
funds in the following fashion to prevent terrorists from obtaining 
known weapons of mass destruction, and related materials, and 
expertise:

        <bullet> $40.0 million for Nuclear Weapons Storage Security 
        will provide comprehensive security upgrades at five to seven 
        Russian nuclear weapons storage sites and seek to increase the 
        effectiveness and reliability of Russian guard forces.
        <bullet> $19.7 million for Nuclear Weapons Transportation 
        Security will transport approximately 84 trainloads of 
        deactivated nuclear weapons to centralized storage or 
        dismantlement facilities, provide maintenance and certification 
        for nuclear weapons transport railcars, and provide security 
        support materials.
        <bullet> $126.6 million of the $133.6 million request for 
        Chemical Weapons Destruction will be used, once 
        congressionally-mandated conditions have been met, to begin 
        construction of a nerve agent chemical weapons destruction 
        facility at Shchuch'ye to eliminate the enormous Russian 
        stockpile there of nerve agent artillery warheads and missile 
        munitions.
        <bullet> $9.0 million for the Weapons of Mass Destruction 
        Infrastructure Elimination (Kazakhstan) program area will help 
        secure radioactive sources and fissile material, begin 
        elimination of the former chemical weapons production facility 
        at Pavlodar, and continue to eliminate nuclear weapons 
        infrastructure.
        <bullet> $55.0 million for Biological Weapons Proliferation 
        Prevention program will dismantle former Soviet BW research and 
        production facilities; consolidate and secure or eliminate 
        dangerous pathogen collections at biological research 
        facilities; and target collaborative research to encourage 
        higher standards of openness, ethics, and conduct at the 
        scientist level and preempt potential ``brain drain'' of 
        scientists to terrorists and rogue states.
        <bullet> $40.0 million for Weapons of Mass Destruction 
        Proliferation Prevention will provide equipment and training to 
        enhance the capability of non-Russian FSU states to deter, 
        detect, and interdict illicit trafficking in WMD and related 
        materials.

    Additionally, using previously budgeted funds, we expect to 
complete construction of the Fissile Material Storage Facility at Mayak 
by the end of calendar year 2002. This facility will be capable of 
securely and safely storing up to 50 metric tons of plutonium and 200 
metric tons of highly enriched uranium from nuclear weapons. We 
anticipate that Russia will begin loading this facility in early 2003.
    We also are implementing comprehensive security upgrades for the 
Shchuch'ye and Kizner chemical weapons storage facilities for nerve 
agent-filled artillery and missile munitions using previously budgeted 
funds.

                              expanded ctr
    8. Senator Landrieu. Ambassador Brooks and Dr. Crouch, Russia and 
the Former Soviet Union are not the only nations in the world with 
nuclear weapons and other weapons of mass destruction, materials, and 
knowledge that might be attractive to terrorists or others with 
terrorist goals. Are we doing enough in Russia and the new republics to 
protect and secure materials, weapons, and knowledge?
    Ambassador Brooks. With regard to the scope of our efforts in 
Russia and former Soviet states, there are several areas where we are 
accelerating and expanding. Recently signed access agreements will 
facilitate our efforts to reduce the size of Russia's ``nuclear 
footprint'' through the Nuclear Cities Initiative, as well as the 
expansion of our MPC&A upgrades work in the MinAtom Weapons Complex, 
where the bulk of MinAtom's nuclear material resides. I also want to 
expand the scope of our Material Consolidation and Conversion program 
in order to close more buildings and sites storing excess weapons 
usable materials across Russia. We have increased efforts to 
dramatically accelerate the installation of equipment at Russian 
borders to detect and prevent the illicit trafficking of nuclear 
material. Expansion of our efforts to convert Soviet-origin research 
reactors from high to low enriched fuels will lead to elimination of 
highly enriched uranium stocks in the new republics. In the Newly 
Independent States and the Baltics, we are also expanding our programs 
to enhance security and are reviewing past security upgrades against 
the latest IAEA guidelines, which now include sabotage. In Uzbekistan, 
for example, we have enhanced a previously installed security system to 
increase protection of the site against terrorist attacks.
    We are also working very hard to increase the pace of program 
implementation. In fact, accelerating existing programs to secure 
materials, weapons, and knowledge has been a primary goal since 
September 11. With the significant supplemental budget received this 
year for our material and warhead security program, we are signing 
additional contracts for security upgrades at more Russian warhead and 
material storage sites and border crossings. We have reduced program 
schedules on the order of 2 to 3 years due to these acceleration 
efforts.
    Beyond Russia and the former Soviet states, we continue to develop 
and foster positive relationships both bilaterally and multilaterally 
through the IAEA to support programs to enhance physical protection of 
nuclear material and facilities abroad. The United States has been and 
will continue to be a strong supporter of the IAEA's new initiatives to 
counter nuclear terrorism and its efforts to strengthen the 
international framework for the physical protection of nuclear material 
and facilities.
    We are accomplishing more than ever before--and many of our 
implementation schedules have been shortened because of the 
supplemental budget and the renewed, high-level attention our programs 
have received from the Bush administration and Congress over the last 
year.
    Dr. Crouch. The Department of Defense, through the CTR program, is 
working closely with appropriate government agencies in Russia and 
other new states to enhance their ability to provide adequate 
protection and security for weapons of mass destruction and related 
materials in order to prevent their proliferation. The U.S. Government 
is spending roughly $1 billion annually on nonproliferation and threat 
reduction programs in the Former Soviet Union.
    Nuclear Weapons: Through the CTR program, DOD is assisting the 
Russian Ministry of Defense by providing: physical security upgrades at 
weapons storage sites; equipment and training to enhance the 
effectiveness of guard forces; drug and alcohol screening equipment and 
training to ensure the reliability of guard force members and 
applicants; an automated system for accounting and tracking deactivated 
tactical and strategic nuclear weapons; rail shipments of nuclear 
weapons to secure storage and dismantlement facilities; and reliable 
and secure nuclear weapons transport rail cars. DOD's efforts through 
the CTR program were cited as having helped Russia improve the security 
of its nuclear weapons by the National Intelligence Council's February 
2002 Annual Report to Congress on the Safety and Security of Russian 
Nuclear Facilities and Military Forces.
    Progress in implementing comprehensive security enhancements at 
weapons storage sites had been hindered by the previous Russian 
Federation refusal to allow DOD access to the sites for project 
implementation and oversight. Based on a recent decision by the Russian 
Prime Minister to allow DOD access to these sites, we hope to proceed 
quickly with a variety of security enhancement measures at 10 priority 
sites.
    Biological Weapons/Materials/Knowledge: Through the CTR Biological 
Weapons Proliferation Prevention program in Russia, Kazakhstan, and 
Uzbekistan, DOD is consolidating and securing, or eliminating, 
dangerous pathogen collections at biological research institutes; 
dismantling former Soviet biological weapons research and production 
facilities (including an anthrax production facility in Kazakhstan and 
an open-air testing complex in Uzbekistan); and targeting collaborative 
research to prevent the proliferation of biological weapons expertise 
to rogue states and terrorists through the employment of former Soviet 
BW scientists on peaceful, non-military endeavors.
    Chemical Weapons: In February 2002, DOD's CTR program completed 
immediate security enhancements at the Russian chemical weapons storage 
facilities at Shchuch'ye and Kizner to safeguard nerve agent munitions 
that are susceptible to theft. We are completing the design work for a 
more comprehensive security upgrade based on equipment developed for 
Russian nuclear weapons storage sites at the Security Assessment and 
Training Center in Sergeiv Posad. Selected equipment will be integrated 
to meet site-specific security requirements. Once design work is 
complete, we will begin equipment installation and testing. Project 
completion is expected in fiscal year 2003.
    Fissile Material: DOD, through the CTR program, is constructing a 
fissile material storage facility at Mayak, Russia that will provide 
centralized, secure, safe, and ecologically sound storage of up to 50 
metric tons of plutonium and 200 metric tons of highly enriched uranium 
removed from nuclear weapons. We anticipate that the project will be 
completed by the end of calendar year 2002 and the Russians will begin 
to load the facility in early 2003.

    9. Senator Landrieu. Ambassador Brooks and Dr. Crouch, do we have 
an opportunity now to do cooperative work with other countries to 
secure and protect their materials and knowledge?
    Ambassador Brooks. Yes, we continue to work aggressively to develop 
cooperative relationships with other countries to improve the security 
of nuclear material. Such cooperation is implemented on a bilateral 
basis and also through the International Atomic Energy Agency's 
International Physical Protection Advisory Service. This cooperation 
often includes assistance in making physical protection improvements at 
facilities and training in physical security and material control and 
accounting practices, concepts, and procedures.
    We are continuously analyzing existing or emerging threats to 
nuclear material and facilities. We are continuously analyzing existing 
or emerging threats in this area. We have and will continue to ensure 
that countries exhibiting these vulnerabilities are engaged to maximum 
extent possible and that, barring legal prohibitions, the only 
limitation on provision of assistance is the recipient's willingness to 
work with us towards a common goal.
    Dr. Crouch. The essence of CTR is that it is a cooperative program. 
This requires, at a minimum, other countries to accept a CTR presence 
at very sensitive research or military facilities. There may be 
opportunities to develop these types of relationships, but we must 
recall that the CTR program has taken nearly a decade to reach its 
current level of involvement in states of the Former Soviet Union. In 
addition, under current authorities, the Department of Defense can only 
provide CTR assistance to former Soviet states.

                      nuclear weapons destruction
    10. Senator Landrieu. Dr. Crouch, President Putin has said that he 
expects Russia to go to a 1,500 strategic nuclear warhead inventory at 
some point in the future. They currently have far more warheads, and an 
undetermined number of tactical warheads, in their stockpile. Is there 
an opportunity to work with Russia to dismantle warheads?
    Dr. Crouch. In the past, DOD offered through the CTR program to 
assist the Russian Federation in processing and packaging fissile 
material from dismantled nuclear weapons. The RF, however, would not 
agree to engage in such a cooperative project due to security 
considerations. There is no indication today that Russia would allow 
even more intrusive CTR assistance with actual dismantlement work. On 
the other hand, DOE has the expertise and is working with the Ministry 
of Atomic Energy of Russia in related areas. Therefore, it may be 
possible at some point in the future to resolve the issues that have 
constrained assistance in this area.

    11. Senator Landrieu. Dr. Crouch, does our decision not to 
dismantle any warheads, as outlined in the Nuclear Posture Review, 
discourage Russia from dismantling warheads, particularly the tactical 
warheads?
    Dr. Crouch. There has been no decision by the U.S. Government not 
to dismantle any nuclear warheads; some warheads will be eliminated. 
The U.S. cannot produce new nuclear warheads. This is why some warheads 
will be retained to provide the option to increase operationally 
deployed force levels if the international security environment compels 
us to do so. The U.S. and Russia are in asymmetrical circumstances in 
this regard. While we cannot produce new nuclear warheads, and must 
therefore retain weapons in reserve, Russia retains the ability to 
produce new nuclear warheads at Cold War levels. Hence, there is no 
need for Russia to store warheads. Moreover, Russian warheads cannot be 
stored for long periods of time for technical reasons.

    [Whereupon, at 4:12 p.m., the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                        TUESDAY, MARCH 12, 2002

                           U.S. Senate,    
           Subcommittee on Emerging Threats
                                  and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

SPECIAL OPERATIONS MILITARY CAPABILITIES, OPERATIONAL REQUIREMENTS, AND 
                         TECHNOLOGY ACQUISITION

    The subcommittee met, pursuant to notice, at 2:39 p.m. in 
room SR-222, Senator Mary L. Landrieu (chairman of the 
subcommittee) presiding.
    Committee members present: Senators Landrieu, Bill Nelson, 
and Roberts.
    Majority staff members present: Richard D. DeBobes, 
counsel; and Arun A. Seraphin, professional staff member.
    Minority staff members present: Charles W. Alsup, 
professional staff member; Edward H. Edens IV, professional 
staff member; Carol M. Hanna, professional staff member; and 
Mary Alice A. Hayward, professional staff member.
    Staff assistants present: Leah C. Brewer and Daniel K. 
Goldsmith.
    Committee members' assistants present: Craig E. Bury, 
assistant to Senator Byrd; Marshall A. Hevron and Jeffrey S. 
Wiener, assistants to Senator Landrieu; Robert Alan McCurry, 
assistant to Senator Roberts; James P. Dohoney, Jr., assistant 
to Senator Hutchinson; and Derek Maurer, assistant to Senator 
Bunning.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. Our meeting of the Emerging Threats and 
Capabilities Subcommittee on the Special Operations Command 
(SOCOM) will come to order. Our subcommittee meets this 
afternoon to receive testimony from General Holland, our 
Commander in Chief of our U.S. Special Operations Command, and 
Mr. Harry Schulte, Acquisition Executive at Special Operations 
Command.
    I just wanted to begin by noting that, as we sit here 
today, our Special Operations Forces are deployed in our war 
against terrorism in Afghanistan in Central Asia, in the 
Philippines, all over the globe in fact, supporting Operation 
Enduring Freedom and conducting other missions to further U.S. 
national security.
    The battles, as usual, have not been without casualties. 
Your forces, General Holland, are fighting for a just cause, to 
defend our citizens here and abroad. Some of them have made the 
ultimate sacrifice. In fact, since September 11, 25 special 
operators have been killed in action or in support of Operation 
Enduring Freedom and 60 have been wounded.
    The losses of each of these has hit us all very hard. This 
committee, in fact, has been touched in a very personal way by 
the recent accident, the death of 10 Special Operations Forces 
in the Philippines when their helicopter crashed. Our staff had 
just visited Echo 160th Aviation Company in January and had 
come back to report to the Senator and I how highly impressed 
they were with Major Curtis Feistner, Captain Bartt Owens, and 
Chief Warrant Officer Jody Egnor. They all perished in the 
crash February 22.
    General Holland, Senator Roberts and I want to convey to 
you on behalf of our whole committee our deep and heartfelt 
appreciation for the work that you do. If you would please 
communicate to the men and women under your command that this 
committee, all of us, but this committee is particularly 
heartbroken over it, and commend you for your professionalism 
and your dedication.
    This committee has a long tradition of interest in Special 
Operations. In 1986 the Nunn-Cohen amendment to the Goldwater-
Nichols Defense Reorganization Act established the Special 
Operations Command within the Department of Defense and the 
position of Assistant Secretary of Defense for Special 
Operations and Low Intensity Conflict. The creation of the 
command and the assistant secretary position reflected this 
committee's interest in ensuring that Special Operations Forces 
and policies are integrated with conventional strategies and 
forces and that they are properly funded. Unfortunately, the 
position of assistant secretary sits vacant at this time.
    Congress mandated 2 years ago in the Defense Authorization 
Act that the Department of Defense centralize its combating 
terrorism activities under one assistant secretary of defense. 
The Department of Defense informed us that the Assistant 
Secretary for Special Operations would be that official. 
However, Secretary Rumsfeld did not fill the position before 
September 11 and after September 11 he appointed the Secretary 
of the Army as interim coordinator.
    Both Senator Roberts and I have expressed at different 
times the importance of filling that position. Perhaps we can 
talk a bit about that today, because 6 months later there is 
still no permanent coordinator in this important position.
    The purpose of today's hearing is to examine Special 
Operations capabilities, operational requirements, and 
technological acquisition. Unlike conventional military forces, 
who are charged with countering a range of military threats, 
Special Operations, which you oversee, General, are organized, 
trained, and equipped for narrowly focused missions. We have 
seen how Special Operations Forces have utilized these 
extraordinary special capabilities, radioing close air support 
from horseback to B-52s flying over the skies of Afghanistan.
    We are witnessing how the success of Special Operations 
Forces is spawning new missions in the Philippines, Georgia, 
and Yemen, just to name a few. Just yesterday President Bush 
declared that we would train militias everywhere.
    Yet, as Special Operations Command is handed more missions 
it is incumbent upon those of us who fund these missions and 
who provide legislative oversight to the Department to explore 
some fundamental questions: Are Special Operation missions 
becoming more relevant and necessitating increases in the total 
number of Special Operations Forces? Or, should the 
conventional forces adopt some of the Special Operations Forces 
roles and missions? If so, which ones, and how should that 
integration or coordination take place and how should it be 
funded in the future?
    Can we improve upon the integration of Special Operations 
Forces into conventional military plans based on lessons 
learned in Afghanistan? Is funding for training, education, and 
ongoing missions sufficient and appropriate, given the 
increased demands and dangers, of the critical mission 
involved?
    Are we taking sufficient steps to recruit and retain Active 
and Reserve special operators? Perhaps more important, how does 
the proposed budget address concerns that Special Operations 
families have regarding housing and other benefits so that the 
morale will be high, families can be happy, as well as the 
soldiers and combatants involved?
    Finally, what can we do to improve Special Operations 
technology development and acquisition to better support the 
men and women in the field?
    Today our special operators are making use of technologies 
that were developed with small but significant investments in 
science and technology in the past. Investments that have led 
to more precise weapons, better night vision gear, and lighter, 
more capable radio and communications equipment, to name just a 
few examples.
    This subcommittee notes that the budget request for Special 
Ops research and development includes, unfortunately, only a 
very small increase for next year and, in fact, a decrease in 
the longer term research programs, despite the critical role 
that I have just outlined.
    The subcommittee would like to learn from you, General 
Holland and Mr. Schulte, about your current technology 
development activities and how they support current operations. 
But more importantly, we would like to learn about any 
shortfalls in the budget, including in areas that impact upon 
training, education, recruitment, and retention of your fine 
soldiers. We also want to explore some other important elements 
that I have outlined earlier in my opening statement.
    At this time, let me recognize Senator Roberts for opening 
remarks and then we will hear your testimony and go into a 
round of questioning. Thank you.

                STATEMENT OF SENATOR PAT ROBERTS

    Senator Roberts. Thank you, Madam Chairman. I join you in 
welcoming these two very distinguished witnesses from the U.S. 
Special Operations Command and I applaud your forward thinking 
in holding this important hearing.
    Some of my remarks are going to be repetitive of the 
distinguished chairman, but I think they bear repeating. We 
have all been extremely thankful for the initial success of our 
Armed Forces in Afghanistan and around the world in this global 
war against terrorism. While much will be debated in the months 
and years ahead about the relative value of air power, sea 
power, ground operations, in what we call Operation Enduring 
Freedom, one thing is very clear: The quiet warriors of Special 
Operations in the air, on the sea, and on the ground were 
trained and ready--and have performed in magnificent fashion. 
General Holland, you and your predecessors deserve a great deal 
of credit for this high level of readiness, and the committee 
thanks you.
    Now, before I proceed, I want to acknowledge not only the 
tremendous contribution that Special Operations Forces are 
making to the struggle, but, as the chairman has indicated in 
very eloquent terms, the sacrifice they are making as well. 
From my standpoint and as the chairman has already indicated, 
on behalf of the subcommittee, and I would add the full 
Committee on Armed Services, please convey our sympathies, our 
condolences, and our gratitude to the families, units, and 
friends of those special operators who have lost their lives in 
this important global war against terrorism.
    Their loss defending America and freedom reminds us of the 
dangers our men and women in uniform face every day around the 
world. Our Special Operations Forces are truly the tip of the 
spear.
    As the chairman indicated, almost 15 years ago some 
forward-thinking members of Congress recognized that our 
capabilities in the area of unconventional warfare, low 
intensity conflict, and special operations were not where they 
should be and convinced their colleagues to create a new 
Special Operations Command as part of a larger Department of 
Defense reorganization.
    The increasingly successful and sophisticated joint 
operations--and I emphasize, joint--joint operations our Armed 
Forces are able to conduct, including the seamless inclusion of 
your Special Operations, is a tribute to the joint warfighting 
concepts that were envisioned by the architects of the 
Goldwater-Nichols Act of 1986. As the chairman has indicated, 
the world has been amazed, absolutely amazed, at the pictures 
of soldiers on horseback directing 21st century weapons with 
devastating precision. We see images of the C-130, AC-130 
gunships, firing at ground targets identified by unmanned 
aerial vehicles. We see silhouettes of parachutes through night 
vision goggles descending on distant airfields. This is the 
face of Special Operations. This is our first line of defense 
that has been quietly fighting terrorism around the world for 
years. These are the forces on which we will increasingly 
depend to confront the emerging unexpected unconventional 
threats of the future.
    I am going to be brief, Madam Chairman, as it is most 
important that we proceed to the testimony of General Holland 
and his staff. I look forward to hearing General Holland's 
assessment of the performance of Special Operations Forces to 
date. More importantly, however, I am most interested in his 
view of the future. What do our Special Operations Forces need 
to be prepared for? You highlighted the budget shortfalls. What 
can we, Congress, do to help him? I am especially interested in 
how the Special Operations Forces fit into the whole field of 
jointness.
    As we begin deliberations on the fiscal year 2003 budget 
request, SOCOM is in a unique position to provide us some 
insights into the future of warfare, how to rapidly develop and 
acquire the capabilities we need to deter, to detect, and to 
defeat the emerging threats we face today.
    I look forward to working with you, General, to ensure that 
our Special Operations Forces really continue to be the very 
best in the world and really continue to be truly special.
    Senator Landrieu. Thank you, Senator Roberts.
    General Holland.

STATEMENT OF GEN. CHARLES R. HOLLAND, USAF, COMMANDER IN CHIEF, 
                U.S. SPECIAL OPERATIONS COMMAND

    General Holland. Madam Chairman and Senator Roberts: I 
submitted a statement for the record, but I have just a few 
remarks I would like to make at this time. Thanks for this 
opportunity to report on the state of the ``Quiet 
Professionals,'' our Nation's Special Operations Forces (SOF). 
The September 11, 2001, terrorist attacks on our country 
underscored the need for an increased emphasis on America's 
ability to combat terrorism.
    As you well know, SOF have been very heavily engaged in 
support for the global war on terrorism. We have executed 
nearly every mission Congress spelled out for SOF almost 15 
years ago when it passed the Nunn-Cohen amendment. As a result 
of that legislation, the Department of Defense has a 
headquarters in the United States Special Operations Command 
that provides SOF for the successful conduct of worldwide 
special operations, civil affairs, and psychological 
operations, during peace and war.
    The command also conducts strategic planning, provides 
operational support and oversight, allocates resources, and 
manages acquisition to ensure that SOF are prepared to carry 
out their assigned missions.
    The support of the services is critical to our ability to 
provide the Nation with a Special Operations capability. The 
Army, Air Force, Navy, and Marine Corps work with us on matters 
such as service common equipment and personnel manning, as well 
as other areas of mutual interest. We have a solid relationship 
with each service and continue to cooperate on a variety of 
projects.
    I am pleased to report that SOF are ready and healthy due 
to the wisdom of the legislation that gave us the tools to do 
our jobs and the leadership and dedication of extraordinary 
Americans. I must tell you that we could not be more proud of 
our men and women. They have demonstrated their training skills 
by teaming with the best warfighters the world has seen. From 
the European Command-led campaign in Kosovo to the Pacific 
Command support to counterinsurgency in the Philippines, and to 
combined training and exercises with our allies in the Republic 
of Korea, to Central Command's combat during Operations Desert 
Storm and Enduring Freedom and counternarcotics programs in 
Southern Command, the range of operations we have effectively 
prosecuted bodes well for the future fight against 
transnational terrorists.
    United States Special Operations Command (USSOCOM) stands 
ready to provide SOF around the world in support of theater 
commanders in chief (CINCs) and American ambassadors. During 
this fiscal year Special Operations Forces have operated in 122 
countries and foreign territories. In Afghanistan, USSOCOM's 
Air Force special tactics teams and air crews, Navy SEALs, Army 
and Air Force Psychological Operations, and Army Special 
Forces, Rangers, and air crews, and civil affairs are executing 
complex missions during limited visibility in climatic extremes 
and over rough, unfamiliar terrain in support of the United 
States Central Command.
    A large part of the reason that we can support our global 
commitments is that several SOF truths are embedded in our 
philosophy of how to train and deploy. The SOF truths are: 
humans are more important than hardware; quality is better than 
quantity; Special Operations Forces cannot be mass produced; 
and competent Special Operations Forces cannot be created after 
emergencies occur.
    In addition, the establishment of Major Force Program-11, 
which gives the Special Operations Command service-like 
responsibility with a budget and procurement authority, has 
ensured that we can get SOF-peculiar equipment to our warriors 
so that they have the tools needed to conduct Special 
Operations. Timeliness is important to our ability to resolve 
many of the challenges of transnational threats, as is 
mitigating the potentially catastrophic damage that can be 
caused by acts of terrorism, to include the use of weapons of 
mass destruction.
    We find that all the elements of national power--
diplomatic, informational, military, and economic--are applied 
at the same time to reach a fast near-term resolution of a 
particular crisis. A well-designed and dynamic collaborative 
environment allows us to properly share whatever is needed, 
whenever it is needed to defeat the next foe. At USSOCOM we are 
striving to develop collaborative structures and tools that 
afford timely, simple, and appropriate procedures to make 
certain that all of us on this joint interagency team can share 
resources and information and still maintain the necessary 
protective measures to guarantee that we do not compromise 
operations, personnel, or tactics, techniques, and procedures.
    In closing, I want to reiterate two points: First, we 
provide the Armed Forces and our Nation with unique one-of-a-
kind capabilities. We have been able to develop them because of 
the foresight of Congress in creating this command and 
providing it with the tools to get the job done.
    Second, we must protect our people, provide for the 
professional development, give them the tools they need for 
their job, and remember those and their families who have given 
the last full measure.
    With continued support from Congress and key investments in 
quality people, readiness, and modernization, we will continue 
to have the best Special Operations Force in the world, one 
that is ready, responsive, and relevant to the challenges of 
the 21st century. I believe that the SOF warrior is one of our 
Nation's great assets, superbly trained, physically tough, 
culturally aware, and an independent thinker--a quiet 
professional.
    Madam Chairman, thank you for the opportunity to tell the 
Special Operations story and I look forward to your questions.
    [The prepared statement of General Holland follows:]
          Prepared Statement by Gen. Charles R. Holland, USAF
    Madam Chairwoman and members of the committee, I am privileged to 
report to Congress on the state of the USSOCOM. In early September last 
year, the Nation was suddenly and brutally confronted with a new type 
of world war, waged against them on U.S. soil by terrorists. These 
terrorists, driven by an implacable hatred for Western conceptions of 
basic individual rights, and whose principal targets were civilians, 
have since had their own sudden, and yes, harsh awakening to U.S. 
resolve. The entire command is proud that SOF could play a part in 
their wake-up call.
    The success of the campaign plan against this threat has been 
dramatic, but is not surprising. The superb team constructed at the 
U.S. Central Command (CENTCOM) under General Tommy Franks demonstrated 
the quality, professionalism, and determination of U.S. Forces and our 
staunch coalition partners. The successes in the campaign in 
Afghanistan in the global war on terrorism demonstrate again the wisdom 
of the joint warfighting construct initiated by the Goldwater-Nichols 
Act in 1986.
    The recent action in Afghanistan is a prominent and exciting 
example of how joint warfighting has evolved from the Goldwater-Nichols 
legislation to a powerful and precise tool to support the Nation's 
vital interests. This success is not isolated; the ability to win 
across the spectrum of military operations requires tight teamwork, and 
Special Operations Command USSOCOM forces are privileged to team with 
the best warfighters the world has seen. From the European Command 
(EUCOM)-led campaign in Kosovo, to the Pacific Command's (PACOM) 
support to counterinsurgency in the Philippines and combined training 
and exercises with our allies in the Republic of Korea, to CENTCOM's 
combat during Operations Desert Storm and Enduring Freedom, and 
Counternarcotics programs in Southern Command (SOUTHCOM), the range of 
operations we have effectively prosecuted bodes well for the future 
fight against transnational terrorists.
    The support SOF gets from the functional combatant commanders has 
been first rate: Transportation Command's (TRANSCOM)'s ability to get 
our warriors and equipment where they are needed fast, Space Command's 
(SPACECOM)'s warning and Information Operations expertise, and 
Strategic Command's (STRATCOM)'s absolutely vital help in cracking one 
of our most ambitious missions counterproliferation of weapons of mass 
destruction (WMD) and hard and deeply buried targets. Finally, Joint 
Forces Command (JFCOM) provides a critical means to enhancing this 
team's ability to tackle enemies no matter their weaponry, tactics, or 
strategy. JFCOM's leadership in joint experimentation has made the 
advancement in joint warfighting sustainable.
    The jointness of the current war provides a lesson in our 
dependence on all services for their crucial abilities. Early in the 
prosecution of the conflict in Afghanistan, we had to stage Special 
Operations Forces from Naval Carriers off the Pakistani coast. On the 
ground in Afghanistan, Air Force trained combat controllers (CCT) in 
our Special Operations Liaison Elements provided the direct connection 
needed for Navy, Marine and Air Force pilots to accurately target 
Taliban and al Qaeda positions and assets. This direct link allowed our 
Army SF teams to integrate the anti-Taliban cavalry charges with 
precision bombing runs with devastating effect.
    The close relationship between our Special Operations Liaison 
Element and the Joint Force Air Component Commander's staff has allowed 
us to enhance allied combat effectiveness and minimize fratricide. The 
introduction of conventional Marine and Army forces with SOF 
strengthens U.S. capability and influence in the theater. The concept 
of combined conventional and unconventional units leverages the fact 
that they are trained for a mutually supporting frameworks, that 
significantly improves improving their joint warfighting effectiveness. 
SOF's complimentary relationship with the Air Force and Navy 
conventional forces has already shown what a truly potent force a joint 
force is to reckon with.
    The battlefield successes in the campaign against terrorism further 
reveal the insight of Congress in the creation of USSOCOM the year 
following the enactment of Goldwater-Nichols. That legislation, the 
Nunn-Cohen Amendment (codified in Title 10, Section 167, U.S. Code, USC 
167), created USSOCOM and consolidated all SOF under one command. 
Forces making up SOF include Army Special Operations Aviation, Special 
Forces, Rangers, Civil Affairs, and Psychological Operations forces; 
Air Force special operations aviators and special tactics teams; and 
Navy Sea, Air, and Land (SEAL) Teams and Special Boat Units.
    The Nunn-Cohen Amendment also provides USSOCOM with its own Major 
Force Program 11 (MFP-11) funding. This legislation provides USSOCOM 
with the authority, direction and control of funds that allows us to 
develop and acquire Special Operations peculiar equipment to prepare 
SOF to carry out our assigned missions. In turn, this legislation 
provides the warfighter with the tools necessary to fight not only the 
most committed industrial age power, but also the means to fight 
entities that would and could wield influence through terror by any 
means.
    USSOCOM's Fiscal Year Total Obligation Authority (TOA) is $4.9 
billion, just 1.3 percent of the overall defense budget. This figure 
includes nearly $2 billion for our 47,000 military personnel (USSOCOM 
programs for these funds and the Services execute them) and $1.7 
billion for Operations and Maintenance. Modernization, which consists 
of $777 million for Procurement and $431 million for Research, 
Development, Test, and Evaluation, is $1.2 billion of the TOA and the 
remaining $63 million is for Military Construction (MILCON).
    USSOCOM's MFP-11 Fiscal Year 2003 request represents an $854 
million increase over fiscal year 2002, the result of additional 
funding to address USSOCOM's modernization issues. This type of 
departmental support of Service and SOF resources greatly enhances the 
effectiveness of our Nations' SOF and our ability to meet the 
operational requirements expected. Yet these limited SOF resources 
greatly enhance the effectiveness of conventional military forces by 
providing essential leveraging capabilities while ensuring that ``must 
succeed'' special operations are completed with the absolute certainty 
and professionalism the Nation demands. The Fiscal Year 2003 
President's budget makes important additions to SOF programs to begin 
meeting new challenges confronting SOF and the Nation.
    Joint warfighting is not the only major success in this conflict: 
early in the planning process, CENTCOM planners were able to sort 
through the rush of international support to identify how best to use 
the variety of strengths offered by our allies. Important to our 
planners were the offers of SOF from around the globe. The legendary 
capabilities of the British Special Air Service (SAS) and Australian 
SAS, as well as special operations forces from other nations provide a 
unique, but not unfamiliar, combined special operations environment for 
us. This cooperative engagement with the best the world has to offer in 
fighting asymmetrically will assist us in the long battle ahead.
      ussocom support to the secretary's and chairman's way ahead
    USSOCOM is in full support of both the policy goals as voiced in 
Secretary Rumsfeld's Quadrennial Defense Review (QDR) and of Chairman 
Myers' goals as offered to this committee, the Senate Armed Services 
Committee (SASC), in recent weeks. Chairman Myers presented three 
objectives to the SASC: to win the global war on terrorism, to improve 
joint warfighting capabilities, and to transform to be ready to face 
future challenges. In our view these objectives provide a temporal 
roadmap to the goals of Secretary Rumsfeld's Defense Strategy as 
envisioned in the QDR. USSOCOM directly supports the defense policy 
goals of assure, dissuade, deter, and decisively defeat across the 
spectrum of conflict.
    SOF's role as ``global scouts'' serves to assure allies and friends 
of U.S. Government resolve. Our participation in the Combatant 
Commander in Chief (CINC) Theater Security Cooperation Plans, Joint 
Combined Exchange Training (JCET), Humanitarian, Mine action, 
Counterdrug and Foreign Internal Defense (FID) provides tangible 
training benefits while building rapport with our friends and allies.
    SOF's regionally-oriented, culturally aware forces provide a depth 
of expertise not available to the conventional forces. Through Civil 
Affairs (CA) operations and peacetime Psychological Operational (PSYOP) 
programs, U.S. interests are advanced at minimal cost in resources. As 
``warrior diplomats'' and through recurring interaction with current 
and potential allies and friends they are able to influence situations 
favorably towards U.S. national interests.
    SOF's presence and unique capabilities dissuade potential 
adversaries by complicating their planning and providing the President 
Secretary of Defense (SECDEF) a wider array of options in dealing with 
them. By having the capability to operate ``in the seam'' between peace 
and war, SOF can address transnational and asymmetric threats by 
synchronizing the activities of the military and interagency partners.
    SOF can help shape the pre-conflict environment to set conditions 
favorable to the U.S. and can also provide a strategic economy of force 
by covering areas of the world left uncovered by the commitment of 
conventional forces to other contingencies. Forces organized, trained, 
and equipped to execute our highest priority principal missions of 
Counterproliferation of Weapons of Mass Destruction (CP/WMD) and 
Combating Terrorism (CT) also provide an effective deterrent against 
other asymmetric threats. SOF operating in conjunction with 
conventional forces provides a mutually beneficial warfighting 
relationship. SOF provides increased security for conventional forces 
because of our ability to operate within the host nation environment, 
which they offers a valuable source of intelligence and acts as an 
outer perimeter of security for conventional force operations. 
Conventional forces, in turn, provide a ready means to conduct large-
scale combat operations if a greater commitment of U.S. military force 
proves necessary.
    SOF's clandestine insertion capabilities, specialized tactics and 
techniques provide additional means to our military commanders to allow 
them to set the time, place, and manner of victory and decisively 
defeat any adversary. Other SOF principal missions such as Direct 
Action, Unconventional Warfare, Special Reconnaissance, and 
Psychological Operations contribute to the warfighters' ability to 
achieve decisive victory by optimizing his forces' combat power at the 
decisive right place and time. The perfect example of this capability 
is the recent success that our Air Force Special Tactics and Army 
Special Forces units have had integrating close air support from allied 
aircraft with Northern Alliance ground force operations. In this case, 
SOF is acting as the critical enabling link between the conventional 
forces and the mission at hand.
    The current state of SOF capabilities is strong, but to meet the 
evolving weaponry and tactics of potential adversaries, we must invest 
now to remain a reliable support for the Defense Strategy. USSOCOM's 
aim in pursuing transformation is to guarantee our forces remain 
relevant to any fight necessary, and ensuring we minimize risk to our 
Nation's vital interests. To do this, our intent is to transform to 
better support the Defense Policy Goals as described below.
                       assure allies and friends
    Presence: Forward presence of SOF pledges U.S. commitment to allies 
and friends; promotes access, improves interoperability and 
intelligence cooperation; expands the range of pre-conflict options to 
counter threats; deters aggression; influences positive behavior; 
mitigates the development of asymmetrical threat capabilities; and 
allows the U.S. to prosecute the war on its terms.
    To provide presence in critical regions worldwide, USSOCOM must 
depend on the securing of Status of Forces Agreements with new and 
potential coalition partners in order to enhance interoperability and 
build a combined force far stronger than its components. USSOCOM will 
accomplish this through an array of joint, combined, and interagency 
experimentation programs designed to simulate actual combat--the final 
result being a global combat-ready ``plug-n-fight'' force. 
Participation in Theater CINC joint training activities provides near-
term benefits to our national security and also builds rapport with our 
friends and allies to weather future challenges.
    Anti-Access Environments: SOF's global access is a capability key 
to preserving national security. SOF must have the ability to access 
and operate anywhere in the world, in any mission environment, from 
overt to clandestine and from benign to hostile (including Chemical, 
Biological, and Radiological (CBR)). In much of the world, SOF 
maintains this access and an understanding of local issues through 
regional orientation and continued engagement, which is formalized in 
Theater Security Cooperation programs. However, to provide access to 
most parts of the world, SOF must retain and improve the capability to 
operate where U.S. forces may be unwelcome or opposed. Potential 
adversaries are acquiring weapons and developing asymmetrical 
strategies aimed at denying U.S. forces access to critical theaters of 
operations during a crisis. As the first responders, ``door openers,'' 
and spearhead for decisive follow-on operations, ``SOF access'' sets 
the stage for assuring allies and friends. As a strategic asset SOF 
derives its value from its ability to operate independently or 
integrally as a vital key component of a conventional Joint Task Force 
(JTF).
    Force projection is another critical element to the Defense 
Strategy's goal of assuring allies and friends. In a world of 
unpredictable and asymmetric security threats, low-intensity conflict 
has emerged as a pervasive mode of warfare. It is imperative that SOF 
remains a flexible, mobile and quickly deployable force able to react 
to, but more importantly, help mold the international environment. The 
ability to project power rapidly and to operate in small teams under 
austere conditions is a cornerstone of SOF operations. To enhance our 
force projection capabilities, DOD must continue to invest in programs 
to improve strategic mobility, sustainment, and information dominance.
    Surrogate Warfare: A long-standing SOF mission that has received 
deserved new attention is Surrogate Warfare: ``Great powers remain 
great if they promote their own interests by serving those of others.'' 
Stemming and reducing Operations Tempo (OPTEMPO), limiting hazardous 
exposure of U.S. forces, smart utilization of low density/high demand 
(LD/HD) assets, and increasing the SECDEF's options are goals that can 
be achieved through a re-emphasis on a long-standing SOF strength: the 
training of surrogate forces to gain results favorable to our 
interests. In fact, the greatest contribution that surrogate warfare 
has had in Afghanistan is to achieve strategic objectives that were 
unobtainable with any other capability in the Armed Forces today.
    Al Qaeda is a worldwide trans-national terrorist group that cannot 
exist without some form of popular support. The strategic Center Of 
Gravity (COG) for al Qaeda is their relationship with the world's 
Muslim population. Without active support from a sizeable minority of 
the Muslim population and the passive support of a greater number, al 
Qaeda would fold. They rely on popular support for both their 
recruitment and freedom of action. If we ignore this strategic COG, all 
our tactical and operational success will be for naught.
    Osama bin Laden's consistent message to the Muslim world has been 
that the U.S. intends to invade Islamic territory and slaughter Muslims 
in a new crusade. He wanted a confrontation with massive U.S. ground 
formations while U.S. airpower rained down on Muslim populations. Such 
a scenario would have justified his rhetoric and provoked the Muslim 
backlash he desired. We chose a strategy that didn't play into his 
hands. By working with a surrogate Muslim force, we neutralized his 
plans.
    The most telling results of this campaign come from press reports 
concerning the hundreds of Pakistani youths who had flooded into 
Afghanistan to support the Taliban. Many of these ``would-be martyrs'' 
returned to Pakistan and turned on the fundamentalist clergy that had 
sent them off to war. They had been told that they would be fighting a 
jihad against American invaders. Instead they saw no Americans and 
found themselves fighting ``brother'' Muslims in violation of the 
Koran.
    Instead of helping al Qaeda increase its popular support, we have 
opened the first cracks of a rift between al Qaeda and the general 
Muslim populace and have demonstrated the President's intent--that this 
is not a war on Muslims, but a war waged on terrorists who are using 
Islam as a ruse to justify murder. This is one of the most important 
strategic outcomes of our operations in Afghanistan to date, and the 
capability to conduct surrogate warfare resides in our country's 
special operations forces alone.
    The original foundation of the SOF approach to warfare was to 
organize and train friendly foreign forces to help them contend with 
hostile challenges. Increased emphasis in this area can multiply our 
influence globally without requiring a standing-force presence in a 
multitude of locations. The success of our JCET deployments, and 
support for the State Department's African Crisis Response Initiative 
(ACRI) are just two examples illustrating the effectiveness of a series 
of short-term education programs. They enhance the professionalism of 
third-world nations' armed forces, foster the growth of responsible 
regional-based forces, and promote U.S. values and interests. These 
initiatives are popular with host nations. They provide valuable 
training for our forces, enhance morale, and promote host nation 
stature within the region. Such programs increase U.S. influence and 
the likelihood that these new friends will be able to resolve crises 
peacefully, and in a manner advantageous to our national interests with 
minimal U.S. support.
    Security Assistance: In assuring our allies and friends, SOF will 
continue to monitor, and if necessary engage, weak and failing states 
in Asia, Africa and the Western Hemisphere where there is an absence of 
responsible governments. Working in concert with State Department 
personnel on these Security Assistance missions improves the U.S. 
government unified approach to better address the security interests of 
these friends and allies and provides cost efficiencies in applying 
Title 22 funding.
    We will project and sustain SOF in distant anti-access or area-
denial environments. If we are to project SOF, we must invest in 
infrastructure in the continental U.S. (CONUS) to reverse the erosion 
of SOF training range infrastructure and ensure that ranges are 
sustainable, capable, and available. We must also invest outside the 
CONUS and secure funding for host nations to build temporary facilities 
and training ranges for SOF conducting interoperability and security 
assistance training, FID and exercises within the host nation.
    OPTEMPO: Assuring allies and friends through forward presence, and 
involvement in small-scale contingencies, combined with SOF support to 
national mission requirements results in a heavy OPTEMPO. SOF can be 
consumed as quickly and completely by these missions as they are in 
major theater wars. To ensure that our LD/HD capabilities are available 
for urgent missions, we are working to mitigate force management risk, 
operational risk, institutional risk, and future challenges through 
OPTEMPO and personnel tempo (PERSTEMPO) controls. Tailoring forces to 
task, exploiting our Reserve and National Guard forces, transitioning 
non-SOF missions to the services, and outsourcing when the mission 
allows are just a few examples of actions we're pursuing at this time.
    Total Force: We are working to ensure SOF Reserve components are 
properly resourced, trained, organized, equipped and postured. As an 
example, we are upgrading our PSYOP broadcast capability by 
transitioning it from older C-130s to new EC-130Js. This will 
strengthen these vital Reserve assets so that SOF will be available to 
assure our allies and friends as future challenges arise.
                  dissuade future military competition
    Experimentation: Successes demonstrated in our current engagements 
make one thing certain: the adversary will work to find ways to 
circumvent SOF strengths on the battlefield. CENTCOM planners, through 
a brilliant use of joint and combined warfighting doctrine, deftly 
avoided the expected quagmire of the Afghan battle. SOF must build on 
the lessons learned from this campaign to enable the creation of a 
range of capabilities and warfighting options. These enhanced 
warfighting methods dissuade competitors by forcing them to develop 
responses stretching their limited resources or choosing the high-risk 
option of focusing their efforts on a subset of SOF warfighting 
options, leaving themselves vulnerable to others.
    Research and Development: We must continue to invest in making our 
SOF more capable in austere environments. One lesson of the recent 
Afghan campaign was that seemingly small investments in equipment could 
be devastating in the hands of a prepared SOF operator. Two such 
successes were the Multi-band Inter/Intra Team Radio (MBITR) and the 
SOF Programmed Laser Target Designators. The MBITR enabled our 
operators to--with a single light weight device--replace several 
existing radios. This substantial lightening reduced the combat weight 
carried by our soldiers, sailors, and airmen in the field and improved 
their ability to coordinate via radio. The SOF Programmed Laser Target 
Designators dramatically improved the precision of our aerial assaults 
on Taliban and al Qaeda positions.
    We intend to work on an array of improvements from better body 
armor and chemical protection, to advances in gunship armaments, to 
developing and leveraging Information Operations (IO) tools. USSOCOM's 
primary generator of success is has always been to ensure we select the 
best and train for innovation: we are equipping the warrior, not 
manning the equipment. We clearly recognize that the modern battlefield 
is comprised of land, air, sea, space and the virtual domains. IO has 
the potential to help SOF operators remain undetected and unlocated in 
hostile territory--a critical element for several of our principal 
missions. We intend to actively pursue IO capabilities and develop 
standing authority to employ these capabilities when needed. This will 
improve SOF effectiveness and access to previously denied environments, 
and dissuade potential competitors from engaging even if they perceive 
quantitative advantage.
    Command, Control, Communications, Computers, Intelligence, 
Surveillance, and Reconnaissance (C\4\ISR): USSOCOM is continuously 
striving to leverage information technology and innovation concepts to 
develop an interoperable, flexible joint C\4\ISR architecture and 
capability that allows rapid sharing of analysis and time sensitive 
information between the joint, interagency, and international 
communities. Recently, the command established a new element within our 
Joint Intelligence Center, the Special Operations Joint Interagency 
Collaboration Center (SOJICC), to provide data mining across multiple 
security classification domains and visualization tools to effectively 
display that information to support deliberate planning for all 
assigned SOF missions. By collaborating with national and theater 
intelligence organizations, as well as the Interagency Community, we 
hope to improve ``knowledge discovery'' and data sharing in combating 
trans-national and trans-regional threats. At the same time, we must 
also pursue and leverage a collaborative investment strategy and 
migration plan for integrated, cost-effective mix of intelligence 
collection platforms that are interoperable and responsive to future 
collection needs and challenges.
    To foster an environment that lessens competitors' proclivity to 
develop threatening capabilities and postures, we must leverage our 
allies' and friends' influence to strengthen and stabilize regimes 
vulnerable to both state and non-state coercion. In combating the 
evolving terrorist threat, one promising avenue is to enhance 
Department of Defense (DOD) and interagency coordination INTERPOL to 
provide a more pervasive understanding of the threat.
    Role of Civil Affairs (CA): CA manages the civilian dimension of 
operations for the combatant commander to gain support of the local 
government and populace, to provide legitimacy for military operations 
and to accomplish required objectives in support of the National 
Military Strategy. The transformation of CA will require additional 
training and equipment to meet and defeat the critical demands of 
current and future asymmetrical threats and to ensure full spectrum 
dominance over all adversaries, in all civil-military environments.
    CA transformation is critical to ensure their status as a ready and 
relevant SOF resource in any dynamic operational environment. We must 
continue to address training and sustainment of language skills and to 
refine issues that develop and improve collaborative interagency and 
multi-national efforts to ensure efficient and optimum use of CA 
assets. CA also possesses the unique capability to effect crucial 
components of the combatant commander's campaign plan that help 
countries formally in conflict to establish or reestablish viable 
democratic institutions, capable of self-governance.
    Role of Psychological Operations (PSYOP): USSOCOM is focusing on 
SOF PSYOP forces with the objective of further improving their 
capability to sew the seams between the national strategic and regional 
influence initiatives, and military operations. Today, PSYOP is playing 
a critical role in the success of Operation Enduring Freedom and our 
global war on terrorism (GWOT). Our PSYOP soldiers took radio 
programming that was produced at Fort Bragg, North Carolina, to support 
Operation Enduring Freedom, digitized those programs, and transmitted 
them to our EC-C130E PSYOP platform, Commando Solo. As a result of this 
innovation, we are leveraging our robust CONUS production and analysis 
resources. These assets have minimized our deployed footprint and the 
corresponding logistics demands, and have provided hundreds of hours of 
``influence'' oriented commercial radio broadcasts to Afghani target 
audiences. To continue such success, we are reevaluating the SOF PSYOP 
force structure and assessing future capabilities required to meet an 
increasing U.S. need to favorably influence behaviors, attitudes, and 
actions globally.
    As a first step toward real transformation of the joint PSYOP 
forces, we are developing a clear joint PSYOP vision and operational 
concept which will soon provide a common framework for enhancing the 
joint PSYOP force structure and making key investments for modernizing 
PSYOP capabilities.
    Our emphasis on PSYOP is a cornerstone of our Nation's Influence 
Operations strategy. From a USSOCOM perspective, it is not 
inconceivable that in the near future, the battle may be fought over 
television, radio or the Internet rather than the traditional linear 
battlefield.
         deterring threats and coercion against u.s. interests
    Presence: Increased peacetime forward SOF presence establishes 
relationships which can later prove vital to gaining access to 
otherwise denied areas. This was recently demonstrated by the 
relatively smooth manner in which SOF were granted access to the 
Karshi-Khanabad Air Base in Uzbekistan early in the Afghan conflict. 
Within the last year, CENTCOM tasked SOF to conduct military-to-
military contacts with some of the same decision-makers that sped this 
agreement. Forward presence also provides critical information on 
adversaries, strengthens deterrence in critical areas, provides rapid 
strike capability, augments global intelligence, and limits the 
complexity of infrastructure protection for follow-on forces.
    Improved Deterrence Through Transformation: The Defense Strategy 
envisions an improved deterrent posture by ramping the capabilities of 
the forward-deployed forces to lessen the size of reinforcement 
required to counter even the most intense conflicts. These 
transformational initiatives improve the forward-deployed SOF and 
conventional forces' deterrent effect and free forces now dedicated to 
reinforcement for other missions.
    Operational Preparation of the Battlefield: USSOCOM is continually 
evaluating the potential for new technologies to improve the 
preparation of operational space. The command sees this as one area 
that can significantly assist in combating asymmetric approaches. For 
USSOCOM our battle-space goes well beyond the traditional battlefield. 
The use of data mining and ``links and nodes'' analysis capabilities 
with multiple databases and multiple agencies in a collaborative 
environment provide a better assessment of the future battlefield. With 
the product of this effort we can campaign plan for effects-based 
targeting, not only of traditional targets, but, also more focused or 
discrete ones, and other asymmetric threats.
    Seamless C4: USSOCOM shares the DOD vision for a Global Information 
Grid (GIG) that will provide all forces a seamless network to provide 
the uninterrupted exchange of information necessary to achieve decision 
superiority. Over the past several years, the command has created and 
refined the SOF Information Enterprise (SIE) as our part of the GIG.
    The SIE provides a standard ``enterprise'' approach to not only our 
information infrastructure, but also the systems, applications, 
policies, processes, and knowledge required by our forces to prepare 
for and conduct special operations across the spectrum of military 
operations from daily staff functions to war. This enterprise approach 
has created standard tactics, techniques, and procedures on how we plan 
and execute missions in a collaborative way. The key to this has been 
our SOF Mission Planning Environment which is standardizing our mission 
planning applications and the use of web technology to share common 
functional area information, such as intelligence, logistics, and 
deployment information. The Web Information Center or WIC has been very 
successful in providing a common web view to our warfighting forces at 
the theater SOCs.
    Critical to our warfighting capability is our dependence on 
satellites. We strongly concur with the recommendations of the SPACECOM 
led Senior Warfighter Forum to synchronize the space platforms with our 
ground terminals and to get the mobile user satellites in place in the 
2010 time frame. Our resource requests for information technology match 
our most critical needs, such as individual radios, tactical local area 
networks (TACLAN), continued sustainment and modernization of our 
garrison and deployed networks, and continual training of our 
information professionals--all of which are crucial to our capabilities 
in meeting the threat of global terrorism. SOF C\4\ systems greatly 
improve our warfighting capability and provide the foundation for our 
transformational efforts.
    Targeting Speed: SOF units benefited greatly from the improvements 
over the past decade to surveillance assets. The War in Afghanistan 
illustrates that persistent surveillance, tracking and rapid engagement 
of adversary forces is critical to enable SOF to react to surprises and 
to help pre-empt ``bolt from the blue'' attacks.
    Innovations in tactics, techniques and procedures, as well as 
oncoming technologies will allow SOF to exercise extreme time sensitive 
targeting. USSOCOM's TACLAN program will enable deployed forces to 
receive the latest intelligence at all security levels down to the 
``last tactical mile.'' The Special Reconnaissance Capability program 
(SRC) will provide the remote sensors and tagging/tracking capabilities 
to further enhance our ability for rapid targeting.
    An increased overall DOD HUMINT program will enhance not only 
traditional force's capabilities, but also SOF capabilities. The rapid 
response and pre-emptive capabilities made possible by these 
transformation initiatives provide a strong deterrent to our 
adversaries, serving as a means to impose the commander's will rapidly 
to any threatening action.
    Advertise: USSOCOM must ensure that the high profile SOF has 
enjoyed in its efforts alongside the conventional forces in Afghanistan 
is used to better its effectiveness. Our Nation's SOF are well known to 
most of our allies and our potential adversaries. SOF can be used to 
improve understanding of non-allied foreign governments in how improved 
relations with the U.S. can help their nation, improve their people's 
lot, and enhance their stature in their region of the world.
    Even more surprising is that many of our foreign friends, and many 
U.S. government agencies are unaware of what capabilities SOF can bring 
to a collaborative effort through both DOD and Department of State 
avenues. USSOCOM expects to improve its combined SOF and interagency 
programs, benefiting both DOD and the interagency in accomplishing 
their objectives.
            if deterrence fails, decisively defeat an enemy
    Capabilities-Based Transformation: As we look to the most critical 
capability, being able to defeat any adversary, transformation is not 
only important, it can be the difference. USSOCOM is intent on 
transforming SOF to a capabilities-based force. To gain this objective, 
SOF will focus more on how an adversary might fight versus who the 
adversary may be or where the war might occur. Having the necessary 
capability to confront an enemy regardless of circumstances enhances 
the SOF ability to adapt to surprise.
    Force Protection/Situational Awareness: As we commit our forces, 
one of our greatest responsibilities is that of their protection. Force 
protection demands a robust HUMINT program to provide the first line of 
defense. At the tactical level, exploitation of advanced signals of 
interest and the capability to receive analyzed and fused intelligence 
from national and theater broadcast systems is a critical requirement 
to provide credible threat warning. Our Joint Threat Warning System 
(JTWS) will provide this critical SIGINT capability tailored for all 
our components.
    C\4\ISR: USSOCOM is pursuing an investment strategy that focuses on 
providing communications and intelligence in support of SOF missions 
deep in hostile environments. The C\4\ISR programs I've discussed have 
been programmed in the current POM. Operation Enduring Freedom (OEF) 
has highlighted increased requirements for these programs and a need to 
accelerate their development and procurement. The command must provide 
our teams with interoperable global reconnaissance, special 
reconnaissance and command and control assets; making them globally 
available to receive real-time intelligence enroute to advise forward 
and surrogate forces.
    Theater Security: The global war on terrorism demonstrates that the 
Theater Security Cooperation (TSC) Plans now under development provide 
an opportunity to address a transnational threat not engaged by the 
predecessor to the TSC, the Theater Engagement Plans. In the TSC 
process, the DOD can now synchronize the Theater Security Cooperation 
Plans, ensuring that transnational threats that straddle CINC theaters 
are addressed in a coordinated manner.
    War to Peace Transition: SOF must revise ``SOF-to-conventional-
force'' transition plans in order to relieve our LD/HD capabilities 
from non-SOF missions as soon as the threat allows. SOF expects to be 
called on early in the conflict to provide a force that has trained 
aggressively for politically sensitive missions. Their capability to 
handle unforeseen missions branches will continue to make SOF a scarce 
asset; because commanders will always want to minimize the risk of a 
mission's failure by employing such capable forces. When transition 
allows, we must ensure it is done smartly, to allow the employed SOF to 
reconstitute and prepare for the next challenge.
    Improved mission capabilities: USSOCOM is working to improve SOF 
capabilities to prosecute Unconventional Warfare and Foreign Internal 
Defense programs to better support friends and allies. The value of 
these programs, demonstrated in the Afghanistan campaign, can be 
particularly useful in stabilizing countries and regions vulnerable to 
terrorist infiltration.
    Realignment: For the past several months, USSOCOM has been 
exploring the current posture of our Theater Special Operations 
Commands to find areas where we can improve our responsiveness, 
regional expertise, and training. This study has been conducted in 
response to the SECDEF's Quadrennial Defense Review direction, and has 
uncovered some interesting possibilities for the future of SOF force 
structure, forward basing, and mission capabilities. We are still 
exploring the obstacles and advantages to these ventures, but hope will 
soon to provide the SECDEF with a set of recommendations to improve the 
responsiveness and effectiveness of SOF.
                    critical issues for the command
    As in the Chairman of the Joint Chiefs of Staff's statement, there 
can be only one number one issue for any commander. For USSOCOM, the 
``SOF Truths'' drive what we consider critical. These SOF Truths are:

        <bullet> Humans are more important than hardware
        <bullet> Quality is more important than quantity
        <bullet> Special Operations Forces can't be mass produced
        <bullet> Competent Special Operations Forces can't be created 
        after an emergency occurs

    The message that we take away from these truths agrees with that of 
the Chairman's testimony to the Senate Armed Services Committee several 
weeks ago: People are the most important asset we have. Quality SOF are 
the toughest asset for this command to replace. Our primary concern 
echoes the Chairman's: we need to take care of our people by improving 
pay and compensation, health care, housing, infrastructure, and base 
support programs. Our most cost- and mission-effective path is to keep 
the tremendous people we have as long as possible.
    SOF, like the services, is experiencing shortages of personnel with 
critical skills, in both the officer and enlisted ranks. The SECDEF's 
call for a sweeping overhaul of longstanding Pentagon personnel 
policies to enhance retention will go far in correcting this downward 
trend. USSOCOM continues to pursue innovative recruiting and retention 
programs and reinforcing our efforts to improve morale. Recruitment and 
accession of minority personnel into the Special Operations community 
continues to be a challenge for us. This issue is certainly considered 
relevant, given the nature of Special Operations missions and the value 
that people of different races, backgrounds, cultures, and language 
skills can bring to SOF units. During the period September 1994 to 
September 2001, minority representation in Army Special Operations 
Forces grew from 11.6-15.1 percent, with all groups more or less 
showing equal growth.
    While women have made significant gains within the officer warfare 
communities, there was virtually no change in overall ethnic/race and 
female composition within Navy SOF over the same period. Gains within 
the Air Force SOF community mirror those of the Service, with the 
largest gains in the African American population. AFSOC minorities rose 
from 16.7-20.6 percent during this period. AFSOC has the highest 
representation of females in SOF due to their inclusion in fixed wing 
SOF aircraft.
    It is important to note that not all military personnel can meet 
the stringent requirements for joining SOF, and women have been barred 
from most SOF units due to the restrictions of combat exclusion. 
However, both SOF personnel and minorities polled outside our community 
voiced strong opposition to the establishment of quotas or devaluation 
of standards to achieve greater diversity. We are keenly aware of this 
issue and monitor it closely. It remains an item of special interest 
for SOF component commanders. Gains in this area, though not 
significant, have been realized and show a positive trend.
    Some other issues that have continued to be of concern to SOF over 
the past year are addressed below.:
    Mobility: We must guarantee the SOF Air Force component rotary-wing 
capabilities remain secure until a replacement aircraft (CV-22) with 
the required capabilities is fielded. We recommend re-capitalizing our 
MH-53 helicopters with modifications to ensure airworthiness and 
defensive system capabilities to fly in the threat environments of the 
future, well beyond the currently scheduled retirement date of 2007.
    CV-22: The CV-22 may seem like a long-range issue, but it is one we 
need to keep our eyes on. Extending the MH-53 helicopter force 
structure to fill the capability gap created by the CV-22 program slip 
is a temporary solution. The command is committed to the CV-22 and the 
unique capabilities it will bring to the fight. The long-range, high 
speed, vertical lift CV-22 fills a long-standing SOF mission 
requirement not met by any other existing fixed or rotary wing 
platform.
    MH-47E/60K. Our limited fleet of Army Special Operations Aviation 
assets must also be closely monitored. We are concerned about the 
battle-damaged and destroyed aircraft now missing from this fleet and 
how quickly they can be recapitalized.
    ASDS: The Advanced SEAL Delivery System (ASDS) is a specially 
designed combatant submarine that will provide clandestine undersea 
mobility for SOF personnel and their mission support equipment. The 
ASDS is capable of operating in a wide range of environmental extremes 
and threat environments, providing increased range, payload capacity, 
robust communications, loiter capability, and protection of SOF 
personnel from the elements during transit. The ASDS provides a quantum 
leap in our undersea mobility capability.
    USSOCOM is closely linked with the Navy in support of the SSGN 
Trident conversions, which will provide a host platform for Navy SEALs 
to conduct their crucial maritime missions. SOF may also require afloat 
staging bases to provide operational presence in international waters 
during periods of potential conflict or in the initial phases of combat 
operations.
    Transformation: USSOCOM's approach to transformation is an 
integrated conceptual, organizational, and process based. It provides 
an effective yet efficient framework for SOF to institutionalize change 
and ensure SOF is prepared to meet future challenges.
    USSOCOM is institutionalizing a Long-Range Planning Process (LRPP) 
which will provide the systemic programmatic methodology for applying 
resources towards transformation. The LRPP will provide the required 
cyclic senior level review and assessment of SOF transformation 
azimuths and power settings to ensure that SOF transformation is 
properly funded. USSOCOM is committed to transformation, the tenets of 
Joint Vision 2020, and to ensuring SOF remains a full spectrum force.
    Transformation Roadmap. At the direction of the SECDEF, USSOCOM, 
the Services, and the Defense Agencies are developing Transformation 
Roadmaps that will establish the way markers for each respective 
transformation efforts. The USSOCOM roadmap will integrate the 
transformation efforts of Army, Navy, and Air Force SOF with emerging 
revolutionary technologies such as the CV-22, the Advanced SEAL 
Delivery System (ASDS), the SSGN (Trident Conversion), and the SOF 
Information Enterprise (SIE). These integration efforts will ensure 
that USSOCOM always provides the best trained and equipped SOF in the 
world. Additionally, this roadmap will be the keystone for linking 
SOCOM transformation efforts with the Services.
    Military Construction Investment Program: Lastly and related to 
readiness, quality force, and effectiveness is our continuing need to 
modernize the infrastructure that supports our SOF capabilities. Our 
military construction investment program directly contributes to the 
training, readiness and operational capabilities of our Special 
Operations Forces. Separate from the SOF budget, the Services provide 
quality family housing, barracks and community support facilities for 
our forces and their families. We applaud Congress' support for these 
programs to enhance the quality of life for all soldiers, sailors, 
airmen, and marines.
                               conclusion
    As USSOCOM moves into the 21st century, we are evolving to meet 
future challenges and sustain the relative capability advantage we 
enjoy today. USSOCOM is already considering new and innovative methods 
of assessing and developing people; is debating possible changes in 
doctrine, roles, missions, and force structure; is preparing an 
investment plan for modernization and streamlined acquisition that 
leverage the Revolution in Military Affairs and Business Affairs; and 
is examining new operational concepts for the conduct of special 
operations in future environments. USSOCOM is meeting this challenge; 
transitioning from a traditional military staff to an Information Age 
staff that is matrix-shaped around core functions more flexible and 
better postured to resource and support global SOF requirements.
    We cannot know with certainty who our foes will be or precisely 
what demands will be placed on us in the future. However, in a time of 
both uncertainty and opportunity, USSOCOM will continue to provide our 
Nation with the means special capabilities to protect our interests and 
promote a peace that benefits America and the democratic ideals that we 
cherish.

    Senator Landrieu. Thank you, General.
    Mr. Schulte.

 STATEMENT OF HARRY E. SCHULTE, ACQUISITION EXECUTIVE, SPECIAL 
   OPERATIONS ACQUISITION AND LOGISTICS CENTER, U.S. SPECIAL 
                       OPERATIONS COMMAND

    Mr. Schulte. Thank you, Madam Chairman. It is an honor and 
a privilege to report to you on the topic of Special Operations 
Forces acquisition and technology.
    Congress, through Title 10 U.S. Code, chapter 6, section 
167, empowered the USSOCOM to develop and acquire Special 
Operations-peculiar equipment, material, and services. We have 
implemented streamlined and cost effective processes to provide 
our SOF soldiers, sailors, and airmen with the technology and 
equipment they need to execute their warfighting and 
peacekeeping missions.
    Our fundamental acquisition philosophy in USSOCOM is to 
field in an expedited manner an 80 percent solution while 
working with our warfighters and industry to address the 
remaining 20 percent of the requirement. We leverage the three 
services, the Defense Advanced Research Project Agency (DARPA), 
the Department of Energy, and other agency research and 
development programs to look for technologies to apply to our 
SOF warfighter needs. We survey industry and use a buy and try 
approach for government and commercial off-the-shelf items. Our 
warfighters perform early user evaluations of these potential 
systems, then we modify, test and field acceptable products.
    We enjoy an exceptionally close working relationship with 
our SOF operational users. They are willing and anxious to 
accept a timely increase in capability provided by an 80 
percent solution and their high state of training and 
experience enables us to accept risk in our fielding decisions. 
This process enables USSOCOM to shorten the typical acquisition 
cycle and rapidly insert technology to provide our SOF-critical 
warfighting advantages.
    The acquisition organization's collocation with 
headquarters USSOCOM, daily contact with our warfighters, our 
relatively small size and short decision cycles, and the 
support we receive from the services, the Department of Defense 
and Congress are major contributing factors to our 
effectiveness.
    I will briefly discuss the acquisition of one of our recent 
successes, the Multi-Band Inter-Team Radio (MBITR), which I am 
holding in my hand right now. The MBITR is currently fielded 
with our Special Operations Forces in Afghanistan. The MBITR 
acquisition program was completed in less than 3 years. This 
significant acquisition timeline compression was accomplished 
primarily because of the close government, industry, and 
operational user relationships established very early in the 
program.
    Dialogue between the program office and candidate 
developers led to definition of suitable technologies to 
satisfy the MBITR requirements. A competitive cost-sharing 
development contract with production options was awarded to 
Thales Communications of Clarksburg, Maryland. USSOCOM accepted 
cost accountability for the management and the contractor 
assumed the risk for the functional design, including the 
software.
    After contract award, contractor, operational users, and 
other government agencies participated in a joint integrated 
product team. This team ensured strict adherence to multi-
service customer requirements, interoperability standards, and 
joint technical architecture. USSOCOM used extensive early user 
evaluations of prototype radios to eliminate any test incidents 
that you would normally find later on in operational test and 
evaluation (OT&E). Prototype radios were released to the Joint 
Interoperability Test Center, Navy Special Warfare, and Marine 
Corps force reconnaissance units for evaluation in mission 
scenarios.
    The evaluators employed the MBITR in diving, high altitude 
parachuting, and ground operations. During these evaluations, 
the contractor was allowed full visibility, thereby shortening 
the development learning curve and facilitating rapid 
modification of these test articles prior to formal OT&E. The 
close working relationship among program stakeholders minimizes 
the acquisition cycle time and produced a top-notch product for 
the warfighter.
    It turns out MBITR replaces six to nine other radios. You 
will see some of them sitting on a table over your left 
shoulder, basically radios that are talking from ground to 
air--three or four different kind of radios from ground to 
air--and also ground to ground communications.
    Over 8,000 MBITR radios have been fielded to SOF, other 
service users, and coalition users at this time. Our 
warfighters in Afghanistan report that this new radio is 
proving to be exceptionally effective in joint operational 
requirements.
    I want to thank the committee for the support that you have 
provided USSOCOM for the MBITR program over the last few years.
    Madam Chairman, with your consent I will conclude my 
remarks at this point and submit my remaining statement for the 
record.
    [The prepared statement of Mr. Schulte follows:]
                 Prepared Statement by Harry E. Schulte
    I'm Harry Schulte, Acquisition Executive for the United States 
Special Operations Command (USSOCOM). It is an honor and a privilege to 
report to you on the topic of Special Operations Forces (SOF) 
acquisition and technology. Congress, through Title 10 U.S. Code, 
Chapter 6, Section 167, empowered the USSOCOM to develop and acquire 
Special Operations-peculiar equipment, material, and services. We have 
implemented streamlined and cost effective processes to provide our SOF 
soldiers, sailors, and airmen with the technology and equipment they 
need to execute their warfighting and peacekeeping missions.
    Our fundamental acquisition philosophy in USSOCOM is to field, in 
an expedited manner, an 80 percent solution while working with our 
warfighters and industry to address the remaining 20 percent of the 
requirement. We leverage the three Services, Defense Advanced Research 
Projects Agency (DARPA), Department of Energy (DOE), and other agency 
research and development programs to look for technology to apply to 
our SOF warfighter needs. We survey industry and use a ``buy and try'' 
approach for government and commercial off-the-shelf items. Our 
warfighters perform early user evaluations of these potential systems; 
then we modify, test and field acceptable products. We enjoy an 
exceptionally close working relationship with our SOF operational 
users. They are willing and anxious to accept the timely increase in 
capability provided by the 80 percent solution, and their high state of 
training and experience enables us to accept risk in our fielding 
decisions. This process enables USSOCOM to shorten the typical 
acquisition cycle and rapidly insert technology to provide our SOF 
critical warfighting advantages. The acquisition organization's 
collocation with headquarters USSOCOM, daily contact with our 
warfighters, our relatively small size and short decision cycles, and 
the support we receive from the Services, Department of Defense and 
Congress are major contributing factors to our effectiveness.
                      acquisition process example
    I will briefly discuss the acquisition process for one of our 
recent successes, the Multi-Band Inter/Intra Team Radio (MBITR). The 
MBITR is currently fielded with our Special Operations force in 
Afghanistan. The MBITR acquisition program was completed in less than 3 
years. The significant acquisition timeline compression was 
accomplished primarily because of the close government, industry, and 
operational user relationships established early in the program. Dialog 
between the program office and candidate developers led to definition 
of suitable technologies to satisfy MBITR requirements. A competitive, 
cost sharing development contract with production options was awarded 
to Thales Communications, Inc., of Clarksburg, Maryland. USSOCOM 
accepted cost accountability for management and the contractor assumed 
total risk for the functional design.
    After contract award, the contractor, operational users and other 
Government agencies participated in a joint Integrated Product Team 
(IPT). The IPT ensured strict adherence to multi-service customer 
requirements, interoperability standards, and the joint technical 
architecture. USSOCOM used extensive early user evaluation of prototype 
radios to limit test incidents typically experienced in Operational 
Test and Evaluation (OT&E). Prototype radios were released to the Joint 
Interoperability Test Center (JITC), Navy Special Warfare and Marine 
Corps Force Reconnaissance units for evaluation in mission scenarios. 
The evaluators employed the MBITR in diving, high altitude parachute, 
and ground operations. During these evaluations, the contractor was 
allowed full visibility, thereby shortening the development learning 
curve and facilitating rapid modification of the test articles prior to 
OT&E. The close working relationship among program stakeholders 
minimized acquisition cycle time and produced a topnotch product.
    Over 8,000 MBITR radios have been fielded to SOF, other service 
users and coalition users. Our warfighters in Afghanistan report this 
new radio is proving to be exceptionally effective in the joint 
operations environment.
                             our challenge
    Although our people are certainly SOF's most important asset, 
maintaining and improving materiel capabilities remains SOF's most 
difficult challenge. SOF must keep its equipment up to date, while 
keeping the cost for sustaining its warfighting systems under control. 
SOF depends on leading-edge technology to provide the critical 
advantage and to support participation in a growing number of 
technologically complex missions and operations. Our challenge is to 
find ways to modernize or sustain legacy systems when it makes sense, 
while developing technological bridges with our industry, service, 
interagency, and international partners.
    I will now briefly discuss our Urgent Deployment Acquisition (UDA) 
process and a few of the standout technologies used in Operation 
Enduring Freedom. Then, I'll discuss how we invested Defense Emergency 
Response Funds (DERF); what's new in the budget and, promising 
technologies for the future.
                       operation enduring freedom
    Our current top priority is supporting Special Operations Forces 
engaged in Operation Enduring Freedom. We have implemented processes to 
identify, validate, and rapidly acquire Special Operations--peculiar 
materiel solutions to emerging requirements of our SOF warfighters. The 
regional CINCs forward Combat-Mission Needs Statements (C-MNS) to 
USSOCOM. The USSOCOM staff forms a rapid response team to validate the 
mission need and develop a plan of action. This team provides their 
recommendation to our Deputy CINC within 48 hours. When the DCINC 
approves a C-MNS, resources are identified, and I initiate a program to 
address the warfighter's need. Our streamlined acquisition procedures 
are further streamlined as fielding warfighter C-MNS solutions is our 
top priority. These UDA programs are yielding exceptionally positive 
results. I'll briefly highlight three of them.
    Laser Targeting Devices. In 7 days we were able to contract, 
acquire, and deliver into the area of operations an initial operating 
quantity of new technology laser targeting devices. These binocular-
like electro-optical devices are being used by SOF ground forces to 
observe and precisely measure the three-dimensional coordinates of 
distant targets such as cave entrances. Through our joint 
communications systems, our forces on the ground relay those 
coordinates to Air Force and Navy flight crews for delivery of 
precision guided munitions. This system has proven to be a significant 
combat multiplier.
    Aerial Leaflet Delivery Bomb. We are fielding an aerial bomb 
leaflet delivery system for deployment of PSYOP leaflets by F-16 and F-
18 fighter aircraft. At the request of CINCCENT, we initiated the 
project in October and will accomplish an initial operating capability 
in theater later this month.
    Man-portable UAVs. Unmanned aerial vehicles (UAV) are providing 
significant capabilities and value. Technology has matured to the point 
where man-portable UAVs can provide ground forces an organic capability 
to remotely conduct local reconnaissance and surveillance missions. 
This capability will allow operators in small teams to look over the 
next hill and assess enemy activity and avoid unplanned engagements 
with larger enemy forces. We are continuing to explore sensor and 
miniaturization technologies to enhance this combat multiplier.
                    defense emergency response funds
    In response to the September 11 terrorist attack, the Secretary of 
Defense authorized Defense Emergency Response Fund (DERF) obligation 
authority to resource immediate requirements. These critically needed 
funds are used to resource our urgent deployment acquisitions and 
accelerate current programs prioritized by Theater Special Operations 
Commands and USSOCOM Component Commanders. Some of these DERF programs 
are:

    Night Vision Electro-optical Equipment. SOF enjoys a decided 
advantage in this area . . . it has been said, on numerous occasions, 
``SOF owns the night.'' While this is currently true, similar 
commercial technology is becoming readily available throughout the 
world and it is very likely that our ``ownership of the night'' will 
erode over time unless we continue to push the envelope. More 
importantly, we need to carefully control release of our technologies 
to other countries and keep pushing the envelope on precision laser 
targeting, thermal imaging, thermal weapon sights, and night vision 
device technologies.
    Aircraft Survivability and Capability Enhancements. Accelerated 
efforts include directional infrared countermeasures, enhanced 
situational awareness, and several MH-53 sustainment modifications. To 
enhance AC-130 Gunship capabilities, the Air Force recently integrated 
a capability to allow direct real time streaming of Predator UAV video 
data to the gunship. This rapid technology insertion improved gunship 
effectiveness by shortening the engagement chain, enabling our crews to 
place fire and steel precisely on target in a very short time.

    Other DERF efforts include: deployable secure local area networks; 
blue force tracking devices; all terrain vehicles; remote observation 
sensors; U.S. rifles modified to fire foreign ammunition; standoff 
explosive detection systems; man-portable chemical decontamination 
equipment; joint interoperable SOF radios; body armor; lightweight 
environmental protection combat uniforms; and, joint threat warning 
systems for operators and platforms.
    As we expand to other areas in our global war on terrorism, USSOCOM 
will continue to acquire technologies that provide our forces the 
ability to fight and win in varied environments. We have the process in 
place to accomplish this task.
                        what's new in the budget
    Key transformation initiatives in our budget focus on air and 
underwater capabilities to infiltrate and exfiltrate SOF into denied 
areas and survivability of our platforms and forces. Our flagship 
programs continue to be the CV-22 Osprey and Advanced SEAL Delivery 
System. Other major initiatives are: maintaining our MH-53 fleet 
through fiscal year 2007; a 20 year service life extension program for 
the MH-47; enhancing psychological operations capabilities; adding up 
to 4 AC-130Us to our fleet of gunships; development of a directed 
energy weapon for the gunship; and multiple programs to enhance SOF 
aircraft survivability.
                      technologies for the future
    On the horizon we see promising technologies maturing that will 
help keep SOF on the cutting edge. USSOCOM is working closely with 
industry, labs, and academia to insert those into our technology thrust 
areas: signature reduction; high bandwidth/reachback communications; 
underwater communications; unmanned systems; batteries/fuel cells; 
remote sensing; advanced training systems; bioengineering; and, 
directed energy weapons. These thrust areas address the technology gaps 
we see and offer USSOCOM the greatest opportunity for technological 
payoff.
                               conclusion
    The DERF resources you provided enabled USSOCOM to rapidly acquire 
and deliver high technology products to our deployed forces that made 
an immediate difference. Without DERF, and the flexibility it gives us, 
many of our urgent deployment acquisitions, which have proven to be 
effective combat multipliers in Afghanistan, would still be program 
plans awaiting approval and resourcing.
    USSOCOM has worked hard to wisely use its modernization resources 
to sustain systems when it makes sense, to integrate new technologies 
into legacy systems, and to acquire new technically advanced systems 
that are enabling our combatant CINCs to win the war on terrorism. We 
intend to continue our focus on modernization and transformation 
challenges to ensure our ability to rapidly adapt to changes in 
technology, the operational environment, and ensure we always provide 
our SOF operators with the decisive advantage.

    Senator Landrieu. Thank you, Mr. Schulte.
    The Senator and I were just discussing, since that radio 
has worked so well on the battlefield, perhaps we might use it 
to communicate better in Congress. We need all the help we can 
get up here.
    But I am glad you raised that issue because I wanted to say 
before I get to my questions that I am very proud of the action 
of this committee last year that plussed up your budget for 
those radios. I hope that the cameras could actually get a good 
shot of that radio that you have in your hand and what it 
replaced.
    But it is not just the equipment that it replaced. It is 
the lives it saved, the confidence it has built, the bravery 
that it encouraged because people could go into a battle 
relying on their equipment, knowing that they could operate as 
they have been trained. So it was not a lot of money, $14 
million, but it was an important investment. I think that is 
what Senator Roberts and I want to convey, that it is not just 
the amount of money, but it is the way it is directed into what 
you would say is a relatively simple, yet revolutionary idea. 
That actual people on a battlefield could really communicate to 
each other. So I think that is a good lesson for us and for our 
staff to see, and I thank you for bringing that up.
    Mr. Schulte. Thank you.
    Senator Landrieu. Let me start then with my first question. 
We will go through this in rather an informal way, but we do 
have quite a few questions we want to get on the record.
    General, you mentioned in your opening statement that we 
have given you the tools, or the predecessors of this committee 
gave you the tools, to do your job. What are the most useful 
tools in your toolbox? If you could just restate for the record 
again so that we can continue to give you more of those kinds 
of tools and not burden you with things that do not work.
    General Holland. Madam Chairman, to really answer that 
question I could probably go through an exhaustive list. But 
just let me go back onto what we just talked about, the MBITR, 
because MBITR is a great example. The Operational Detachment 
Alpha commander made a comment: It did not matter what he wore, 
as long as he had a good radio he would be successful. Because 
of the support that we got from Congress last year, our people 
have that in their hands.
    This is all about equipping the man, not manning the 
equipment. In our business what we try to make sure of is that 
our people who go out forward, we ensure that they have the 
right equipment to be successful. That is not only to include 
what they need from an intelligence perspective, but it is also 
the weapon and it is also the mobility platform that will take 
them into that part of the battle.
    It is a very comprehensive list of items that we need, and 
we would look forward very much to having you come and visit 
and see up close and personal the type of equipment that we 
talk about.
    Senator Landrieu. Our committee is looking forward to that. 
We are scheduled, in just a few weeks to get that done. Would 
you also argue that it is the discretion that you have within 
your budget, or the special designation of your budget, that 
allows you to sort of plus-up or step-up and coordinate and 
integrate to achieve a result that you have just shown us? Is 
that part of the method or mechanics that helps you to be as 
successful as you obviously are?
    General Holland. Yes, ma'am. I think you hit the nail on 
the head. It is our opportunity that when we see the mission 
need statement that comes in from our people that are forward--
and during the war in Afghanistan on Operation Enduring Freedom 
we have had a dozen or so requirements that have come to us--as 
those requirements come into our headquarters, we have a way to 
rapidly turn those around.
    In the statement for the record that Mr. Schulte has 
provided to the subcommittee, it gives those examples of how we 
can rapidly meet the requirement of our people in the field. 
That is what this is all about. It is the timeliness, it is the 
ability to affect the outcome. Obviously, we want to stay on 
the inside of the decision cycle of the enemy. Because we have 
the money, Major Force Program 11, to be able to accomplish 
those tasks, that is what continues to steady us, to keep us on 
the forefront in our war against terrorism.
    Senator Landrieu. Let me back up if I could to a broader 
question. This was also addressed to some degree in your 
opening statement. But SOF's Command Publication-1 it states 
that, ``Special Ops must select emerging targets or threats 
that either cannot be engaged effectively by conventional 
forces or be dealt with better by small, highly specialized 
units. Similarly, as conventional forces add capabilities and 
become able to attack targets that previously belonged solely 
to SOF, Special Operations units must re-orient themselves 
toward targets that will be vulnerable to their special 
capabilities.''
    Given this most recent experience--and we are continuing to 
experience it daily--what missions do you believe should now be 
moved to conventional forces, if any? Where does Special Ops 
need to further improve their capabilities? Could you just give 
us a little bit more on the record about that integration?
    Senator Roberts had indicated this is about your future 
vision, based--and building--on the experiences that we have. 
How is this integration between Special Ops and conventional 
going to work in the future, do you think, General?
    General Holland. To answer the question, I think the first 
statement I would make is obviously that people are very 
important in this equation. When we reflect back on Operation 
Enduring Freedom and we think about our people who first went 
forward into Afghanistan, the global scout, the ability of our 
people to go into a strange country, to understand the 
language, to understand the culture, to be able to develop a 
trust and confidence with someone from an opposition group, 
that to me is something that we continue to need to steady our 
focus.
    That aspect of it will continue to be very key. Now, the 
other aspects, as we continue on into the process, we have to 
determine where those capabilities are in the services. This is 
a comment that we had in our earlier discussion, that we work 
very closely with the Army, the Air Force, and the Navy. We 
have recently just signed a memo of agreement with the Marine 
Corps, to establish what capabilities we have in Special 
Operations Forces and what the capabilities are that exist 
within each of the services and where can we build the bridge, 
where can we sew the seam.
    It is those capabilities that will allow our Special 
Operations people to then come off of that particular mission, 
turn it over to the conventional forces, which allows our 
people to come back, retool, refit, retrain, rehearse, and get 
ready for the next operation. It is not necessarily all about 
more; it is really about how we can exploit the capabilities 
that we have, not only within SOF, but also within the 
services, so that we can better come together on the 
battlefield and be mutually supportive of each other.
    Senator Landrieu. That is helpful.
    Let me get back to a question about research and 
development. The budget has been plussed-up in a fairly 
significant way from last year to this year. Special Ops still 
remains, however, despite the very significant budget request 
for an increase in defense spending, only 1.3 percent of the 
total budget. It was 1.3 percent 3 years ago and it has 
maintained that flat. Although the dollar amounts have gone up, 
the position has remained rather constant.
    Under that flat 1.3 percent, our research and development 
effort seems to be slightly decreased. I do not know if either 
one of you might want to comment about any concerns you would 
have about that, what sort of promising research and technology 
do you think that is fairly urgent, given our current 
experiences and what the likely threats are out there? Is there 
something that our committee should know about where we can try 
to help you?
    General Holland. Madam Chairman, let me take the first part 
of the question. Then I would like to turn it over to Mr. 
Schulte for him to talk about what those plus-ups actually 
mean.
    Think about our 2002 budget, which was about $4 billion, 
and our 2003 budget which is $4.9 billion. Now, the personnel 
account and the operation and maintenance (O&M) account 
basically have stayed about the same. Of course, we have gotten 
additional money to help out on those additional deployments 
that were not part of the plan. However, where the big increase 
has been is in our modernization account, and that is what is 
key.
    That key is really what I would like to have Mr. Schulte 
explain, because that is what gives us these tools that we 
talked about into the hands of our operators that go forward.
    Mr. Schulte. Yes, ma'am. I am looking at the numbers 
between fiscal year 2002 and fiscal year 2003 for the budget. 
Our research and development (R&D) numbers did go up about 10 
percent. Our request is about 10 percent higher than it was in 
2002, to about $430 million for R&D. But the big increase, as 
the CINC said, has gone to procurement. We are up about $350 
million in procurement. In the short-term, that is where our 
problem is.
    We have developed some systems over the last few years that 
we have not had the procurement money to buy out the inventory 
objective. This is going to help us do that kind of thing. For 
instance, with the help that your committee provided last year 
we were able to buy a lot of the MBITR radios with some of the 
funds that just came in, quite frankly, in February, I think. 
We have them all on contract now. So every MBITR radio, all 
10,000 of them that we required, is on contract basically now 
and we will have them delivered out probably in 12 months, 
something like that.
    This procurement money is going to help us buy out a lot of 
things that we have been buying in small quantities and handing 
out to the guys as we got them. This is really going to help 
quite a bit.
    But let me get back to your R&D question. We are up a 
little bit on R&D in 2003. We are happy about that. The kinds 
of things that we are looking at, the kind of areas we are 
trying to get into in R&D a little bit more, are the area of 
signature reduction, not just for platforms like aircraft or 
even boats, but individual signature reductions for the 
individual soldier. High bandwidth communications is important 
to everybody in DOD and this is important to USSOCOM, 
especially if we have somebody forward and there are 
observation posts or the like and we need high bandwidth to 
bring the data back to the command center.
    One of the big increases in the budget in 2003 is for 
directed energy. The Advanced Tactical Laser Advanced Concept 
Technology Demo (ACTD) has been moved into the USSOCOM account 
beginning in 2003. We will be managing that Advanced Tactical 
Laser ACTD starting next year, basically I think because the 
ultimate user if that technology were to pan out, would be 
something like a future gunship. So the Department moved the 
money over to USSOCOM starting next year. That was where you 
had some of the increase in the account, too.
    So we have a number of things like remote sensing that we 
are looking at. More research in batteries and fuel cells, 
which is very important to the soldier. The batteries--no 
matter how good your batteries are, they are never as good as 
you would like them to be. You would like them to last longer, 
you would like them to be lighter, you do not want to carry as 
many as you have to carry. If you are carrying batteries, you 
are not carrying water or food or ammunition, all of which are 
very important to the soldier.
    Unmanned systems, we are looking at some very simple 
unmanned systems that are man-packable, something you can put 
in a rucksack and a guy can carry and then maybe hand-launch 
and it would go over the next hill with some video and take a 
look at what is over the next hill, those kinds of things.
    Those are the areas that we are focusing on with our R&D 
money. We basically have taken all the SOF requirements and 
boiled them down into these thrust areas.
    One of the things I would like to bring up just quickly is 
that there is a conference going on, it actually started today. 
It was co-sponsored by DARPA and USSOCOM, called ``Scientists 
Helping America.'' I spoke at the conference this morning. The 
idea was to go after scientists from industry and academia that 
maybe are nontraditional R&D people as far as the government is 
concerned. Many of these people have never worked with the 
government before, and yet there are some great ideas out 
there.
    Basically, I went down nine technology thrust areas that 
are needs in the command and set them up, and they are going to 
break into nine different seminars to come up with ideas on how 
they would solve this kind of thing and then come back to us. 
So we are working these nine thrust areas very hard and that is 
where the plus-up in R&D will help us, work some of these 
areas.
    Senator Landrieu. Thank you, Mr. Schulte. I am very happy 
to hear about that conference you spoke about. There was a 
tremendous amount of discussion in our systems last year in 
terms of trying to get better technology quicker to the 
Pentagon, to get it working on the battlefield, by going 
through nonconventional methods. We never could agree between 
the House and the Senate about how to do that. So perhaps you 
can give us some good ideas this year about that.
    My time has expired.
    Senator Roberts.
    Senator Roberts. One thing I wanted to do is go over again 
what the General has indicated are SOF truths in your 
testimony. Number 1, humans are more important than hardware; 
number 2, quality is more important than quantity; number 3, 
Special Operations Forces cannot be mass produced; and number 
4, competent Special Operations Forces cannot be created after 
an emergency occurs.
    I think the message we take away from these truths agrees 
with that of the chairman's testimony to the Armed Services 
Committee here just a short time ago.
    During his recent testimony before the full committee, the 
Commandant of the Marine Corps, General Jim Jones, testified he 
had signed an agreement with you folks that would greatly 
expand the cooperation and interaction between the Marines and 
Special Operations Forces. You have referred to that in your 
testimony. In what areas do you anticipate increased 
cooperation?
    The second part of that is, there have been marines 
assigned to headquarters elements of the Special Operations 
Command, but there is not a marine component of USSOCOM. Should 
SOCOM have a marine component? That is a question from an old 
marine, but go ahead. [Laughter.]
    General Holland. OK, sir. Can I start with your first part 
of your question?
    Senator Roberts. Certainly.
    General Holland. I think the agreement that General Jones 
and I signed, the important part, is to ensure that the Marine 
Corps and Special Operations are, in fact, coordinating in 
those areas where we really need to be coordinating. Example: 
The amphibious readiness group (ARG). As they depart and go to 
sea, before they depart we need to have a sharing of 
information, their capabilities, where they are going to be, so 
that we have that in a plan in case something happens, so we 
understand that there could be mutual support that would be 
provided wherever that location would be.
    The second part is, once the ARG gets into a theater we 
have the theater Special Operations Commands. Say, if it were 
going into the Mediterranean, then to have a Special Operations 
Command Europe (SOCEUR) liaison officer interface with the 
commander to ensure that they each give updates on, number one, 
the marine capability that they have with the ARG and the 
Marine Expeditionary Unit Special Operations Capability 
(MEUSOC) as it comes into location, but also to have the SOCEUR 
staff brief them on where they see potential hot spots in that 
particular area. There can also be a sharing of intelligence on 
what it is that each could be expected to do.
    The next piece that we discussed was acquisition. There are 
a lot of things that Mr. Schulte works within our office that 
we need to be sharing with those people who would have people 
employed in similar circumstances.
    Senator Roberts. Do you mean that the United States Marine 
Corps, that bailing wire outfit that I served in, could have 
equal access to a radio like that?
    Mr. Schulte. They do, sir.
    Senator Roberts. Not haul 200 pounds of batteries around 
with this outfit back here?
    Mr. Schulte. The Marine Corps is buying the MBITR, sir, not 
our contract.
    Senator Roberts. They do not have that radio now, or do 
they have that radio now?
    Mr. Schulte. Some of them do. There are some radios in the 
Marine Corps now.
    Senator Roberts. So certain units do have that radio? What 
about the Tenth Mountain Division in the Army?
    Mr. Schulte. I do not think so.
    Senator Roberts. But that is the kind of blueprint that you 
are talking about under that jointness doctrine you are 
developing?
    Mr. Schulte. Yes, sir.
    General Holland. Then the other part that is important is 
that we look to our future, and both of us have a future as we 
look at tilt-rotor technology. As the CV-22 and the MV-22 come 
into our inventory, there are going to be a lot of areas where 
we will need to be sharing.
    Just over in Afghanistan, as we are talking about what we 
have been accomplishing together, they have KC-130s, they have 
Marine helicopters, and we are also seeing that there are many 
areas that, even when you get to the crisis----
    Senator Roberts. Very old helicopters, I might add.
    General Holland. --the joint task force commander is going 
to take a look at what resources are available and how can he 
put them together in such a manner so that they can be 
successful on the target. What it is going to take is for a 
mutual understanding of what each other's capabilities are and 
then to see what is that next step.
    I have people on our staff that are working closely with 
General Jones' staff and we are going to be getting together 
later in the year to go over some of these initiatives that I 
just talked about.
    Senator Roberts. Now, you do not have a warfighting lab per 
se. I know the Marines got into that several years ago at my 
and some others on the committee's insistence. I suppose this 
is for Mr. Schulte, but the subcommittee is concerned about the 
Department of Defense's ability to effectively transition 
technology from the lab to the warfighter, and your statement 
reflects that and your response, General, also reflects that. 
Special Operations Command appears to be unbelievably 
successful, from the standpoint of a marine, at finding 
technological solutions and quickly applying them in the field.
    My series of questions were these and you can just sum up: 
What lessons learned from your transition success can be shared 
with other services? You have already spoken to that, because 
now we are trying to share that information.
    How is the effectiveness or ineffectiveness of a new system 
basically communicated back to the Special Operations Command? 
What works, what does not? Does a similar communication 
mechanism exist for informing the services about any particular 
systems which they are also working on? It is a two-way street.
    Would you care to comment?
    Mr. Schulte. I think I appreciate the comment that we have 
been successful in transitioning technology. I would not tell 
anyone whether we are better than the services or not on this, 
but it is a little different. The services start with basic 
research and basic research takes a while before it comes up 
with the technology and then eventually leads into a product, 
kind of the front-end of the process.
    Well, a little bit on the front-end of the process, I have 
to admit we cherry-pick. We are looking across the Air Force, 
the Navy, the Army, the Department of Energy, DARPA, and 
anybody else we can find, for promising technologies that are 
going to solve an itch that we have. We will jump in when we 
think there is something ready to prototype or something ready 
to----
    Senator Roberts. You could buy off-the-shelf.
    Mr. Schulte. We can go to any of those places and we can 
get whatever we need. So the front-end of the process might 
look a little bit shorter because we kind of wait to see for 
the promising things that are a little bit farther along. I am 
not looking necessarily 10 or 12 years out. I am looking maybe 
a year or 2 years out where I can take something and get it 
into a product for the warfighter in the near-term.
    Senator Roberts. Well, 10 or 12 years out you may not need 
it.
    Mr. Schulte. That is exactly right, sir.
    The front-end is we jump in a little bit later and take 
advantage of what the other services have done. The back-end of 
the process is, how do we get it to the warfighter? What helps 
is that we have a very close relationship with the warfighter. 
USSOCOM is relatively small. We work very closely with these 
units and we get them involved at the very beginning in the 
acquisition process.
    So we will get something prototyped, we will get it to the 
guys at Fort Bragg. They will take it out to the field. They 
are very, very candid about what they like and what they do not 
like about equipment, and we will get that turned around and we 
will get it back. So you get very rapid feedback and you can 
get things to the field a lot quicker.
    Senator Roberts. See what you can do about a new microphone 
while you are at it.
    Senator Landrieu. It was such a good idea it blew the 
system.
    Senator Roberts. I think the chairman has a question here.
    Senator Landrieu. It is not a question; I just want to 
interject. I really hope that Senator Roberts and I continue to 
work as a good and effective team and accomplish many things. 
If there could be one thing that we could really make a 
contribution to, it would be on this point. We sit on a variety 
of subcommittees and I think to zero it down--Special Ops seems 
to be very sort of customer-focused in the sense that your 
customers are your warfighters. You ask them what they need, 
what they want, and then you just do your best to get it to 
them.
    If you can get it through traditional R&D through the 
Department, that is great. If you can go to a store and buy it 
off-the-shelf, whatever they need. I wish, Senator--if we had 
more of that attitude, in this Senator's opinion, throughout 
the whole Department, I think we would be better served. Not to 
be overly critical, but just to raise the point that there are 
better ways, and you are really showing us a better way and I 
just wanted, Senator, to interject that. But I do not want to 
take your time.
    Senator Roberts. Well, we have enough time here with the 
stunning attendance that we have here to ask any questions that 
we have.
    This may or may not be an accurate analogy, but it is my 
prejudice, so bear with me. Staff and myself, others, attended 
an exercise with the Marine Corps out in Monterey, as I recall, 
called Urban Warrior. The exercise was based on the new 
doctrine that General Charles Krulak gave, the former 
Commandant, who could give quite a lecture on asymmetrical 
warfare and the warfare of the future. I hope everybody paid 
attention. I know I did and others did as well.
    I was trying to figure out as these marines were conducting 
an exercise, and it was about 85 degrees, and they were still 
carrying 75-80 pounds worth of gear, slugging along with the 
little squatty bodies in the rear, just panting away, carrying 
batteries for this kind of a radio. We were trying to figure 
out from the warfighting lab standpoint, wait a minute. If this 
is the cutting edge, had it been 100 degrees you know what 
would have happened. There would have been about 50 pounds of 
gear on the ground.
    I asked one of the people who was a casualty--not a real 
casualty, obviously--how much gear are you wearing? Then I 
picked it up, old man that I am, and tried to put it on. The 
helmet, which you cannot sit on and you cannot cook in it and 
it is a little different, and you probably want to get it off 
your head if you are in the littoral and you are fighting in an 
urban arena and your opponent is wearing a ball cap, a Madonna 
tee shirt, and a pair of Nike tennis shoes. Sight, vision, it 
seemed to me was extremely important.
    It bugged me as to why we could not get more off-the-shelf 
equipment and get a marine that was truly a modern warfighter. 
Now, obviously at that particular time we did not have 9-11, we 
were not in Afghanistan, and we did not have the joint 
operations we have today. We were not sharing this so that 
radio can replace these batteries and this radio or at least 
you can communicate with them.
    Now, I am making a long-winded speech. Let me ask you, 
General, we were talking about the horseback cavalry and the 
members of your cavalry who were not quite as adjusted as the 
trail riders. They came from Texas to Abilene, Kansas, in 
regard to their skills on horseback, and the gear that they 
were wearing, and then the difference between the Afghan that 
was riding next to them at full gallop.
    Can you tell me sort of the difference there? Not that we 
are going to have a cavalry ride again, although you never 
know. But you see what I am driving at in terms of being a 
highly mobile, highly flexible unit, buying off-the-shelf for a 
specific mission that really demands a very unique kind of 
weaponry for the warfighter.
    General Holland. Yes, sir. That whole story is a great 
story to hear and we would look forward to giving that 
particular vignette to you in one of your future visits.
    But as you talk to our Special Operations soldiers that 
were on not only the horseback, but also had mules there to 
carry a lot of their equipment, one thing that did come from 
the opposition group was that they started realizing that 
things like radios and Special Operations Forces Laser 
Acquisition Markers (SOFLAMs) also could make the difference. 
So a lot of the equipment that our people carried, they soon 
realized the importance of what that equipment could do, 
especially if it could call in say B-52s, close air support, or 
the other fighters, both Marine, Navy, and other Air Force 
fighters.
    So the equipment is obviously something that we continue to 
look at. That is why we continue to look at what is the weight. 
That is why we continue to look at how can we get smaller 
batteries that last longer, because we have to continue to 
worry about what goes into the rucksack and how we can reduce 
that load.
    You talk about the temperatures. In Afghanistan look at the 
terrain. Most of all these operations that currently are 
ongoing are at 10,000 feet, so you are at 10,000 feet, heavily 
laden, rough terrain, and how do you maneuver? So this is 
something from a technology standpoint we need to continue to 
push, on how we can lighten the load of what our people carry 
and still be effective and accomplish the mission.
    I have to admit that at this point, yes, we are not there 
yet. But making sure that that soldier, sailor, airman, or 
marine have the right equipment will continue to be very 
important for all of us, to include our services.
    Senator Roberts. Well, we may not be there yet, but we are 
singing the same hymn in the same church pew.
    My time has expired. I am assuming we will rotate back and 
forth.
    Senator Landrieu. Yes, we will. We will go back and forth. 
But it is a very excellent line of questioning, and again we 
look forward to helping you to achieve that goal.
    Let me move from research and development back to one of 
the central truths, which I think is important, that people are 
the most important. General, if you could just elaborate on 
that essential truth in how can our committee best focus our 
efforts in terms of strengthening those people, helping improve 
the quality, supporting them, their families, those quality of 
life issues, and retention? Could you go on the record and 
elaborate in more specifics about how we could make that truth 
even more of a reality and support that truth?
    General Holland. Yes, Madam Chairman. The quality of life, 
I think that is important first. Both of you have made comments 
about the people that we have lost. Now, the people that we 
have lost have families and we think about their quality of 
life. The services have the responsibility to provide the 
quarters and all the different, support structure that we have 
at all the bases. Obviously we from Special Operations Command 
vigorously support the services in their endeavors to increase 
the quality of life for all of our people, regardless of where 
they are located, in which service.
    So any time that you see a quality of life, you can see the 
impact that it makes to that particular individual. It really 
makes an impact when that individual is deployed and he or she 
knows that their families are being taken care of with the 
right support structure, the right housing, the right pay, and 
that list goes on. The quality of life piece, obviously we all 
feel very strong about that, and that is the reason that we are 
able to retain people.
    There is a comment that we have often said, that we recruit 
the military member, but we retain the family. The people that 
we have in our business, these are not necessarily the people 
that just come in for a first term. They are people that are 
very well experienced. A lot of our Special Operations soldiers 
served in other units prior to coming into Special Forces. To 
have a seasoned Special Forces soldier takes usually about 8 to 
10 years.
    Unfortunately, when you think about Nate Chapman, he was 
the first military person that was killed by the enemy during 
Operation Enduring Freedom, who was 31 years old. You think 
about what Nate had accomplished up to that point he had served 
in Operation Just Cause, Operation Desert Storm, Haiti, and 
this was his fourth major operation.
    So the amount of investment that we make in training and 
the personnel cost, it is not something that you can really put 
a dollar figure on when these people are asked to go forward 
and to give that last full measure.
    Senator Landrieu. General, let me press this issue just a 
minute. I know that our men and women do not serve for the 
paycheck, which is obvious. But pay and compensation are 
important. Special Operators, since they go through such 
rigorous training--for every 50 applying and only 1 is 
accepted--are career people who have made this choice. It is 
really an extraordinary sacrifice and gift to the country. In 
your opinion, are we compensating them? Is there a 
differential, and if so, is it what you would see as 
appropriate?
    In the range of quality of life issues, is it the housing 
or the health care that the services provided to family 
members? Could you try to be a little bit more specific? I 
mean, we would like to do it all. Let me state for the record 
that I think the MILCON budget is flat, which is a lot of where 
this comes out of in terms of housing and construction, at 
least for that part of quality of life. So I would like to see 
some additional help there.
    Can you try to give us some more of your own personal views 
on that?
    General Holland. Well, one other comment that you made was 
about special pays. Our people, whether they are scuba or 
different types of qualifications, they do get additional pay. 
One thing that I have requested of my Command Master Chief Rick 
Rogers, who is sitting here behind me, is to get with all of 
the senior enlisted, the command chief master sergeant from the 
Air Force Special Operations Command, the command master chief 
from the Navy Special Warfare Command, and also the command 
sergeant majors from both the United States Army Special 
Operations Command and Joint Special Operations Command and 
come together and really look at what our people need. Because 
that enlisted person, that Non-Commissioned Officer (NCO), when 
you think about the people that are on point, that are doing 
our job for us, it is our NCOs.
    There are so many stories about our NCOs just doing great 
things and making a difference. We need to make sure that we 
are doing everything we can for them. So he is going to be 
championing this cause, and from there we are going to come up 
with what we feel are the right places where we need to go 
through our Department to get support for our people that 
answer the call.
    Senator Landrieu. I appreciate that. We would be very 
interested in that information, because this committee believes 
in that and wants to support you in that effort.
    Let me ask about some budget numbers regarding the 
estimated cost of missions in Georgia, Yemen, and elsewhere. We 
have expanded our view. I think the President is right and I 
have supported him, and most of the members, both Republican 
and Democrats, in terms of going after terrorists wherever they 
are, recognizing they are just not all in one place or one 
country. This is going to be a fairly long, complicated, and 
very challenging operation. We want to make sure that the 
budget numbers are there to support it.
    Can you give us any information about what it looks like to 
you in terms of the need for funding for the expanded missions 
that you see? I know we cannot predict the future, but what you 
can see that we will be doing in the next 6 to 8 months.
    General Holland. The problem that I have, Madam Chairman, 
is that I do not have a deployment order. So the details are 
continuing to be worked out on exactly what our involvement is 
and to what level. I would say that maybe we can take that one 
for the record. Once these details are worked out, then we can 
put together some type of estimate. I can be talking with the 
two theater CINCs that are involved with that particular 
operation and get into their minds, what do they expect.
    But at this point I do not have a deployment order for our 
people to go forward. So the details are being worked out. Once 
the details are worked out, we would be pleased to provide that 
data to you.
    Senator Landrieu. Senator Roberts.
    Senator Roberts. Prior to the beginning of these operations 
in Afghanistan, what was the average strength of Special 
Operations Forces compared to the authorized strength? Where 
were you?
    General Holland. Senator Roberts, what I would like to do 
is give you some detail on that by each of our units. Overall 
we were in fairly good position. Our SEALs were around 97 
percent. The Special Tactics, though, were at 80 percent. Our 
Special Forces enlisted were around the middle 80s and officers 
were up in the 90 percent. Depending upon the types of people 
and which ones you call upon, there is a different number.
    What I would like to do for the record is provide you all 
the data where we were on September 11 before we deployed, and 
then we can come up with an overall percentage of where we are 
for our manning.
    [The information referred to follows:]

    Prior to 11 September 2001, Special Operations Forces (SOF) 
assigned to authorized strength was as follows, by Service Component: 
(Specific SOF communities mentioned by General Holland are broken out).

------------------------------------------------------------------------
                                                               Strength
                                      Authorized   Assigned    (Percent)
------------------------------------------------------------------------
Army SOF............................      15,231      13,961          92
  SF Officers.......................         634         574          91
  SF Warrants.......................         385         340          88
  SF Enlisted.......................       3,983       3,446          87
Navy SOF............................       5,094       3,972          78
  SEALs.............................       2,123       2,016          95
Air Force SOF.......................       8,846       8,911         101
  Special Tactics...................         520         374          72
------------------------------------------------------------------------

    Since 11 September 2002, active component strength has remained 
relatively the same. However, personnel increases to support 
requirements for Operations Noble Eagle and Enduring Freedom have come 
through the mobilization of 3,836 Reserve and Guard Forces from all the 
Services as follows:

------------------------------------------------------------------------
                                        Reserve      Guard       Total
------------------------------------------------------------------------
Army................................       1,180       1,648       2,828
Navy................................         153         N/A         153
Air Force...........................         742         113        855
------------------------------------------------------------------------
*It is important to note that not all mobilized forces are purely SOF,
  but consist of a wide range of support personnel as well, to include
  force protection, medical, public affairs, personnel, etc.


    Senator Roberts. I think that will be fine.
    What are the challenges you face in finding and retaining, 
and I emphasize both, qualified personnel to fill the Special 
Operations requirements? As the chairman has pointed out, this 
is a rather unique set of criteria for only a chosen few.
    General Holland. Yes, sir, it is a continuing challenge. We 
have a very aggressive program. Obviously, we recruit from the 
services, and not everyone wants to sign up to do what we ask 
them to do.
    Senator Roberts. But on the other side of it, your culture 
is special, and if I am any judge, that weighs in as to the 
number of people who would be willing to be recruited or to 
volunteer.
    General Holland. Yes, sir. What we are trying to do is----
    Senator Roberts. I mean, they are doing what they want to 
do, is what I am saying.
    General Holland. Yes, sir.
    We have done some studies, and especially from a 
psychological standpoint, what are the types of people that are 
successful when they come into Special Operations? Then, taking 
that the particular data, and go out for the recruiting. Where 
are these types of people? The good thing is, when you 
represent only 1.3 percent of Defense Force Structure--and this 
goes back to one of the SOF truths, quality is better than 
quantity.
    Senator Roberts. Right.
    General Holland. But what we want to make sure of is that 
we maintain the same standards we have in the past, because I 
think you and the American people, when you look at involving 
SOF in an operation, you expect it to be a success. As long as 
we keep our same standards, then we will be able to continue 
doing the job the way you would expect us to be doing it.
    Senator Roberts. As we look at the future threat of 
asymmetrical warfare, there are some that have suggested that 
we need to increase the size of Special Operations Forces. Can 
you give me an estimate of an optimal size that you think would 
be sufficient? I realize this sort of dovetails into the 
chairman's question. Until you get your mission and we figure 
out where we are on this transnational war against terrorism, 
that is a little tough to suggest.
    But in terms of optimal size and role of the Special 
Operations Force in our overall force structure, you are 1.5 
percent. Do you think it ought to be increased?
    General Holland. Sir, the way I would like to answer you is 
I want to make sure that those authorizations that we have in 
all of our forces, that we fully man and equip them. As I 
mentioned, a lot of our forces are at the 80 percent level, so 
we need to get them to their maximum levels with the proper 
amount of equipment.
    I think we continue to need this initiative that I talked 
about earlier, working the seams with the Services on their 
capabilities and then seeing what are these missions, if there 
are any, after we go through this review that we could then 
convert to conventional operations, thereby keeping our numbers 
stable where they are at this juncture.
    These are the parts of this question that we are continuing 
to work with. There is a study right now that we are in view of 
and that is on SOF realignment, where should SOF be in the 
world, and with that, what is the right amount of force 
structure. This is a study that we are preparing for the 
Department of Defense.
    Senator Roberts. You have not mentioned your Reserve 
Special Operations groups to sustain the current operations 
tempo, how you feel about their capability, their training 
level, to fulfil these obligations.
    General Holland. Yes, sir. They are magnificent. I would 
say that we probably have the best examples of the total force 
working together as an integrated team. As you well know, the 
193rd Special Operations Wing out of Harrisburg, Pennsylvania--
the only capability that we have in our military today to do 
what Commando Solo does--is with the Air National Guard.
    Our Guard units that we have right now recently deployed. 
The reason they have been called up--and we have strong faith 
and confidence in their ability to accomplish the job--and the 
reason we need them is so we can give the existing active duty 
Special Forces Group back (which was deployed in October) 
retool, refit, and then get ready for their next operation.
    Every place we look, we see the Reserves and the Guard 
doing yeoman's work in supporting us. The other part that I 
will add is the civil affairs piece. When you look at that 
particular organization, about 90 percent is made up of reserve 
forces, and they have answered the call and they are doing it 
well.
    Senator Roberts. You have two major flagship programs on 
research, development, and procurement. You have quite a few 
programs, but the two flagship ones: the Advanced Seal Delivery 
System (ASDS) and the CV-22 tilt rotor aircraft, I have a 
special interest in. Can you give me the current status of each 
of these flagship programs as you understand them and are you 
satisfied that the safety, maintainability, and reliability 
goals associated with each of these programs will be achieved?
    General Holland. Sir, let me do that in two parts. I will 
do it real quick on the front-end and then I will let Mr. 
Schulte talk because, on the CV-22, he is part of the executive 
committee which gets into the details of the CV-22 program. 
Also, he has just been briefed recently on the Advanced SEAL 
Delivery System.
    I will say from the top level that we are firmly committed 
within United States Special Operations Command to bring both 
of those weapon systems on board. We feel very strongly that we 
need tilt rotor technology. We need the technology that comes 
with the CV-22. I am even more convinced after seeing the 
operations in Afghanistan on how a CV-22 would best fit.
    It is always great to have more options for a joint task 
force commander. When you are operating above 10,000 feet--in 
fact, our MH-47s have operated at 17,000 feet. Helicopters do 
well low to the ground, but when the terrain is as high as it 
is in Afghanistan that adds additional peril not only to the 
pilots but also to the capabilities of the equipment they are 
using.
    So think about a CV-22 in that environment. Is it safe, 
reliable, maintainable--that is the part I have talked about--
not only before these committees, but also in other speeches I 
have given, is that we can have a capability that will 
definitely help us as we go to other places in the world.
    On the Advanced SEAL Delivery System, we owe it to our 
SEALs to be able to get them to an environment before they do 
the assault in a dry environment. If any of you have never had 
an opportunity to be on the current SEAL delivery vehicle, I 
know they get excited every time I visit our SEAL units, to put 
me in one because it is small, it is very contained, it is 
cold, it is wet, and there is really no opportunity for the 
team to really get together and think about their assault plan 
once they get to a target or whatever the mission is that they 
would have at that juncture.
    Senator Roberts. General, I do not know about Senator 
Nelson. I am sure he probably has done this. He is sort of a 
snake-eater type.
    Senator Landrieu. We could send him. He has gone before.
    Senator Roberts. I have been there, done that, and had the 
wet tee shirt. They were doing me a great favor, my staff, 
which is amazingly still with me after this experience, in 
saying we are going to go out a little ways and then we are 
going to take your picture. I said, why not just take the 
picture here. We went out a little ways and the SEAL that was 
in charge indicated: Sir, we only have 2 more miles to go and 
we are going to hit a little rougher water. I indicated: No, I 
think we are heading back now. [Laughter.]
    If you have ever been in a church pew during a particular 
baptismal in one of the more demonstrative churches jumping up 
and down, that is a lot like what it is holding on. This has 
nothing to do with the question, Madam Chairman. [Laughter.]
    Senator Landrieu. Well, I hope the others act more bravely.
    Senator Roberts. If you do not have to do that--there is a 
whole list of things that some of us do not want to do any more 
and that is one of them. So I am for whatever kind of delivery 
system. Mr. Schulte, what are you going to provide that I can 
ride in? [Laughter.]
    Senator Landrieu. Do not feel obligated to respond.
    Mr. Schulte. We will talk about both the CV-22 and the 
ASDS.
    Senator Roberts. I have already ridden that one.
    Mr. Schulte. OK.
    Senator Roberts. That was amazing, and that was even before 
the problems. I hope everybody listens to you, General, because 
that is something the Marine Corps and you folks must have, and 
I have every confidence we can do that.
    I am sorry.
    Mr. Schulte. Of course, I want to talk about ASDS. As 
General Holland said--let me give you a quick status on ASDS. 
That would be a good one to ride in, by the way, because you 
could stay dry. But, we have the first boat. It is kind of an 
R&D boat, but it is also going to be the first operational 
boat. It has some battery difficulties. It has silver-zinc 
batteries that we have been having some difficulties with. 
Congress gave us some money this year to work on the next 
generation of lithium batteries, which is hopeful, but it is 
not there yet. It may be ready for the second boat. It may not. 
We may have to go with another set of the silver-zinc batteries 
and try to work out the shorts and things that we have had with 
those.
    Largely the ASDS meets the mission requirements. It has 
some noise difficulties, which we knew, because there have been 
some commercial pumps and things like that on there that we are 
probably going to have to change out. That is probably not a 
large item to do, but we have to do it. So the noise and the 
batteries are what we are working on now, and we have another, 
oh, maybe less than a year, of host ship testing that we need 
to do yet. We have some scheduling difficulties with the 
Greenville right now, but basically ASDS is moving along.
    So those are our problems. The problems are in the noise 
and the problems are in the batteries.
    On the CV-22, of course, the airplane has been grounded now 
for 14 or 15 months. The Navy and the Marine Corps have been 
going through a very exhaustive process of what is it going to 
take to fix all the different recommendations that came out of 
all the different panels that have been reviewing the V-22 
program, the blue ribbon panel and all the other ones. It is a 
very exhaustive review. They have gone through every one. There 
are 186 recommendations. They have tracked every one down. In 
fact, I think there is a report that is either just coming to 
Congress or is about to come to Congress that is required from 
the program.
    It is going through a flight readiness review process right 
now. It will go to the three-star level review next Thursday. 
There will be a four-star level review I think the first week 
of April. If all goes well--and it appears to be going very 
well--it is a very disciplined, very deliberate process to 
return this aircraft to flight. Everybody is concerned about 
the same thing. It has to be safe, it has to be reliable before 
we put people in the back of it.
    The first flight is scheduled for the end of April for the 
MV-22. If everything goes well on that, probably the first 
flight for our CV-22s--there are two test airplanes that have 
been modified to a CV type of a test configuration; they are 
out at Edwards Air Force Base--they should fly in July.
    So if we get back--it is kind of a crawl, walk, run test 
program, which it needs to be at this point in time until we 
get it back--it will be about 2 years of testing. So the 
program has slipped. You talk about the year it has slipped or 
so because it has been grounded, and it will go back into 
flight testing, pick up a lot of flight testing that was never 
done the first time around, and be a much more thorough 
process. I think by the time we get into a full rate production 
decision in a few years, we will know a whole lot more and we 
should feel very good about making a full rate production 
decision down the road.
    Senator Roberts. Let me just say, Madam Chairman, before 
you turn to Senator Nelson--and I apologize, Bill--we had a 
full Armed Services Committee hearing following the various 
tragedies in regards to this aircraft and in the audience we 
had the pilots, the crew chiefs, and the families of the 
victims. While it was a very emotional hearing, we asked them 
to come up and testify: What do you think, is this a doable 
technology, is this aircraft something as you work with you 
feel confident in?
    One hundred ten percent yes. The biggest thing that they 
said is, we will save marine lives, special ops lives, with 
this aircraft; let us do our work. They were of the opinion 
that they could continue to fly the aircraft as they were 
making the modifications. Obviously, they had an attitude 
situation where you would expect that to some degree, or maybe 
you would not expect that.
    Afterwards we went out in the audience and talked to some 
of the families of the victims and to a person, with tears in 
their eyes, said keep going, keep going with this aircraft, 
this is what my husband really believed in and fought for. I 
have about that much of testimony that I sent to some in the 
media after it that had been very critical of this program. 
Unfortunately, they did not see fit to print that. But it was 
very telling testimony, very moving testimony.
    I am sorry.
    Senator Landrieu. That is a very important point.
    We have been joined by Senator Nelson. Senator, we gave 
opening statements and had a round of questions. I do not know 
if you have a few questions at this time.
    Senator Bill Nelson. Most of my questions I would like to 
save for the closed session, but I would like to ask in the 
open session your ideas about arming the Predator with the 
Hellfire. It looks like it is having some obvious success, so 
do you need some help getting that going?
    General Holland. Yes, sir. Senator Nelson, as you well 
know, the Predator is not a SOF piece of equipment. However, we 
have been exploiting the technology from the Predator and not 
only having the ability to use the Predator, to pick out a 
target, which I am sure if you talk to General Franks--that 
having that capability and being able to very readily identify 
and kill a target--is something that is very important.
    From our standpoint at Special Operations Command, we are 
now taking streaming video from the Predator and providing that 
to the AC-130 gunship, and that is significant. The 
significance is that as you come into the target, you enter an 
orbit and you evaluate the target, and all this is happening 
while you are over top of what could be an enemy stronghold. 
Whereas with the Predator, we are providing information back to 
the gunship as it is enroute to the target. They are able to 
then determine where the actual target is. They are also able 
to determine whether or not there is enemy in the area and also 
if there are any AAAs that they have to be concerned about.
    So the ability of all the forces to be able to exploit what 
Predator is bringing to the fight, and then of course Global 
Hawk, I think this speaks well for the UAVs and what UAVs will 
add to the fight of the future.
    Senator Bill Nelson. Thank you.
    Senator Landrieu. Thank you, Senator. I appreciate that.
    Let me get back to another issue regarding the C-130s. The 
unit conducting the Commando Solo broadcast missions had 
planned to modernize, which entails purchasing a new C-130 
every year. We are currently halfway there, but the Air Force 
did not include this in their budget. Can either one of you 
explain what ramifications this omission might have and give us 
your perspective on how this will compromise or how we are 
going to live with this particular decision? Mr. Schulte?
    Mr. Schulte. Let me talk about that. The unit at Harrisburg 
basically has six Commando Solos and two kind of straight C-
130s, all of which are probably the oldest in the fleet. Today 
Congress has provided five C-130Js to be cross-decked with the 
current mission equipment onto these C-130Js and so right now 
we have five of the eight aircraft scheduled to be replaced. 
Obviously, eventually we would like to see all eight aircraft 
replaced, six Commando Solos and two--which would end up being 
two of the Super Js (not Commando Solo)--would just be slick 
airplanes.
    So that is what we would like to see. It did not make it 
this budget. We would like to see it in some budget eventually 
where we can modernize that whole unit.
    Senator Landrieu. Well, maybe we can try to help make that 
happen.
    Now, you have brought another piece of equipment. We have 
talked a lot about the radio. Can you share with us about these 
field binoculars that you brought. Maybe talk to us about how 
it is used, but also the research and development that played a 
part in developing it?
    Mr. Schulte. This is one of, I think, our success stories 
in process. Can the command respond to a SOF warrior when he 
really has a need? This was an example. We got a combat mission 
need statement in from Afghanistan, I think it was in probably 
mid- to late-October, and they basically said: We need a 
different laser range finder.
    Basically, we have a very nice unit that SOF bought several 
years ago called the SOFLAM. General Holland talked about it 
and it is a Laser Acquisition Module. So basically what SOFLAM 
does is allow the SOF operator to designate a target and hold 
that designation on the target for a laser-guided bomb to come 
in and hit the target. It works very well, at ranges out to 
about 10 kilometers. They love it.
    However, in Afghanistan, while they were using laser-guided 
bombs, they were mostly using Joint Direct Attack Munitions, 
JDAMs, GPS-guided bombs. So putting a laser on a target does 
not help a JDAM. What you have to do with JDAM is you need a 
laser range finder that can do a laser ranging to the target 
and then compute the GPS coordinates of the target.
    That is what this device here is. This is a Leika Viper. It 
is a commercial off-the-shelf item that is made by a company in 
Switzerland. We were able to get 20 of these items. From the 
time the requirement was approved, which was within 2 days of 
us getting it, we had 20 items in Karshi-Khanabad in 7 days. 
They were into Afghanistan within days after that.
    Basically, what this does is like a set of binoculars, it 
has a laser-range finder, it has a magnetic compass in it. It 
has a cord that plugs into a normal GPS that the soldiers 
already have. What it does then is it lases to the target, it 
gives you the range, elevation, and azimuth with the electronic 
compass, and then that information goes into the GPS receiver 
and it computes, because it knows where it is. It now knows 
relatively where the target is and it computes the GPS 
coordinates.
    This is how--then they could use the MBITR and call the 
coordinates up to the B-52 or F-18 or F-14, or whatever 
happened to be overhead at the time, and then call the targets 
in.
    So the process that USSOCOM has to react very quickly to a 
combat mission need statement--48 hours from the time the 
command gets it, the DCINC approves or disapproves a combat 
mission need, 48 hours. In this particular case, this was the 
first one that came in. Our guys know what is out there at all 
times, whether we own it yet or not. We know what is in the 
marketplace, and they were able to go out and get these 20 
units to the warfighter in 7 days.
    Then we got another--I think we bought a total of 96 of 
them before the end of the year, and all but 20 I think went 
over there.
    Senator Landrieu. I would glean two things from what you 
said and if this is too simple, correct me. I am really 
determined to find a better process or to perfect the process 
we use, because I truly believe it will save lives and make our 
Nation much more secure. You have identified that one thing you 
do, is ask the warfighter what they need, and then you are very 
aggressive, you have a team of people very aggressive in 
knowing what is out there. When you mean what is out there, not 
only what we have developed internally, not only what 
traditional contractors have or plan to develop, but what 
literally is on the shelf, not just in the United States but in 
the world, in terms of technology that could be applied to that 
request, that plea. It really is a plea. It is more than a 
request; it is, please, give me what we need to win this war.
    That is basically the system you use and you have shown 
this as an example of that. Is that oversimplifying things?
    Mr. Schulte. I think that is very accurate. I think the 
warfighter in this case--we knew about this piece of equipment, 
but so did the warfighter. They came back and said, this is 
what we need and we need it right away. Laser-guided bombs 
probably cost $50,000 or $100,000 a kit to put onto a bomb and 
a JDAM is $18,000, so it is also cost effective from the 
warfighter's viewpoint.
    But our guys said, hey, what we really need is this kind of 
a thing and there is a couple of them out there and this is the 
one we are interested in; how fast can you get it? Well, we can 
get it pretty fast.
    One of the things we did when Operation Enduring Freedom 
first broke--and I give a lot of credit to my contracting 
people--is that we wrote a blanket justification and 
authorization (J&A) for sole source procurement for urgent and 
compelling need for any requirement to support Operation 
Enduring Freedom in Afghanistan. So as soon as a requirement 
came in, as soon as it got approved, our program managers and 
contracting people could go right out and buy it. We did not 
stop. We did not even stop to compete anything. If it was an 
urgent and compelling requirement for a soldier on the ground, 
then that is what it was and they were cleared to go.
    We got all of our priorities raised in the defense 
logistics system. We went to the front of every line in the 
priority system and did this J&A in order to speed the process, 
and it worked very well.
    Senator Landrieu. I think that is excellent, very powerful 
testimony and I hope that we can use that.
    Senator Roberts may have a few more questions. Senator 
Nelson may have a few more questions. I do not know if it is 
necessary to go into closed session, so if the Senators would 
focus any of their comments. Now, if they do require a closed 
session we have provided the opportunity for one and you all 
could let me know through the staffs.
    But Senator Roberts, there are a few more questions that 
you might have.
    Senator Roberts. USSOCOM mission: to provide U.S. Special 
Operations Forces to the National command authority, regional 
combatant commanders, and American ambassadors and their 
country teams for successful conduct of worldwide Special 
Operations and civil affairs. Let us take the civil affairs 
piece. There has been a lot of commentary and I think anybody 
involved in this knows that if we are going to be successful in 
the worldwide war against terrorism, we are going to have to 
assess the needs of the local populations and assist in regards 
to the infrastructure and provide stability. There has been 
quite a bit of emphasis in news coverage about this.
    Civil affairs units following the Vietnam War for you folks 
were placed in the Reserve components. My question to you is do 
you have the civil affairs expertise available to meet these 
current requirements? Where are we?
    General Holland. Yes, sir, we are improving. We are 
definitely getting better. When I came on as Commander in 
Chief, USSOCOM when I looked at the qualifications of our 
people in civil affairs and it was about 58 percent. We have 
done much to go the next step. The first thing that the United 
States Army Special Operations Command has done is to make sure 
that they have the right equipment. We went through a period of 
time where our civil affairs people would get that equipment 
that was left over after we took care of all the Active-Duty 
Force, and if you have noticed what we call it is a BOIP. It is 
a basis of issue plan (BOIP). We have now expanded that to 
include our civil affairs people, to ensure that they have the 
right type of equipment that they need to do the job.
    We have also doubled the training opportunities there at 
Fort Bragg. The last word I had is we were over 70 percent on 
our mission qualifications. So over this past year we have put 
an increased emphasis on this because, just as you said, 
Senator, we need to have that capability. As you start at the 
front-end of a warfight, as you transition, you need to have 
people that understand democracies and infrastructure and how 
we can work with the international community to go to the next 
step, the expertise that they bring to that is very important.
    Senator Roberts. Is that unique to Special Operations? That 
is one heck of a broad challenge. Some people even think it 
cannot be done. You have to make the effort. But is that unique 
to you in terms of the other services?
    General Holland. Yes, sir. The civil affairs is located 
within United States Special Operations Command. However, the 
Marines do have a small capability that is embedded within the 
Marine unit as well.
    Senator Roberts. But it happens anyway.
    General Holland. But it happens, yes, sir.
    Senator Roberts. It would seem to me that we are going to 
have to really focus on that if over the long term you are 
going to be successful.
    Senator Landrieu. Could I interject something here?
    Senator Roberts. Yes, certainly. Yes, ma'am.
    Senator Landrieu. It occurs to me that while we are 
thinking about that we could maybe apply the same methods we 
used to get the best technology to the warfighter to get the 
best human potential to our civil affairs by thinking a little 
creatively outside of the box. We need a new paradigm about 
getting the right kind of people with the right kind of skill 
sets, since we have had so much success with getting the right 
kind of people to the battlefield. I believe that civil affairs 
is going to be a growing, important part of Special Operations, 
not only to win the war but secure the peace so the war was 
worth fighting for first. Second, to get civil affairs involved 
perhaps to prevent the destruction that happens on a 
battlefield if your civil affairs is successful, which is 
another very important way of looking at why that investment, 
if done correctly, could be so crucial to the saving of lives 
and winning the wars before they start.
    But General, I do not know if you or Mr. Schulte want to 
comment about that general thought. Then the Senator has 
another question, I believe, on another subject.
    General Holland. Let me just make a few comments. When you 
talk about civil affairs, many of the times we have operated as 
a joint task force and after we had engaged the target, we 
would then call in civil affairs. What we find is that we need 
to have civil affairs, they need to be involved at the 
beginning, because how do they know what needs to be the end 
game? They need to be involved up front.
    We also realized that we had a shortfall on the active duty 
side because we cannot continue to come back and keep engaging 
our Reserve civil affairs people. So we have now plussed up the 
active duty. Right now we also have an initiative with General 
Shinseki in the Army to see what the next step would be.
    But the amount of increase is about 1,100 more civil 
affairs people on the Reserve side and, in active duty people I 
think it is about 300 or 400 people because we understand 
exactly what you just said. We also see a probable increased 
role of civil affairs. We also need to make sure that they have 
the right equipment so that they can do their job.
    Senator Roberts. Is that in the budget or is that on the 
unfunded list?
    General Holland. No, sir, we did this last year. This was 
something that we had worked and we were able to cross-walk 
those over.
    Senator Roberts. We have, finally, a Joint Forces Command's 
first major joint field experiment. It is called Millennium 
Challenge 2002, short MC02, as of this summer. I am taking it 
for granted that you are going to be a part of that. What role 
will you play in that and what role do you envision for Special 
Operations in future joint experiments?
    General Holland. Yes, sir. I see a very active role on our 
part. We are working very closely with General Buck Kernan, 
because a lot of this has to do with getting the information to 
the warfighter. It is also how do we operate better in a joint 
environment and how we can share joint capabilities better than 
what we have in the past.
    A lot of the experimentations were put into it--and I will 
let Mr. Schulte talk that part of it. But as I talk to all of 
our commanders, I want to ensure that we are there as we go 
through the actual Millennium Challenge 2002, because for our 
future it is going to be very important we understand how this 
joint warfight is going to work even better, especially when 
you talk about interagency, the collaboration, and how can we 
break down stovepipes and be able to use all the information 
that is available to be able to then focus that information to 
where it needs to be once we get into the crisis.
    Senator Roberts. Madam Chairman--pardon me, Mr. Schulte--we 
have tried to get this funded and found opposition. Not only in 
this body but more especially in the House, to any Joint Forces 
Command exercises, thinking that they were not needed--well, 
``not needed''; they did not rate top priority, as opposed to a 
service-oriented exercise, which I understand. It is more 
traditional. It has been like heels dragging to finally get 
this done in terms of the Joint Forces Command, and it took a 
war and the realization that everything will be joint that I 
can possibly imagine in any exercise in the future. So I 
certainly applaud your statement.
    I think I have reached the end of the questions that I 
would like to ask.
    General Holland. Senator Roberts, I think Mr. Schulte would 
like to continue on on the experimentation.
    Senator Roberts. I am sorry. Please proceed.
    Mr. Schulte. We are participating in Millennium Challenge. 
There is a Pathfinder ACTD, advanced concept technology 
demonstration, that is going to work with robotics and remote 
sensors and things like that. We are very interested in 
Pathfinder, and we are working with the Marines on that. The 
Marines are also very interested in the robotics and remote 
sensors kind of thing. So that is one if the things 
specifically we hope to get out of Millennium Challenge for us.
    That is all I have.
    Senator Landrieu. Great. Thank you very much.
    Senator Nelson.
    Senator Bill Nelson. Our troops performed very well on this 
most recent battle, but there were some surprises: the enemy 
troop strength, their willingness to fight, the amount of 
ammunition that they had, and the fact that we relied on a lot 
of the Afghan fighters to take the initiative. We had to 
compensate for a lot of surprises, and we did it exceptionally 
well and are still doing it very well, which certainly speaks 
well of all of our operation there.
    My question to you is what do we need to do so that we do 
not have those surprises?
    General Holland. Senator Nelson, I would like to say that 
we will never have any surprises, but, as you well know, I 
think there are always going to be surprises on the 
battlefield. Obviously, we can never underestimate the enemy, 
and especially this enemy, because this enemy is very well 
committed.
    But I think as we continue to look at--this goes back to 
the experimentation, the things we are doing with Joint Forces 
Command. How do we get better intelligence? In any operation, 
it always comes down to do you have the actual intelligence to 
go to the next step. This is one of those issues on 
intelligence, and having the right intelligence at the right 
place at the right time and, if we have that intelligence, to 
ensure that the people who need it that are forward have it so 
they can either adjust their course of action or realize that 
there is a better way to accomplish the mission.
    But as far as our people in that particular operation, I do 
agree with you they performed superior in the eyes of what 
happened. We appreciate your comments and I know that General 
Franks feels good about the way that they operated.
    Senator Bill Nelson. They certainly did. They performed 
superbly. My question for closed session, Madam Chairman, is 
why did we not have the intelligence. As I understand it, you 
are not going into closed session, so we will submit that in 
writing.
    Senator Roberts. Could I have a follow-up on that? Without 
the closed session, but part of what we do on the Intelligence 
Committee as we overlook September 11 in a joint effort with 
the House is to go back several years, all of the warnings that 
we had from all of the commissions, the Bremmer Commission, the 
Gilmore Commission, the Hart-Rudman Commission, the CSIS study, 
and all those folks who gave us the warnings that I repeated 
and that other members of the subcommittee repeated.
    As we went through Khobar Towers and the embassy bombings 
and the U.S.S. Cole and the bombing of the Khartoum chemical 
plant, what I described as the ``Oh my God'' hearings, how did 
this happen, it seemed to me that our collection capability was 
simply outstanding--the leap-ahead technology that we are now 
using, which perhaps we did not before, but there were some 
hurdles there and I think we have overcome those hurdles. But 
the analysis, the productive analysis, thinking out of the box, 
avoiding risk aversion, seems to me to be the area where we 
were deficient.
    That is the area where it took place, an example being the 
India-Pakistan nuclear testing. The new party that took control 
of the government there had that as their number one campaign 
promise, and yet when we asked the people that allegedly were 
experts in the field, why on earth did you not think they would 
do that, well, we just did not think that they would do that.
    As you well know, with this kind of an enemy, we could list 
100 different things, Madam Chairman, on what we think would 
happen next and they would do 101.
    So what is your opinion in regards to where we are now, 
Special Operations-wise, with the productive analytical ability 
of the intelligence we have, not so much the collection but the 
analysis part of it?
    General Holland. This is one area, Senator, I think that we 
need to continue to keep in focus. We have established the 
Special Operations Joint Inter-Agency Collaboration Center, and 
this is really about collaboration, where everyone shares the 
information above the table on exactly what everyone is seeing 
at a particular location and then having the operators involved 
with that to be able to make the assessments that you talk 
about.
    Now, I think we are better than we have been in the past. I 
see more collaboration going on today than what I certainly saw 
either 4 or 5 years ago when there were other operations that 
we were involved with. So we are getting better. Are we as good 
as we need to be? No, but I think this goes back to the 
experimentation, Joint Forces Command, because this is one area 
that will also be highlighted during the Millennium Challenge 
2002.
    Senator Roberts. I appreciate that very much. Thank you.
    Senator Landrieu. Let me follow up, just two questions. The 
hearing has been very good and I thank you for your time. But 
along that same line, some of these joint training programs, 
this particular combined exchange program called JCETS, 
something that has to be vetted through the State Department, 
only working with countries that we approve of their human 
rights records. My question for the record is can you comment 
on the quality of cooperation and responsiveness the State 
Department is giving you in terms of vetting the training 
programs? Are these requests, your requests, being properly 
expedited in your opinion?
    General Holland. Madam Chairman, I think the way that I 
would like to answer that is when we originally had the 
restrictions, it was very much what were the procedures and how 
do we come up with the procedures to meet the compliance of the 
law. Since we have been in the business of the Joint Combined 
Exchange Training under that new system and I know that since I 
have been in command, we have not had one that has been 
disapproved because of the human rights vetting restrictions.
    But it is an area that we are going to continue to work. It 
is an area that we are going to continue to make sure that if 
there are some countries that maybe we need to be involved with 
and work a plan through the Secretary of Defense to make sure 
that we are at the right places--as I made the comment earlier, 
we are in 122 countries. Have we been in the right 122 
countries over the last year? That is a question that I think 
each of us need to pose.
    It goes back to what Senator Roberts had talked about, when 
you talked about maybe there are 100 things that we see that 
they are doing and they do the 101. How many of us ever 
predicted that we were going to be in Afghanistan? How many 
ever predicted when we went into Iraq? How many predicted when 
we went into the Balkans and Kosovo?
    So it appears that every time that we get together and we 
think, well, this is the place where we need to be prepared 
next, we end up going to another location. It is an area we 
need to continue to put emphasis on. The Joint Combined 
Exchange Training provides a wealth of experience for our 
people, not only in the cultural awareness, the language 
capabilities, the opportunity to operate with another nation 
but in developing the trust and confidence that they would need 
to be able to do what we did in Afghanistan.
    So it is the same process and they learn that process in 
another country. Yes, they applied it well as they went into 
Afghanistan. But it is those types of programs that are going 
to continue to be very important for us as well as the regional 
commanders in chief. Each of those combined exercise training 
scenarios come from the theater CINCs and they want us to be 
involved and we work that back through the theater CINC on our 
security cooperation in those areas.
    Senator Landrieu. Let me follow up. You said you have not 
yet been denied, but my question was are requests properly 
expedited in your opinion. Are your requests expedited? Are you 
losing time through the process that we have established, or 
should we be concerned at all about that?
    General Holland. I think there have been some that maybe 
have slowed, but it is not something that I think that at this 
point I want you to worry about until we look into it, because 
I think we are better in the process than we were. We 
understand what is needed and we are complying with that. If 
that becomes an issue, then we will certainly get back to you 
and the committee.
    Senator Landrieu. Thank you. My final question is, because 
the chairman of our committee is very interested in these 
Standoff Explosive Detection Systems, which have shown some 
promise, Mr. Schulte, and could protect our soldiers in the 
battlefield as well as protect our homeland and our civilians 
here. Can you just give us a brief update of the efforts, how 
is it proceeding, what kind of potential do you see for such 
technology?
    Mr. Schulte. Actually, we are working a combat mission 
needs statement for a standoff explosive system right now. It 
came out of Karshi-Khanabad very early on, probably in early 
November. We are almost finished with this. What we are trying 
to do is marry up a robotic kind of a system with a sensor that 
you could send this out, for example to a truck that might be 
coming onto the post or something. In this case it was Karshi-
Khanabad, but it could be anyplace.
    We are pulling that together now. We should have that 
pretty much ready to go here in the next month or so. So we are 
working those kind of systems. The warfighter is saying, hey, I 
need this for force protection to try to do that. But we can 
always use and will always continue to work on better sensors. 
How close do you have to get in order to be able to sense that 
there is an explosive there or any of that kind of stuff? It 
has been something that we have been working on and we will be 
delivering a system here in the next couple months.
    Senator Roberts. How many agencies are involved in this?
    Mr. Schulte. I do not think I can answer that, sir.
    Senator Roberts. There are six.
    Mr. Schulte. OK.
    Senator Roberts. Six agencies. One of the things that I 
think that the chairman and I will be interested in is what 
happens with the GAO report when we try to take a look at early 
detection and sensors in regards to how many agencies are 
involved and where, how, and at what cost.
    But you are pretty confident in regards to your specific 
needs or your missions that you are on the right track?
    Mr. Schulte. Yes, sir, for this limited capability that has 
been requested by the warfighter.
    Senator Roberts. I see.
    Thank you.
    Senator Landrieu. Thank you. That finishes our round of 
questions. Again, it has been a great hearing. We have learned 
a lot of important truths I should repeat for the record: 
Humans are more important than hardware; quality is better than 
quantity; Special Operations Forces cannot be mass produced; 
and competent Special Operations Forces cannot be created after 
emergencies occur.
    We have also learned that we need batteries, light, long-
lived and reliable, and we are looking for some.
    Thank you all. We have had a good hearing. We are 
adjourned.
    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                              procurement
    1. Senator Landrieu. General Holland, much of the procurement 
funding in your budget request is allocated for upgrading helicopters 
and purchasing and modifying AC-130 gunships. What is the requirement/
rationale for two new AC-130s?
    General Holland. The requirement for the AC-130U gunship was 
established through the Operational Requirements Document (ORD), titled 
AFSOC 06-87-I-III, AC-130 System Operations Requirements Document 
(SORD), dated April 10, 1989. The ORD was revised in 1994. The current 
title is AFSOC 06-87-I-III-A, AC-130U Gunships, dated January 4, 1994. 
When this ORD was written, the Air Force Special Operations Master Plan 
called for [deleted] worldwide. The requirement is based on theater 
engagement plans and included conventional and unconventional missions. 
Due to USSOCOM resource constraints, only 13 AC-130Us were procured.
    The current requirement for the number of AC-130s is established 
through our 2 year Strategic Planning Process (SPP). During this 
process USSOCOM determines the ``Objective Force'' needed to meet 
theater CINC requirements. During fiscal year 1999-2000 the SPP 
determined the AC-130 Objective Force for fiscal year 2002-2007 to be 
25. Due to fiscal constraints, USSOCOM did not attempt to increase AC-
130 force structure from 21 aircraft to 25 in the fiscal year 2002 
President's budget. The latest SPP conducted in fiscal year 2001-2002 
revalidated the AC-130 Objective Force of 25 aircraft for fiscal year 
2004-2009.

    2. Senator Landrieu. General Holland, what is the plan for 
employing the AC-130s and for servicing them with spares and additional 
crew?
    General Holland. The new AC-130s will be added to the current 
Special Operations fleet at Hurlburt Field, Florida, and will be 
integrated into the existing AC-130U squadron, the 4th Special 
Operations Squadron. Employment of the AC-130s will follow employment 
guidelines for the existing fleet, that is in the following roles: 
Close Air Support/Troops in Contact; Armed Reconnaissance; 
Interdiction; Convoy Escort; and other missions. The current 
infrastructure at Hurlburt Field (maintenance, supply, and training 
infrastructure) will support the additional aircraft, their servicing 
requirements, spares, associated crewmembers, and support personnel. 
Additional spare parts will be procured along with the additional 
aircraft. The fiscal year 2003 President's budget added the necessary 
flying hours and manpower to sustain and operate the additional 
aircraft. Growing the additional crew force and maintenance personnel 
necessary to fly and fix these additional aircraft will take time, but 
can be accomplished to meet the delivery timeline for the aircraft.

    3. Senator Landrieu. General Holland, the associated funding for 
crews and spares included in the budget request is sufficient for how 
many additional AC-130s?
    General Holland. The funding provided in the fiscal year 2003 
President's budget is sufficient to add aircrew, maintenance personnel, 
flying hour costs, and contractor logistics support (CLS) for four 
additional AC-130U gunships. The fiscal year 2003 President's budget 
also contains funding to procure two new C-130Js for the Air Force in 
exchange for two C-130H2s, which will be modified to the AC-130U 
configuration. The modification costs for these two aircraft are also 
contained in the fiscal year 2003 President's budget. Additionally, 
related funding designated in the ``Cost of War'' account is sufficient 
to procure two more new C-130Js for the Air Force in exchange for two 
C-130H2s, which will also be modified to the AC-130U configuration. The 
Cost of War account also includes the modification costs for these two 
aircraft. Together, the fiscal year 2003 President's budget and Cost of 
War account fund a total of four additional AC-130Us, support costs, 
and associated force structure.

    4. Senator Landrieu. Mr. Schulte, special operators have complained 
perennially about the quality of the rucksacks they carry on missions. 
In addition, most Special Operations Forces would prefer to be able to 
purchase cold weather and other personal gear off-the-shelf. What is 
being done to address complaints about rucksacks?
    Mr. Schulte. The Special Operations Acquisition and Logistics 
Center is conducting research on obtaining better rucksacks. In March 
of 2002, the Program Executive Officer for Special Programs gave the 
Special Operation Project Office at the Natick Labs, Research and 
Development Division, $100,000 to conduct preliminary research for 
rucksack improvements or replacement. Concurrently, we are working with 
our component commands to better define the requirement from the users. 
As with all personnel equipment, it is very difficult to find solutions 
every operator can agree on, however, the current rucksacks have 
received across-the-board complaints. The United States Special 
Operations Command has not waited for a formal requirement change to 
the current rucksack and has begun looking for improvements.

    5. Senator Landrieu. Mr. Schulte, what are the restrictions on 
purchasing commercial off-the-shelf (COTS) equipment?
    Mr. Schulte. There are no specific regulatory restrictions on 
purchasing COTS items. In general, decision-makers, users, and program 
managers first consider the procurement of commercially available 
products, services, and technologies, or the development of dual-use 
technologies, to satisfy user requirements. Urgency, highly sensitive 
mission requirements, or unique specifications challenge and restrict 
the USSOCOM's ability to exclusively acquire commercially developed 
items. Through market research and analysis, USSOCOM determines the 
availability, suitability, operational supportability, 
interoperability, and ease of integration of existing commercial 
technologies and products and of non-developmental items prior to the 
commencement of a development effort.

    6. Senator Landrieu. Mr. Schulte, is the Command pursuing such an 
option on COTS purchasing? How is this reflected in the budget request?
    Mr. Schulte. Definitely yes. The USSOCOM has a very active process 
of finding and purchasing COTS and non-developmental item (NDI) 
hardware and software satisfying our operational requirements. USSOCOM 
conducts market surveys and combat evaluations (where we try samples of 
items before buying in quantity), and hosts an annual Advanced Planning 
Briefing to Industry (attended by over 240 companies) where we share 
our requirements and the companies share their projects and 
capabilities with our commanders and operators. USSOCOM issues 
announcements for sources sought for SOF requirements and holds 
industry days to explain SOF requirements and obtain industry input. 
Recent examples of successful COTS/NDI purchases that have been 
delivered to the troops on the ground in Afghanistan include nearly 100 
4x4 trucks and all-terrain vehicles, 8 portable video teleconference 
sets, and nearly 100 hand-held laser targeting devices. Other examples 
of COTS purchases that are greatly shortening our acquisition delivery 
cycle include off-the-shelf computers and peripherals required for 
tactical local area networks in our TACLAN program, and the off-the-
shelf hull and engine we are procuring for our Special Operations 
Craft-Riverine (SOC-R) program. USSOCOM continually seeks COTS/NDI 
sources for all of its non-developmental requirements, however the 
purchase of COTS is not specifically reflected in the budget request. 
There is no unique appropriation specifically identified for the 
purchase of COTS/NDI.

    7. Senator Landrieu. Mr. Schulte, in addition, Air Force special 
operators working in the field with Army special forces and Navy SEALS 
state that they have lower quality night vision devices and smaller 
SATCOM antennae. How does the budget request address these 
discrepancies?
    Mr. Schulte. All components of the USSOCOM are fielded with the 
most advanced night vision devices technology has available. The world 
of visual augmentation is rapidly changing and the advances in 
technology are an evolutionary process. Systems fielded this year will 
not appear to be as capable to those fielded next year, but the systems 
that are procured, fielded, and maintained within all SOF components 
are in compliance and meet the stated requirements at the time of 
production. The same goes for SATCOM antennae. Initially fielded 
versions may not be as capable as our most recent procurements, but 
both meet the stated requirements at the time of procurement. The real 
question posed here is whether the budget request adequately addresses 
the perceived discrepancies, to which the only solution is providing 
enough funding to completely outfit SOF with the same item in the same 
year. As long as we have fiscal constraints and the advancements in 
technology continue, however, there will always be various versions of 
equipment with inherently different capabilities as systems are 
procured over several fiscal years. That is the nature of the 
evolutionary acquisition cycle and technology insertion process. We 
strive to maintain a high state of readiness, provide our SOF operators 
with the best equipment available, and field to our components in 
accordance with approved, prioritized fielding plans.

    8. Senator Landrieu. Mr. Schulte, will omni-directional antennae be 
available to more Special Operations Forces units?
    Mr. Schulte. Omni-directional antenna are provided with all SOF 
fielded tactical radios such as the Multi-Band Intra Team Radio (MBITR) 
or Multi-Band Multi-Mission Radio (MBMMR). Tactical antenna present 
design trade-offs, with antenna weight and cube constraints [``must fit 
in rucksack''] often-compromising optimum performance. Single-antenna, 
when operated in wide-band radios, usually offer performance that is 
adequate across the entire frequency band, yet may not optimize 
performance across the entire band. Presently, SOF acquisition is 
staying apprised on new antenna technologies on omni-directional 
antenna for use with our current and future multiple frequency bands 
radios to improve antenna efficiency and effectiveness. To date, the 
USSOCOM has no new requirements or funding to procure any SOF unique 
omni-directional antenna. SOF Intelligence applications with omni-
directional antenna include the following systems:
Privateer
    MK-V: Bobcat Omni-Directional ELINT Antenna; MA-717 Omni-
Directional Whip COMINT Antenna
    Patrol Coastal: Bobcat Omni-Directional ELINT Antenna; AS-4293 
Omni-Directional COMINT Antenna; AS-145 Omni-Directional HF Antenna
    Sentinel: Currently there is no Omni-Directional Antenna installed/
associated with the Sentinel system, however, an Omni-Directional DF 
Antenna will be installed on the AC-130H, AC-130U, and MC-130H 
aircraft. The current schedule for the Production Installation is as 
follows: MC-130H: March 2003; AC-130U: June 2004; AC-130H: September 
2004.
                                 ______
                                 
              Questions Submitted by Senator Jean Carnahan
                  accelerating technology development
    9. Senator Carnahan. Mr. Schulte, the Special Operations 
acquisition staff and troops they serve share something in common: the 
ability to move with impressive speed. The time it takes for you to go 
from technology development to acquisition is faster than that of any 
other command in our military. Why is this ``accelerated technology 
transition'' so important to SOCOM? Perhaps more importantly, describe 
how SOCOM is able to accomplish it--in other words, how is it you are 
able to bring technology ``from concept to combat'' so rapidly?
    Mr. Schulte. The USSOCOM considers itself to be a ``user'' of 
technology rather than a ``developer'' of technology. We, as an 
institution, have become most adroit at adapting and modifying the 
technology developed by others within the government and commercially 
to meet SOF needs. Additionally, we use our relatively small size to 
our advantage. For instance, our chain of command isn't nearly as long 
or complicated as the Services. Because it is shorter we can get to the 
user, the Ranger or the Special Forces troop, the individual SEAL, or 
Special Tactics airman quickly to test, evaluate, or get/give input on 
specific technology. Moreover, the urgent strategic/sensitive nature of 
our missions, coupled with extremely short preparation time before 
execution (of operations), dictates we maintain a technological edge 
over our adversaries. Most of the technology we adapt is already in the 
BA 2 (Applied Research)/BA 3 (Advanced Technology Development) 
category. We also accept the 80 percent solution, use rapid prototyping 
techniques and manage risk with trained managers to further expedite 
the technology push. Lastly, we can field equipment faster than the 
services in that most SOF equipment is low-density--tens or hundreds 
vice tens of thousands.

    10. Senator Carnahan. Mr. Schulte, Special Operations Forces have 
always performed impressively on what sometimes appears to be a ``shoe-
string'' budget. You will see an increase in your 2003 budget; however, 
some items will be decreased. Your budget for earlier stage development 
of new technologies has been cut by more than half. It drops from $14 
million to just $6.7 million. This must have some effect on future 
capabilities. Describe the impact this significant decrease in early 
stage development funding will have upon your ability to execute your 
mission.
    Mr. Schulte. In fiscal year 2002 our budget request for ``Applied 
Research'' Special Operations Technology Development (SOTD) was $7.606 
million. We did, however, receive $12.9 million in Congressional Plus-
Ups in fiscal year 2002 for the SOTD program. Our projected budget for 
SOTD in fiscal year 2003 is $6.741 million, a reduction from the base 
program of some $860,000 for the upcoming fiscal year. The reduction 
will force the USSOCOM to reduce its level of effort on SOTD projects 
so it can focus on higher priority, nearer term needs. We must 
carefully prioritize, on-going projects and future technology 
nominations. We must also place more emphasis on forecasting which 
technologies offer the biggest ``bang for the buck'' for the operating 
SOF. Lastly, this reduction will delay the development of some key 
technologies, such as, enhanced technologies for SOF weapons (e.g. the 
M4 carbine), night vision and imaging capabilities (e.g. video imaging 
device, day/night sniper scope) and improvements in SOF deep 
penetration air and maritime mobility platforms (e.g. aircraft 
camouflage/visual and IR signature reduction).

                expanding roles require new technologies
    11. Senator Carnahan. General Holland, the war on terrorism has 
required that we expand the role of our Special Operations Forces. It 
has also required Special Operations Forces to perform this role in an 
increasing number of countries known to harbor terrorists. As we 
increasingly rely upon our Special Operations Forces, what new 
technologies will they rely upon to perform their mission?
    General Holland. The war on terrorism will indeed expand the role 
of SOF around the world in the coming months and years. SOF are simply 
the right forces . . . at the right time. These forces, and the 
equipment they will carry, must be the best this country has to offer. 
It is incumbent upon those of us charged with providing them the very 
best equipment to focus on those areas that seem to hold the most 
promise or provide the greatest hope of technological payoff. Last year 
the USSOCOM published two planning documents in this area. One of these 
publications was entitled ``Special Operations Technology Objectives 
(SOTOs),'' discussing 40 diverse technologies having SOF interest. 
These spawned yet a further distillation of ideas with the development 
of the Technology Thrust Areas (TTAs). The TTAs are a synthesis of the 
40 SOTOs into specific areas of SOF interest and offer USSOCOM the 
greatest opportunity for ultimate operational pay-off by defining and 
addressing significant technological gaps within the SOF arena, while 
at the same time identifying opportunities to apply technology in an 
evolutionary acquisition framework. Defining characteristics include: 
(1) they are important to a broad range of SOF operators; (2) they are 
solutions to compelling operational shortfalls; (3) they represent 
substantial technological opportunities; (4) they represent leap-ahead, 
non-linear advances in SOF operations; (5) they are difficult but 
achievable; (6) they are responsive to articulated user needs (U.S. 
Army Special Operations Command, Naval Special Warfare Command, Air 
Force Special Operations Command); (7) they are SOF peculiar/SOF 
unique; and (8) USSOCOM is a willing financial partner in collaboration 
with industry, academia and/or service labs.
    There are a total of nine TTAs. Wide bandwidth/reachback 
communications key in the SOF arena because the uniqueness of the 
forces and broad mission requirements place a premium on high wide 
bandwidth and low probability of interception/low probability of 
detection communications. They must be extremely long range and possess 
reliable ``reach back'' capability so a field operator anywhere in the 
world can tap into both Defense and civilian databases.
    Additionally, signature reduction of both personnel and platforms 
is key, for SOF personnel and aircraft operating in the enemy's back 
yard undetected.
    Underwater communications must link into existing communications 
architectures while allowing the operator to communicate with other 
support platforms thereby enhancing the overall operational situational 
awareness of each swimmer or platform.
    Unmanned systems are increasingly more important. For example, 
operators will use the entire spectrum of unmanned systems from 
microsystems to large national assets on air, sea, land and in the 
future space.
    Batteries and fuel cells are another area of concern. For example, 
the energy sources of the future must be high power, long lasting, give 
off little or no signature, and provide SOF operators extended 
operating capabilities without requiring resupply.
    Remote sensing is a huge effort within the SOF community. Sensors 
must be capable of detecting all electronic, acoustic, magnetic, RF, 
CBR, IR, and electro-optic and electro-magnetic targets in all climates 
and environments.
    Advanced Training Systems must provide the latest in high fidelity, 
virtual reality mission rehearsal systems for air and maritime platform 
crews as well as ground operators.
    Bioengineering offers the future SOF operator whole new worlds of 
advanced medical techniques, improved drugs, whole blood substitutes, 
bio-compatible material for implants, and nano-scale sensors for 
detection of disease as well as Nuclear, Biologic, and Chemical (NBC) 
agents.
    Directed Energy applications will allow SOF to deliver a tunable 
(lethal to non-lethal) force against hard and soft targets in any 
environment.

    12. Senator Carnahan. General Holland, in your estimation will the 
proposed 2003 budget sufficiently address our future needs in this 
counter-terrorist campaign?
    General Holland. While fiscal constraints obviously prevent fully 
funding every agency's complete needs, we feel the 2003 budget will go 
a long way toward satisfying the USSOCOM's most pressing needs required 
to meet our objectives in the global war on terrorism. Both Congress 
and the Department have been very supportive of USSOCOM's requirements 
to date and we look forward to this continued level of support.

                acquiring technology from other services
    13. Senator Carnahan. Mr. Schulte, the Special Operations Command 
is comprised of troops from all branches of the services. Likewise, you 
depend upon these other commands and services to provide you with 
various equipment and weapons. For example, I understand that Special 
Operations Command has requested two additional AC-130 gunships. The 
regular Air Force will provide the aircraft, and it will be up to 
USSOCOM to provide additional technology upgrades. What challenges do 
you still face in acquiring these large platforms from the major 
services?
    General Holland. The Services have been very supportive of our 
initiatives and have provided excellent support when we've needed it. 
Using the additional AC-130s as an illustrative point, we've been 
closely engaged with the U.S. Air Force (USAF) via the Integrated 
Product Team (IPT) process. An IPT was formed early on and they are in 
the process of working many of the salient issues with their service 
and command counterparts. Leaning forward, USAF already established a 
process for identifying the specific C-130Hs that will be modified to 
the AC-130U configuration. The modification program will be managed for 
USSOCOM by the Aeronautical Systems Center's Special Operations Program 
Office at Wright Patterson Air Force Base, Ohio. The challenges that 
the USSOCOM faces in this particular instance are more product-oriented 
than major Service focused. The challenges in this effort are vanishing 
vendors, parts availability, fleet commonality, and identification of 
``donor'' aircraft to be modified.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman
                          unfunded shortfalls
    14. Senator Bingaman. General Holland, what are Special Operations 
Forces' unique unfunded shortfalls, by programmatic detail, for RDT&E, 
procurement, and O&M for counterproliferation over the FYDP?
    General Holland. Thanks, in large part, to the outstanding support 
we have received from the Department and Congress, the command has 
funded all critical Counterproliferation of Weapons of Mass Destruction 
(CP-WMD) issues in the budget and program years. If we received any 
additional funding, we would seek out, and attempt to take full 
advantage of, possible emerging technology opportunities.

    15. Senator Bingaman. General Holland, what are Special Operations 
Forces' unique unfunded shortfalls, by programmatic detail, for RDT&E, 
procurement, O&M and military construction to defeat hard and deeply 
buried targets over the FYDP?
    General Holland. As is the case with counterproliferation, the 
command has funded all critical Hard and Deeply Buried Targets (HDBT) 
issues in the budget and program years. No military construction funds 
are required. If we received any additional funding, we would seek out, 
and attempt to take full advantage of, possible emerging technology 
opportunities in this area as well.

                               navy seals
    16. Senator Bingaman. General Holland, can you please explain the 
mission requirement for the Advanced Seal Delivery Vehicle and frame 
that in the current maritime mobility needs for Special Operations?
    General Holland. [Deleted.]

    17. Senator Bingaman. General Holland, would you please explain 
your plans for a future coastal patrol ship? It is my understanding 
that the current platform has been returned to the blue water Navy yet 
it has been a mainstay of the SEAL community for the past 40 years.
    General Holland. In 1998, due to fiscal constraints, the USSOCOM 
decided to reduce the patrol coastal (PC) inventory from 13 ships to 7 
by 2004. Subsequently, the USSOCOM Board of Directors approved zeroing-
out the complete PC inventory by the beginning of fiscal year 2003. 
This decision was based on the PC ships continual dedication to a 
USSOCOM collateral mission (Counter Drug operations) and the dependency 
on the Navy for protection, command and control, and the ships' 
manning. The SOF primary mission return on our dollar investment was 
minimal and therefore relegated the PC program to a financial drain we 
no longer considered fiscally prudent.
    USSOCOM does not currently plan to replace the PC. Our Navy 
Component, the Naval Special Warfare (NSW) Command, is still working on 
its Integrated Mobility Assessment for 2010-2030, and will address this 
issue in its final volume late this summer. One preliminary finding is 
concurrence among all of the Theater commands, Commanders in Chief, 
Theater Special Operations Commands and Fleet forces of the need to 
explore two potentially different concepts: a long-range maritime 
mobility asset, and a mobile forward-operating base (or mother ship). 
Recent operations in the global war on terrorism have also identified a 
requirement for all U.S. Navy combatants to be better prepared to host 
NSW mobility assets.

                 dod/civilian intelligence interaction
    18. Senator Bingaman. General Holland, Special Operations Forces 
are the critical bridging element between the traditional DOD and the 
civilian intelligence community. Traditionally, this interface was 
shunned by the conventional military. Our 21st century conflicts show 
that this interaction will be more highly valued than in the past. How 
does Special Operations Forces envision itself in the future 
interacting with the operational elements of the civilian intelligence 
community?
    General Holland. SOF will continue to team with its intelligence 
community counterparts to prepare the battlespace for future conflicts, 
both conventional and asymmetrical. The intelligence community often 
provides access to hostile areas and the means to collect actionable 
intelligence. SOF brings the special military skills to set the 
operational conditions for success of follow-on main forces through 
reconnaissance, force reception, terminal guidance, and other advance 
force activities. The USSOCOM is also seeking to expand its own 
capabilities to conduct unilateral sensitive special operations abroad, 
when directed, with minimal reliance on other government agencies. This 
will involve the development of clandestine infiltration means to gain 
access to areas otherwise inaccessible to military forces.

    19. Senator Bingaman. General Holland, are there any specific 
organizational shortfalls in deploying Special Operations Forces to 
support civilian intelligence missions or vice-versa?
    General Holland. Lessons learned in the global war on terrorism 
thus far indicate SOF need additional personnel and delivery systems to 
both meet its standing commitments and augment the operational elements 
of the civilian intelligence community. Particularly acute is the 
shortage of aircraft capable of operating in harsh environments across 
the spectrum of special operations. Operators fluent in Arabic and 
Middle Eastern languages remain a chronic shortfall. Also, the USSOCOM 
has a shortfall in certain sensitive tradecraft resources necessary to 
conduct clandestine activities.

    20. Senator Bingaman. General Holland, are there any changes in 
existing law that would facilitate, under proper oversight, the 
integration of Special Operations Forces to support civilian 
intelligence community missions and vice-versa?
    General Holland. Generally speaking, SOF are able to support 
civilian intelligence community missions and vice-versa without any 
unacceptable legal impediments from Executive Order 12333 (U.S. 
Intelligence Activities), Title 50 USC 413 et seq (Accountability for 
Intelligence Activities), or Title 50 USC 1541 et seq (War Powers 
Resolution). Although we interpret Title 10 to provide SOF with its own 
unilateral, non-intelligence role in preparing the battlespace prior to 
a crisis, the above provisions are sometimes perceived as inhibitors to 
that mission. It is also unclear the extent to which sensitive special 
operations may be conducted abroad under the authority of Title 10 
alone.

                         operational shortfall
    21. Senator Bingaman. General Holland, Special Operations Forces 
are at peak operational tempo and have been since the 1990s. What 
military personnel levels, in grade, by service, would you recommend 
over the next 10 years to alleviate this operational shortfall?
    General Holland. Thank you for the opportunity to address your 
concerns about SOF force structure. Among the USSOCOM's most important 
Service-like responsibilities, is building and programming the force. 
USSOCOM has developed a Strategic Planning Process (SPP) that parallels 
the procedures used by the Services. Our force structure development 
begins with National and Defense planning guidance and Illustrative 
Planning Scenarios (IPS) used by the Services. At the conclusion of the 
force structure build phase of the SPP, USSOCOM publishes the Objective 
Force list. The Objective Force, though constrained, is USSOCOM's 
stated force structure requirements throughout the Future Years Defense 
Program (FYDP). This process is repeated every 2 years and looks out 5 
years. I have a high level of confidence that the information provided 
below will accurately address your question. Table A layouts the 
current force structure for Program Objective Memorandum (POM) 2002-
2007. Table B is a compilation of validated requirements identified 
from the USSOCOM SPP 2004-2009 and recent force structure requests from 
our Component Commands. A detailed listing of the type units is at TAB 
A. We are working closely with the Services to incorporate several of 
these force structure initiatives into the POM 2004-2009 submission. 
The POM 2002-2007 programmed force combined with the force structure 
identified in Table B will close the gap between the current force and 
the Objective Force for all major combat and combat support units. We 
believe that given this level of resourcing, USSOCOM will be better 
postured to meet the long term demands of prosecuting the global war on 
terrorism and relieve some long standing OPTEMPO/DEPTEMPO pressures.

----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal Year
                Mil Type                 -----------------------------------------------------------------------
                                             2002        2003        2004        2005        2006        2007
----------------------------------------------------------------------------------------------------------------
Army Officer............................       6,085       6,164       6,166       6,168       6,168       6,168
Army Enlisted...........................      20,719      21,182      21,280      21,373      21,373      21,373
Air Force Officer.......................       1,945       1,960       1,994       2,340       2,076       2,086
Air Force Enlisted......................       8,562       8,775       8,977       9,323       9,517       9,562
Navy Officer............................       1,083       1,041       1,050       1,050       1,050       1,050
Navy Enlisted...........................       5,277       5,043       5,100       5,100       5,100       5,100
Marine Officer..........................          24          24          24          24          24          24
Marine Enlisted.........................          25          25          25          25          25          25
                                         -----------------------------------------------------------------------
  Totals................................      43,720      44,214      44,616      45,403      45,333      45,388
----------------------------------------------------------------------------------------------------------------
Table A depicts current programmed force for fiscal year 2002-2007.


----------------------------------------------------------------------------------------------------------------
                                                                        Fiscal Year
                Mil Type                 -----------------------------------------------------------------------
                                            2004     2005     2006     2007     2008     2009     2010     2011
----------------------------------------------------------------------------------------------------------------
Army Officer............................      274      376      424      510      510      619      619      824
Army Enlisted...........................      788    1,480    1,638   1,912     1,912    2,636    2,636    4,217
Air Force Officer.......................       61       61       61      161      161      161      161      161
Air Force Enlisted......................       43       43      43       943      943      943      943      943
Navy Officer............................       33       33       51       51       51       51       51       51
Navy Enlisted...........................      262      262     373       373      373      373      373      373
Marine Officer..........................        0        0        0        0        0        0        0        0
Marine Enlisted.........................        0        0        0        0        0        0        0        0
                                         -----------------------------------------------------------------------
  Total.................................    1,461   2,255     2,590    3,950    3,950    4,783    4,783    6,569
----------------------------------------------------------------------------------------------------------------
Table B depicts additional USSOCOM force structure requirements.

    TAB A--Additional USSOCOM Force Structure Requirements:
Army Active Component
    U.S. Army John F. Kennedy Special Warfare Center and School 
Instructors
    1 x Special Operations Aviation Battalion
    1 x Special Operations Aviation Battalion
    Ranger Regiment (Snipers/Medics)
    Joint SOF Command and Control (C2) Headquarters Requirements
    1 x Special Operations Support Battalion (Reserve Component)
    Special Forces Group Redesign
    112th Special Operations Signal Battalion (TO&E)
    Special Forces Group Chemical Detachments
    2 x Regional Psychological Operations (PSYOP) Companies
    2 x Civil Affairs Companies
    Headquarters U.S. Army Special Operations Command
    Corps SOCCORD
Army Reserve Component
    4 x Regional PSYOP Companies
    Special Operations Support Battalion
U.S. Air Force
    Special Operations Liaison Element
    Weapons Instructors Course
    Air Crew Training Operators Course
    Language Training Course
    10 x MC-130 Tankers
U.S. Navy
    2 x Mission Support Center
    2 x Combat Service Support Teams
    1 x Regional Survey Teams
    1 x SEAL Team
    1 x Advanced SEAL Delivery System (ASDS) Platoon
    Advanced SEAL Training
    Advanced Combat Crewman Training
    Advaned SEAL Delivery Vehicle (SDV) Training
Joint SOF
    USSOCOM buyback of 15 percent Headquarters Reduction
    Full support to Joint Special Operations Command (JSOC) command and 
control initiative
    Special Operations Command-Central (SOCCENT) Forward Detachment 
Initiative
                                 ______
                                 
              Questions Submitted by Senator Rick Santorum
  193rd special operations wing of the pennsylvania air national guard
    22. Senator Santorum. General Holland, the 193rd Special Operations 
Wing of the Pennsylvania Air National Guard was one of the first units 
to be engaged by the National Command Authority in the current war on 
terrorism, and is flying combat missions daily in Afghanistan. The 
``Commando Solo'' mission spearheads the administration's coalition on 
public diplomacy in the coordinated effort by the Department of State 
and Department of Defense in the war against terrorist organizations 
worldwide, enhancing security at home.
    With its unique electronic warfare capability, the 193rd Special 
Operations Wing at Harrisburg International Airport is the most highly 
deployed flying unit in the entire Air National Guard. The unit 
conducts information warfare missions such as psychological operations; 
civil affairs radio/television broadcasts; command, control, 
communications, countermeasures; and limited intelligence gathering.
    The current EC-130E fleet consists of six aircraft configured for 
``Commando Solo'' and two for another mission, ``Senior Hunter.'' These 
highly modified C-130Es have been in service for 30 years, and at the 
current operational tempo are rapidly reaching the end of their service 
life. Leadership within the Pennsylvania Air National Guard have 
concluded that the C-130J--in the EC-130J configuration--is the best 
platform to replace the EC-130E aircraft.
    How important is the 193rd Special Operations Wing to the war 
ongoing in Afghanistan?
    General Holland. Commando Solo aircraft conducted psychological 
operations (PSYOP) to include broadcasts in AM, FM, and military 
communications bands. A typical mission consists of a single-ship orbit 
offset from the desired target audience. Commando Solo aircraft were 
used effectively to broadcast daily PSYOP programs designed to change, 
persuade, and influence the Afghanistan populace. Additionally, 
Commando Solo aircraft were the only platforms in the theater of 
operations with the capability to conduct airborne psychological 
operations and to do so within the first 2 weeks of the war in 
Afghanistan. Commando Solo aircraft conducted daily broadcasts during 
their deployment to the CENTCOM Area of Operations in support of OEF. 
Commando Solo aircraft continued broadcasting PSYOP programs until late 
March of this year and were relieved only when land-based PSYOP-
specific broadcast equipment could be installed and were fully 
operational in-country.

    23. Senator Santorum. General Holland, how important is the mission 
of the 193rd Special Operations Wing to U.S. Special Operations 
Command?
    General Holland. Commando Solo aircraft are the only specially 
equipped EC-130E aircraft operated by the Pennsylvania Air National 
Guard's 193rd Special Operations Wing for the specific mission of 
broadcasting PSYOP world-wide. Commando Solo aircraft possess the only 
military capability to communicate to remote and isolated target 
audiences regardless of terrain and infrastructure limitations. With 
this aircraft PSYOP messages can be disseminated worldwide in near real 
time without the ground presence of U.S. forces.

    24. Senator Santorum. General Holland, what will be the impact to 
the mission of the 193rd Special Operations Wing if replacement of the 
older EC-130E aircraft is not aggressively pursued? That is, can the 
193rd Special Operations Wing perform its mission with these older EC-
130E aircraft?
    General Holland. Under the original EC-130J program plan, the 193rd 
Special Operations Wing (SOW) was estimated to be in split fleet 
operations (operating EC-130Es and EC-130Js simultaneously) for 
approximately three years. The current Air Force plan to procure 
additional aircraft will put the 193rd SOW in split fleet operations 
for at least 6 years. Extended split fleet operations will be felt in 
the units training, readiness, and deployment signature (logistics). 
Although there will be impacts, the unit, in concert with its parent 
headquarters, Air Force Special Operations Command, will work 
aggressively to maintain the combat readiness of the unit. The 193rd 
SOW can and will continue to perform the mission with both aircraft 
until the conversion finishes.

    25. Senator Santorum. General Holland, is an additional EC-130J 
aircraft on the U.S. Special Operations Command unfunded priority list?
    General Holland. No sir. This does not mean that the need for 
additional aircraft is not important to the Command, it is just a 
matter of limited resources and the knowledge of possible offsets that 
this Command cannot absorb at this time.

    26. Senator Santorum. General Holland, to what extent does the Air 
Force's C-130 modernization plan help or hinder the acquisition of 
additional EC-130J aircraft for the 193rd Special Operations Wing?
    General Holland. The United States Air Force (USAF) and the USSOCOM 
are taking steps to remedy the disconnect between the traditional EC-
130J procurement method (through Congressional adds) and future 
procurement programs. The new USAF C-130J procurement program helps the 
acquisition of additional EC-130J aircraft in that no new aircraft were 
programmed by USAF or USSOCOM in previous years. USAF is helping 
USSOCOM finish an effort that was started by Congress. It must also be 
noted that finishing the conversion of the 193rd Special Operations 
Wing will generate additional modification and sustainment requirements 
that must be resourced by both USAF and USSOCOM.

                         socom research (6.1) 
    27. Senator Santorum. Mr. Schulte, it is my understanding that 
USSOCOM has no basic research (6.1) program of its own. Instead, 
USSOCOM leverages basic research programs in the services, Defense 
Advanced Research Projects Agency (DARPA), national laboratories, and 
Small Business Innovative Research (SBIR) programs. Does USSOCOM have 
an opportunity to provide input during the annual budget process each 
of the services conducts? That is, can USSOCOM provide any direction or 
comment on both the type of research being done at the 6.1 level and 
the level of funding allocated by the services?
    Mr. Schulte. In the review of the 1992 Defense Appropriations Bill, 
the Senate Appropriations Committee noted that ``USSOCOM must be able 
to provide their validated SOF peculiar requirements to DOD and other 
Government technology base development communities for consideration in 
competitive resourcing, and to enter into cost sharing relationships 
with the same.'' In fact, we have not been fully successful in 
establishing a process to input SOF requirements directly into Service 
funded science and technology development efforts. We make indirect 
inputs through our Service Science Advisors as well as a Department of 
Energy (DOE) representative, who in turn provide indirect input into 
their respective agency/Service annual budget submission. Also, members 
of the Advanced Technology Directorate are invited members of various 
Integrated Product Teams (IPTs) for such entities as the Joint Non-
Lethal Weapons Joint Services Small Arms Program, the National Systems 
Support to SOF (Tactical Exploitation of National Capabilities 
[TENCAP]), Air Force Research Program (specifically the Special 
Operations Forces Technology Planning IPT). Our input into the Office 
of Naval Research (ONR) and their Future Naval Capabilities is made 
through the Navy liaison in the Advanced Technology Directorate.
    Additionally, directorate members are active in the U.S. Army's 
Technology Base Executive Steering Committee, the DOE Advanced 
Technology Program (through the DOE liaison officer) and the Defense/
DOE Munitions Technology Development Program. Although we have had 
success on a ``one-on-one'' basis, our formal involvement is generally 
limited to one of review and comment, rather than making direct 
contributions in planing and shaping these science and technology 
efforts. We believe USSOCOM could benefit substantially if we were to 
become institutionally involved with the Defense Secretariat level 
Science and Technology (S&T) planning process led by the Director of 
Defense Research and Engineering. This would significantly improve our 
capability to influence Defense S&T and would allow the command to have 
direct input into development of the Joint Warfighting S&T Plan, the 
Defense Technology Objectives in addition to participating in the 
Technical Area Review and Assessment process. Furthermore, membership 
on the S&T Executive Council would establish USSOCOM's role in Science 
and Technology by providing us direct high-level visibility of our 
critical needs. We rely heavily upon leveraging the science and 
technology efforts of the Services, Defense, and other government 
agencies. If USSOCOM were able to more directly focus even a small 
portion of the technology base on SOF peculiar needs, our leveraging 
efforts would be much more efficient and USSOCOM's acquisition center 
more effective in providing advanced technology to the SOF warfighter.

               advanced concept technology demonstration
    28. Senator Santorum. Mr. Schulte, the Advanced Concept Technology 
Demonstration (ACTD) initiative enables the evaluation of a 
technology's military utility before committing to a major acquisition 
effort; permits the development concepts of operation for employing the 
new technology; and allows the retention of a low-cost residual 
operational capability. Can you provide information on whether SOCOM 
has the flexibility to perform advanced technology demonstrations and/
or rapid prototyping of technologies to meet needs unique to Special 
Operations Forces?
    Mr. Schulte. The USSOCOM has always had the philosophy of ``try 
before you buy.'' This philosophy carries over in USSOCOM's aggressive 
involvement with ACTD topic selection and in demonstrations 
specifically relating to SOF. We are, however, a relatively small 
Defense entity and must shepherd our limited personnel resources. We 
seek, therefore, to leverage the Services' ACTD efforts and demonstrate 
and evaluate equipment that can specifically respond to SOF peculiar-
SOF unique needs. The command does possess, on a very modest scale, an 
advance technology demonstration program similar to those sustained by 
the services, but again we rely primarily upon the services to provide 
the venues where SOF unique equipment may be demonstrated. Our rapid 
prototyping has limited funding and is executed under the Special 
Operations Special Technology Program (S200).
                                 ______
                                 
              Questions Submitted by Senator Susan Collins
         advanced lightweight grenade launcher/striker program
    29. Senator Collins. General Holland, I am familiar with the 
Advanced Lightweight Grenade Launcher/Striker Program (MK47Mod 0), and 
I am aware it is included on your fiscal year 2003 unfunded 
requirements list. You may know that it is also currently being tested 
at the Marine Corps' warfighting lab. What can you tell me about the 
value of this program in terms of meeting mission requirements for the 
Special Operations Forces?
    General Holland. The Advanced Lightweight Grenade Launcher/Striker 
Program (ALGL) is of great operational value in terms of meeting 
mission requirements for Special Operations Forces. The ALGL will 
provide the special operators a first round on target capability with a 
40mm grenade from 400 to 2,000 meters. This is a significant 
improvement over the current systems. The ALGL addresses three USSOCOM 
Desired Operational Capabilities: personnel survivability, sensory 
enhancements, and versatile weapons. The ALGL will be compatible with 
an advanced air-burst, pre-programmable, high explosive fragmentation 
grenade that will provide a capability to fire behind covered 
positions.
    The ALGL provides the capability to engage personnel and motorized 
or lightly armored material targets with suppressive and destructive 
fires. The greater lethality of the ALGL system (compared to the MK-19) 
is a significant force multiplier for SOF. A significantly lighter 
weapon, the ALGL can be man-packed and readily employed by dismounted 
elements in offensive and defensive operations. Moreover, the first-
burst hit capability of the ALGL eliminates the requirement to use 60 
to 70 percent of SOF's 40mm ammunition loads for targeting.

    30. Senator Collins. General Holland, can you also tell me if the 
Advanced Lightweight Grenade Launcher/Striker is, in fact, 40 percent 
of the weight of the current MK 19 Grenade Launcher, and 10 times more 
lethal against dismounted targets?
    General Holland. The ALGL does weigh 40 percent less than the MK-
19. The ALGL weight is 100 pounds versus 168 pounds for the MK-19. 
Combining the increased probability of hit and reduction in engagement 
times greatly improves the lethality of the ALGL. The accuracy of the 
MK-19 is ineffective in that it provides only a 25 percent probability 
of one round or more of a three-round burst hitting a small armored 
vehicle (BMP) sized target at 1,000 meters. This ineffective accuracy 
requires additional bursts to eliminate the target, with at least two 
to three more engagements on the original target for a complete kill. 
The ALGL must have an 80 percent probability of hitting five stationary 
BMP targets from 300 to 1,000 meters within 2 minutes. The first round 
hit capability and air-burst round greatly increases the lethality of 
the weapon system against dismounted targets. Dismounted targets will 
have no warning they are being targeted and therefore no time to seek 
cover. Bracketing the rounds into the target will be eliminated. The 
air-burst round will improve lethality as the round does not have to 
make impact with the target and will have a higher kill radius than 
current rounds.

                     vessel or shallow water craft
    31. Senator Collins. General Holland, how important is a vessel or 
shallow water craft in meeting the surface, submerged, and semi-
submerged operations of Special Operations Forces? Please provide 
specifics on how the following craft can meet those particular 
operational needs: the Surface Planning Wet Submersible (SPWS); the 
Integrated Bridge System (IBS) for Special Operations Forces Combatant 
Craft; and the Integrated Command and Control System (IC\2\S) for 
Special Operations Forces Combat Assault Vehicles.
    General Holland. Based on the current and future signature 
detection capabilities of potential adversaries, the technology for a 
craft to conduct surface, submerged, semi-submerged missions is 
essential to insert and extract SOF assets. The SPWS combines the 
benefits of a SEAL Delivery Vehicle (SDV) and a SOF insertion/
extraction maritime platform into one efficient versatile craft. The 
capabilities of the craft are currently being evaluated by this command 
and we expect the knowledge gained from testing of SPWS to contribute 
to future applications.
    The IBS is being developed for SOF combatant craft. The IBS 
increases the situational awareness as well as integrates the 
navigation, communication, and propulsion equipment into one display 
for the combatant craft crew. IBS hardware consists primarily of 
marinized computers and display screens. SOF platforms must be capable 
of providing near real time intelligence to the operator while enroute 
to the target. The IBS incorporates this essential capability while 
reducing the cockpit instrumentation. Combatant craft platforms will 
have a centralized call-up display with holistic mission information to 
increase the probability of mission success.
    The IC\2\S is the next generation combat data integration, display, 
monitoring, and control system being developed by the Naval Surface 
Warfare Center, Port Hueneme Division, Dam Neck Detachment for the 
USSOCOM's SOF. USSOCOM's SOF mobility platforms (land, air, and sea 
assault vehicles) require a system that seamlessly integrates various 
command and control capabilities and allows for their intuitive 
display, immediate access, and user friendly function. IC\2\S will 
integrate those multiple systems of the individual land, air and sea 
SOF into a single integrated, scalable, modular system that will allow 
for a ``plug-and-play'' capability of those components required for 
unique mission assignments. IC\2\S will be developed such that the 
system is configurable, transportable, and operational in both SOF 
airborne and ground vehicle platforms.

    [Whereupon, at 4:23 p.m. the subcommittee adjourned.]


DEPARTMENT OF DEFENSE AUTHORIZATION FOR APPROPRIATIONS FOR FISCAL YEAR 
                                  2003

                              ----------                              


                       WEDNESDAY, APRIL 10, 2002

                           U.S. Senate,    
                   Subcommittee on Emerging
                          Threats and Capabilities,
                               Committee on Armed Services,
                                                    Washington, DC.

   TECHNOLOGY FOR COMBATING TERRORISM AND WEAPONS OF MASS DESTRUCTION

    The subcommittee met, pursuant to notice, at 9:09 a.m., in 
room SR-253, Russell Senate Office Building, Senator Mary L. 
Landrieu, (chairman of the subcommittee) presiding.
    Committee members present: Senators Landrieu, Carnahan, and 
Roberts.
    Committee staff member present: Gabriella Eisen, 
nominations clerk.
    Majority staff members present: Madelyn R. Creedon, 
counsel; Evelyn N. Farkas, professional staff member; Richard 
W. Fieldhouse, professional staff member; Peter K. Levine, 
general counsel; Arun A. Seraphin, professional staff member; 
and Christina D. Still, professional staff member.
    Minority staff members present: Edward H. Edens IV, 
professional staff member; Carolyn M. Hanna, professional staff 
member; Mary Alice A. Hayward, professional staff member; and 
Joseph T. Sixeas, professional staff member.
    Staff assistants present: Dara R. Alpert and Leah C. 
Brewer.
    Committee members' assistants present: Marshall A. Hevron, 
assistant to Senator Landrieu; Jeffrey S. Wiener, assistant to 
Senator Landrieu; Richard Kessler, assistant to Senator Akaka; 
Neal Orringer, assistant to Senator Carnahan; Robert Alan 
McCurry, assistant to Senator Roberts; Douglas Flanders, 
assistant to Senator Allard; Kristine Fauser, assistant to 
Senator Collins; and Derek Maurer, assistant to Senator 
Bunning.

    OPENING STATEMENT OF SENATOR MARY L. LANDRIEU, CHAIRMAN

    Senator Landrieu. Good morning. Let me welcome all of our 
panelists this morning and say that we are very pleased and 
enthusiastic about this hearing that we think is very 
important.
    Senator Roberts will be joining us in just a few minutes. 
He is on his way, as are several other members of the 
subcommittee.
    Unfortunately, because of a double schedule of meetings 
this morning, I am going to have to leave at 10:00, so I am 
going to try to shorten my remarks. We will get as much of the 
panelists' presentations in as possible and also some questions 
because this hearing, hopefully, will lay some groundwork for 
some very important legislation in the authorization bill that 
we hope to put forward here in this committee.
    So, with that, let me just begin with a brief opening 
statement to say that there are many important things that we 
can do to combat terrorism, and this country is greatly 
challenged by what is before us. In my opinion, not only as 
chair of this subcommittee, but as a member of Armed Services 
and Appropriations Committees, I think one of the great ways 
that America can position its defenses is to strengthen our 
technology initiatives. Last October someone sent the deadly 
biological agent, anthrax, through the mail to various 
locations, including right here to the Senate. Our Nation now 
understands that these horrific actions represent a new 
generation of threats, very frightening to our security: 
terrorism and the possible use of weapons of mass destruction 
by terrorists in carrying out their attacks.
    This has added a new and, I might say, urgent element to 
our national security efforts: protecting ourselves at home as 
well as our troops overseas. This complex homeland security 
mission involves military and civilian agencies at the Federal, 
State, and local levels and is now, in many large and small 
ways, a great challenge to the way that we have traditionally 
been organized.
    Let me just share a chart that I really think we should 
kind of blow up and have in color to show the great challenges 
ahead of us.
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Senator Landrieu. I am sorry it is rather small. But when 
an agency was asked to chart all of the agencies of the Federal 
Government in charge of homeland security, this is what it 
looks like and some people thought this was a joke, but it is 
actually not. It is quite real. When you think about our 
challenges before us to coordinate not only our Federal 
agencies but our State and our local agencies across many 
different levels of government, as well as coordinating that 
effort among all of the funding agencies, you can see the great 
challenges ahead. It was not even easy to coordinate that 
within the Defense Department, but now homeland security gives 
us even greater challenges.
    One of our Nation's great strengths, however, in war or 
peace is our ability to develop and deliver new and effective 
technologies to the marketplace or to the battlefield. We have 
seen an impressive demonstration of this in our current 
military efforts to defeat terrorism, including unmanned aerial 
vehicles, laser-guided precision weapons, and instantaneous 
global communications. New technologies will also play an 
important role in homeland security.
    Today's hearings will focus on two topics related to 
technology. First, we will consider the Pentagon's Science and 
Technology (S&T) research and development programs. These 
efforts serve as a foundation for technology and weapons that 
our military use today. I would note that these programs have 
also been the source of technologies we use in our everyday 
lives, which has been more than a dual benefit to our Nation, 
including the Internet, cell phones, and you could go on with a 
long, long list of such technologies.
    Second, we will look specifically at the technology we have 
developed, and are still developing, to combat the two most 
serious threats we face: not only terrorism, but the potential 
use of nuclear, chemical, and biological weapons by terrorists 
or rogue nations. We are particularly interested to know what 
the Pentagon has done since September 11 to step up such 
efforts.
    We have a very large and distinguished panel of witnesses 
today. I thank you all for being a part of it. Dr. Ronald Sega 
is Director of Defense Research and Engineering (DDR&E) at the 
Pentagon. He is responsible for the Department's S&T programs.
    Dr. John Marburger is Director of Office of Science and 
Technology Policy, which oversees all Federal science and 
technology efforts, including defense.
    Dr. Dale Klein is the Assistant to the Secretary of Defense 
for Nuclear, Chemical and Biological Defense Programs, a 
position responsible for the Department's efforts to combat 
offensive weapons of mass destruction.
    Dr. Steve Younger is Director of the Defense Threat 
Reduction Agency (DTRA), which is focused on reducing threats 
from weapons of mass destruction. This agency provides support 
to warfighting commanders in getting technology and weapons to 
the battlefield.
    Finally, Mr. Robert Waldron is the Assistant Deputy 
Administrator for Nonproliferation Research and Engineering in 
the Department of Energy's National Nuclear Security 
Administration (NNSA).
    We will ask Dr. Sega to begin the testimony. I hope that 
you will address several important issues to include: the 
proper level of investment for these programs, given the great 
challenges before our Nation today; how we reach out to a 
larger community of small businesses to get the best new 
technologies to the Department of Defense and to the 
battlefield and to our homeland; and how to make sure that we 
are providing the best defenses that the American people would 
anticipate and expect.
    After giving your oral testimony, we will have some 
questions for you that are intended to help us prepare for the 
upcoming authorization bill. Then Dr. Marburger, we hope that 
you will follow with your line of testimony. We have some 
questions prepared.
    I also want to mention that we have asked the science and 
technology representatives from the military services and from 
the Defense Advanced Research Projects Agency (DARPA) to submit 
written testimony so that we can add to this record.
    As I said, I am going to have to leave the hearing at 10 
o'clock, but Senator Carnahan has agreed to chair this hearing 
in my absence.
    Before I turn it over to your testimony, let me just also 
say for the record--and again, I wish I had this blown up and 
in color. This is the Federal counterterrorism research and 
development breakdown by agency. The Department of Defense has 
a large share of that. It is $353 million.
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    But I also call attention to the Department of Health and 
Human Services which has $451 million committed to this cause. 
In addition, the Department of Energy (DOE), with $194 million, 
are the three largest agencies, and the Department of 
Agriculture at $195 million for homeland defense and combating 
terrorism.
    So, again, there are great challenges for coordination. 
This is a lot of money, perhaps not as much as necessary, but a 
lot. Getting the research and development dollars up to the 
levels and using that technology in smart and effective and 
nonduplicative ways, I think, is what this panel is about; to 
help us to fine tune our authorization and legislation to make 
sure that end is accomplished.
    So, with that, Dr. Sega, if you will begin. Thank you.

 STATEMENT OF HON. RONALD M. SEGA, DIRECTOR, DEFENSE RESEARCH 
                        AND ENGINEERING

    Dr. Sega. Thank you, Madam Chairman. Thank you for the 
opportunity to testify on the Department's science and 
technology program. I have a prepared statement I would like to 
submit for the record and spend a few minutes discussing our 
overall research and engineering direction. Following that, it 
is my understanding that I will also make some remarks on 
combating terrorism, in particular, after we have the first 
session on science and technology.
    First, I would like to thank the subcommittee for the 
leadership it has had in supporting science and technology for 
the Department of Defense.
    The Department's goal of funding science and technology, as 
stated by Secretary Rumsfeld and Under Secretary Aldridge, 
remains at 3 percent of the Department of Defense budget. We 
support moving toward this goal, balanced with the needs of the 
Department, as reflected in the President's submitted fiscal 
year 2003 budget.
    As DDR&E, as I started last August, we have approached 
science and technology in an integrated way, to look at the 
research across the services and agencies in the Department of 
Defense and reaching out to other Government agencies, to 
universities, and to small and large businesses.
    We have looked at aligning our science and technology 
investment with the Quadrennial Defense Review operational 
capabilities and within that, looking at a balance between 
basic, applied, and advanced research so that the capabilities 
will continue on in the future, that we are, in a sense, 
loading in generations of technology from those that can be 
fielded in the very near future to those that we are preparing 
on a fundamental science base for the longer term.
    In the area of transformation, we are moving in several 
areas but there are three main areas that cross the Department 
of Defense. I have aligned them in the following way. One is in 
surveillance and knowledge systems, and that includes sensors, 
Unmanned Aerial Vechicles (UAV), biosensors as one example, and 
high bandwidth communications, information assurance, knowledge 
and management systems in cyber warfare.
    A second area is in power and energy. I believe this is an 
enabler across the board, moving toward a more electric force. 
In this area, power generation, whether it starts as nuclear, 
diesel, jet, or solar rays to go to electric power, and I think 
an enhanced emphasis on fuel cell work. Energy storage is 
important in terms of batteries, flywheels, capacitors, 
energetics, power management and control, energy conversion, 
catapults and the like, as well as directed energy, lasers, 
microwave, millimeter waves.
    The third area is in a national aerospace technology area 
which includes hypersonics, access to space, and advanced space 
technologies.
    Crossing those three are areas that form a base such as 
materials, nanotechnology and electronics. There are service-
specific areas. I believe many of those were addressed in the 
testimony from the Departments.
    On the September 19, we formed a DOD Combating Terrorism 
Technology Task Force. It included members from each of the 
services, special expertise for chem/bio defense, such as Dr. 
Anna Johnson Winegar, who is here today; an expertise in 
science and technology, Dr. Charlie Holland is here. In the 
weapons area, Special Operations/Low Intensity Conflict (SO/
LIC), special access programs, Command, Control, 
Communications, and Intelligence (C\3\I), DARPA, and DTRA are 
all represented to look at what technology could bring to our 
efforts to combat terrorism. I would like to speak more about 
that in the second half, but I would like to present one 
example that came out of that effort.
    We met regularly for the fall time about twice every week, 
and 2 days after the first meeting of the 19, December 21, 
identified 150 technologies that were candidates to be brought 
to the field, whether in the U.S. or outside the U.S., within 
roughly a month or so. Three of those were accelerated on that 
second day. One of those was a thermobarics weapon program.
    I have a film that I would like to show to sort of 
illustrate the flight test which occurred on December 14. This 
is a program under the leadership of Dr. Ruth Dougherty and her 
team at the Naval Surface Weapons Center at Indian Head that 
brought the chemistry forward with leadership of Dr. Steve 
Younger and his folks at DTRA for the integration of it, with 
the United States Air Force and Department of Energy, to go 
through a series of steps from fundamental chemistry, based on 
a good S&T base--and that is very important--to testing in the 
laboratory during the month of October, to static testing in 
Nevada during the month of November, to a full-up flight test, 
which is the subject of this film, on December 14, with the 
certification occurring a few days later, bringing science and 
technology to the field in 90 days.
    If we could have the film. [Video.]
    This illustrates a couple points. Technology transition can 
and should occur rapidly. Collaboration among agencies and 
services is the right way to go.
    This is an F-15 Eagle, Strike Eagle. The explosive is 
inside of the main body, which is called a BLU-109. It normally 
holds tritonol. In this case, it is the thermobaric replacement 
explosive, now redesignated as a BLU-118B. The front end is a 
laser-guided system, and it is being lased off of a second 
aircraft. It is a GBU-24, and it will be going into a tunnel 
structure in the Nevada test site.
    The next view of this will also be from the aircraft. It is 
an entrance into this tunnel complex that you see the cross 
hairs on. There will be some venting in the black in the middle 
of the screen, and then the tunnel is a U-shape and continues 
around sort of symmetric with the entrance to cover over a 
three football field length of tunnel area. Another view of the 
same kind of thing. So, it is going from the right to the top 
and out to the left. There was another area.
    So, the propagation of the pressure and blast through the 
tunnel structure--if we could have the volume up, that would be 
great--is significantly higher than that of the standard 
tritonol fill.
    So, from that initial detonation, then the propagation 
continues down the tunnel. This is a high-speed film, so it is 
slow motion, somewhat of a delayed fuse, so it goes in the 
structure. To the upper left, you will see that venting area, 
some black smoke coming up.
    This is an advance that we have to increase the effect in 
enclosed structures. In the open area, it is actually not as 
effective. So, if you missed the enclosed structure, it 
actually causes less collateral damage. So, it gives the 
commander another option.
    Now, the next view is from inside of the tunnel structure. 
The tunnel is that square area on the right. You get a sense of 
it propagating and continuing to combust down the tunnel 
structure. This is the back side. You can still see some force 
even after that distance of the tunnel that you would not see 
in a standard system. It started to snow that same day on 
December 14, in Nevada, and you could sort of imagine that same 
scene in another place.
    But the main point here is technology transition, the value 
of a strong S&T base, and the value of collaboration, in this 
case the Air Force, the Navy, DTRA, and the Department of 
Energy and the contractor community.
    This is an example of a quick reaction type of activity. 
Now it has transitioned into an Advanced Concept Technology 
Demonstration (ACTD) to further upgrade the chemistry and 
optimize the thermobaric explosive. So, you can evolve from 
something that is current year to something that is probably 
optimized further, but you have obtained an 80 percent solution 
right away, and you continue to work on the acquisition. So, 
partnerships are clearly important.
    Another example I would like to present is this small 
infrared (IR) camera. It is an uncooled IR technology, 
developed by DARPA and then through the Army's Night Vision 
Laboratory, and finally through collaboration through a dual-
use program with the Indigo Systems Corporation out of 
California. Now, I believe this is the smallest imaging IR 
system that we have today. There is a connector, RC-32, out the 
back side, so you can look at it either from an adaption onto a 
set of goggles or another imaging device. But this is now 
available in the commercial market for fire fighters. I believe 
that there were articles in the press over the last 3 or 4 
years. One was the Bethesda Chevy Chase Rescue Squad using this 
here locally, as well as the soldiers in the field. So, going 
through areas that have a lot of smoke or fire types of things, 
this is very effective. It is being produced commercially so it 
lowers the cost to the Department of Defense as a buyer as 
well. But it was developed through the S&T programs of DARPA 
and the Army. It is a great little camera.
    The final point I would like to make is on laboratories and 
people. We believe it is important to revitalize our laboratory 
efforts and oversight within the Office of the Secretary of 
Defense (OSD). The only office that I have initiated since 
August has been the Office of Laboratories and Basic Sciences, 
headed up by a Deputy Under Secretary of Defense (DUSD), and 
Dr. John Hopps is the DUSD for Laboratories and Basic Sciences. 
He also has the responsibility for universities and work force. 
His background is as a faculty member at Ohio State and the 
Massachusetts Institute of Technology (MIT), extensive 
experience at Draper Laboratories, the National Science 
Foundation, and his most recent position as the provost at 
Morehouse College. So, he understands laboratories. That will 
be our focal point within DDR&E and an increased focus on this 
very important effort, revitalizing laboratories in terms of 
people and infrastructure. We really thank you for the support 
the Federal authorities provided in those areas.
    The people part is very important. Without the people, 
there is not innovation, and that is our future.
    I thank you for this time.
    [The prepared statement of Dr. Sega follows:]
                Prepared Statement by Dr. Ronald M. Sega
    Madam Chair and Members of the Senate Armed Services Subcommittee 
on Emerging Threats and Capabilities,
    I appreciate the opportunity to appear before you today to discuss 
the DOD Research and Engineering (R&E) Program with particular emphasis 
on Combating Terrorism.
                              introduction
    First, I would like to provide you with an overview of the current 
Research and Engineering (R&E) Program in the Department of Defense 
(DOD). Many of the capabilities and systems that are in the field today 
are the result of a conscious decision, years ago, to invest in Science 
and Technology (S&T) programs. The future security and safety of our 
nation depends in part on a strong research and development foundation.
    The DOD R&E program is being crafted as an integrated science and 
technology approach to align with the desired operational capabilities 
described in the Quadrennial Defense Review (QDR). One of the goals set 
forth in the QDR is to shift the basis of defense planning from the 
``threat-based'' model that has dominated thinking in the past to a 
``capabilities-based'' model for the future. This capabilities-based 
model focuses more on how an adversary might fight rather than who the 
adversary might be or where a war might occur. It recognizes that 
future security threats include more than large scale conventional. 
Instead, the United States must identify the capabilities required to 
deter and defeat adversaries who will rely on surprise, deception, and 
asymmetric warfare to achieve their objectives. Consequently, we are 
shaping our S&T program to focus on transformation, the need for 
``Jointness,'' and a capabilities-based planning.
    Investments in S&T programs are necessary today to broaden the 
range of options available to the warfighter tomorrow. Advantages we 
now possess in key technology areas must be maintained, while pursuing 
new technologies. Our S&T investment must transcend specific 
requirements. For example, our efforts in advanced electronics should 
dramatically improve the performance of avionics, regardless of whether 
the aircraft is manned or unmanned. Missile guidance and targeting 
should be precise and accurate, regardless of the launch platform or 
target. Materials will need to be both lighter and stronger--to protect 
delicate instrumentation in a satellite or the personnel inside a 
vehicle. Nanotechnology will have application across many of our 
desired capabilities and our expectations are very high for this 
emerging technology. Whereas it is science that fuels the generation of 
technology, and it is the application of technology that enhances 
capabilities, it is our efforts in technology transition that take 
technology from the laboratory to the field in an efficient manner.
                     s&t supporting transformation
    S&T is a key enabler of transformation. It not only provides the 
technology for future warfighting capabilities, but provides 
opportunities for changing doctrine that govern the way future forces 
fight. We are focusing on the areas of knowledge, speed, agility, and 
lethality to change the face of war. We must, through our S&T 
investments, continually enhance our technological advantage to provide 
significantly advanced capabilities to deter future threats and when 
deterrence fails, ensure that our response is effective with few U.S. 
and allied casualties and minimal collateral damage. The war in 
Afghanistan has gone well, but this is no consolation for the families 
of the military members who have lost their lives during the current 
conflict. The decisions we are asking you to make regarding investments 
in S&T programs will be important today and into the future--a future 
which we cannot predict, but a future for which we can be prepared.
                          combating terrorism
    Combating Terrorism technologies were a key component of our S&T 
program prior to the attack that occurred on September 11. However, 
since September 11, our effort in this area has dramatically 
intensified. Fortunately, the Department's S&T program had numerous 
program activities well underway, such as ACTDs, that when accelerated, 
helped to meet critical warfighter needs. I would like to briefly 
describe what we have accomplished in the aftermath of September 11, in 
providing combating terrorism technology capability to the warfighter. 
First, we established a DOD Combating Terrorism Technology Task Force 
(CTTTF) on September 19, that rapidly identified, prioritized, and 
integrated DOD S&T initiatives to help with combating terrorism. The 
Task Force included technology leaders from the Services and the 
Defense Agencies, with participation of the Joint Staff, the Department 
of Energy, and other federal organizations. Under Task Force direction, 
four working groups were established to identify needs and technology 
opportunities that crossed the spectrum of combating terrorism 
requirements. The working groups were functionally organized into four 
broad areas of combating terrorism: (1) Deterrence and Indications and 
Warning; (2) Survivability and Denial; (3) Consequence Management and 
Recovery; and (4) Attribution and Retaliation. Working groups 
identified applicable technologies that could help to mitigate 
capability shortfalls and potential remediation programs. Shortfalls 
and remediation programs were identified by the users who generated 
prioritized lists of investment strategies for near-, mid-, and long-
term technologies.
    Two of the projects identified for immediate investment were 
Nuclear Quadrupole Resonance (NQR) Detection Systems and Thermobaric 
Weapons.
    Nuclear Quadrupole Resonance (NQR) technology was developed by the 
Naval Research Laboratory and is being used by the Federal Aviation 
Administration for detection of bulk explosives. There are many 
advantages of NQR over x-ray detectors but of particular significance 
is that little interpretation is required. The existing technology is 
now being modified for use in examining ``bulk'' packages.
    A thermobaric explosive weapon system was accelerated, tested, and 
certified from the concept stage within 90 days. From ``chemistry-to-
weapon,'' the thermobaric explosive was developed and tested in a 
laboratory setting in October 2001, successfully flight tested in 
December, and made available to the warfighter earlier this year. This 
is an example of a successful collaborative effort that included the 
United States Navy, Defense Threat Reduction Agency, the United States 
Air Force, the Department of Energy and industry.
    We also responded with assistance on the home front. A few weeks 
after the attacks on the World Trade Center and the Pentagon, letters 
containing Bacillus anthracis (Anthrax) spore powders were sent to 
several locations in the United States. An interagency technology 
working group was assembled to address the issues of Anthrax and the 
Postal Service. DOD expertise and facilities were made available to 
support this effort. Representatives from the Department of Defense, 
National Institute of Standards and Technology, Food and Drug 
Administration, and the House Mail Office met at the Armed Forces 
Radiobiology Research Institute (AFRRI) to discuss the use of radiation 
to kill the anthrax spores. AFRRI had established radiation kill data 
on surrogate spores such as Bacillus anthracis type Sterne, a vaccine 
strain. The spores of the B. anthracis Sterne are very similar, if not 
identical, to the B. anthracis Ames spores that were recovered by the 
FBI from the contaminated letters. Extending the previous radiation 
kill work for ``Sterne'' and other anthrax surrogate spore types, they 
confirmed the radiation sanitizing dose for the lethal ``Ames'' strain 
of anthrax.
    Our Combating Terrorism activities continue and are reflected in 
planning efforts of the Services and Defense Agencies with continuing 
support of the Task Force.
                     initiatives supporting the qdr
    As we further analyzed the QDR from the S&T perspective, we 
identified three particular areas that warrant special attention to 
support transformation; (1) integrated national aerospace framework; 
(2) surveillance and knowledge systems; and (3) energy and power 
technologies. The technology programs in these areas have broad 
application towards transformation. They also have intrinsic jointness 
characteristics. Additionally, we have identified information 
operations, space, robotics, hard and deeply buried targets, advanced 
energetics, advanced electronics, hypersonics, and military medical as 
other joint areas of importance. Within our fiscal year 2003 request, 
you will see many programs that form the foundation for these efforts. 
In the coming months, we will work with you to fund a balanced S&T 
program to enable continuing transition of needed technologies to our 
warfighters.
    I have been working with the Assistant Secretary of Defense for 
Command, Control, Communications, and Intelligence, other Government 
organizations, universities, and industry to develop technologies to 
protect the critical defense infrastructure. For example, many of the 
targets for cyberattack are in private hands: electric power and 
telecommunications grids, and financial and transportation systems. We 
must match the pace brought forth by the information age with 
persistent work towards reducing vulnerabilities and mitigating 
consequences. Viruses and denial-of-service attacks are examples of the 
pervasiveness of the threat, and the extent of our interconnection. 
Every gain, every achievement, and every breakthrough in information 
technology should be accompanied by the notion that it is or could be a 
target. Our nation must pursue cybersecurity aggressively--to protect 
not only our military systems and capabilities, but our critical 
infrastructure as well.
                         planning and execution
    We continue to seek ways to strengthen the S&T strategic planning 
process. Components of this process include the Joint Warfighting 
Science and Technology Plan and the companion Defense Technology Area 
Plan and Defense Technology Objectives. These documents represent the 
collaborative efforts of the Office of the Secretary of Defense, the 
Joint Staff, the military services, and the defense agencies in 
planning the S&T program. These documents and the supporting individual 
plans of the military services and defense agencies guide the annual 
preparation of the DOD budget and program objective memoranda.
    Technology development is normally recognized by the end products, 
but is managed as an investment continuum that spans basic research 
through advanced development with close attention to technology 
transition. We must seek a balance across this continuum. Basic 
research lays the foundation for tomorrow's innovative development. 
That part of basic research conducted in the colleges and universities 
pays dual dividends--providing not only new knowledge but also 
producing the scientists and engineers for the future. At each level 
through applied research and advanced development, we make investment 
decisions in pursuit of the most promising payoff areas.
                         technology transition
    Technology transition has been the topic of much discussion, within 
the Department and Congress. The rate of change of technology 
influences our program, and at the same time, that creates unique 
technology transfer and transition opportunities. A ``Quick Reaction'' 
ability to respond to an immediate need would be an important addition 
to the array of tools we have to support technology transition.
    During my confirmation process last summer, I was told of a program 
Dr. John Foster established when he was the DDR&E to respond quickly to 
the unknown. In the fiscal year 2002 budget request, the Quick Reaction 
Special Projects (QRSP) was submitted to address this goal, but was not 
funded. Over the last 6 months, I have met with many of you and your 
staff to discuss the merits of the program, and I think we all have a 
better understanding now of proposed quick reaction support program and 
of its need. There are three potential triggers for invoking this 
program: (1) to take advantage of technology opportunities in rapidly 
evolving disciplines; (2) to reduce the unanticipated risk in 
acquisition programs, such as information technology or biotechnology; 
and (3) technology maturation in support of urgent real-world DOD 
needs. Nothing echoes the need for such funding better than September 
11, 2001. For example, the only immediate option we had available at 
that time to transition the Thermobaric Weapons and the Nuclear 
Quadrupole Resonance (NQR) Detection Systems from developers to the 
users was to reprogram/decrement existing programs. We could better 
accommodate changes in technology and the world situation with 
additional execution budgetary flexibility. We have requested the Quick 
Reaction Special Projects again in fiscal year 2003, and I urge your 
support.
    The ACTD program is a ``mid-term'' tool supporting transition. 
These demonstrations involving the CINCs, Service Users, and 
Technologists are a formal preplanned part of the S&T program that 
facilitates the rapid transition of cutting edge technologies into 
defense acquisition systems. The Predator, which originated in the 
Defense Advanced Research Projects Agency (DARPA), is a product of the 
ACTD program and is in use today in Afghanistan. On March 5, 2002, the 
Under Secretary of Defense for Acquisition, Technology, and Logistics, 
Pete Aldridge announced the fiscal year 2002 selection of 15 new ACTDs.
    Large acquisitions follow the process described in the Department's 
5000 series acquisition policy documents. The S&T Program is being 
called upon to fulfill an important role in the acquisition decision 
making process. In the acquisition policy documents, the S&T community 
is viewed not only as a source of technology and capabilities, but a 
source of expertise for determining the technical maturity of key 
system technologies. Prior to Milestone B and Milestone C decisions, 
the acquisition program offices and the S&T community prepare and 
submit to OSD for review a technology readiness assessment. This 
requirement not only provides important information for decision 
making, but necessitates an increased collaboration between the 
technologists and the developers. This collaboration is strengthening 
the communication between the two communities and we believe this will 
contribute to shortening the acquisition cycle time. For example, the 
Joint Strike Fighter used the technology readiness assessment as part 
of the decision making process.
    The Services' S&T Executives and their Service laboratories provide 
a stable, mission-oriented (Service specific) focus to the Defense S&T 
program. The mission of the Defense Advanced Research Projects Agency 
(DARPA) is to support high-risk, high-return research that bridges the 
gap between fundamental discoveries and military use. A DARPA role is 
to predict what a military commander might need in 20 years, and then 
create that future by changing people's minds about what is possible. 
Over 50 percent of our basic research is conducted at universities, 
another 30 percent in federal laboratories and the balance by industry 
and nonprofit institutions other than universities. As we move forward 
through our applied research efforts, our federal laboratories take a 
more prominent role, and in the advanced research phase, industry 
becomes the major player. The fact that our laboratories have some 
participation in all three phases is also key to providing them with 
the technical agility to facilitate technology transition. Throughout 
the process we leverage international S&T where feasible to meet the 
Department's needs as well as ensuring strong defenses for our allies.
                    science and technology workforce
    The quality of our S&T workforce and the management of the 
laboratory infrastructure in which they work are very important factors 
in the overall R&E equation. They too are critical elements for 
transformation. Our S&T workforce has been downsized considerably in 
the last 12 years. This has left us with a very knowledgeable 
workforce, but one that is also reaching retirement age. We are at a 
critical point that requires a focused effort to bring stability to the 
workforce that will attract and retain talent. To lead this effort, I 
have established an office, reporting directly to me, for Laboratories 
and Basic Sciences. We are applying our energies to ensure we are 
capitalizing on the authorities you have given us to demonstrate 
innovative ways for improving the workforce. The issue is not people 
alone. Also, the infrastructure supporting these men and women is in 
need of updating. We are in the early stages of developing a 
comprehensive plan to address the total workforce. Over the next 
several months, we will work closely with you as we develop a plan that 
will ensure we have the workforce and supporting infrastructure 
required to maintain technological superiority.
                              partnerships
    The Department's R&E program is dependent upon active partnerships 
with activities internal and external to the Department. Our customer 
partners are the warfighter and the Joint Staff. Our focus is on their 
known needs and the technology developments we must invest in today to 
ensure their future needs are met. The internal DOD partnerships 
include the Services, Defense Agencies, and other OSD organizations 
that guide and execute the S&T program as well as critical external 
interactions with other government agencies, universities, industry, 
international partners, and Congress.
                                outreach
    In response to the September 11 attacks, the Department released a 
Broad Agency Announcement (BAA) that was open from October 23 through 
December 23, 2001. The BAA sought ideas in the areas of combating 
terrorism, location and defeat of hard or difficult targets, protracted 
operations in remote areas, and countermeasures to weapons of mass 
destruction. Anyone, from individuals to large corporations, was 
encouraged to apply. The Department received approximately 12,500 
responses, including approximately 1,200 from 85 other countries. The 
DOD Technical Support Working Group (TSWG) has completed their review 
of the Quad Charts submitted, and have requested approximately 600 
White Papers that will be considered for contract award. Announcements 
from the TSWG are posted on the Web at www.bids.tswg.gov.
    Broader opportunities for supporting the Department's science and 
engineering programs are announced as Requests for Proposals or 
Requests for Quotations on a wide array of subjects . They are 
published in Federal Business Opportunities; the government's 
designated point of entry on the Internet for providing public access 
to notices of procurement actions. FedBizOpps is found at 
www.fedbizopps.gov. The appropriate points of contact (POC) for 
submitting unsolicited proposals are available in the handbook, 
``Selling to the Military.'' The handbook is available at: 
www.acq.osd.mil/sadbu/publications/selling.
                                closing
    As stated in the Quadrennial Defense Review, ``a robust research 
and development effort is imperative to achieving the Department's 
transformation objectives.'' It further states that ``the Department 
must maintain a strong science and technology (S&T) program that 
supports evolving military needs and ensures technological superiority 
over potential adversaries.'' Funding of the fiscal year 2003 
President's budget request for S&T is needed to support these 
objectives that help provide for the future security and safety of our 
nation. We have appreciated your previous support and look forward to 
working with you on this request. Thank you for the opportunity to 
appear before you today.

    Senator Landrieu. Thank you, Dr. Sega. I really appreciate 
your bringing some examples on film and actually here to give 
us a real feel of the kinds of things that are being developed. 
They let us see the effectiveness by which the research and 
development dollars and what we fight for actually translates 
into victory on the battlefield and victory here at home, which 
is important.
    Let me ask, and then we will start our second part of the 
panel, but I would just like to get two or three questions to 
you for the record.
    Last year, you are probably familiar with the legislation 
that this committee and the Senate passed and the version of 
the technology bill that was passed by the House in an effort 
to try to improve the ways that the Department of Defense can 
make sure it is getting the very best technology, whether it is 
developed in-house or taken off the shelf.
    We never could resolve the differences between the Senate 
approach and the House approach. I think the Department of 
Defense had initially supported the Senate's version and then 
pulled back its support. As a result, after a lot of work over 
many, many months and a lot of diligent negotiation, we ended 
up without a bill.
    So, could you help us understand why the Department pulled 
its support of that effort, what you would like to see this 
committee propose in terms of this transitioning issue so that 
we can be better prepared this year for that debate?
    Dr. Sega. Madam Chairman, as I understand, the question is 
in and around technology transition?
    Senator Landrieu. Yes.
    Dr. Sega. Technology transition has many facets to it. I 
believe that we are moving forward in a very positive direction 
where the communication between those developing the 
technology, those acquiring the technology, those who will be 
eventually responsible for the logistics and maintenance, the 
testing community, and the users are engaged from day one until 
the end of the life of a particular system. That part is very 
important.
    Now, there are several mechanisms, depending on the size 
and complexity of the system. The DOD 5000 series, which is 
continuing to evolve, is looking at some of the larger systems, 
longer-term systems, such as the Joint Strike Fighter. In this 
case, the science and technology community was asked to do a 
technology readiness assessment prior to a Milestone B decision 
of the Joint Strike Fighter. That program also brought 
technologies that were being developed, both inside of DOD and 
outside, forward until they had to make a decision on what to 
pick for the selection of the Joint Strike Fighter. It is also 
planned at the beginning that technologies will spiral into 
that during its development so that if there are good ideas--
and there are, and we need to seek those good ideas out, 
regardless of where they start from--that there is an avenue of 
doing that. I believe one of the issues was the mechanism by 
which we bring those new ideas in, not that it was not a good 
idea.
    The second nearer-term part is those that involve ACTDs, 
advanced concept technology demonstrators. An example of that 
would be the Predator vehicle where that is 1 to 5 years in 
duration, and then a question is how does that then transition, 
after it is demonstrated, to a fielded system in sufficient 
numbers to help the combatant commanders.
    The third period is the current year efforts and in that 
time frame recommending the support of the quick reaction 
special projects fund. It would take care of things such a 
thermobaric weapons that we did not anticipate during the 
budget cycle of 18 months or so, or information technologies 
that evolve very rapidly or biotechnology kinds of things or 
our work for doing the anthrax kill curves out at AFRRI, which 
was done through Dr. Jack Marburger's committee and brought the 
Postal Service and other people together. So, the flexibility 
to act quickly is important.
    We also initiated a broad area announcement through the 
Technical Support Working Group, and we received 12,500 
submissions from the opening of this broad area announcement on 
October 23, to its closing on December 23. This is an 
interagency announcement, and we have gotten through about 
three-quarters of those by this point. Some of them were not 
directly in the Department of Defense's area, and we referred 
those to the National Institutes of Health, for example.
    So, we have talked since that time of how do we take the 
ideas--and many of those were from small companies, some of 
them from universities, some of them from individuals, large 
companies. They came from everywhere, including outside the 
United States. So, there is a positive energy out there to 
create new ideas and bring them forward.
    So, I would ask, as we work together with the committee and 
the staffs, that we allow the speed, agility, and knowledge 
that we are trying to get out of our systems to also be part of 
the process by which we allow these technologies to enter into 
our system.
    A quick reaction type of approach would favor those that 
have the innovation and the speed in which to react. That tends 
to be the smaller businesses. So, I think a mechanism that 
allows that and an expanding of the quick reaction special 
projects fund would be at least one good step in that direction 
so we could move quickly.
    In fact, my role as DDR&E is evolving toward a chief 
technology officer role for the Department of Defense. So, it 
is looking at a broader range of technology issues. So, I feel 
responsible as well.
    Senator Landrieu. Let me just commend you and say that I am 
very pleased to hear that you understand the great need. You 
also understand the enthusiasm with which the American people 
are responding to your call, which was open just a short period 
of time, and you had somewhere between 12,000 and 13,000 
responses.
    Now, the challenge is how do we take those ideas, submitted 
as you said by some very small companies, some individuals, and 
translate them into tapes that we saw right here, things that 
actually work to save lives or destroy the enemy or meet our 
military goals both abroad and at home. There is some urgency 
about that. If we could identify the right things, we could 
save a lot of money, save a lot of time, a lot of lives, and 
bring security to the American people, which they are really 
longing, to think that they are prepared to the highest level 
for whatever might occur.
    So, the great challenge for us is to design an 
authorization or initiative to help you to design something 
that can wade through those new ideas. To have a process where 
we just do not have to open it and close it, but it remains 
open so we bring all these new ideas.
    In my view, I think the Department of Defense should try to 
position itself because I know the Department does not think it 
is always very well funded. However, in comparison to other 
agencies that struggle with budget numbers, I think, it 
particularly at this time, will be given a lot of support to 
help coordinate that effort and then push out some of the 
technologies that are not specific to defense to Health, to 
Energy, to other Departments, such as Agriculture.
    So, if you would, not to take much time, but if you would 
agree this morning to help work with us on some legislation, 
submit some ideas, build on the work that was done because 
there is a great push in the House and the Senate to open this 
up to small businesses, to get these ideas quickly, and then 
turn them into things like that camera or the cave-busters that 
we saw on the video.
    Dr. Sega. Madam Chairman, you have my enthusiastic support.
    Senator Landrieu. Great. Thank you so much.
    Let's begin with the second panel.
    The staff is reminding me I have to ask something about the 
personnel. You mentioned about the challenges of maintaining 
high level personnel, that this is part of the challenge of 
technology transition. Over the last few years, this committee 
has created a set of pilot programs so that DOD can cut red 
tape, adopt more businesslike practices and hire adequately 
paid scientists so that our DOD labs can perform their mission 
of supporting the Armed Forces.
    It is my understanding that in 3 years almost nothing has 
happened, although everyone seems to think the programs are a 
good idea, but we just have not been able to move off first 
base.
    Can you explain why it seems like to us--and maybe it is 
not true--that there has been a lack of progress, and if not, 
what progress has been achieved in those particular areas?
    Dr. Sega. First I would like to thank the subcommittee for 
the leadership in providing those legislative authorities.
    If I could read just a sentence out of a memorandum for the 
Secretaries regarding section 245. This is June 21, of last 
year from Under Secretary Aldridge, Under Secretary of Defense 
Chu, and Acting Director for Operational Test and Evaluation 
Fraim, in which it says, ``The purpose of this memorandum is to 
remove, to the extent permitted by law, any existing DOD and 
component impediments, including regulations, policies, 
procedures, and practices that impede one key to achieving this 
goal, the exercise of expediting hiring authority by the 
directors of the laboratories and test and evaluation centers 
selected to participate in the section 245 program.'' So that 
is one indication that we are serious.
    The second indication, in my opinion is providing increased 
focus into that area with Dr. John Hopps' position as the DUSD 
for Laboratories and Basic Sciences. We are moving forward on 
this review and implementation. I have forwarded a request 
through our Department's staffing process to extend section 245 
of the fiscal year 2000 National Defense Authorization Act. So, 
we are taking this seriously and we are moving out.
    Senator Landrieu. I do think it is very important. It is 
clear to me from what I have researched and been told that we 
just are not making the kind of progress we should in that 
area.
    I would like to ask you, Dr. Marburger. You used to run a 
Department of Energy lab in New York. How does the Department 
of Energy handle these hiring issues? What are some of the ways 
or strategies that you have used to hire them? Also, I would 
like to ask Mr. Waldron for any of your comments on keeping the 
talent and expertise that we need.
    Dr. Marburger. The situation is somewhat different in the 
Department of Energy laboratories because they are operated by 
contractors who have a different regulatory environment and 
different sets of restraints on hiring practices. I believe 
that although there are difficulties in attracting the best 
talent to these laboratories, they are probably somewhat 
different in character from those in the Department of Defense 
laboratories.
    Senator Landrieu. Mr. Waldron.
    Mr. Waldron. Our problem is similar to Defense in that we 
are not in the private sector like the laboratories are. We do 
have some authorities with excepted service that the Department 
is using. Within the National Nuclear Security Administration's 
enabling legislation, we were provided with, I believe it was, 
300 excepted service positions that we are embarking on filling 
to try and bring some more additional expertise into the 
Department.
    Senator Landrieu. But how many have you filled to date 
since that act was passed?
    Mr. Waldron. I do not know, ma'am. I can check and get that 
back to you.
    Senator Landrieu. Dr. Sega, do you know how many positions 
you filled to date in the last 3 years using that new 
authorization?
    Dr. Sega. There are several authorizations that I am 
familiar. In section 342, I believe in DARPA, for example, 
there were 40 authorizations provided. Today they have 28 
filled and 2 have been made offers. So, in the case of the 
Defense Advanced Research Projects Agency, we are at about the 
three-fourths level of those new authorizations. They are 
appreciated I assure you. We could not do our work without them 
at DARPA. I can get back with you on the service numbers.
    [The information referred to follows:]

    To date, none of the service positions have been filled. The 
Department and the Military Departments have been working to define the 
requirements as well as specific locations for each of the positions 
authorized. We are nearing completion of this necessary first step and 
will soon be in the process of recruiting and staffing these critical 
positions before the end of the year.
    Please note the reference to section 342 on page 33 of the April 
10, 2002 testimony is incorrect. The correct section is 1101 of the 
National Defense Authorization Act for Fiscal Year 1999.

    Senator Landrieu. OK. I know there are several programs. 
That is good to hear that of that program we have 28 positions 
out of 40 filled, but we understand there are other programs 
where there has been absolutely no filling of those positions 
in 3 years. So, we have to think about new systems of using our 
private contractors in the appropriate way, while having the 
in-house expertise to really mobilize the private sector small 
business community that is out there and individuals with these 
new ideas moving this technology in and then moving it out for 
the defense of this Nation. Truly there is some urgency in 
regard to this and we just have to be hitting on all cylinders.
    If there is something that we need to do in a better way to 
help you, then we will, and if not, then we are going to just 
urge you--and direct, if we have to--to get these positions 
filled and to get these agencies stood up the way they need to 
be.
    Let us begin the next panel. Dr. Marburger, please.

 STATEMENT OF HON. JOHN H. MARBURGER III, DIRECTOR, OFFICE OF 
                 SCIENCE AND TECHNOLOGY POLICY

    Dr. Marburger. Yes. Thank you, Madam Chairman and members 
of the subcommittee for the opportunity to speak to you today 
about the efforts of Office of Science And Technology Policy 
(OSTP) in the Executive Office of the President in combating 
terrorism and weapons of mass destruction.
    I agree that the challenge of coordination of the 
activities of many agencies in these tasks is very great, but 
it is not impossible.
    You have already mentioned the budget allocations for the 
war against terrorism, counterterrorism activities. I will just 
recall that out of the President's $2.1 trillion proposed 
budget for fiscal year 2003, $112 billion is for R&D, the 
largest research and development budget ever proposed, and 
$37.7 billion is devoted to homeland security. The R&D portion 
of the combating terrorism budget is estimated to be $3 
billion, which is as much as triple the level of comparable 
terrorism R&D for the previous year 2002. At $2.4 billion, the 
largest portion of this funding is devoted to the area 
determined to be in the greatest need, and that is protection 
against biological weapons.
    These funds, of course, have been requested by the 
President on behalf of the agencies that will carry out the R&D 
programs that address the needs of the homeland security 
effort, including of course the Department of Defense.
    Immediately after September 11, the key science agencies 
assessed their capabilities and began implementing programs 
that responded to needs that were immediately apparent at that 
time. Dr. Sega has already described how the Department of 
Defense mobilized its science and technology capabilities very 
rapidly and effectively, and we continue to work with them and 
take advantage of structures such as the Technical Support 
Working Group.
    OSTP's role is to track and coordinate such cross-cutting 
activity, and this morning I will describe very briefly how 
that has been done. My written testimony will have more detail, 
and I will just hit the highlights here. In the rest of this 
morning's panel, you will hear more examples of techniques and 
systems under development. There is a very intriguing tabletop 
full of hardware here to my right that I am sure will be of 
interest to all of us.
    While our office plays an essential role in helping the 
President ensure coordination among agencies conducting R&D 
applicable to national security, our efforts do reach beyond 
the Federal Government. My staff and I work not only with the 
White House, Congress, and Federal agencies, but also with the 
science community, higher education, the private sector, and 
State and local governments. OSTP has worked to define 
effective relationships with each of these sectors in 
connection with the war against terrorism.
    Since the inception of the Office of Homeland Security, 
OSTP has accepted responsibility to coordinate the various R&D 
activities associated with the homeland security mission. My 
Assistant Director for Homeland and National Security in OSTP 
has also filled the post of Senior Director for Research and 
Development within the Office of Homeland Security. This 
reporting relationship brings the resources of the science and 
technology community to bear on homeland security issues in an 
efficient and timely manner.
    The Office of Homeland Security also has access to all of 
OSTP's scientific networking and talents, while OSTP can stay 
abreast of the issues confronting the Homeland Security Office.
    We also facilitate research and development across Federal 
agencies primarily through the mechanism of the National 
Science and Technology Council. Following the terrorist attacks 
of September 11, I created a rapid response team within this 
structure which draws on technical experts within relevant 
Federal agencies, including the Department of Defense, to 
address critical, time-sensitive technical issues. The best 
early example of this was our assembling of a technical team to 
assist the United States Postal Service in evaluating the 
effectiveness of various proposals for sanitizing mail 
contaminated with anthrax spores. Dr. Sega mentioned important 
participation by AFRRI, the Armed Forces Radiobiology Research 
Institute, in producing the kill curves for anthrax for that 
effort.
    I also established an Antiterrorism Task Force under the 
National Science and Technology Council structure which has 
four working groups: one on biological and chemical 
preparedness; one on radiological, nuclear, and conventional 
detection and response; one on the social, behavioral and 
educational aspects of terrorism; and finally one on vulnerable 
systems infrastructure. That last working group is intimately 
connected with coordination efforts of Special Advisor to the 
President for Cyberspace Security, Richard Clarke, and together 
we co-chair a research and development working group focused on 
this important homeland security mission.
    Madam Chairman, these are examples of the kind of 
interagency coordination that OSTP provides. There are many 
other interagency groups that we often form ourselves and 
participate in, including the Non-Proliferation and Arms 
Control Technology Working Group, led by the Department of 
State, and the Counterproliferation Program Review Committee, 
chaired by the Department of Defense. These groups serve to 
coordinate programs in the treaty verification and 
counterproliferation areas. Both of these groups have developed 
expertise that is relevant to the war against terrorism.
    My office and I, however, are also working closely with the 
Nation's science and technology community. Our Antiterrorism 
Task Force is deliberately designed to be compatible with a 
similar structure formed last fall by the National Academy of 
Sciences. This arrangement allows OSTP to communicate 
effectively with some of the best and most experienced 
scientists in the Nation, many of whom had been thinking about 
domestic terrorism prior to September 11.
    The President's Council of Advisors on Science and 
Technology, which I co-chair with Floyd Kvamme from the private 
sector, is identifying ways in which the Nation's private R&D 
sector can be better engaged in the fight against terrorism. I 
believe we do face a tremendous challenge in incorporating the 
excellent ideas that are pouring forth from the private sector 
into a coherent homeland defense strategy.
    We also maintain regular contact with numerous science, 
engineering, and technology societies, as well as with higher 
education organizations, establishing points of contact and 
giving them information about how to couple into this complex 
array of Federal programs.
    As these examples indicate, OSTP is fully engaged with the 
White House, the Federal agencies, and the Nation's science and 
technology community in coordinating the range of science and 
technology efforts underway. Although sobered by the threats we 
face and the battle we are engaged in, I am optimistic that by 
relentlessly pursuing our objectives, the Nation and the world 
will be made not only safer and more secure, but also better 
and more productive.
    I appreciate the long history of support that you and this 
subcommittee have afforded this enterprise and I look forward 
to working with you in the future. Thank you very much for this 
opportunity to appear before you today.
    [The prepared statement of Dr. Marburger follows:]
            Prepared Statement by Dr. John H. Marburger III
    Madam Chairman and members of the subcommittee, I appreciate the 
opportunity to appear before you today to discuss the efforts of the 
Office of Science and Technology Policy (OSTP) in combating terrorism 
and weapons of mass destruction.
                              introduction
    The federal research and development (R&D) budget is an important 
tool for accomplishing national objectives in the war on terrorism. The 
President's proposed budget for 2003 calls for total federal spending 
of $2.1 trillion. Of that amount, $112 billion is for R&D and $37.7 
billion is devoted to homeland security. The R&D portion of the 
combating terrorism budget is estimated to be $3 billion, which is as 
much as triple the level of comparable combating terrorism R&D for 
fiscal year 2002. At $2.4 billion, the largest portion of this funding 
is devoted to the area determined to be in greatest need--protection 
against biological weapons.
    These funds have been requested by the President, on behalf of the 
agencies that will carry out the R&D programs that address the needs of 
the homeland security effort. Immediately after September 11, the key 
science agencies assessed their capabilities and began implementing 
programs, some of which are mentioned below, that responded to needs 
that were immediately apparent. OSTP's role is to track and coordinate 
such cross-cutting activity, and I will describe how that has been 
done. Before I discuss these organizational details, let me draw your 
attention to a few areas of technology that are relevant to combating 
terrorism. Other speakers today will provide more concrete detail.
    A major role for technologies in combating terrorism is the 
detection of chemical, biological, radiological, nuclear or 
conventional weapons of mass destruction. In order to protect against 
them, or respond to their use quickly enough to mitigate their 
consequences, we need sensitive, effective, and affordable detection 
systems. We need detectors that show a high probability of detecting 
threats, while at the same time low rates for false alarms. These 
systems should be cost-effective, and easy to operate and maintain, if 
we are to deploy them in large numbers and in civilian venues. We have 
some capability today, but significant performance improvements are 
needed.
    An example of technology being developed includes work at the 
Department of Energy on new detectors and algorithms focused on nuclear 
weapons material. This new technology can detect nuclear materials, 
while at the same time suppressing the effect of background radiation 
that leads to false alarms in current detection systems.
    Another example where cutting-edge science is being used to combat 
terrorism is in the detection of biological agents. Substantial efforts 
are underway that use ``polymerase chain reaction'' techniques in very 
sensitive and highly selective detectors. This technique multiplies the 
DNA of specific pathogens in order to detect their presence in even a 
very small sample.
    There are, of course, many other important and technologically 
exciting areas where the rich scientific and technological base within 
the United States is being deployed in the war on terrorism. These 
include better vaccines, treatments and decontamination methods to 
combat biological weapons, new methods for mitigating the health 
consequences associated with the use of radiological weapons, and 
biometric techniques that address the need to authenticate the identity 
of foreign visitors at our borders. The testimony of my colleagues from 
agencies where the actual work is done will provide many more examples 
of techniques and systems under development.
                role of ostp in coordinating federal r&d
    While OSTP plays an essential role in helping the President ensure 
coordination among agencies conducting R&D applicable to national 
security, our efforts reach beyond the federal government. My staff and 
I work not only with the White House, Congress and federal agencies, 
but also with the science community, the private sector and higher 
education. OSTP has worked to define an effective relationship with 
each sector.
The White House and the Office of Homeland Security
    Since the inception of the Office of Homeland Security (OHS), OSTP 
accepted responsibility to coordinate the various R&D activities 
associated with the OHS mission.
    My Assistant Director for Homeland and National Security has filled 
the post of Senior Director for Research and Development within OHS. 
This provides OHS seamless reach-back into the scientific talent 
resident in OSTP staff, and provides OSTP awareness of the various 
issues OHS is confronting, while bringing the resources of the science 
and technology community to bear on homeland security issues in an 
efficient and timely manner.
    Working closely with OHS, an interagency working group called the 
Counter-Nuclear Smuggling Working Group has been created to develop a 
fully coordinated program for addressing the threat of nuclear 
smuggling across borders, both overseas and in the United States.
    This working group will develop a strategic plan with a unified set 
of program goals and priorities, including within its scope the 
programs that implement and deploy current capabilities, as well as 
programs that research and develop new capabilities. This group is co-
chaired with the National Security Council and has been constituted 
under the Office of Homeland Security's Research and Development Policy 
Coordinating Committee.
The Federal Agencies and the National Science and Technology Council
    OSTP facilitates R&D across federal agencies primarily through the 
National Science and Technology Council (NSTC). Following the terrorist 
attacks of September 11, I created a Rapid Response Team within the 
NSTC structure. This team draws on technical experts within relevant 
federal agencies to address critical time sensitive technical issues. 
An example of this was OSTP's assembling of a technical team to assist 
the United States Postal Service in evaluating the effectiveness of 
various proposals for sanitizing mail contaminated with anthrax spores.
    I also established an Antiterrorism Task Force under the NSTC. That 
Task Force has produced four working groups:

        <bullet> The Biological and Chemical Preparedness Working Group 
        coordinates federal antiterrorism R&D efforts and is 
        responsible for setting a 5-year research agenda in that area 
        by August 1 of this year;
        <bullet> The Radiological, Nuclear and Conventional Detection 
        and Response Working Group performs the same function within 
        its focus areas;
        <bullet> The Social, Behavioral and Educational Working Group 
        addresses social science R&D relevant to terrorism; and
        <bullet> The Protection of Vulnerable Systems Working Group is 
        concerned with the Nation's physical infrastructure and is 
        intimately connected with the coordination efforts of the 
        Special Advisor to the President for Cyberspace Security 
        Richard Clarke. Together, we co-chair a Research and 
        Development Working Group focused on this important homeland 
        security mission.

    In support of this activity, at my request the RAND Corporation is 
conducting a survey of each agency to create an inventory of 
antiterrorism activities. This survey will provide a snapshot of 
efforts underway throughout the federal enterprise, identifying gaps or 
duplication of effort.
    OSTP also is engaged fully in such interagency groups as the Non-
Proliferation and Arms Control Technology Working Group, led by the 
Department of State, and the Counterproliferation Program Review 
Committee, chaired by the Department of Defense. These groups serve to 
coordinate programs in the treaty verification and counterproliferation 
areas.
The Science and Technology Community Outside of the Federal Government
    My office and I are working closely with the Nation's science and 
technology community to bring its resources to bear on national and 
homeland security issues. For example, NSTC's Antiterrorism Task Force 
is deliberately designed to be compatible with a similar structure 
formed by the National Academy of Sciences. This arrangement allows 
OSTP to communicate effectively with some of the best and most 
experienced scientists in the nation--many of whom had been thinking 
about domestic terrorism prior to September 11.
    I also am working with Floyd Kvamme of the President's Council of 
Advisors on Science and Technology, which we co-chair, to study ways in 
which the Nation's private R&D sector can be better engaged in the 
fight against terrorism.
    OSTP also maintains regular contact with numerous science, 
engineering and technology societies, as well as with higher education 
organizations, such as the American Council on Education and the 
Association of American Colleges and Universities.
    As these examples indicate, the Office of Science and Technology 
Policy is fully engaged with the White House, federal agencies, and the 
Nation's science and technology community in coordinating the variety 
of science and technology efforts underway.
                                closing
    As noted earlier, current interagency processes, whether through 
the NSTC, the OHS Policy Coordinating Committees or other existing 
structures within the executive branch, are intended to avoid 
unnecessary duplication, while allowing for the exploration of 
alternative approaches to the complex problems associated with homeland 
security. Within the Nation's overall homeland and national security 
enterprise, I expect that science and technology will continue to play 
a pivotal role; it represents our ``asymmetric'' advantage. Although 
sobered by the threats we face and the fight we are in, I am optimistic 
that by relentlessly pursuing this advantage, the nation and the world 
will be made not just safer and more secure, but also better and more 
productive. I appreciate the long history of support you have afforded 
this enterprise, and I look forward to working with you in the future. 
Thank you for the opportunity to appear before you today.

    Senator Landrieu. Thank you.
    Let me say that there is a vote ongoing. I am going to 
leave at 10:00 to go vote and Senator Carnahan will be here to 
conduct the last hour. Again, the reason that I have to leave 
is we have an Appropriations Committee hearing on homeland 
defense and it is compulsory attendance this morning. As a 
member of Appropriations, though it was scheduled after this 
one, I just have to go.
    But, Doctor, let me ask you. All that you shared with us is 
encouraging. In some ways though it is a little daunting to see 
how the White House efforts under your direction are being 
coordinated among different agencies and, considering we have 
now a Director of Homeland Defense, how the technology and 
research under homeland defense is being coordinated with your 
position at the White House.
    Given that you outlined general categories that were 
different than the original three outlined by Dr. Sega, which 
were surveillance, power and energy, and aerospace--and I am 
assuming if I asked the Department of Energy their broad 
categories of combating terrorism for research and development, 
it would yet again be a different set of categories--how really 
is it going to be possible for our small business community and 
general community to coordinate the submission, evaluation, and 
distribution of these new technologies to get it to the 
battlefield, whether abroad or here at home?
    So, my question is, what are you doing not so much under 
your own jurisdiction, but how are you coordinating 
specifically? Maybe if you could give us a specific example, it 
would be helpful.
    Dr. Marburger. First of all, in my written testimony, I 
mention a task that the RAND Corporation is undertaking for us 
to produce an inventory of programs and activities in each 
Federal agency that relate to terrorism both at home and 
abroad. They are creating a taxonomy of these programs that is 
comprehensive and will enable us to identify overlaps and gaps 
in our coverage.
    The categories, however, are defined to be compatible. Each 
agency has its own expertise and its own set of missions that 
must be accomplished in support of the overall, let us say, 
homeland security mission. It is expected that their categories 
will focus on those missions, but they are encompassed within 
the more general categories under which we have divided the 
tasks in our very high level coordinating task forces. The 
complexity can be arranged hierarchically, and we have 
representatives in OSTP who help us to understand the agency-
specific missions that we coordinate. So, I believe that 
although the activities are complex, one can navigate through 
them, and part of our task is to help the private sector 
identify where to plug in.
    The most important mechanism that we have discovered at 
this point is the Technical Support Working Group, and I 
believe Dr. Sega can describe its operation very well.
    Senator Landrieu. If you would briefly, and if the other 
panelists would want to just add anything to this challenge of 
coordination. For the record, if you could submit those mission 
statements and those categories so that we can share those as 
we continue this effort to really bring an understandable 
framework across at least the Federal level, and then in 
addition to the local and State officials responsible. Doctor?
    [The information referred to follows:]
      
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
      
    Dr. Sega. Yes, thank you. The three overall technical areas 
that I described were for the entire Department's science and 
technology program.
    In the areas of combating terrorism, the task force that I 
described earlier identified four categories: deterrence and 
indications and warning, survivability and denial, consequence 
management and recovery, and attribution and retaliation. So, 
we focused on those areas to look at near, mid, and longer-term 
investment strategies.
    When we released the first broad area announcement, the 
scope was divided into four areas so that the investigators or 
the small businesses, universities and so forth would know what 
areas that this pertained to. The first was combating 
terrorism. The second was location and defeat of hard or 
difficult targets. The third, protracted operations in remote 
locations. The fourth, countermeasures to weapons of mass 
destruction. I believe we have submitted and released the 
second broad area announcement. It will have a slightly 
different focus. Then a third is planned. So, we bring together 
more focus in each of these areas for the broad area 
announcements so we can work through the submitted proposals, 
but we tie them back to those four areas of combating terrorism 
that are cross-cutting, and they align reasonably well with the 
activities that we have joined in with OSTP.
    Senator Landrieu. Well, I just think it is a very important 
effort and we will continue to explore those details with you.
    Dr. Klein?
    Dr. Klein. Let me give you an example of some of the 
coordination. Obviously, as the Assistant Secretary for 
Nuclear, Chemical and Biological Defense Programs, we look at a 
lot of weapons of mass destruction activities to protect the 
warfighters and the military installations, equipment, and so 
forth. We have had a lot of meetings with Homeland Security to 
find out where we can take applications that we have on the 
military side that can assist on the civilian side. So, we work 
closely with General Lawler at the Office of Homeland Security 
and others in terms of how can we take technologies that are 
already on the military side and communicate those and 
transform those to the civilian side.
    We have two programs that are underway, one that is handled 
by Dr. Younger on some sensors that we can put in civilian 
activities through the Defense Threat Reduction Agency and 
others within the Chemical and Biological Defense Program. So, 
we serve on a lot of panels and we have a lot of communication, 
and we are trying to coordinate.
    I think just generally speaking I believe the coordination 
among the Federal agencies is probably among the best that they 
have been for a long time. I think the events of 9/11 enhanced 
that. We have a ways to go and we are continually working on 
that problem to make it better.
    Senator Landrieu. Anyone else? Dr. Younger or Mr. Waldron?
    Dr. Younger. No.
    Mr. Waldron. No.
    Senator Landrieu. I am going to excuse myself and go over 
to vote. I have been joined by my most able ranking member, 
Senator Roberts, who chaired this subcommittee for many years 
very ably and has been very interested and focused on the 
science and technology and coordination issue, particularly as 
it relates to combating terrorism. So, I am going to leave this 
subcommittee in his able hands and will be in touch with you 
all.
    Senator Roberts. Before you do, I would ask unanimous 
consent that my statement be made part of the record and any 
questions that I may be unable to ask be submitted for the 
record.
    Senator Landrieu. Without objection.
    [The prepared statement of Senator Roberts follows:]
               Prepared Statement by Senator Pat Roberts
    Good morning and thank you Madam Chairman for calling this 
important hearing. Before I proceed with my opening statement, I would 
like to take a moment to extend my sincere appreciation to our 
witnesses.
    Each of you have found yourself in the service of our government at 
an extremely important time in our Nation's history. We realize that 
since September 11, many of you have been working long and exhaustive 
hours coordinating and executing the war on terrorism. Your 
contributions to this war have been substantial. It is with our most 
sincere appreciation of your service that we welcome you and look 
forward to your testimony.
    Since September 11, this committee has been focused on a number of 
issues vital to the global war on terrorism. This morning's hearing 
provides us with the opportunity to examine an area of critical 
importance to both our national defense and the global war on 
terrorism--technologies to combat terrorism and weapons of mass 
destruction.
    Often new technologies are showcased as simply ``gee whiz'' 
capabilities of our soldiers. But the important story lies beneath the 
wizardry.
    The real story is the commitment of our nation to a strong and 
sustained technology base and a thriving culture of innovation. In 
order to stop terrorists, who have proven to be unconventional in their 
delivery, nimble and patient, our technological efforts must be agile, 
imaginative and exploit the best minds in the world.
    September 11 demonstrated what many knew all along and that is: the 
threat has changed. This requires the way we do business to change as 
well.

        <bullet> The Department of Defense can no longer rely on the 
        standard of being technologically superior, it must be 
        technologically agile.
        <bullet> The Department can no longer rely on the slow 
        maturation of technologies to combat terrorism and weapons of 
        mass destruction, it must exploit technologies at all stages of 
        development.

    Maintaining a culture of discovery and innovation is more important 
than ever to our national security. In addition, we must begin to 
understand not only the technologies necessary to combat terrorism and 
weapons of mass destruction, but also the technologies required to 
protect our homeland, our prosperity and our way of life.
    It is apparent by the breadth of witnesses before us today that the 
technologies required to effectively combat terrorism and weapons of 
mass destruction reside in numerous defense agencies and across the 
Federal research agencies. I look forward to your testimony regarding 
the fiscal year 2003 budget request for your respective agencies and 
the coordination efforts underway in order to leverage breakthrough 
technologies.
    Again, thank you Madam Chairman for calling this important hearing.

    Senator Roberts. Is it your wish, Madam Chairman, to simply 
go ahead with the testimony? I think Dr. Younger or Mr. Waldron 
still have to testify. Is that correct?
    Senator Landrieu. Dr. Klein and Dr. Younger and Mr. 
Waldron, yes.
    Dr. Sega needs to finish. He has some wrap-up testimony 
that he is going to share.
    Senator Roberts. Right. So, it would be your wish that we 
proceed with their testimony, then move to the second round of 
questions, and then the distinguished Senator from Missouri 
will return. Is that correct?
    Senator Landrieu. That is correct.
    Senator Roberts. Thank you.
    Senator Landrieu. Thank you.
    Dr. Sega.
    Dr. Sega. In the earlier testimony, I talked about the DOD 
Combating Terrorism Technology Task Force and the membership 
that it contained within the Department of Defense. I want to 
also emphasize that the task force was joined with 
representation from the Joint Staff for a user perspective, 
from the Department of Energy and the intelligence community, 
and we reached out to other organizations outside of the 
Department of Defense because we believe that is very important 
and also outside of the U.S. in certain partnerships. In fact, 
we hosted a NATO research and technology organization meeting 
on combating terrorism. So, the effort started as a core, but 
within just a couple of weeks went beyond the Department of 
Defense to other Federal agencies and then began to encompass 
folks in the United States and then outside.
    There are some examples of combating terrorism technologies 
that I would like to show very briefly just to emphasize the 
work that is being done and how these apply not only inside the 
Department of Defense but some have tremendous applicability 
outside.
    The first is a result of an Advanced Concept Technology 
Demonstration, and it is kind of like a palm pilot. I will turn 
it on and then pass it around. It is a rapid terrain 
visualization, and it brings together imagery from a flying 
aircraft in this case to the point where it processes it and 
you have a detailed high definition image in three dimensions. 
It was used at the World Trade Center to understand the debris 
volume, and the geometry there was such that it had worked 
itself kind of more in the subterranean area. It was also used 
in Salt Lake City in support of the Winter Olympics. It can be 
used also in the field, which was the initial design, to 
understand terrain, and we continue to evolve that for linkage 
to other systems such as global positioning systems. So, this 
is an example that came out of an Advanced Concept Technology 
Demonstration. There are currently 30 ACTDs in use in Operation 
Enduring Freedom or Operation Noble Eagle and another 8 have 
been accelerated into kind of a more of a quick reaction 
program.
    Three others that I have on the table are DARPA related 
efforts. One is a translator, and this has the ability to 
translate into Pashto.
    Senator Roberts. I am still looking at the world. Pardon 
me. [Laughter.]
    Dr. Sega. Urdu, Dari.
    Senator Roberts. There is a message here from your wife, if 
you want to hear it. [Laughter.]
    Dr. Sega. That is very good. I will see if I can bring it 
up on this one as well. [Laughter.]
    Arabic. So, this was actually in Afghanistan roughly 72 
hours ago.
    Senator Roberts. What is that again? I am sorry.
    Dr. Sega. This is a translator. So, it translates into 
these languages. As I pass this on, the one that is highlighted 
happens to be, ``The doctor will be here soon.'' But one pushes 
the button, and when it is set up, it will read back the phrase 
in the particular language. You can scroll through and look at 
the different phrases that are in there. We are rapidly 
expanding that to have a number of languages that are input 
into the system. So, communication to people in a different 
language is now enabled by a system such as this.
    Senator Roberts. So, if the problem was in the Balkans and 
Bosnia and/or Kosovo the lack of language specialists to do 
certain things, with this gizmo--pardon me for referring to it 
as a gizmo--you could use this, i.e., ``the doctor will be here 
soon,'' ``turn around slowly''--[Laughter.]
    Dr. Sega. Some of these you do want to get right. 
[Laughter.]
    Senator Roberts. It says, ``Welcome, Senator Carnahan'' 
here. [Laughter.]
    You can turn around as fast as you want, Senator. 
[Laughter.]
    But at any rate, with this, with almost any language in the 
Mideast where we are having a lot of difficulty obviously with 
linguistics--what is this called? This is from DARPA?
    Dr. Sega. Yes, and it is a translator.
    Senator Roberts. Right. We have these now being used in 
Afghanistan.
    Dr. Sega. Yes, 28 units are currently in Afghanistan.
    Senator Roberts. We in Kansas could use this for 
translating what the Missourians are up to. [Laughter.]
    Dr. Sega. The next item. We would have liked to bring one 
that was used in Afghanistan, but the folks in the field would 
not let the DARPA person bring them back because they were of 
such utility. This is a disinfectant pen. The way this works, 
there is a salt but it is a mixed chemical oxidant solution 
that either kills or inactivates microbial pathogens. From a 
container of water--and it can be a canteen--putting the water 
in here--and we could do that if you wanted--and then screwing 
it on the top here, and then shaking it a few times and then 
one complete shake here, and then bringing this back out, this 
small quantity of water, and back into the canteen itself and 
just a little shake of the canteen and set it for 15 minutes, 
the water is potable. This container will do and repeat that 
for about 300 canteens. So, this is very important for the 
folks in Afghanistan. I believe 20 have been delivered and the 
current cost is about $700, but we are looking at bringing this 
cost down hopefully down to around $100. But this is an 
impressive technology as well that is being used.
    Senator Roberts. Is there a time frame there where this 
will be made available to the troops in the field? I know it is 
available.
    Dr. Sega. Yes, and I think they have the capacity to go up 
to about roughly 500. So, I think they are in the process of 
ordering additional numbers of these.
    But this came out of a very rapid acceleration of a DARPA 
effort to bring this item, among others, to the field quickly. 
So, it is more of the prototype residuals that we are trying to 
produce and then bring it into a more aggressive manufacturing 
mode.
    The third is a micro air vehicle. I believe that this has 
100 or 200 hours on it. This vehicle can fly for about 30 
minutes at a top speed of about 50 knots, and it uses a fuel 
very similar to radio-controlled models. The next version will 
be able to fly for about an hour, perch, stare, and operate 
autonomously for about 200 hours. The following one will use 
not the fuel that I just described of radio-controlled 
modelers, but rather either diesel fuel or JP-8 and the 
electronics will have batteries. So, this has had significant 
field testing and it will provide again the soldier a look in 
the vicinity to fly above and around. So, they have their own 
UAV, if you will, for supporting primarily a lowest level 
fighting team, a platoon or a squad.
    I hope that we removed the fuel from it so the inadvertent 
switch throws will have it remain on the tabletop. [Laughter.]
    Senator Roberts. Well, we have made our water potable up 
here. So, this will be the second step. I will just hang on, 
Jean, and we will go to the top. [Laughter.]
    Dr. Sega. Another follow-up. At the very end of the fiscal 
year 2002 budget process, $15 million was added to quick 
reaction munitions funds, and I would just like to report work 
is being done and the static test was performed on Monday of 
application of the thermobaric effort which we showed a film 
earlier on to application of the Hellfire missile, as well as 
work on infrared sensor seeker technology for the 2.75-inch 
Low-Cost Guided Imaging Rocket (LOGIR). It actually uses some 
of the work that was developed by the automotive industry. So, 
we are moving forward rapidly and I think putting those funds 
to good use.
    I would like to now pass on the discussion on combating 
terrorism to Dr. Klein.

  STATEMENT OF DR. DALE KLEIN, ASSISTANT TO THE SECRETARY OF 
 DEFENSE FOR NUCLEAR, CHEMICAL AND BIOLOGICAL DEFENSE PROGRAMS

    Dr. Klein. Thank you. Madam Chairman, Senator Roberts, I 
would like to thank you for the opportunity to appear here 
today. I currently serve as Assistant to the Secretary of 
Defense for Nuclear, Chemical and Biological Defense Programs, 
and in that capacity, I serve as the principal staff advisor to 
the Secretary of Defense on nuclear, chemical, and biological 
defense matters. I am responsible for the following Department 
of Defense areas: chemical and biological defense programs, 
nuclear matters, and the Nuclear Weapons Council, nuclear 
treaty programs, counterproliferation of weapons of mass 
destruction, chemical stockpile demilitarization, and operation 
of the Defense Threat Reduction Agency.
    Dr. Steve Younger, the Director of the Defense Threat 
Reduction Agency, will discuss some ongoing activities in his 
agency momentarily.
    I am here today to focus primarily on the committee's 
interest on the research and development efforts to combat 
chemical and biological terrorism. If you have questions 
regarding our nuclear activities, I will certainly be happy to 
address those as well.
    Let me just say that the unprecedented events of September 
11 have clarified the threat of terrorism to both civilians and 
the military. For several years, the Department of Defense has 
played an active role in developing countermeasures to 
potential terrorist attacks involving weapons of mass 
destruction. The anthrax-contaminated letters focused attention 
on the use of biological weapons as an instrument of terrorism.
    In my written testimony, which I wish to submit for the 
record, I discuss the Department of Defense chemical and 
biological defense program, the science and technology 
programs, and key initiatives intended to combat terrorist 
attacks as identified in the fiscal year 2003 budget request. 
Detailed information is also available in the Chemical and 
Biological Defense Program Annual Report to Congress.
    In addition to research and development programs, the 
Department of Defense is working closely with other Federal 
agencies as defined in the Interagency Federal Response Plan to 
ensure a well-coordinated response to terrorist threats. We are 
working closely with these agencies to provide unique science 
and technology resources which support both warfighting and 
homeland security needs.
    The Department of Defense is exploring an array of 
scientific approaches to counter biological warfare, biological 
terrorism threats, chemical warfare and chemical terrorism 
threats which can have application to homeland defense. We will 
continue to work closely with other agencies to ensure that the 
warfighter is protected with the best available technologies 
and that U.S. citizens are provided as great a degree of 
protection as possible.
    Thank you for the opportunity to speak here today, and I 
will be happy to respond to your questions. I believe Dr. 
Younger will also comment on the Defense Threat Reduction 
Agency.
    [The prepared statement of Dr. Klein follows:]
                  Prepared Statement by Dr. Dale Klein
                              introduction
    Madam Chairman and distinguished committee members, I am Dr. Dale 
Klein, Assistant to the Secretary of Defense (Nuclear and Chemical and 
Biological Defense Programs). I serve as the principal staff advisor to 
the Secretary of Defense on nuclear, chemical and biological defense 
matters. My office is the single focal point within the Office of the 
Secretary of Defense responsible for oversight, coordination, and 
integration of the joint Chemical and Biological Defense Program.
    The unprecedented events of September 11 have clarified the threat 
of terrorism to both civilians and the military. For several years, the 
Department of Defense has played an active role in developing 
countermeasures to potential attacks by terrorists using weapons of 
mass destruction (WMD). The anthrax contaminated letters focused 
attention on the use of biological weapons as an instrument of 
terrorism. In my testimony today, I wish to discuss the Department of 
Defense Chemical and Biological Defense Program, and focus on the 
science and technology programs and key initiatives intended to combat 
terrorist attacks as identified in the fiscal year 2003 budget request. 
Specifically, I will address the following topics:

        <bullet> The Department's technology priorities and objectives 
        for combating terrorism and WMD.
        <bullet> The capabilities the Department is trying to achieve 
        with these technology programs.
        <bullet> How technology priorities are established and how the 
        relevant organizations play in this process.
        <bullet> Major technology challenges we face and how we are 
        addressing them.
 dod technology priorities and objectives for chemical and biological 
                                defense
    The vision of the DOD Chemical and Biological Defense Program 
(CBDP) is to ensure U.S. military personnel are the best equipped and 
best prepared force in the world for operating in future battlespaces 
that may contain chemically and biologically contaminated environments. 
The capabilities developed and fielded by the CBDP focus on addressing 
the needs of the warfighter. As the events of the past few months have 
shown, the future battlespaces for our warfighters are evolving. 
Likewise, civilian organizations may increasingly turn to the 
Department of Defense to leverage technology development efforts to 
support the needs of homeland security. The fiscal year 2003 
President's Budget Request for the DOD Chemical and Biological Defense 
Program includes $933 million for research, development, test, and 
evaluation (of which $576 million is for the science and technology 
base) and $436 million for procurement for a total of $1.369 billion. 
The specific funding allocations are detailed in the Annual Report to 
Congress on the Chemical and Biological Defense Program as well as in 
the detailed budget requests submitted to Congress. This funding 
provides support for essential research and development activities to 
address future warfighting needs.
    The objective of the CBDP is to ensure our forces can maintain 
freedom of action during deployment, maneuver and engagement, while 
providing multi-layered defenses for our forces and facilities at all 
levels. Programs for chemical and biological defense are categorized 
broadly under three operational principles: Contamination avoidance, 
protection, and restoration. Contamination avoidance provides automated 
capabilities to detect, locate, identify, quantify, sample, and plot 
the extent of all suspected threat agent hazards, and medical 
surveillance capabilities. Protection includes all medical and non-
medical means taken to protect the warfighter primarily from biological 
agent hazards and to a lesser degree, chemical agent hazards while 
maintaining normal operational mission tempo. The focus of protection 
is to prevent exposure or the effects of exposure, and includes medical 
capabilities, such as vaccines, and nonmedical capabilities such as 
masks for respiratory protection. Restoration capabilities include 
medical and non-medical measures required to restore the joint force, 
units, facilities, and equipment to near-normal operating conditions 
after being challenged by a biological or chemical agent hazard. These 
measures include non-hazardous decontamination operations, effective 
supply and sustainment of all defense assets, and effective medical 
diagnostics and post-exposure countermeasures required to allow rapid 
determination of agent exposures and subsequent treatment. Battlespace 
management supports all three principals. Battle management includes 
capabilities to use medical and non-medical information throughout the 
joint battlespace; and to analyze this information; to predict current 
and future operational impacts of hazards and to model mission 
operations within the context of the contaminated environment.
   dod technology initiatives for combating chemical and biological 
                               terrorism
    The administration has provided a significant addition of funds for 
two key initiatives--(1) Biological Counterterrorism Research Program, 
and (2) Biological Defense Homeland Security Support Program. These two 
initiatives will be implemented by the Department of Defense in support 
of the President's direction and the overall interagency effort. In 
DOD, funds for these initiatives are in addition to the core programs 
of the CBDP. Another key effort is the CB Defense Force Protection and 
Homeland Security Initiative.
Biological Counterterrorism Research Program
    This defensive program will establish a biological terrorism threat 
assessment research center for biological counterterrorism at the U.S. 
Army Medical Research and Materiel Command, Fort Detrick, Maryland. A 
panel of senior scientists from DOD, federal labs, academia, industry 
and intelligence communities will develop concept and scope of threat 
assessment research. The research program will initiate competitive 
extramural contracts during design and construction phase. The unique 
facilities at Fort Detrick will support DOD and national requirements 
for analysis of emerging biological threats and assessment of 
countermeasures against those threats. The fiscal year 2003 program 
will:

        <bullet> Conduct a technology survey and identify gaps.
        <bullet> Award extramural research with emphasis on 
        identification of virulence factors, pathogenic mechanisms and 
        structural biology.
        <bullet> Establish research programs in aerobiological 
        research, forensic genomics and certified forensic biological 
        threat agent capability.
        <bullet> Initiate planning and concept development for 
        necessary infrastructure.
        <bullet> Develop applied microbial threat assessment research 
        to assist in the development of the Counter Terrorism Research 
        Program and to establish a management element for the Program; 
        develop program policy, strategic plan, short through far term 
        investment strategies.
        <bullet> Develop environmental and access control point 
        monitoring.
        <bullet> Develop enhanced medical surveillance technologies.
        <bullet> Demonstrate an enhanced signatures database and 
        conduct baseline studies.
        <bullet> Develop improved biological defense data mining, 
        fusion, and analysis architectures.
        <bullet> Conduct Baseline Self Assessment (BSA), Mission Area 
        Assessments (MAAs), and Requirements Analysis and Process 
        Development.
Biological Defense Homeland Security Support Program
    This program initiates a comprehensive program to build a National 
Biological Defense System. It aims to create and deploy a national, 
multi-component, multi-organization defense capability targeted to 
urban areas, other high-value assets, and special events. It seeks to 
provide an integrated homeland security capability to detect, mitigate 
and respond to biological-related incidents. Capabilities would 
include:

        <bullet> Enhanced biological detection capabilities and the 
        fusion of medical surveillance systems, wide-area environmental 
        sensors, access control points and information systems.
        <bullet> Deployed systems will exploit existing technology 
        supplemented with new capabilities resulting from accelerated 
        development.
DOD Force Protection and Homeland Security Initiatives
    In addition, the Chemical and Biological Defense Program plans to 
establish a fully-equipped DOD test-bed in an urban environment, an 
enhanced monitoring system for the National Capital Region and an 
initial capability in two additional urban areas in order to enhance 
the protection of DOD assets against terrorist attacks with chemical or 
biological weapons. Specific research and development activities in 
fiscal year 2003 include:

        <bullet> Enhanced biological detection capabilities and the 
        fusion of medical surveillance systems, wide-area environmental 
        sensors, access control points and information systems.
        <bullet> Requirements analysis, system integration, and program 
        support for DOD installation and urban test beds.
        <bullet> Environmental and access control point monitoring for 
        the integration of point, standoff, and transportable detection 
        technologies.
        <bullet> Demonstrate initial mining, fusion, and analysis 
        module, incorporate modeling and analysis of threat transport 
        prediction, adopt command, control, and communications 
        infrastructure, and integrate information networking.
        <bullet> DOD test bed design, environmental testing, and test 
        bed trials.
        <bullet> Initiate the integration of point-of-care diagnostics, 
        syndromic reporting and medical surveillance mining.
        <bullet> Integration of signature source term cataloging into 
        system of system technology architecture.
        <bullet> Consequence Management in support of the National 
        Guard's Weapons of Mass Destruction-Civil Support Teams (WMD-
        CSTs), including initiating evaluation, purchase, and testing 
        of commercial-off-the-shelf products for the Table of 
        Distribution & Allowances (TDA) for WMD-CSTs.
        <bullet> Integration, demonstration, and testing of: (1) CB 
        collection, detection, and identification technologies, (2) 
        reagents and antibodies for biological detection, and (3) an 
        automated biological agent testing laboratory.
        <bullet> Initiate systems engineering studies for deployment of 
        sensors in the National Capital Region.
        <bullet> Conduct Ambient Breeze Tunnel testing and 
        characterization of system and components.
        <bullet> Conduct background aerosol and indoor building flow 
        character and testing.
        <bullet> Conduct wargames/tabletop exercises for Concepts of 
        Operations (CONOPS) development.
        <bullet> In support of Consequence Management--Initiate 
        development of a Unified Command Suite (UCS) and Mobile 
        Analytical Laboratory (MAL) block upgrades to support WMD-CSTs.

    This program also provides resources in the DOD Chemical and 
Biological Defense Program to complete fielding and modernization of 
(1) Weapons of Mass Destruction-Civil Support Teams, and (2) Reserve 
Component Reconnaissance and Decontamination Teams. Full funding 
includes the following in the fiscal year 2003 budget:

        <bullet> Type-classified protection, detection, and training 
        equipment.
        <bullet> Development and fielding of upgraded analytical 
        platforms for the detection, identification, and 
        characterization of CB and radiological agents used by 
        terrorists in a civilian environment.
        <bullet> Development and fielding of communication capabilities 
        that are interoperable with other federal, state, and local 
        agencies.
        <bullet> Testing and evaluation to ensure that the systems are 
        safe and effective.
        <bullet> Program management funds to successfully execute the 
        CBDP Consequence Management RDA program.

    Another key element of the Biological Defense Homeland Security 
Support Program is the Joint Service Installation Protection Project 
(JSIPP). The JSIPP is a Pilot Project designed to increase CB defense 
capabilities at DOD Installations. The JSIPP is intended to provide a 
robust CB defense capability integrated into installation force 
protection and anti-terrorism plans. The project will refine concepts 
of operations and resource requirements for expansion across DOD. The 
two key components of this project are the: (1) Chemical Biological 
Installation Protection Program, and (2) Chemical, Biological, 
Radiological, Nuclear and High-Yield Explosives(CBRNE) Emergency First 
Response Program. The project will equip nine diverse DOD Installations 
with:

        <bullet> Contamination Avoidance, Protection, and 
        Decontamination Equipment Packages.
        <bullet> Emergency response capability for consequence 
        management.
        <bullet> Integrated Command and Control Network.
        <bullet> Comprehensive training and exercise plan.

    Finally, the fiscal year 2003 budget includes procurement funds to 
support homeland security biological defense. Procurement will support 
the following:

        <bullet> First Responders--procures emergency first-response 
        capability for consequence management--supports organizing, 
        equipping, training, and conducting exercises for first 
        responders.
        <bullet> Installation Force Protection Equipment--procures CBD 
        equipment packages for nine installations; buys Dry Filter 
        Units, Joint Portal Shield biological agent detectors, 
        Automated Chemical Agent Detectors, Remote Data Relays, 
        Ruggedized Advanced Pathogen Identification Device (RAPID), and 
        operational fielding support.
        <bullet> WMD Civil Support Teams--procures new equipment 
        training support, required equipment and required Operational 
        Assessments for 32 WMD-CSTs.
        <bullet> Homeland Security Initiative--procures a dual-use 
        operational capability for integrated bio-surveillance, 
        detection, and alerting in the National Capitol Region within 
        12 months.
   dod interagency coordination on chemical and biological-terrorism 
                    related research and development
    Within DOD, the key organizations responsible for the management 
and transition of science and technology efforts for chemical and 
biological defense are (1) the Joint Science and Technology Panel for 
Chemical and Biological Defense, and (2) the Joint Medical Chemical and 
Biological Defense Research Program. These organizations help to ensure 
effective coordination of efforts among the Service Laboratories and 
Defense Agencies, including the Biological Warfare Defense program of 
the Defense Advanced Research Projects Agency (DARPA). In addition to 
management responsibilities, DOD provides many unique resources that 
can be used in the development of countermeasures to biological 
terrorism. Some of these unique resources include high containment 
(biosafety level 4) laboratories, aerosol exposure test chambers, live 
agent test facility, simulant test grids, and personnel with 
exceptional scientific expertise.
    The Department of Defense has established a set of requirements for 
the successful completion of military operations in chemical and 
biological environments. We submit an Annual Report to Congress 
documenting our progress in meeting these requirements. My office 
regularly coordinates its efforts with the Department of Energy and the 
intelligence community through the Counterproliferation Program Review 
Committee, which reports annually to Congress on its progress (provided 
as a classified document to Congress).
    In order to meet the challenge of biological warfare across the 
spectrum, our program must address the need for both materiel 
improvement and operational concepts to use the new and improved 
equipment. In order to address the issue of bioterrorism, we have 
documented gaps in previous exercises and these will be the focus of 
reprioritized efforts within the Department of Defense. One of the 
lessons of previous exercises was that to work effectively during an 
actual crisis, various governmental agencies must actually exercise 
beforehand or their ``cultural differences'' will overcome any plan. We 
will continue to work with the Office of Homeland Security and other 
agencies to ensure good working relationships. One specific area we 
will focus on is to help define what support the Department of Defense 
can provide and work with other agencies to define what support they 
request and need.
    While the DOD can provide unique expertise and materiel support, it 
is not charged with lead Federal agency responsibilities as described 
in the interagency Federal Response Plan. In the area of domestic 
terrorism medical response, the Department of Health and Human Services 
takes charge and requests support as needed. However, the Department of 
Defense provides materiel support to other organizations.
    Congress has provided a number of statutory methods for the 
Department of Defense to support other federal, state, and local 
agencies in preparing for and responding to weapons of mass destruction 
(WMD) terrorism. Requests may come to the department for operational 
support or for the purchase of equipment. These requests are approved 
on a case-by-case basis. My office has responded to a number of 
requests from other-federal agencies for individual and collective 
protective equipment and access to vaccines, while the operational 
support provided by the Department is coordinated through the Secretary 
of the Army. The Department will continue to provide this support 
within statutory and regulatory limits and balance requests against the 
readiness of military forces to accomplish their warfighting mission.
    DOD can offer many of its systems, either those in the field or in 
development, and expertise that may prove useful to civil agencies. 
DOD's chemical and biological detection equipment could be applied in 
civilian situations, as can many of our medical countermeasures. 
However, the provision of materiel alone does not enhance capability, 
it needs to be accompanied by valid operational concepts, training, and 
maintenance.
    Our Armed Forces are trained primarily to fight foreign 
adversaries. However, our forces also maintain significant capabilities 
to support homeland security, through such operational units as the 
Chemical and Biological Rapid Response Team, the Technical Escort Unit, 
the WMD-Civil Support Teams, and the Marines' Chemical and Biological 
Incident Response Force (CBIRF).
    In order to enhance our Nation's overall capabilities the 
Department of Defense participates in programs to support the 
transition of military equipment and concepts to civil agencies. 
Specifically,

        <bullet> The Technical Support Working Group (TSWG), rapidly 
        prototypes emerging technologies for high priority federal 
        interagency requirements;
        <bullet> The Interagency Board for Equipment Standardization 
        and Interoperability (known as the IAB), is a partnership with 
        federal, state, and local agencies focused on the capabilities 
        necessary for fire, medical, and law enforcement responses to 
        WMD terrorism;
        <bullet> The Domestic Preparedness Program (now a Department of 
        Justice program), mandated under the 1997 Nunn-Lugar-Domenici 
        legislation, trained and equipped municipalities to address WMD 
        terrorism;
        <bullet> Interagency agreements with Department of Justice's 
        Office Domestic Preparedness to purchase equipment; and
        <bullet> Medical training programs from the U.S. Army Medical 
        Research Institutes of Infectious Diseases and Chemical 
        Defense.

    These efforts represent the Department's procurement and research 
support to address bioterrorism. As federal agencies assess their 
needs, DOD anticipates additional requests for support.
                               conclusion
    For operational responses to biological terrorism, the Department 
of Defense is working closely with the lead federal agencies as defined 
in the Federal Response Plan to ensure a well coordinated response. As 
I discussed, the Department of Defense is exploring an array of 
scientific approaches to counter biological warfare and biological 
terrorism threats. We are working closely with several other federal 
agencies to provide science and technology resources to support 
warfighting and homeland security needs. We will continue to work 
closely with other agencies to ensure that the warfighter is protected 
with the best available technologies and that U.S. citizens are 
provided as great a degree of protection as possible. Thank you for the 
opportunity to speak here today, I would be happy to respond to any 
questions.

 STATEMENT OF DR. STEPHEN M. YOUNGER, DIRECTOR, DEFENSE THREAT 
                        REDUCTION AGENCY

    Dr. Younger. Thank you, Madam Chair and Senator Roberts for 
the opportunity to share with you some of the contributions of 
the Defense Threat Reduction Agency to our Nation's warfighting 
capability. I will summarize my written statement and just 
include a few remarks now.
    The mission of DTRA is simple to understand but it is 
critically important, and that is, to reduce the threat of 
weapons of mass destruction. That is what we do. We reduce the 
threat of weapons of mass destruction, or so-called WMD. The 
events of September 11 demonstrated very graphically that the 
urgency for this mission has increased since the end of the 
Cold War. Any country with even a minimal technological 
capability can produce certainly chemical weapons and probably 
biological weapons, and we know that there are a number of 
countries who are still pursuing nuclear weapons. It is no 
longer a case of WMD ``over there.'' Our job is to make sure 
that these weapons are not used against us, and if they are, 
that the consequences of their use is minimized.
    We are a combat support agency. That means we are the near-
term integrator between people in the laboratory and people who 
wear muddy boots. That is, we connect existing technology with 
near-term warfighter needs. The combatant commands look to us 
for assistance in dealing with the full range of WMD needs, 
chemical, biological, nuclear, and radiological and large 
quantities of high explosives. Studies have shown that it is 
hard for the individual combatant commands to provide all of 
the expertise that they need in responding to WMD and that is 
where we come in. We have liaisons with all of the CINCs and 
rapid connection back to the expertise that we have in DTRA and 
other parts of the Department of Defense and the Government. We 
are a team player. We bring together expertise from across the 
DOD and other U.S. Government entities, industry, academia, and 
also our allies and friends around the world to meet those 
needs.
    Our products range from consequence prediction, what would 
happen if one of these weapons was used, to consequence 
management, from targeting to the development of the weapons 
that are used on those targets. Within hours of the attacks on 
September 11, we were providing data on the smoke plumes from 
the attack, and within weeks we had accelerated the development 
of the thermobaric weapon and other weapons that are currently 
in Afghanistan.
    WMD is a complicated topic and we have a complicated tool 
box to respond to that. We do the arms control inspections to 
make sure that other countries are doing what they told us they 
were going to do when they signed treaties. We execute the 
cooperative threat reduction program to help countries of the 
former Soviet Union take apart weapons. We have an 
uncooperative threat reduction program consisting of the 
development of new warheads particularly for hardened and 
deeply buried targets. Then in case something gets through, we 
help execute the chemical and biological defense program to 
make sure that our forces can operate in a chemical or 
biological environment. Finally, we help to ensure that our 
Nation's nuclear arsenal, that ultimate deterrent against 
aggression, is ready if it is required.
    Here are few examples of what we have accomplished 
recently. We have a hard and deeply buried targeting cell at 
the Defense Intelligence Agency, so we have assisted in 
targeting in the Balkans, in Iraq, and more recently in 
Afghanistan. I should add we have had people on the ground in 
Afghanistan going through caves, looking at possible weapons of 
mass destruction activities there.
    We led the development of the thermobaric warhead and you 
have seen the movie on that. But we also did the conventional 
air-launched cruise missile penetrator, the advanced unitary 
penetrator, and the hard target smart fuze that knows where it 
is in the structure and knows when the warhead should blow up.
    By the way, we also build bunkers so that we understand 
what the enemy target looks like, what kind of construction 
techniques are used, and then we put a weapon on it to make 
sure that we can blow up the kind of bunker that they are 
building.
    We provide support to the warfighter and more recently 
support to homeland security in predicting the spread of WMD 
agents and we have recently done a study of the effect of a 
nuclear, a chemical, or a biological attack on American cities. 
I have to say that the results of those studies have been 
sobering.
    We are fielding an unconventional nuclear warfare defense 
test bed at four military installations that eventually will 
prove technology and integrate it into a working protective 
system capable of detecting a terrorist nuclear device.
    We are working with the warfighters to develop means for 
ensuring the continued use of ports and airports despite 
potential enemy use of chemical or biological weapons.
    We do vulnerability assessments of key leadership 
facilities, including a number of facilities on Capitol Hill. I 
am particularly proud that the force protection technology that 
we developed helped save lives at the Pentagon on September 11.
    We are a combat support agency, but there is a lot that we 
can bring to homeland security. We are applying training and 
planning related to nuclear weapons accident response to 
broader WMD terrorism scenarios. I mentioned that we had 
simulated what would happen in the event of a nuclear, 
chemical, or biological weapon used in an American urban area. 
Well, we found that a lot of these scenarios follow the same 
track. So, we are developing a set of play books. What should 
you do, what is going to happen, what is the sequence of 
events, what is the State government going to do, the local 
community, the first responders, some of the things the first 
responders should not do? If it is a nuclear accident, heroic 
firemen should not rush into the high radiation area because 
they will not be able to do anything and they will themselves 
be irradiated. But there are other things we can do. We are 
looking at education of the population and various other kinds 
of things based on the experience we have in dealing with 
nuclear weapons accidents.
    Finally, I will touch on our budget. Thanks very much for 
supporting our full fiscal year 2002 request. In 2003 we are 
looking at $1.17 billion, which is a slight rise in combat 
support and radiation hardened electronics and hardened target 
defeat programs.
    Thanks very much for allowing me to be here today, and I am 
proud to lead a great team that we think is doing important 
work for the country.
    [The prepared statement of Dr. Younger follows:]
              Prepared Statement by Dr. Stephen M. Younger
    Madam Chairman and members of the subcommittee, I am pleased to be 
here today to testify on the contributions of the Defense Threat 
Reduction Agency (DTRA) to our Nation's warfighting capability. I will 
summarize my statement and ask that it be included in its entirety in 
the record.
DTRA Reduces the Threats Posed by WMD
    The mission of DTRA is simple to understand but critically 
important to the nation and indeed to the whole world--to reduce the 
threat of weapons of mass destruction, or ``WMD.'' As the events of 
September 11, 2001 and what followed amply demonstrated, the urgency 
for this mission has only increased since the end of the Cold War. 
Whereas during the Cold War we had a small number of potential 
adversaries to worry about, today we face clear and present threats 
from many nations and groups who see weapons of mass destruction as a 
means to level the playing field against the United States and our 
interests. Any country or group with minimal technological capability 
can manufacture chemical and biological weapons and an increasing 
number of states are pursuing a nuclear capability. The awful events of 
September 11 showed that terrorists will use our own strengths against 
us. It is no longer a case of WMD ``over there.'' The job of DTRA is to 
reduce the threat of WMD against us, and that if they are used against 
us, that we contribute to minimizing the consequences.
    Organizationally, we report to Dr. Dale Klein, the Assistant to the 
Secretary of Defense (Nuclear, Chemical, and Biological Defense 
Programs), but we work closely on a day-to-day basis with OSD, the 
Chairman of the JCS, the CINCs and the Services. To make sure that we 
are coupled into the needs of the CINCs, we have liaison officers 
assigned to the commands allowing real time reachback to DTRA 
capabilities.
DTRA Is A Combat Support Agency
    DTRA is a combat support agency. We are the near term interface 
between the laboratory and people who wear muddy boots. Sometimes our 
timelines are as short as a few hours, as is the case when we model the 
effects of a WMD event on a specific location using real time weather 
and geography. At other times we execute development programs that span 
several years. The Combatant Commands look to us for assistance in 
dealing with and overcoming the full range of WMD threats--chemical, 
biological, radiological, nuclear, and high explosive. Recent studies 
confirm that it is difficult for every command and the Services to have 
all of the WMD expertise that it needs to carry out its mission. DTRA 
provides essential support for the needs of the CINCs and the services.
DTRA Integrates and Focuses WMD Expertise from All Sources
    We do this by integrating and focusing WMD expertise from all 
sources--the Department of Defense, other U.S. Government entities, 
industry, academia, and from our allies and friends--into products that 
meet their needs. Our products range from consequence prediction to 
consequence management, from targeting to the weapons that are being 
used on target. We provide WMD expertise, technology, and support to 
plans and operations. For example, within hours of the attacks on 
September 11 we were providing data on smoke plumes from the World 
Trade Center. Within weeks we had accelerated the development of the 
new thermobaric weapon so that it would be ready for use in 
Afghanistan. We have people on the ground in that country looking for 
WMD activities in caves. We have people in laboratories and test ranges 
figuring out what to do if or when we find such activities.
    Although the Agency was established in 1998, it was built upon 
organizations with decades of experience in nuclear weapons effects, 
chemical and biological agent defeat, weapons effects against hardened 
facilities, the protection of structures against high explosives 
attacks, vulnerability assessments, and implementation of arms control 
treaties and other cooperative threat reduction programs. This blend of 
expertise positions DTRA at the crossroads of WMD threat reduction.
    As an integrator of technology and operational concepts, DTRA works 
closely with the required expertise wherever it may reside. We work 
very closely with the Research, Development, Test and Evaluation 
(RDT&E) organizations of the Services. We have many enduring and 
emerging partnerships with the Department of Energy and its National 
Labs. We also depend very heavily upon the talent and skills of the 
private sector and academia. Virtually every DTRA RDT&E program employs 
a team approach.
    The development of the thermobaric warhead exemplifies the benefit 
of this team approach in accelerating development of technology needed 
by the warfighter. This program originated as a response to the 
terrorist acts of September 11, 2001. DTRA was tasked by OSD to form 
and lead an interagency team to produce a thermobaric weapon that would 
hold tunnels and caves at greater risk, thereby eliminating sanctuaries 
for terrorists in Afghanistan. The DTRA-led team produced, tested, and 
delivered a very effective capability in a mere 60 days. DTRA's proven 
experience with ACTDs was key to precisely choreographing the various 
program partners through the developmental process. Team members in 
addition to DTRA included Navy, Air Force, and DOE organizations. DTRA 
integrated all efforts and coordinated the testing activities. The 
Navy's explosive experts at the Naval Surface Weapons Center (NSWC), 
Indian Head, MD, provided an effective new composition explosive fill 
that significantly enhanced blast pressure and range. The Air Force 
Precision Strike Program Office at Eglin AFB, FL, led the Air Force 
team performing weapon system integration, safety, and flight 
clearances. They also produced a modified fuze for a new warhead. NSWC 
Indian Head conducted static testing of the new fuze/weapon 
configuration to demonstrate reliable initiation of the new explosive. 
Static and flight tests were conducted in full-scale tunnel facilities 
at DOE's Nevada Test Site. The Air Force 422nd Test and Evaluation 
Squadron at Nellis AFB, NV, flawlessly executed the flight test to 
demonstrate the viability of the new weapon in a dynamic environment.
    Since then, the Air Force has completed verification and validation 
of technical data and operational flight clearances required to field 
the BLU-118 warhead. A small number of these weapons is now available 
for operational use.
DTRA Spans the Full Spectrum of WMD Threat Reduction
    DTRA is unique in that it spans the full spectrum of WMD threat 
reduction. We do the on-site inspections to make sure that other 
countries are abiding by their agreements. We execute the Cooperative 
Threat Reduction Program to help countries of the Former Soviet Union 
dismantle weapons. We support the Chemical and Biological Defense 
Program to ensure proper protection for our forces. We develop new 
technology, such as advanced penetrators, a sort of ``non-cooperative 
threat reduction program.'' DTRA is the center of expertise for our 
understanding of weapons effects, especially nuclear effects. For 
example, our understanding of the science of blast and shock effects on 
rock and concrete provides the basis for developing more effective 
bunker and tunnel defeat weapons--as well as for the operational 
concept for using such weapons in combat. We build bunkers just like 
the adversary and then develop the best way to destroy them. We are the 
glue that binds together WMD expertise from all sources into focused 
programs that provides accelerated responses to the needs of the 
warfighters.
    We also help to ensure that our Nation's nuclear arsenal--the 
ultimate deterrent against aggression--is safe and effective. DTRA 
performs nuclear safety and surety assessments, assists with emergency 
response capabilities, and provides targeting support. In partnership 
with the U.S. Strategic Command and the Services, we developed the DOD 
Nuclear Mission Management Plan that serves as a guide for managing 
DOD's nuclear responsibilities.
DTRA Is Making A Difference
    I would like to give you several examples of how DTRA has improved 
the combat capability of our Nation. My examples will include offensive 
and defensive contributions, and programs that have dual applicability 
to homeland security.

        <bullet> DTRA assisted the CINCs in identifying and 
        successfully striking hardened and deeply buried targets in the 
        Balkans, Iraq, and Afghanistan.
        <bullet> DTRA led the development of new hardened target defeat 
        weapons including the Conventional Air-Launched Cruise Missile 
        penetrator, the Advanced Unitary Penetrator, the Hard Target 
        Smart Fuze, and the Thermobaric warhead.
        <bullet> DTRA provides direct support to the warfighter in 
        predicting the spread of WMD agents following the use of such 
        weapons against our forces--or the release of an agent 
        following an attack by U.S. forces on enemy facilities.
        <bullet> DTRA is fielding an unconventional nuclear warfare 
        protection system at four military installations. This project, 
        to be completed in 1 year, will take currently available 
        technology and integrate it into a working protective system 
        capable of detecting a terrorist nuclear device.
        <bullet> DTRA is working with the warfighters to develop the 
        means for ensuring the use of ports and airfields despite enemy 
        use of chemical and biological agents.
        <bullet> DTRA performs vulnerability assessments of key 
        leadership facilities and military bases. Recently, we 
        performed vulnerability assessments of Capitol Hill for various 
        terrorist threats. I am particularly proud of the fact that 
        force protection technology developed by DTRA saved lives at 
        the Pentagon on September 11.
DTRA Is Contributing to Homeland Security
    Although DTRA remains focused on the needs of the warfighter, much 
of our expertise is applicable to homeland security. We are applying 
training and planning related to nuclear weapon accident response to 
broader WMD terrorism scenarios. In particular, we are developing 
``play books'' that will aid civilian leadership in preparing for and 
responding to the issues and events following the use of WMD in urban 
areas. We are supporting the Office of Homeland Security to develop a 
near-term biological defense system. Consistent with our approach of 
harnessing national WMD expertise to address challenges, we are 
developing a program for near-term improvements in detection of 
biological agents and consequence management.
    Other DTRA activities that can contribute to homeland security 
include support to operational responses following detection of WMD 
weapons, prediction of WMD agent dispersal, consequence management, 
vulnerability assessments, integrated WMD training and exercises, and 
contingency planning.
Where We Are Headed
    DTRA's focus remains on combat support--providing technology, 
operational concepts, and other support for the warfighters' response 
to WMD. We continue to support the U.S. nuclear deterrent. We will 
develop new technologies and means for dealing with unconventional 
nuclear threats; develop enhanced lethality, long-range precision 
strike weapons; expand support to contingency planning and current 
military operations; and develop the means for ensuring the use of 
ports and airfields in WMD environments.
    Thank you Madam Chair, for the opportunity to be here today. I am 
proud to lead a great team on an important mission for the nation. I 
would be happy to answer your questions and to provide additional 
material at your request.

    Senator Carnahan [presiding]. Thank you, Dr. Younger.
    Mr. Waldron.

STATEMENT OF ROBERT E. WALDRON, ASSISTANT DEPUTY ADMINISTRATOR 
FOR NONPROLIFERATION RESEARCH AND ENGINEERING, NATIONAL NUCLEAR 
                    SECURITY ADMINISTRATION

    Mr. Waldron. Thank you, Madam Chairman and Senator Roberts. 
For the record, I am Robert Waldron. I am the Assistant Deputy 
Administrator for Nonproliferation Research and Engineering at 
the National Nuclear Security Administration, and I will 
briefly summarize my statement.
    The environment is considerably different from when I 
testified before you last year in terms of both the national 
security posture and our budget request. Last year we discussed 
the potential of a terrorist act, while now it is a shocking 
reality. Thanks to the administration and to Congress, our 
budget request this year is up $113 million over last year's 
request in terms of actual R&D funding, an increase of 66 
percent.
    The NNSA's nonproliferation and verification research and 
development program develops technologies for application by 
the operational users whose mission it is to strengthen the 
United States' response to current and projected threats to 
national security posed by the proliferation of nuclear, 
chemical, and biological weapons and the diversion of special 
nuclear materials. The technologies are developed for a wide 
range of government users, including the DOD and the 
intelligence community.
    Our laboratories possess the vast majority of our Nation's 
expertise in nuclear weapons design and production. Because of 
this expertise, the labs have historically supplied the 
technical capability for the U.S. Government to detect and 
characterize nuclear weapons and materials. The goal of our R&D 
program is to conduct the applied research needed to develop 
the technologies necessary to detect WMD while maintaining the 
required technology base. A robust technology base is key to 
our ability to have the flexibility to respond to other 
agencies' changing operational requirements and changes in 
national policy.
    The importance of stemming proliferation of weapons of mass 
destruction and the NNSA's role in related technology 
development is unquestioned. The nonproliferation and 
verification R&D program fills a gap between basic research and 
users' application-specific acquisitions, as well as providing 
the nuclear technical expertise not resident in many agencies 
charged with homeland security.
    Our tie to the operational community is strongest in the 
nuclear explosion monitoring area where we have an almost 40-
year history of close cooperation. We provide remarkably 
capable and robust hardware for space systems and are enabling 
the Air Force Technical Application Center's modernization of 
their seismic monitoring capability.
    In addition to connections to individual operational 
organizations, we also work very closely with our friends at 
the Defense Threat Reduction Agency. Our collaborations with 
DTRA include a variety of cooperative mechanisms from 
developing joint technical road maps for chem/bio to 
characterizing gamma ray detectors and discerning specific 
radiation signatures to support DTRA's base and port defense 
demonstration project as part of our homeland security 
initiatives.
    While we have very close ties to individual developers and 
operational users within the DOD and the intelligence 
community, we have reinvigorated a previous relationship with 
the U.S. Customs Service because of homeland security. The goal 
is to support their development of operational concepts to 
interdict nuclear materials at international borders with new 
and existing radiation detection and transportation security 
technologies.
    An area of significant multi-agency homeland security 
collaboration is in genetic sequencing of microbes with 
possible terrorism implications. The effort is being 
coordinated through OSTP's Interagency Microbe Project Working 
Group. It involves the National Science Foundation, the 
National Institutes of Health, Centers for Disease Control, 
Department of Energy, DARPA, USAMRIID, Central Intelligence 
Agency, and the Department of Agriculture. This is a real 
success story as multiple agencies are pooling their resources 
to attack a specific part of the bioterrorism threat in a 
coordinated effort.
    Another success story of our chem/bio program has been the 
transition of decontamination technology we developed to the 
private sector. Commercial vendors now produce the 
decontamination foam that was used to clean up some of the 
House offices.
    We are also working on transitioning technology developed 
for nonproliferation applications to support the warfighter. We 
are finalizing a classified Memorandum of Understanding (MOU) 
with multiple DOD organizations for a joint user and 
multispectral demonstration program using our multispectral 
thermal imager demonstration small satellite.
    The NNSA nonproliferation and verification R&D program 
remains essential to the agencies responsible for non- and 
counterproliferation and now homeland security being ready to 
fulfill their operational missions. The program is well 
coordinated with individual users and other developers.
    There is no simple solution to the problem and we alone 
cannot solve it. With the continued support of Congress and 
through collaboration with DOD and others and the necessary 
advances in technology and analysis techniques, we will make 
the necessary improvements in our ability to detect and 
understand these threats and to protect the American people.
    I will be pleased to answer any questions you may have.
    [The prepared statement of Mr. Waldron follows:]
                Prepared Statement by Robert E. Waldron
    Madam Chairman and members of the subcommittee, thank you for the 
opportunity to testify again this year on the Department of Energy 
(DOE) National Nuclear Security Administration's (NNSA) 
Nonproliferation and Verification Research and Development Program. The 
environment is considerably different this year in terms of both our 
national security posture and our budget request. Where last year we 
discussed the potential of a terrorist act, it is now a shocking 
reality. Thanks to administration and congressional action our budget 
request this year is up $113 million over last year's request in terms 
of actual R&D funding--an increase of 66 percent.
    The NNSAs Nonproliferation and Verification Research and 
Development (R&D) Program develops technologies for application by the 
operational users whose mission it is to strengthen the United States 
response to current and projected threats to national security posed by 
the proliferation of nuclear, chemical, and biological weapons and 
diversion of special nuclear material. The technologies are developed 
for a wide range of government users including the Department of 
Defense (DOD) and the Intelligence Community.
    Our laboratories possess the vast majority of our Nation's 
expertise in nuclear weapons design and production. Because of this 
expertise, the labs have historically supplied the technical capability 
for the U.S. government to detect and characterize nuclear 
proliferation activities in their early stages. The goal of our R&D 
program is to continue to provide the technical solutions to enhance 
U.S. national security. In order to meet this goal, the emphasis is on 
maintaining the technology base and conducting the applied research 
needed to develop the technologies necessary to detect and deter 
nuclear proliferation, to meet U.S. nuclear explosion monitoring goals, 
and to develop and demonstrate chemical and biological detection and 
related technologies to enable us to better prepare for and respond to 
the threat of domestic chemical and biological attacks. To address the 
broad array of mission challenges our program objectives are to:

        <bullet> Develop and demonstrate technologies needed to 
        remotely detect the early stages of a proliferant nation's 
        nuclear weapons program.
        <bullet> Develop, demonstrate, and deliver technologies to 
        detect, locate, identify, and characterize nuclear explosions 
        underground, underwater, in the atmosphere, and in space.
        <bullet> Develop and demonstrate technologies to improve our 
        national capability to detect nuclear materials, to counter 
        nuclear smuggling, and to identify the origins of nuclear 
        materials.
        <bullet> Develop and demonstrate technologies and systems that 
        dramatically improve our ability to detect the proliferation or 
        use of chemical and biological agents, and to minimize the 
        consequences of potential terrorist use of chemical or 
        biological agents.
                             collaboration
    The importance of stemming the proliferation of weapons of mass 
destruction and the NNSA's role in related technology development is 
unquestioned. The Nonproliferation and Verification R&D program fills a 
gap between basic research and users' application-specific acquisitions 
as well as providing the technical expertise not resident in many 
agencies charged with homeland security. Longer term technology needs 
are not always well understood nor well documented, but are based upon 
DOD or Intelligence Community realization that there are gaps in 
capability and that current technology will eventually become obsolete 
and/or understood by adversaries, thus new capabilities must be 
constantly pursued.
    As I noted earlier, maintaining the nonproliferation technology 
base is a goal of our program. It is key to our ability to respond to 
other agencies' changing operational requirements and changes in 
national policy. With our emphasis on the technology base and not 
having day-to-day operational mission responsibilities, we are able to 
take a longer-term focus and stay the development course while maturing 
the technology and to pursue revolutionary, higher risk solutions that 
frequently push the state of the art. Having NNSA fund this type of R&D 
allows us to marshal multi-disciplinary, inter-laboratory teams from 
the national laboratories to address these very challenging technical, 
science, and engineering problems.
    Leveraging our past nuclear testing program, NNSA has the 
responsibility to apply the scientific understanding gained during 
testing to develop the sensor capability for the U.S. national nuclear 
explosion monitoring system to meet U.S. goals to detect very low yield 
nuclear explosions underground, in the atmosphere, in the oceans, and 
in space with space-based and ground-based sensor systems. Our 
commitment to this responsibility was recognized during a recent U.S. 
Nuclear Detonation Detection System National Review where senior 
members from the Office of the Secretary of Defense, Strategic Command, 
Space Command, State Department, multiple Air Force Organizations, and 
NNSA recommended that all space-based nuclear explosion detection 
sensor work be funded by a single organization. This budget request 
reflects that recommendation with a $15 million transfer from the Air 
Force to our program to produce the electromagnetic pulse sensor for 
the next generation of Global Positioning Satellites.
    Our tie to the operational community is strongest in the nuclear 
explosion monitoring area where we have an almost 40 year history of 
working together. We provide remarkably capable and robust hardware for 
space systems, as well as expert advice in analyzing the data they 
produce, and are enabling the Air Force Technical Applications Center's 
modernization of their seismic monitoring capability. Our relationship 
with the operators of the space and ground nuclear explosion monitoring 
systems is close and productive, and they acknowledge us as critical to 
the success of their efforts.
    In addition to our connections to individual operational 
organizations, we also work closely with other developers like the 
Defense Threat Reduction Agency (DTRA). Our collaboration with DTRA 
includes a variety of cooperative mechanisms from developing joint 
technical roadmaps for chem/bio to characterizing gamma ray detectors 
and specific radiation signatures to support the DTRA base and port 
defense demonstration project as part of our homeland security 
initiatives.
    While we have very close ties to individual developers and 
operational users within the DOD and the Intelligence Community, 
because of homeland security issues we have reinvigorated a previous 
relationship with the U.S. Customs Service. The goal is to support 
their development of operational concepts to interdict nuclear 
materials at international borders with new and existing radiation 
detection and transportation security technologies. Part of our support 
includes the establishment of a nuclear testbed to evaluate detection 
concepts and technologies against actual nuclear materials in maritime 
and airborne shipping containers. Technologies developed and 
demonstrated to detect nuclear weapons can also detect less 
catastrophic, but equally disruptive, radiologic dispersal devices.
    An area of significant multi-agency homeland security collaboration 
is in genetic sequencing of microbes with possible terrorist 
implications. The effort is being coordinated through OSTP's 
Interagency Microbe Project Working Group. All agencies (NSF, NIH, CDC, 
DOE, DARPA, USAMRIID, CIA, and Agriculture) doing genetic sequencing 
are participating and agreeing on what should be sequenced, to what 
level and quality, and who will do the sequencing. This is a real 
success story as multiple agencies are pooling their resources to 
attack a part of the bioterrorism threat.
    Another success story of our chem/bio program has been the 
transition of some decontamination technology we developed to the 
private sector. Commercial vendors now produce the decontamination foam 
that was used to clean up some of the House offices.
    We are also working on transitioning technology developed for 
nonproliferation applications to support the warfighter. We are 
finalizing a classified MOU with multiple DOD organizations for a 
Multispectral Thermal Imager Joint User Multispectral Demonstration 
program using our MTI technology demonstration small satellite.
                         technology challenges
    I have noted a few of our successful transitions and 
collaborations, now let me briefly highlight some of the technical 
challenges we face.
    Nuclear Explosion Monitoring: The primary challenges we face are in 
our ability to detect smaller nuclear detonations and discriminate them 
from natural and industrial activity. This challenge is extreme as the 
potential for false alarms goes up significantly as we lower our 
detection threshold. Most of the solutions are very computationally 
intensive whether ground-based processing or satellite on-board 
processing.
    Homeland Defense: In the chem/bio area, the chief challenge facing 
researchers is biological detection, specifically distinguishing a 
threat pathogen from its harmless, very close relatives. This is a key 
reason why the interagency microbe sequencing collaboration is so 
important. As these distinctions are developed, we must develop 
detection methods to exploit these differences and rapidly identify 
threat pathogens.
    For the nuclear realm, the ability to detect plutonium and highly 
enriched uranium at stand-off distances and with sufficient speed so 
that commerce is not impeded is driving us to explore not only new 
radiation detection materials, but also new detection system concepts. 
In addition to new detectors and materials, we are confronted with the 
need to develop new concepts for networking a collection of sensors 
into an integrated architecture for layered defense networks and 
perimeter monitoring systems.
    Proliferation Detection: Now let me move to our technology 
supporting national efforts to detect and understand WMD proliferation 
at its source. The challenge is to catch clandestine WMD programs at 
the earliest stage of development. Potential adversaries, terrorist or 
nation states, are well aware of our traditional monitoring methods and 
have taken steps to disguise suspect activities. Our challenge is to 
obtain sufficient information to enable us to distinguish steps in a 
weapons production program from closely related legitimate industrial 
activities. New sensors that detect new kinds of signatures are 
necessary, and advanced processing and exploitation methods must be 
developed to make sense of this data.
    Our ability to successfully address these challenges is rooted in 
the technology base that this program maintains at the DOE national 
laboratories. Its foundation comes from the historical expertise of the 
DOE's nuclear weapons program and intimate involvement with both DOD 
organizations and the Intelligence Community. This technology base 
ensures that we can respond rapidly to solve urgent needs and to 
changing national priorities.
                               conclusion
    The NNSA Nonproliferation and Verification R&D Program remains 
essential to the agencies responsible for non/counterproliferation, and 
now homeland security, being able to fulfill their operational 
missions. The program is well coordinated with individual users and 
other developers.
    Our technology will get even better--because it must. Rogue 
countries, terrorists and the suppliers of the nuclear, biological, and 
chemical tools of their trade are using increasingly sophisticated 
means to evade detection. Our methods and technology must outpace this 
growing threat.
    There is no simple solution to this problem, and we alone cannot 
solve it. With the support of Congress and through continued 
collaboration with DOD and others and the necessary advances in 
technology and analysis techniques, we can make a quantum leap in our 
ability to detect and understand these threats to the American people.
    I would be pleased to answer any questions you may have.

    Senator Carnahan. Thank you, Mr. Waldron and all of you, 
for being here today. This is an unusually large turnout for a 
committee hearing, and that shows the importance of the topic 
on which we are working today.
    I will make an opening statement, after which Senator 
Roberts will ask a few questions. He has to leave. So we are 
glad to have him do that before he leaves, and then we will 
return to the questioning.
    Senator Carnahan. Long before September 11, Defense 
Secretary Rumsfeld announced his intention to transform the 
military into a lighter, faster, and more lethal fighting 
force. This process has only become more essential as the 
United States combats terrorists around the globe. We are 
battling an obscure enemy, waging a shadowy war, both at home 
and abroad, and it is important that our national defense 
address these so-called asymmetric threats.
    To meet these new challenges, it is imperative that our 
Armed Forces be well equipped with the latest technology 
available. This will take sizeable investment in science and 
engineering research and, with it, a strong commitment to 
supporting our Nation's laboratories, universities and research 
businesses. It is essential that the United States prepare its 
military capabilities with an eye to the future. We are only in 
the initial stages of development in such important fields as 
cyber warfare, chemical, biological, and nuclear defense, 
nanotechnology, unmanned aerial vehicles, and directed energy 
lasers.
    Since assuming office, Secretary Rumsfeld has been an 
advocate for research and development. In fact, he has said 
that science and technology accounts should total at least 3 
percent of the Nation's defense budget. But this year, the 
proposed 2003 defense budget came up short on this goal, 
accounting for only 2.6 percent of the budget, and the 
Pentagon's 5-year projections for the science and technology 
budget are cut even more dramatically. By 2007, the science and 
technology budget is expected to account for only 2.28 percent 
of the budget.
    I recently worked with Senators Conrad and Nelson to 
highlight this serious problem in the 2003 budget resolution. 
This legislation now calls for the science and technology 
account to reach Secretary Rumsfeld's goal of 3 percent in the 
next 5 years. This will give the research community the tools 
needed to develop the high-tech defense we need against 
America's enemies.
    Years ago I recall newspaper accounts describing the 
ominous glow of Russia's Sputnik as it orbited the earth. This 
specter of the Soviet superior technology blind-sided our 
political and military leaders and sparked a tremendous 
revolution in America's space and military science efforts. We 
were not going to let our enemies challenge us either from the 
heavens or from any corner of the earth.
    Today we face a new enemy. Advances in technology are just 
as important now as they were then. Last October, we in the 
Senate observed firsthand America's vulnerabilities to emerging 
threats. When letters filled with anthrax were mailed to 
Members of Congress, 50 of my Senate colleagues and I, as well 
as our staffs, were displaced from the Hart Building for over 3 
months. Experts from several governmental agencies responded to 
the attacks, but the technologies they used were both arcane 
and time consuming. To detect the presence of anthrax, adhesive 
strips were laid out to conduct spore counts. To decontaminate 
the building, decades-old equipment was used to spread chlorine 
dioxide gas throughout the building. The cleanup of the 
building took months and even more months were needed to be 
certain that it was safe for reentry. We must, in the future, 
be better prepared.
    Because it still takes years for high-tech tools and 
weapons to evolve from concept to use, we need a system in 
which new technologies can rapidly progress through the 
acquisition system. One pace-setter in this effort is Clean 
Earth Technologies in St. Louis, Missouri. This small business 
is developing cutting edge decontamination equipment that will 
eradicate chemical and biological agents quickly and 
effectively. This morning I look forward to learning of other 
emerging technologies, many of which you have already shown us 
today, and how they can be used to detect, deter, and, if 
necessary, destroy weapons of mass destruction.
    Thank you very much.
    Senator Roberts.
    Senator Roberts. Thank you, Madam Chairman, and thank you 
for an excellent statement.
    Many are called, few are chosen. Thank you, gentlemen, for 
the job you are doing. You are making a difference. Prior to 
September 11, this subcommittee had a series of hearings 
inviting the previous administration's people in charge. Some 
of you I have already visited with in the past, and I want to 
thank you for the progress that we are making. Obviously, we 
would like to do more, but I do want to thank you for your 
efforts.
    I have a table of organization question for Dr. Sega, Dr. 
Klein, and Dr. Younger. You are the DOD posse that has come 
down to testify here today, and for some time I have been 
concerned that we do not have somebody who would be in charge 
of SO/LIC, an Assistant Secretary, if you will. I think the 
official question prepared by staff says as follows. Each of 
you play an important role in the overall Department of Defense 
combating terrorism program. What official in the Department is 
responsible for providing you with overall guidance, 
priorities, goals, and budgets with regard to your 
responsibilities in the area of combating terrorism?
    I asked a previous panel about 2 years ago to sit in the 
order of their rank, and nobody knew where to sit. I am still 
concerned about that. I understand that the Secretary of the 
Army may have this responsibility, but I know John White is 
very busy running the Army. I know that Doug Feith is the Under 
Secretary of Policy. His plate is full. Who do you report to? 
How do you feel about that? This is a little touchy question I 
presume, but do you feel that you have a sense of confidence in 
terms of direction in regards to policy? I will start here with 
Dr. Sega. I will pick on you first.
    Dr. Sega. Senator Roberts, the short answer to your 
question is: it is evolving. The task force that is currently 
under policy to develop doctrine in the Department of Defense 
is a work in progress, and it is anticipated that will 
interface with our national efforts on the doctrine side.
    On the technology side, the establishment of a DOD 
Combating Terrorism Technology Task Force, which included SO/
LIC, the agencies, DARPA and DTRA, special focus areas in the 
chem/bio area, in the weapons area and science and technology 
area, the service executives were brought together in that 
forum to make sure that we had no unintended redundancies of 
effort in the areas of developing the technologies for 
combating terrorism. We included people from the Joint Staff to 
make sure that we had that input. I personally have been down 
to Joint Forces Command (JFCOM), Special Operations Command 
(SOCOM), U.S. Central Command (CENTCOM), and met with the Vice 
Chairman of the Joint Chiefs of Staff on the area of 
integrating technology into the effort.
    The combating terrorism piece is part and parcel of what we 
do. So, some of the areas may not be absolutely identified as 
combating terrorism, such as establishing robust networks upon 
which we can put surveillance detectors. They may be invisible. 
They may be near-IR. They may be chemical, biological, or 
radiological kinds of things. So, I think it is important that 
we have an integrated approach to developing the capacity to 
combat terrorism within the context of the greater efforts so 
that there are the proper synergies, so we do not have the 
duplication on this combating terrorism technology.
    Senator Roberts. Pardon me for interrupting.
    Dr. Sega. Sure.
    Senator Roberts. I have no doubt that you are doing an 
excellent job. It is just I want to know who you report to.
    Dr. Sega. It is easy for me directly. It is to Under 
Secretary Aldridge in terms of acquisition, technology, and 
logistics.
    Senator Roberts. Dr. Klein, who do you report to?
    Dr. Klein. I also report to Under Secretary Aldridge.
    But let me answer your question a little bit. I think one 
of the areas that might have led to some frustration for you 
last year is that my position had not been filled for about 
3\1/2\ years.
    Senator Roberts. That is true.
    Dr. Klein. The Assistant to the Secretary of Defense for 
Nuclear, Chemical and Biological Defense Programs. So, I have 
now been on my job since November 15, and it has been a 
challenge.
    But I think my guidance and my direction is quite clear. My 
office is responsible to address the weapons of mass 
destruction. DTRA, the Defense Threat Reduction Agency, reports 
through me. So our guidance, our mission, our functions, our 
roles are quite clear.
    On nuclear matters, I also have the charter of going 
directly to the Secretary of Defense if there are safety and 
security issues on the nuclear issues according to the charter. 
So, I think my guidance, who I report to, what the job requires 
is quite clear.
    I think it is less clear as we are trying to get better 
coordination and a better handle on how the Department of 
Defense interfaces with the Office of Homeland Security. I 
think to support the warfighter, to support our missions on the 
Department of Defense, I know exactly what my role, 
responsibilities, and duties are and who I report to. We always 
need to do better coordination than we probably do, but my 
mission is quite clear and I know what the charge is.
    On homeland security, we are trying to understand how do we 
interface in that area. Mr. Cambone in policy is coordinating a 
group to get the Department of Defense--and he reports to Mr. 
Feith--to see what role the Department of Defense should play 
and could play in homeland security.
    My personal opinion is that we have a lot of technologies 
in the Department of Defense developed to support the 
warfighter, the men and women in uniform, that can be 
transferred over to the civilian side, but we have to 
understand what role and how we do that. So, there is a working 
committee. We are in five groups on how we organize and how we 
perform in the homeland security. SO/LIC is a part of that. 
Policy is a part of that. Dr. Sega's group is part of that. 
DTRA is a part of that. So, we are all looking at that role. 
But I think in terms of weapons of mass destruction for the 
warfighter, men and women in uniform, our task is clear.
    Senator Roberts. Dr. Younger, do you want to add anything?
    Dr. Younger. I report to Dr. Klein; I work with Dr. Sega. 
We chair the Counterterrorism Technology Task Force, and speak 
frequently with SO/LIC. As a matter of fact, I am talking with 
them today, and we coordinate with Secretary White's office.
    Senator Roberts. Dr. Sega, you mentioned in your earlier 
comments something about NATO and working with NATO. Senator 
Lugar, the distinguished Senator from Indiana and one of the 
godfathers of the CTR program and a foreign relations expert, 
went over and made a speech--I am not sure where he made it, he 
made it overseas--to NATO--referred to the November expansion 
meeting and indicated that it was his hope that NATO would step 
up to the challenge of terrorism. If they did not step up, then 
all the other issues that we had talked about before that we 
thought were rather nettlesome, or at least a challenge, 
expansion and the investment on the part of the NATO countries, 
a collective defense, what does Article 5 mean, and do we go 
outside the region, et cetera, et cetera, pale in comparison to 
the need for better cooperation and understanding of the 
challenge of international terrorism.
    With the strategic concept of NATO that was adopted--what--
2 years ago, now encompassing everything from crime, drugs, 
environment, an incredible array of things that NATO is 
allegedly in charge of, how do you see this in terms of NATO? 
What was the response? You mentioned NATO and that really 
perked up my interest. Are they on board? Is it a cooperative 
kind of attitude? Where are we with this?
    Dr. Sega. The results of that 3-day workshop on combating 
terrorism--the final report should be out soon--aligned fairly 
closely to the categories of deterrence, indications and 
warnings, survivability, denial and consequence management and 
recovery that we had set up earlier in the Department of 
Defense. So, there was enthusiasm for sharing technical 
information on systems such as detector systems and 
surveillance systems and working together on the technical 
level. Again, the scope of that meeting was restricted to 
research and technology, and it was a positive meeting. We need 
to take the next steps in technology, but that was the focus of 
the workshop.
    Senator Roberts. I am going to ask Dr. Marburger a question 
in regards to a GAO report that will be forthcoming in about a 
month. The GAO report dealt with primarily a number of programs 
that we are involved with in combating the illicit trafficking 
of the special nuclear materials and any kind of radiological 
materials. The GAO will report--it is not final yet, but 
basically that we have six Federal agencies, the Department of 
Defense, Department of Energy, Department of State, Customs 
Service, FBI, and Coast Guard, that all spent approximately $90 
million over 8 years from 1993 to 2001 to assist 30 different 
countries in this area. Assistance included radiation detection 
equipment, mobile x-ray vans, inspection tools, patrol boats, 
training, and then obviously after September 11 there is a very 
renewed focus on detecting the transport of these materials 
into and within the United States.
    The preliminary findings of this report are not that we 
have a better system in Russia than we do in this country. It's 
that we have a situation where we have asked, and some of the 
responses may be classified in regards to what kind of 
smuggling has gone on, where it has gone on in other countries, 
but we are going to get into a real dichotomy of public 
awareness--and that is the best way I can describe it--if we 
have assisted to the tune of 90 million bucks over 8 years with 
six different Federal agencies and a hodge-podge--and I do not 
mean to be using that too much as a pejorative--and then we 
find we have these kind of systems in different countries, but 
in our own country, we are not even close. We have not started.
    Now, I understand that you, Dr. Marburger, and others 
within the Office of Science and Technology Policy, OMB, CIA, 
National Institute of Standards and Technology (NIST), DOD--
some of these acronyms I do not even know--et cetera, et 
cetera--we have a whole bunch of people who are participants--
have now set up a working group to try to get at this problem. 
Can you just touch on this? I am going to try to talk the 
chairman into having a hearing on this as soon as the GAO 
report comes out. But can you indicate to us how things stand? 
I understand you are on top of this. You are aware of this 
problem. It is a problem of real concern, but you set up a 
working group and you are well on your way toward addressing 
this concern.
    Dr. Marburger. That is true. This is an area in which a lot 
of agencies have capabilities to bring to bear and part of 
their mission is to address it. Coordination is required. I 
would, in answer to your question, draw attention to the bottom 
of page 2 of my written testimony. I did not mention this in my 
oral testimony. But let me just read that section on this part 
of the record.
    Senator Roberts. All right.
    Dr. Marburger. ``Working closely with Office of Homeland 
Security, an interagency working group called the Counter-
Nuclear Smuggling Working Group, has been created to develop a 
fully coordinated program for addressing the threat of nuclear 
smuggling across borders, both overseas and in the United 
States.
    This working group will develop a strategic plan with a 
unified set of program goals and priorities, including within 
its scope the programs that implement and deploy current 
capabilities, as well as programs that research and develop new 
capabilities. The group is co-chaired by OSTP and the National 
Security Council and has been constituted under the Office of 
Homeland Security's R&D Policy Coordinating Committee.''
    This is the kind of interagency activity that OSTP does 
create to provide for coordination, and I am confident that it 
will bring increased coordination of these programs and 
hopefully eliminate any duplication that may be discovered in 
this process. So, we are clearly organized to address at least 
some of the issues that were raised in the GAO report.
    Senator Roberts. The report is not out yet. I understand 
that, and we are trying to find out what is going to be 
classified and what is not going to be classified. We will 
probably have to have an open and closed hearing, if in fact we 
get to that. But it is going to be of some note that our 
Customs Service and other agencies that would be involved have 
not installed any portal monitors at U.S. border crossings very 
similar to what we do in the second line of defense programs in 
installing them in Russia. That just does not add up. Now, I am 
not blaming you for this. I am just saying we had six Federal 
agencies, 90 million bucks, 30 countries. It is a hodge-podge, 
and we are not doing in this country what we are doing in other 
countries. That is not right.
    I know you are on top of it. I know you have set up a 
working group. I really appreciate it. I think this 
subcommittee will obviously look into it further.
    Madam Chairman, that is all my questions. Oh, I am sorry. 
Mr. Waldron, you mentioned agroterrorism. No, you did not. You 
mentioned the Department of Agriculture. I am mentioning 
agroterrorism.
    We had a hearing here 2 or 3 years ago where agroterrorism 
was probably very high risk for the State of Missouri, for the 
State of Kansas, and others, but very low probability. After 
September 11 and additional intelligence reports, we think that 
that probability is now pretty high. If you look at the 15 
pathogens that the former Soviet Union was producing, 15 or 20 
years ago for their plans on attacking the North American food 
supply, and the security of those pathogens today, which is 
very questionable, think how easy it would be for a terrorist 
to use this kind of thing to attack the American food supply. 
We are very concerned about that. USDA is reprogramming funds. 
We have an agroterrorism section as part of the bioterrorism 
bill.
    Would you want to comment on that in any way? I am not 
sure. You mentioned the USDA, so I am sort of picking on you 
here. But I am very concerned about this. It would obviously 
affect the DOD in terms of crisis management. We need a lot 
more first responder training at our land grant schools. Would 
you care to comment on that possible threat?
    Mr. Waldron. My mention of the Department of Agriculture 
was in the genetic sequencing of pathogens and how we have all 
pulled together to work on prioritizing what pathogens will be 
sequenced, a standard that everything will be sequenced to, 
deciding whether or not we want to fully sequence certain 
pathogens or if it is a near neighbor, they can just do a 
partial sequence. It is everything from agricultural foot and 
mouth--hoof and mouth disease----
    Senator Roberts. We have foot in mouth up here. [Laughter.]
    Mr. Waldron. Well, I had it here too.
    But also wheat rust and things like that. So, it is a group 
that is working together under OSTP's leadership to try and 
sort out and really rationalize what it is we are doing in 
terms of genetic sequencing. That is the only thing that I can 
really comment on on agroterrorism. I know nothing else about 
it other than----
    Senator Roberts. Other than the fact you think it is a top 
priority and we ought to pay very full attention to it.
    Mr. Waldron. Yes, sir.
    Senator Roberts. Anybody else have any comment on this? I 
am a little far afield here.
    Dr. Marburger. Well, I will just make a statement from 
OSTP's perspective on agroterrorism. It is part of the general 
topic of bioterrorism as we see it. The salience of this issue 
is very high in the U.S. Department of Agriculture. I met with 
and addressed an advisory group to the Department of 
Agriculture just a few weeks ago, and this was the main topic 
of their agenda. I believe that there is a good deal of 
interagency cooperation on this issue. I have spoken directly 
with the Secretary of Agriculture on the issue and I am aware 
of what is being done. I think you would be pleased at the 
amount of activity.
    Senator Roberts. Thank you, Dr. Marburger.
    Senator Carnahan, I am concerned about this. We come from 
farm country, and if you look at what could happen not only to 
this year's crop but next year's crop and our Nation's food 
supply, it would be economic chaos in our country. Think of 
what would happen if we had the National Guard handing out food 
supplies at supermarkets in the inner cities. It is that 
serious. So, on that basis, I have a very strong interest in 
agroterrorism and am very concerned about it.
    I am now finally through with my questions, Madam Chairman, 
and I thank you for your patience. I thank the panel. You are 
making a difference and I appreciate it very much.
    Senator Carnahan. Thank you, Senator Roberts, for adding 
not only to the levity of the hearing, but also to the 
usefulness of this occasion as well.
    As has been pointed out earlier today, the budget 
resolution calls for science and technology to account for 3 
percent of the defense budget by 2007. Dr. Sega, this reflects 
the stated goals of our Secretary of Defense, as well as the 
recommendation of the 1998 Defense Science Board Task Force. 
Could you please tell us how this 3 percent figure was 
determined and how achieving this goal would help us to have 
the lighter, faster, more lethal force that Secretary Rumsfeld 
speaks of?
    Dr. Sega. My understanding is the 3 percent number was 
related to the Defense Science Board study of technology 
industries, and their investment in science and technology was 
roughly 3.4 percent of normal total revenues. So, they 
benchmarked their activity in science and technology--and 
sometimes it is a slightly different category of research and 
development and exactly what is in research and development 
against a number such as total revenues. That is from the 
Defense Science Board. I believe from that report, the judgment 
was made that about 3 percent is about right for the Department 
of Defense in its efforts to make sure that we have 
technological superiority for the future.
    The current budget does represent about $1.1 billion more 
from the requested figure in fiscal year 2002, the requested in 
fiscal year 2003. I believe it is still the goal, as recently 
stated by Under Secretary Aldridge last month, that we are 
pursuing a goal of 3 percent of the DOD budget. We balance that 
against needs in the Department, and we still hold that as a 
target.
    I think the investment needs to be done smartly. We are 
aligning that with the goals and capabilities as outlined in 
the QDR. We are paying special emphasis in the areas of science 
and technology on combating terrorism, on aligning with the 
transformational direction of the Department, and on joint 
kinds of activities. So, where those three are intersecting, we 
think that the value is the highest per dollar spent in science 
and technology endeavors. That is where we are heading.
    Senator Carnahan. Thank you.
    Dr. Klein, in the wake of the September 11 attacks and the 
subsequent anthrax attacks, I offered an amendment to the 2002 
defense authorization bill. This provision required that the 
Defense Department develop plans to protect its members from 
biological and chemical attack. September 11 certainly 
demonstrated that today's battlefields are not just abroad and 
we must be prepared to defend our personnel who are working at 
the Pentagon, our military posts, and National Guard armories 
throughout the country.
    Could you please describe the distinction between 
collective and individual protection and explain the importance 
of such protection in the United States?
    Dr. Klein. Senator Carnahan, I think as you pointed out 9/
11 brought the chemical and biological threat close to home. 
From the Department of Defense's perspective, they have 
maintained a fairly rigorous program for biological protection 
and chemical protection for the warfighter for quite some time. 
They have masks. They have procedures. They have chemical suits 
and programs. We are always trying to move ahead into the 
forefront of how to make it better, how to make it more 
economical, and how to make the distribution better.
    Dr. Anna Johnson-Winegar, who is behind me, is the Deputy 
Assistant to the Secretary of Defense for the Chemical and 
Biological Defense programs. We have a very active program both 
on the science and technology side, as well as the acquisition 
side. We have a program that approves specific equipment that 
meets the needs for chemical and biological defense programs. 
We are also active in the vaccine program, trying to develop 
new techniques and new programs. Being from Missouri 
originally, I am familiar with Fort Leonard Wood. I have talked 
with Brigadier General Nilo at Fort Leonard Wood. So, we are 
looking at all kinds of activities for which we can support the 
warfighter in situations in which we may not expect.
    We are also developing a lot of sensors. The sensor 
technologies have application both for the military side, as 
well as the civilian side. One of the things that we have asked 
the Defense Threat Reduction Agency to look at is what do you 
do if a sensor goes off. How do you respond? What kind of play 
books?
    So, we have a very active program on chemical and 
biological defense programs. We are moving on different fronts, 
but I think as Secretary Rumsfeld indicated, we have to be 
quicker, smarter, more reactive in today's threats.
    Senator Carnahan. Thank you.
    For either Dr. Sega or Dr. Klein, I note that the fiscal 
year 2003 defense budget request has some significant research 
and development increases that appear to be 1-year funding, 
which means of course that the requested level of funding will 
not be sustained in the out-years. The chemical and biological 
defense program is one of those examples where a 1-year surge 
of more than $380 million this year will drop next year, and 
the funding level is planned to be more than a half a billion 
dollars lower in fiscal year 2007. It appears that in order to 
achieve results in research and development, it is important to 
have a sustained funding level over time rather than these 1-
year injections of funding that will not be sustained in the 
future.
    Do you agree that predictable, sustained funding is needed 
to achieve our objectives in science and technology 
development? Could you explain what you expect to achieve with 
this spiking of funds in fiscal year 2003 and why the research 
and development funding is planned to be dropped by more than 
half a billion dollars in fiscal year 2007?
    Dr. Klein. Madam Chairman, it is obviously very clear that 
I agree that we need sustained funding particularly when you 
look at research and development activities. Spiked funding in 
R&D is difficult to handle in particular programs that take a 
long time to develop results.
    What we are doing with the spiked funding for the current 
fiscal year that is being provided in the area of the chemical 
and biological defense program, we have two major programs that 
are underway. Part of the program is handled by the Defense 
Threat Reduction Agency. Part of it is being handled by the 
Army and part of it by the Chemical and Biological Defense 
Program in the Office of the Secretary of Defense. We have a 
plan that addresses what we will deliver, what we will 
accomplish if it is 1-year funding. But we would prefer to have 
a sustained program so that we can develop technologies and 
procedures that would carry us forward into the out-years.
    For example, we are developing nine programs at some of our 
defense facilities--three Army, three Navy, three Air Force--
where we will develop a sensor program. So, this is a definite 
program of which we wanted to do a pilot study on how do we 
detect and how do we respond to an event. So, we do have 
certain things that we can accomplish, defined goals, but I 
would support your comment that to have a long-term program, we 
need sustained funding. Spiked funding is difficult for us to 
hire the people to carry it out, and it is difficult to plan 
long-term. So, I support a long-term approach.
    Senator Carnahan. So, do you think this funding is going to 
be able to be spent efficiently in such large amounts over such 
a short period of time?
    Dr. Klein. We have made sure that the answer to that 
question is yes. We looked at what deliverables will we 
accomplish for this 1-year funding, and we have definite 
accomplishments that we intend to do. We are very aware of 
that. We do not want to appear before a future committee and be 
asked why we wasted the money. So, we have a plan for which we 
will have deliverables and it will be spent wisely. I do 
believe that if we had sustained funding in this area that we 
would do a better job.
    Senator Carnahan. Thank you.
    Dr. Marburger, every day since September 11 my staff and I 
have been approached by small companies and inventors with 
ideas on how to combat terrorism and to protect our Nation. 
They have often been frustrated that we have not had a hearing 
on this, that they get lost in the Government system, and they 
just do not feel like their concerns are met.
    What would you recommend we tell these interested parties 
who often have very novel and new ideas on defense? Is the 
bureaucracy, do you feel, adapting to handling these ideas?
    Dr. Marburger. Senator Carnahan, I believe that the correct 
word is ``adapting.'' I think we do have good mechanisms for a 
fairly large subset of the issues that these companies are 
bringing forward. Dr. Sega has referred to and described the 
activities of the Technical Support Working Group which has a 
screening process that pulls together panels of experts from 
relevant agencies to look at these ideas. They have processed 
literally thousands of these requests, and as we receive them 
either directly to my office or through Homeland Security, we 
do a preliminary check and pass on many of them to the 
Technical Support Working Group, where they receive the same 
treatment. So, there are other mechanisms that we are looking 
at that would address some of the proposals that are not 
appropriate for that Technical Support Working Group.
    I must admit that we still are struggling to cope with very 
generic or general proposals that are coming from the private 
sector addressing the vulnerabilities of large systems such as 
mail, or communications, or energy transportation around the 
country. These are systems that do not readily yield to 
individual technologies deployed on a small scale, and I 
believe that we will have to wait for further strategic 
planning to have an interface with companies that are bringing 
forward these kinds of ideas.
    However, we are quite receptive to them. I have visited 
companies myself. We often arrange for meetings between 
representatives of companies that seem to have good ideas and 
agencies. At the present time, I would say that the best 
interface for these companies are the traditional ones--the 
agencies that do large procurements in these areas and that 
have missions that are clearly related to the functions that 
the industry would like to perform. So, the Department of 
Defense, the Department of Energy, National Institutes of 
Health all have funding programs and review processes that are 
appropriate for many of these.
    My office tries to sort these out and direct them to the 
right places. At the present time, I would say that if a small 
company has a problem interfacing, they should send a letter 
describing their product and what they would like to do either 
to the Office of Homeland Security or to us, and we will see to 
it that it gets plugged into the right place.
    Senator Carnahan. Thank you.
    Dr. Sega, do you have any comments you would like to make 
on this?
    Dr. Sega. Yes, Senator Carnahan.
    Regarding the small companies, I think it is very important 
that we have mechanisms and systems to bring forward the ideas 
that they have. They also tend to be faster in terms of being 
able to react. We have in the President's budget submitted 
again a quick reaction special projects fund which is the 
current year funding that can respond to ideas in technology 
areas that we did not anticipate 18 months prior. I believe 
that just by the very nature of these small companies, they end 
up being much more competitive for needs that are fast, as well 
as the generation of new ideas.
    In the Broad Area Announcement, there are things that we 
had never thought of that came forward, and we look forward to 
continuing that process, but we also need a vehicle that allows 
some of the flexibility to respond to things that we never 
thought about.
    Senator Carnahan. Thank you.
    Dr. Younger, your agency has a close working relationship 
with the combatant commands, and they rely upon you for special 
support. What are the capabilities that the combatant commands 
most want or need help with? Are there one or two areas where 
the need seems to be the greatest?
    Dr. Younger. I think the most popular service we provide 
today is vulnerability assessments. We send teams out who use a 
consistent process to assess the vulnerabilities of 
installations around the world to terrorists or other threats. 
We have an increased number of requests for such assessments. 
By the way, it is a quality measure that we are invited back to 
do the assessments. This is a service that we provide rather 
than a report card. So, that is probably the service that is in 
greatest demand.
    We perform a similar service called the balanced 
survivability assessment, which can address whether you 
continue to do your mission given some postulated threat or 
given a chemical or a biological event, and we help suggest 
ways that they can do better.
    We have also provided a number of short-term modeling 
studies of what would happen if there were a major chemical 
event at a local facility or what would happen if there were an 
event at a nuclear power plant. What would the consequences be? 
How could I continue to operate? So, we have done a number of 
modeling studies for the combat commands as well.
    Senator Carnahan. Thank you.
    Mr. Waldron, your office in the NNSA funds work that is 
designed in many instances to be used by others. Why does NNSA 
fund this work rather than the user community itself?
    Mr. Waldron. Well, I think a lot of that goes to the 
expertise that is resident at the national laboratories. Also, 
it is part of our mission in nonproliferation, developing 
technologies. A lot of those we are able to spin off to other 
agencies.
    But I think another thing that we really bring by being the 
agency that is funding these activities is that we are able 
then to marshal these interdisciplinary teams that are at the 
national laboratories as well as to pull together a combination 
of laboratories to work on a single project. A lot of times 
that is much more difficult for these other agencies to do, and 
sometimes if the agencies go directly to a laboratory, it might 
not be the prime laboratory that that I would suggest that they 
go to. But it is the other agencies' prerogative to go to 
whichever national laboratory they would like to get the work 
for others, as we characterize it, done.
    Senator Carnahan. How do you coordinate with the other 
various agencies? How do you ensure that NNSA research meets 
the user requirements?
    Mr. Waldron. We coordinate through an awful lot of the 
mechanisms that have been mentioned here. We participate on the 
Nonproliferation and Arms Control Technology Working Group. I 
am one of the co-chairs. We participate with the Technical 
Support Working Group. I am on the standing committee with Dr. 
Klein for the Counterproliferation Program Review Committee. 
So, we have all those mechanisms as well as some MOUs that I 
mentioned in my testimony. Also, I did not mention that we have 
an MOU with various law enforcement agencies, Customs, FBI, et 
cetera, and we get their needs, not necessarily firm DOD 
requirements, but we get their needs for improved capability 
from these various agencies. So, that is what helps formulate 
our program and identifies the various capability needs that 
people want.
    One thing that we are doing right now that we have just 
kicked off with Transportation and the Transportation Security 
Administration and the Customs and Coast Guard is working with 
them to do some modeling about how you can look at protecting 
our land from nuclear materials coming in, and looking at maybe 
a layered kind of defense where some of it is done overseas, as 
well as here, and integrating the smart highway system into 
these kinds of things.
    Senator Carnahan. Thank you.
    Dr. Klein, Fort Leonard Wood plays an important role in 
deciding how our soldiers in the field use some of the 
technologies that you develop. How do you work with them to 
ensure that the Army's Chemical School is aware of new 
technologies being developed, and how do you know what our 
soldiers really want in new technologies?
    Dr. Klein. Well, Senator, in terms of finding out what the 
soldiers need and want, we have a lot of communication through 
the various commanders. So, we get feedback. We have typically 
a lot of meetings in the chemical/biological area.
    In regard to Fort Leonard Wood, I personally met with 
Brigadier General Patricia Nilo to find out what areas she is 
involved in and what programs we might expand, where the skill 
sets are.
    So, we have a lot of meetings. We have our professional 
staff go out to these various sites through communications. So, 
I would say the way we find out what people need is they tell 
us typically what they would like, and then we try to have a 
science and technology base that will provide them the best 
protection available.
    Senator Carnahan. Thank you very much. I appreciate all of 
you being here today. As one final thought, I might say that I 
will be sponsoring a science and technology conference at Fort 
Leonard Wood in August. I would appreciate any support your 
offices could provide to get the right people and technologies 
to the conference. You are all certainly welcome to send a 
representative as well. I was hoping that you would be able to 
lend your support to that effort.
    Again, I thank you for being here and helping us to have a 
better understanding of this critical and complex topic. I know 
that there will be Senators who will be submitting questions 
for the record, and we would appreciate your timely response to 
those.
    With that, the subcommittee is adjourned.
    [The prepared statements of Dr. Andrews, Admiral Cohen, Mr. 
Engle, and Dr. Tether follow:]
   Prepared Statement by Dr. A. Michael Andrews II, Deputy Assistant 
            Secretary of the Army for Research & Technology
                              introduction
    Madam Chairman and members of the committee thank you for the 
opportunity to describe the fiscal year 2003 Army Science and 
Technology (S&T) program and the significant role S&T has in 
accelerating the pace of the Army's Transformation.
    We want to thank the members of this committee for your important 
role in making today's Army the world's preeminent land combat force 
and your support of our Transformation goals. Your continued advice and 
support are vital to our success.
                             transformation
    We are a Nation and an Army once again at war. This new century 
brings a new kind of war--the worldwide war against terrorism. Events 
since September 11 have reinforced the need to continue and accelerate 
the Army's Transformation to a more strategically responsive Objective 
Force. The versatility, agility, lethality and survivability by our 
forces in Afghanistan provide a glimpse of the full spectrum 
capabilities we are seeking to achieve in the Objective Force. A clear 
example of this is the new lightweight ballistic protection worn by our 
soldiers during combat operations in Operation Anaconda. The new 
Interceptor armor jackets, credited with saving many lives and 
minimizing combat injuries, were produced through the Army 
Manufacturing Technology (MANTECH) Enhanced Manufacturing Processes for 
Body Armor Materials project, through the U.S. Army Natick Soldier 
Center, Natick, Massachusetts.
    The Army's Transformation is well underway and the S&T program is 
in the third year of executing its focus on achieving Objective Force 
capabilities and re-shaping Research and Advanced Technology programs 
to support the Army Vision. We are transforming today's Army to an 
Objective Force that provides the Joint Force Commander with versatile 
early entry capabilities, without extensive logistics ``tails,'' fixed 
forward bases but still having the combat power to ``finish quickly and 
decisively.''
                          the role of army s&t
    The goal of the Army's Science and Technology (S&T) program is to 
provide technical solutions for the Army's Objective Force. We are 
committed to providing this technology to accelerate the 
Transformation. The largest single S&T program that we have is the 
Future Combat Systems (FCS). FCS represents a true paradigm shift in 
how we fight--perhaps as significant as the introduction of the tank or 
the helicopter. FCS is the single largest S&T initiative, representing 
over 40 percent of all S&T funding. In the Army's quest for true 
innovation, it has partnered with the Defense Advanced Research 
Projects Agency (DARPA) to explore innovative FCS concepts and 
technologies. FCS is not ``a platform.'' It is a system of battlefield 
capabilities in which the whole exceeds the sum of its parts. Fielding 
FCS will blur current distinctions between heavy forces and lighter 
forces, while providing lethal overmatch. Some of the key challenges 
include:

        <bullet> Survivability: Survivability is the primary technology 
        challenge because our combat systems must weigh less than 20 
        tons to be rapidly deployable. This forces us to find new ways 
        to protect our soldiers. To survive a first round engagement, 
        to ``See First'' and ``Understand First,'' individual FCS 
        platforms will require advances in Command, Control, 
        Communications, Computers, Intelligence, Surveillance, and 
        Reconnaissance (C\4\ISR) as well as integrated platform 
        protection systems. Technology options under development 
        include advanced communications and sensor systems that will 
        increase situational awareness and allow us to ``see first'' 
        and farther than the enemy; active protection systems which are 
        designed to degrade, deflect or defeat incoming threats before 
        they can hit our vehicles; signature reduction techniques that 
        will make us harder to see and therefore harder to hit; and 
        lightweight armor that weighs 1/4 of the current armor, but 
        provides the same protection.
        <bullet> Lethality: Although our systems will be lighter 
        weight, they must maintain the lethality overmatch of current 
        systems. Desired capabilities include lethal and non-lethal, 
        line-of-sight and non-line-of-sight, gun, missile and directed 
        energy weapons that will provide for the destruction or 
        incapacitation of multiple targets. Options under development 
        include the precision and loiter attack missile systems that 
        will allow us to conduct precision engagements against the 
        enemy at much greater ranges than he can; lightweight, lower 
        caliber guns and ammunition capable of precision direct and 
        indirect fire at long ranges, potentially enabling us to 
        combine capabilities of the traditional tank and artillery 
        piece into one system; extremely lethal compact kinetic energy 
        missiles that ensure overmatch against advanced protection 
        systems, and directed energy systems like lasers and high-power 
        microwaves for lethal and non-lethal applications.
        <bullet> C\4\ISR: Network centric operation is the linchpin for 
        FCS and the Objective Force, providing the foundation for 
        comprehensive situational awareness and the capability for 
        instantaneous prioritization, distribution and engagement of 
        multiple threats. On-the-move, distributed command and control, 
        multi-function sensors and sensor fusion algorithms, and 
        development of a seamless Tactical Internet among leaders, 
        soldiers, platforms, and sensors are critical to achieving 
        these goals. Options under development include digital, secure 
        on-the-move communications for collaborative planning and 
        execution, positive command and control, and shared situational 
        awareness; enhanced radar and sensor systems for longer range 
        detection, accurate identification and precise localization; 
        information assurance to counter information attack and avoid 
        deception, denial and disruption; and aided target recognition 
        to reduce the target identification and weapon engagement 
        timeline--the sensor to shooter latency.
        <bullet> Power Generation and Management/Electric Propulsion: 
        The Objective Force will require efficient power generation and 
        management systems to remain lightweight, but still function at 
        a fraction of the logistics burden of the current force. 
        Fortunately, the Army can leverage commercial investments, and 
        is engaging with industry to achieve mutual development 
        benefit. Options under development include hybrid electric 
        drive for high acceleration, design flexibility and increased 
        fuel efficiency; fuel cells for efficiency, quiet operation, 
        reduced environmental impact and potential water generation; 
        advanced diesel engines scaled for FCS-class vehicles with 
        higher power density and greater fuel efficiency; low power 
        demand electronics to increase energy efficiency; and efficient 
        power management designs.
        <bullet> Human Engineering: Future leaders and soldiers will 
        face increased challenges because of the variety of missions 
        and complexity of tasks that they must accomplish. We must 
        minimize this complexity while ensuring our soldiers are better 
        trained and rehearsed for the full spectrum of missions they 
        may be required to perform. Options under development include 
        human/machine interface designs that decrease task complexity 
        and execution times, improve performance levels, and minimize 
        physical, cognitive, and sensory demands; associate systems to 
        complement human operators, offload routine tasks and enhance 
        high priority task performance; and embedded/deployable 
        training and mission rehearsal environments.
                            unmanned systems
    Over the past 2 years, the Army has increased its investment in 
unmanned systems technology to support Congress' desire for fielding 
substantial unmanned capability among future operational ground combat 
vehicles. The Army has implemented a bold robotics technology 
investment strategy to provide these unique capabilities for the 
Objective Force. The Army has also structured the FCS program with 
phased unmanned system upgrades to support the introduction of 
progressively more robust unmanned ground combat capabilities.
    As part of its on-going partnership with DARPA, the Army is 
sponsoring the development of FCS concepts that involve significant 
unmanned capabilities. The collaborative Army/DARPA FCS program will 
define and validate FCS design and operational concepts, including the 
role of unmanned ground vehicles (UGVs) and unmanned air vehicles 
(UAVs). Further, in February of 2002, the Army has established a new 
Unmanned Combat Armed Rotorcraft technology development Memorandum of 
Agreement. The Army strategy is to begin fielding substantial unmanned 
capabilities through the FCS program and synergistically integrate 
manned and unmanned systems throughout the Objective Force.
    Additional Army technology investments that have direct relevance 
for FCS and the Objective Force are being made with DARPA. They include 
the Organic Air Vehicle (OAV) and a UAV rotorcraft with a large 
payload, long endurance and a vertical take off and landing capability 
(the A-160 Hummingbird), advanced command, control and communication 
technologies, and novel sensor systems. These technologies hold the 
potential to permit the FCS, and its associated dismounted forces, to 
operate in complex terrain by exploiting organic, non-line-of-sight 
fire capabilities through remote sensing and communications relays.
                          other s&t priorities
    Beyond the FCS, our S&T program must continue to support the full 
range of capabilities required for the remainder of the Objective 
Force. Some key areas of investment include:

        <bullet> Objective Force Warrior: Integrated soldier system of 
        systems to provide leap-ahead capabilities for the dismounted 
        soldier with dramatic weight and power reduction--with a goal 
        of providing full warfighting capabilities at 40 lbs. or less. 
        The system of systems will provide seamless connectivity with 
        other soldiers, weapon systems, FCS, and robotic air/ground 
        platforms to achieve overmatch for the full spectrum of future 
        operations.
        <bullet> Medical Technology: Individual health monitoring, 
        medical and dental preventive treatments, including: vaccines 
        and drugs against malaria, hemorrhagic fever, and scrub typhus, 
        to significantly reduce Disease and Non Battle Injury (DNBI) 
        casualties. In addition, these technologies seek to reduce the 
        medical footprint. Innovative products include far-forward 
        stabilization and resuscitation, hemorrhage control, minimize 
        neural injury, decrease the mortality rate, and speed soldiers' 
        return-to-duty.
        <bullet> Advanced Simulation: Modeling and simulation 
        technology, such as an innovative partnership with the 
        entertainment and game industries through the University of 
        Southern California (the Institute for Creative Technologies or 
        ICT) to accelerate the development of compelling immersive 
        environments for training, mission rehearsal, and concept 
        development. Another project, the Joint Virtual Battlespace 
        (JVB) program, is an enabling technology for evaluating how FCS 
        contributes to the total capability of the Objective Force, and 
        how the Objective Force plays in a joint force. JVB, combined 
        with virtual prototyping, also seeks to provide an effective 
        means to take time out of the Operational Test and Evaluation 
        process.
        <bullet> Rotorcraft Technology: As the DOD lead for Rotorcraft 
        Science and Technology, the Army is investing in the critical 
        technologies to increase performance and reduce logistics 
        demands for both manned and unmanned rotorcraft. Most 
        significant is the new thrust to develop an Unmanned Combat 
        Armed Rotorcraft capability.
        <bullet> Micro Electro-Mechanical System Inertial Measurement 
        Unit (MEMS IMU): The Army has recently solicited 50 percent-
        cost share proposals to develop a low-cost, gun hardened and 
        high accuracy MEMS IMU for gun-launched guided munitions, 
        tactical missile and other military applications. The focus is 
        to produce a MEMS IMU that will be bought by the DOD in bulk, 
        thereby giving the economy of scale necessary to yield an 
        inexpensive unit price. The goal is a military tactical-grade 
        IMU that meets 90 percent of DOD munition and missile needs at 
        a low-performance unit price, available from two, or more, 
        commercial contractors.
        <bullet> High Energy Lasers: As we move to a more all-electric 
        force this ``electric'' laser approach will be a key enabler to 
        achieve unprecedented combat overmatch on the battlefield. The 
        Army S&T program continues to investigate high energy solid 
        state laser technology options for potential application on the 
        tactical battlefield. In this effort, we are seeking to 
        identify the most promising solutions to ensure speed of light 
        engagement and laser weapon lethality throughout the spectrum 
        of battlefield environments of weather, dust, and obscurants.
        <bullet> Basic Research: As the Army's mission challenges have 
        increased, it has become even more important to maintain world-
        class quality in the basic research program. Investment in 
        knowledge and understanding of fundamental phenomena to enable 
        future technological development includes: support for academic 
        research through the Single Investigator Program (e.g. 
        microturbines, materials science, solid-state physics); 
        investment in paradigm shifting centers (University Affiliated 
        Research Centers (UARCs) such as ICT); support of industry-led 
        centers through the Collaborative Technology Alliances 
        (Communications & Networks, Advanced Decision Architectures, 
        Power and Energy). A specific new thrust was added in 2002 with 
        the selection of the Massachusetts Institute of Technology 
        (MIT) to serve as the Army-sponsored University-Affiliated 
        Research Center (UARC) for the Institute for Soldier 
        Nanotechnologies (ISN). The ISN will provide the Army with a 
        corps of expertise in the development and application of 
        nanotechnology for the soldier; including the creation of 
        uniforms and materials that could help heal soldiers, protect 
        against bullets, chemical agents or monitor a soldier's life 
        support processes. Soldiers are at the center of Army 
        Transformation. New technologies and developments by ISN in 
        nanotechnology will bring significant progress in the Army's 
        transformation of soldier equipment. The 2003 budget request 
        includes funding for the creation of the Army Institute of 
        Biotechnology Center, to identify, conduct research and 
        transition militarily relevant biotechnology.
                             s&t workforce
    We cannot achieve our goals without the top caliber scientists and 
engineers (S&Es) who develop these technologies for our soldiers. 
Recruiting and training S&Es remains a challenge. We are working to 
identify innovative approaches to recruiting, retaining and refreshing 
the Army S&E workforce. I will be sharing these insights across the 
department. I want to assure this committee that I am committed to 
ensuring the quality of our S&E workforce. Our soldiers depend on them.
    The Army is responding to previous authorities such as Section 
1113. There has been significant interest from our laboratories in the 
positions available under this legislation. We have provided criteria 
to the Army labs in concert with the needs of the Army transformation 
in those technical areas of highest interest. The Army labs have 
responded with candidate positions. We expect that the hiring of these 
personnel will begin in May.
                         technology transition
    Successful transition of Army Science and Technology is central to 
enabling the Army vision. The Army S&T community has been challenged to 
develop a revolutionary warfighting capability within an accelerated 
timeframe. To accelerate technology transition, the Army adopted new 
and aggressive management practices and methodologies to manage risk. 
The Army has adopted Technology Readiness Levels (TRLs) as the method 
to measure the maturity of the technologies being developed. TRLs were 
identified in the recommendations put forward in the 1999 General 
Accounting Office Report\1\ citing best practices for the management of 
technology development. The GAO stated that critical technologies and/
or subsystems should be at a high level of maturity prior to making the 
commitment for development and production of a weapons system. The Army 
has adopted this approach and is using TRLs to track and communicate 
technology maturity levels to the acquisition community. We can take 
time out of the transition process by maturing technology in the S&T 
phase to TRL 7--system prototype demonstration in an operational 
environment. By doing this, we spend more in S&T, but save time and 
money in Systems Development and Demonstration (SDD), then proceed 
faster to production.
---------------------------------------------------------------------------
    \1\ ``Best Practices: Better Management of Technology Development 
Can Improve Weapon Systems Outcomes,'' GAO/NSIAD-99-162, July 1999.
---------------------------------------------------------------------------
    Risk management is another tool designed to improve the transition 
of advanced technologies to the warfighter by providing the gaining 
acquisition Program Manager with a risk assessment and risk mitigation 
plan for S&T programs. While Technology Readiness Levels assess the 
estimated maturity of a technology, the risk management process focuses 
on identifying, tracking and managing potential cost, schedule and 
performance risks. In fiscal year 2001, the Army Science & Technology 
(S&T) community implemented a pilot program to perform risk management 
on selected S&T efforts. Lessons learned from this pilot program will 
be used to tailor the risk management process that will be applied to 
all Science and Technology Objectives efforts preparing to transition 
to acquisition.
     promoting transition from non-traditional defense contractors
    The Army is continuing in its efforts to promote technology 
transition from non-traditional defense contractors. Legislation in 
fiscal year 2002 directed the Army to establish a venture capital fund 
similar to that established within the Central Intelligence Agency 
(CIA) to identify, develop, and field new technologies as rapidly as 
needed to support the transformation. The Army has engaged the RAND 
Corporation to assist the effort in establishing such a fund in concert 
with the guidance from Congress. We expect that the Army will be ready 
in short order to announce its approach to the congressional directive.
                     technology to combat terrorism
    Defense Emergency Relief Funds will support S&T developments to 
combat terrorism in the area of Deterrence, Indications and Warning 
(DIW), and retaliation and recovery. Included are the development of 
improved sensors, sensor suites and resultant operational modalities in 
the following areas:

        <bullet> Remote/Perimeter Sensing--Increase the capability of 
        distributed remote sensor systems by the addition of extremely 
        compact day/night thermal imaging capability and improved long 
        range command, control and reporting capability. Camouflaged, 
        remotely emplaced imaging sensors capable of radio frequency 
        (RF) transmitting day/night ``snapshots.''
        <bullet> Urban/Cave Assault Kits--Develop and fabricate 
        individual soldier systems to allow soldier maneuverability and 
        weapon aiming in constrained areas in true dark. Based on micro 
        thermal imaging cameras mounted on soldier helmets and weapons 
        with imagery presented on a helmet-mounted display.
        <bullet> Blue Force Awareness--Develop and evaluate techniques 
        to improve soldier navigation and location capabilities in 
        complex urban and field environments. Included are dead 
        reckoning navigation and blue force situation monitoring in the 
        absence of viable Global Positioning System signals, ultra-wide 
        band tags for intra-unit soldier awareness and real-time blue 
        force identification of moving vehicles through modification of 
        existing radars for tactical unmanned aerial vehicles (TUAVs).
        <bullet> Counter Terrorist Echelon Surveillance--Extend the 
        range of surveillance and identification of potential terrorist 
        activity at the individual soldier, light vehicle and airborne 
        platform (TUAV) echelons. Incorporate short wave infrared 
        imaging techniques to extend identification ranges out to 
        current detection ranges, automated gimbal scan electro-optical 
        imaging from ground vehicles fused with moving target indicator 
        (MTI) radar for faster cueing of suspect activity and 
        lightweight/high performance day/night thermal imaging from a 
        TUAV platform for wide area/change detection assessments 
        including recently deployed land mines.
                               conclusion
    The Army must have a diverse S&T portfolio that is responsive to 
current and future warfighter needs. The S&T community seeks 
technological solutions that can be demonstrated in the near term, 
explores the feasibility of new concepts for the midterm, and explores 
the imaginable for an uncertain far-term future. Since the Army vision 
was announced in October 1999, the Army S&T effort has been reshaped, 
refocused and reinforced to speed the development of those critical 
technologies essential to transform the Army into the objective force. 
The Army S&T community has accepted the technical challenges embraced 
in the Army Vision. We have committed our energies and our vital 
resources to accelerate the pace of Army Transformation!
                                 ______
                                 
   Prepared Statement by Rear Adm. Jay M. Cohen, USN, Chief of Naval 
                   Research, Office of Naval Research
    Madam Chairman, distinguished members of the subcommittee, thank 
you for this opportunity to discuss the use of Naval Science and 
Technology for combating terrorism and weapons of mass destruction. You 
and the other members of the Senate Armed Services Subcommittee on 
Emerging Threats and Capabilities have been leaders in calling 
attention, both nationally and in the Department of Defense, to the 
changing nature of national security challenges facing our great 
nation.
    I would like to discuss the Navy's science and technology efforts, 
especially programs developing new technologies to combat terrorism and 
weapons of mass destruction, as well as our fiscal year 2003 budget, 
our technology transition initiatives, and our plans to revitalize our 
labs and retain our top notch personnel.
    You have challenged us, and we have challenged ourselves, to 
transform the Navy's ability to be even more responsive and more 
capable of meeting any current and future crisis. In the war against 
terrorism, S&T is the enabler which links innovative research to 
warfighter and homeland defense requirements. From discovery to 
deployment, innovation and experimentation facilitate the transition of 
successful concepts from lab to Fleet/Force.
Science & Technology in the War Against Terrorism
    The campaign in Afghanistan has already seen the use of new weapons 
rapidly developed in the laboratory. For example, the PBXIH-135 
thermobaric explosive developed at Naval Surface Warfare Center Indian 
Head (an explosive that produces extremely high temperatures and blast 
overpressures) was used to fill Air Force BLU-109 2000-pound bombs. The 
Defense Threat Reduction Agency tested the new weapon at Department of 
Energy ranges in Nevada, and it was ready in time to be used with 
devastating effect against al Qaeda caves in Afghanistan. This is just 
one example of how science and technology (S&T) organizations can 
swiftly collaborate to provide concrete deliverables in a wartime 
emergency. In addition, it shows how Naval science and technology 
interact effectively with other services, defense agencies, and federal 
departments.
    The thermobaric weapon story is instructive in other ways. The labs 
delivered it in less than 3 months. The call for new warfighting 
capabilities was issued on September 19, 2001, and the weapon was sent 
to the Afghan theater in mid-December. Such speed was possible because 
the science was done before the need became urgent. This basic fact 
about how science transitions to operational capabilities explains why 
a relevant, balanced Navy and Marine Corps program plans to deliver 
across three phases: (1) Today's Navy and Marine Corps (dominated by 
emergent needs of the warfighter), (2) the Next Navy and Marine Corps 
(defined by requirements), and (3) the Navy and Marine Corps After Next 
(shaped by technological possibilities discovered through research in 
areas of Naval relevance).
    Another example of the benefit of Naval basic research is Nuclear 
Quadrupole Resonance (NQR) Technology. NQR technology ``sniffs out'' 
explosives. The Naval Research Lab developed nuclear quadrupole 
resonance, a technology that has now been adapted to the detection of 
landmines, unexploded ordnance, and terrorist bombs. Because this 
technology gives us the means of detecting explosives directly (and not 
simply detecting metallic objects, as is the case in conventional 
detection systems) we are now able to see through clutter that 
presently obscures many mines and bombs from older sensors. The ability 
to detect widely-used plastic explosives (RDX) was demonstrated in 
Bosnia; and the Naval Research Lab has more recently demonstrated the 
ability to detect TNT.
    Another example highlighting the value of our long-term sustained 
research investment involves an Office of Naval Research (ONR)-
sponsored scientist at the University of Wisconsin who was working on 
high-frequency (terahertz) radar phenomena in the Naval basic research 
program. The morning anthrax was detected in the mails, it occurred to 
his ONR program manager that this technology had potential utility for 
rapid detection of biological agents. At the program manager's 
suggestion, the scientist quickly determined that in fact his high-
frequency radar could identify anthrax inside a sealed envelope in 
real-time. This technology gives a go/no-go readout and can be 
developed into a system for use by personnel with minimal training. The 
DOD Counter-Terrorism Task Force has selected this system for 
accelerated wartime development; we expect to deploy it by fall 2002.
    Naval funded research also identified a polymer produced by marine 
algae that, when used to dress wounds, can actually stop gushing 
arterial bleeding. Since the polymer does not contain any of the 
proteins normally associated with clot formation, it doesn't pose the 
disease-transmission or immune response risk of other hemostatic 
technologies. This lifesaving technology is the grail of combat trauma 
medicine, and provides an excellent example of a basic research result 
transitioning directly to the operational forces. The hemostatic 
dressing has passed initial FDA trials and is being accelerated into 
the military inventory under the DOD Counter-Terrorism Task Force.
    In the aftermath of September 11, when the DOD Counter-Terrorism 
Task Force solicited all military services and defense agencies for 
warfighter/homeland defense enhancements deliverable in 30 day/1 year/
1-5 year timeframes, one-third of the funded programs (validated by the 
Joint Staff) in each timeframe were Naval! This is a high return on 
Navy sustained S&T investment.
Naval Science & Technology Investment Strategy
    There is zero certainty that every research investment will pay the 
dividends we desire. What is certain: if we do not invest in promising 
research today, we guarantee that options and opportunities will be 
severely curtailed in future years.
    So how do we choose the research in which to invest? We are guided 
by: (1) National Naval Responsibilities (fields in which Navy S&T is 
the only significant U.S. sponsor, such as Naval Engineering, Ocean 
Acoustics, and Underwater Weaponry); (2) S&T Grand Challenges (we 
encourage the Nation's scientific community to achieve breakthroughs in 
difficult but achievable technical challenges involving issues such as: 
Naval Battlespace Awareness, Electric Power Sources, Naval Materials by 
Design, and Multifunctional Electronics for Intelligent Naval Sensors); 
and (3) Future Naval Capabilities (FNCs) (which complement our 
commitment to achieve mid-term/long-term breakthroughs, by squarely 
facing the immediate challenge of meeting today's warfighter 
requirements).
    With the focus of this hearing on some of our more immediate 
requirements, I want to particularly emphasize S&T contributions to 
enabling Navy transformation through achieving goals outlined in the 
Future Naval Capabilities (FNCs). The key to achieving FNC goals is the 
strong business partnership between S&T, Industry, Requirements, 
Acquisition, and Fleet/Force stakeholders.
    The FNC process delivers maturing technology to acquisition program 
managers for timely incorporation into platforms, weapons, sensors, and 
process improvements. With a total investment of $577.6 million in 
fiscal year 2002 and over $600 million planned for fiscal year 2003, 
FNCs support the Secretary of the Navy's goals to: (1) increase combat 
capability; (2) enhance personnel performance; (3) introduce advanced 
technology; and (4) improve business practices.
    ONR devotes approximately two-thirds of its 6.3 (advanced 
technology development) funds and about two-fifths of its 6.2 (applied 
research) funds to FNCs. As I have reported to you previously, the 
twelve currently approved FNCs (in no priority order) are:

        <bullet> Autonomous Operations--focused on dramatically 
        increasing performance and affordability of Naval air, sea, 
        land, and underwater unmanned vehicles;
        <bullet> Capable Manpower--focused on affordable human-centered 
        hardware and systems matching human capabilities, limitations 
        and needs, for use by individual sailors and marines in an 
        information rich battlespace;
        <bullet> Electric Warships and Combat Vehicles--focused on 
        revolutionary power plants that will permit new hullforms and 
        propulsors, reduce manning, streamline logistics, and enable 
        future high energy/speed of light weapons and sensors;
        <bullet> Knowledge Superiority and Assurance--focused on 
        developing capability to distribute integrated information in a 
        dynamic network with high connectivity and interoperability to 
        ensure Naval forces have knowledge superiority, common 
        situational understanding, and increased speed of command;
        <bullet> Littoral Antisubmarine Warfare--focused on enhancing 
        our capability to detect, track, classify, and engage enemy 
        submarines in a near-the-shore environment before they are 
        close enough to harm our Fleet/Force;
        <bullet> Littoral Combat and Power Projection --focused on 
        development of uniquely capable combat and logistics systems 
        necessary to deploy and sustain the Fleet/Force without 
        building up a large logistical infrastructure ashore;
        <bullet> Missile Defense--focused on developing capability to 
        detect, track, and engage ballistic, theater and cruise 
        missiles, as well as enemy aircraft, through a single 
        integrated air picture, composite combat identification, 
        distributed weapon measures, stealth and damage control;
        <bullet> Time Critical Strike--focused on achieving a 
        substantial reductions in the amount of time required to engage 
        critical mobile targets, theater ballistic missiles, weapons of 
        mass destruction, C\4\I centers and armored vehicles;
        <bullet> Total Ownership Cost Reduction--focused on ways to use 
        advanced design and manufacturing processes to significantly 
        decrease costs associated with acquisition, operations, 
        maintenance, manning, ensure environmental compliance, and give 
        Naval forces reliable cost estimating tools; and
        <bullet> Warfighter Protection--focused on protecting 
        Warfighters in the emerging Expeditionary Maneuver Warfare 
        battlespace through combat casualty prevention, care, and 
        management.
Technology Transition Initiatives
    We are pursuing several initiatives to improve the transition from 
discovery to deployment within the Navy by strengthening the 
partnership between the Office of Naval Research (ONR) and the schools, 
universities, government laboratories and industry, as well as 
nonprofit and for-profit organizations. Despite the world-class S&T 
research conducted by the Naval Research Laboratory (NRL) and all of 
our other laboratories and warfare centers, we intend to avoid the 
``Not Invented Here'' syndrome. We are not the font of all knowledge 
and intend to take full advantage of the creative genius present in the 
schools and private sector to meet Navy and Marine Corps requirements.
    The Commercial Technology Transition Officer (CTTO) is my senior 
Naval advocate for moving promising technology out of commercial 
research and into systems procured for the Navy/Marine Corps. For the 
last 2 years, we have sponsored an annual Naval-Industry Research and 
Development Partnership Conference, where we attempt to address 
regulatory, funding, and technology transition issues.
    In addition, we have established a ``Swamp Works'' office, similar 
in concept to the Lockheed-Martin Skunk Works office, but dedicated to 
addressing critical blue/green Navy/Marine Corps problems with out-of-
the-box solutions. Swamp Works has already begun to show its value, for 
example, in the initial deployment of its Sea Airborne Lead Line (Sea 
ALL) unmanned aerial vehicle (UAV) to the Fifth Fleet. The Navy's Sea 
ALL UAV is derived from the Dragon Eye UAV, which was developed by ONR 
for the Marine Corps. Dragon Eye is a small, camera-equipped, backpack-
size UAV designed to provide Marines with a portable airborne 
reconnaissance capability. Sea ALL will similarly provide Navy ships 
with reconnaissance capability while in port, as well as the potential 
capability to employ remote sampling to detect chemical, biological and 
explosive threats.
    Swamp Works is also looking at blast mitigation. This program is 
applying new materials and unique structural configurations to prevent 
a blast from breaching a ship's hull--as happened to U.S.S. Cole. Two 
concepts with advanced materials will be tested soon, and subsequent 
system design will offer near-, mid- and far-term applications. The 
near-term work will deliver a portable armor enhancement. The mid-term 
focus will be on permanent enhancements that can be back-fitted to 
existing ships. The far-term applications will be permanent 
enhancements to the next generation of ships.
    We have also supported the Naval Fleet/Force Technology Innovation 
Office (NFFTIO) to strengthen communications between the Fleet/Force 
and the Naval S&T community by assigning Naval Research Science 
Advisors to serve with Fleet/Force commands. We also established the 
Naval Research Science and Technology Action Team (NR-STAT) to provide 
technology solutions (from all sources: government, military, industry, 
academic, etc.) to problems identified by warfighters. Initially 
exercised in July 2001, since September 11, NR-STAT has been a 
principal conduit for technology proposals/solutions in the war against 
terrorism.
S&T Labs and Personnel
    Finally, let me describe some of our ongoing efforts to improve the 
quality of defense labs and test centers, and improve the quality of 
technical talent that can be attracted to these important facilities. 
Congress has supported several legislative provisions have helped the 
Service laboratories, especially Section 342 of the NDAA for fiscal 
year 1995 and Section 1109 of the NDAA for fiscal year 2000. Section 
1109 eliminated controls on high-grade scientific and engineering 
positions, a move that has helped with retention of high-quality 
personnel scientific and technical personnel.
    Section 245 of the NDAA for fiscal year 2000 has been used to allow 
participating Service laboratories and centers to implement, on a trial 
basis, a one-time clearing of the Priority Placement Program (PPP) 
registrants for professional science and engineering positions as soon 
as the recruitment action reaches the Human Resources Service Center. 
Preliminary indications are that this may be useful in reducing some of 
the time and effort needed to recruit new personnel. Implementation of 
Section 1113 of the NDAA for fiscal year 2001 is in process.
    There are systemic problems facing the Service laboratories. In 
light of this and the urgent need to address them, it appears that 
incremental approaches and piecemeal legislative efforts may no longer 
be sufficient and timely.
    Since the end of World War II, Service laboratories, along with 
private sector counterparts, have played a crucial role in providing 
our military the technological superiority needed to counter potential 
adversaries. This role is even more critical in the post-9/11 world, 
where a wide range of new technologies are needed to fight terrorism, 
protect the homeland, and enable defense transformation efforts. 
Therefore, it may now be time to consider establishing a new governance 
model within the Federal Government specifically tailored to the needs 
of a military research laboratory. Such a system could be designed to 
eliminate the need for piecemeal fixes, while retaining Federal status 
and competence in science and technology as it relates to National 
Defense.
    Currently, a joint Naval Research Advisory Committee (NRAC) study, 
with panel representation from the Army Science Board and the Air Force 
Scientific Advisory Board, and sponsored by the Director Defense 
Research and Engineering, is examining the difficulty of the Service 
laboratories in recruiting and retaining top-quality scientists and 
engineers, as well as other issues related to their ability to remain 
world-class research institutions. The panel is currently examining 
recommendations from past studies of the laboratories, recent 
legislative reforms, including those mentioned above, and input from 
other experts, to develop a set of recommendations for improving the 
ability of these laboratories to attract and retain the best and 
brightest technical talent. The panel has just completed its visits to 
labs and is currently developing its findings and recommendations. It 
plans to submit a preliminary summary of its conclusions to the 
Services and OSD in May 2002. A formal report will probably not be 
completed until late summer 2002.
    In conclusion, the pay off on S&T investment is clear. Naval 
transformation depends on a long-term, stable, and sustained investment 
in S&T/R&D, validated through on-going experimentation and transition 
to the Fleet/Force in a never-ending cycle.
    Again, let me tell you how greatly I appreciate your inviting me to 
provide written testimony in your review of science technology to 
counter terrorism and weapons of mass destruction.
                                 ______
                                 
 Prepared Statement by Hon. James B. Engle, Deputy Assistant Secretary 
       of the Air Force for Science, Technology, and Engineering
                              introduction
    Mr. Chairman, members of the subcommittee, and staff, I very much 
appreciate the opportunity to provide written testimony on the Fiscal 
Year 2003 Air Force Science and Technology (S&T) Program. The United 
States Air Force is committed to a robust S&T Program that enables us 
to achieve our vision of continuing our transformation to an integrated 
air and space force capable of rapid and decisive global engagement. By 
continuing our investment in transformational technologies that support 
a reduced cycle-time, spiral development acquisition process, the Air 
Force will retain its dominance of air and space in future conflicts 
against both traditional and asymmetrical threats.
    Innovation is a vital part of our heritage and is key to ensuring 
the Air Force will meet the challenges of tomorrow. Transforming our 
warfighting capabilities towards this end will involve continued 
innovations in how we think about employing our forces to defend our 
nation, as well as quantum leaps in our technology. We must be prepared 
to counter the worldwide availability of advanced weapons, regional 
instabilities, and other emerging and less predictable asymmetrical 
threats. We are developing transformational technologies that permit 
flexible forces capable of operating far from home, on short notice, 
for extended time periods. We must also be able to afford these 
innovations once we develop them in order to re-capitalize the Air 
Force to fulfill our vision. To meet these objectives, we search out 
the most promising and affordable technologies in order to win 
decisively, protect our forces, and minimize collateral damage.
                               s&t budget
    We have been faced with the reality of a fiscally constrained, but 
operationally-demanding budget environment. The high operations tempo 
the Air Force has sustained in support of peacekeeping operations and 
conflicts, such as Afghanistan, has placed a great burden on our people 
and resources and has strained our ability to maintain a balanced 
investment between current readiness, short-term objectives, and the 
long-term challenges that are enabled by our S&T Program.
    In spite of these tight budgets, the Air Force is working hard to 
increase S&T funding, while maintaining a balanced S&T portfolio. The 
Air Force fiscal year 2003 President's Budget (PB) request was $1,659 
million, an increase of approximately $280 million over the fiscal year 
2002 PB. In conjunction with the PB increase, there has been a 
significant increase in the involvement of the warfighting commands and 
senior Air Force leadership in S&T planning, programming, and 
budgeting. For example, we have established semi-annual S&T Summits 
where the Secretary of the Air Force, the Air Force Chief of Staff, and 
the Air Force four-stars and other senior leaders review the S&T 
portfolio. The latest S&T Summit focused on transformational 
technologies that can be developed to assist in combating terrorism and 
homeland defense.
    The Air Force has increased its space technology investment by 
initiating an advanced development program, Transformational Wideband 
MILSATCOM, to develop and demonstrate laser communications 
technologies. Laser communications could provide higher data 
throughput, and higher frequencies that could transform our military 
satellite communications infrastructure. Laser communications 
technology promises to increase the data transfer rates at least 
tenfold compared to current radio frequency communications systems. 
Additionally, laser communications uses a narrow beam, which decreases 
the likelihood of intercept and increases resistance to jamming. While 
laser communications has a high potential to revolutionize satellite 
communications, there are technical challenges to overcome such as 
precision pointing and tracking, weather constraints, and adapting the 
equipment for use in space. While we continue to work on the 
challenges, we are conducting a study to determine the best 
architecture for implementing laser communications technologies to 
complement radio frequency-based systems. Transformational Wideband 
MILSATCOM is the only project in Program Element 0603436F, and will be 
executed at the Air Force Space and Missile Systems Center because of 
the desire to rapidly transition this technology into operational use, 
and the significant amount of manpower required to manage the effort.
                          s&t planning process
    I am pleased to report that the S&T Planning Review we undertook 
and completed in response to Section 252 of the National Defense 
Authorization Act for fiscal year 2001, Public Law 106-398, was an 
overwhelming success. We approached this review enthusiastically and 
received the wholehearted support and participation of not only the Air 
Force S&T community, but also the requirements, planning, logistics, 
and user communities. Approximately 300 people were involved in this 
review: 160 from the S&T community; 90 from the requirements, plans, 
and logistics communities; and 50 from the user community. As required, 
the Air Force identified short-term objectives and long-term 
challenges. The short-term objectives identified include: Target 
Location, Identification, and Tracking; Command, Control, 
Communications, Computers, and Intelligence; Precision Attack; Space 
Control; Access to Space; Aircraft Survivability and Countermeasures; 
Sustaining Aging Systems; and Air Expeditionary Force Support. The 
long-term challenges identified include: Finding and Tracking; Command 
and Control; Controlled Effects; Sanctuary; Rapid Aerospace Response; 
and Effective Aerospace Persistence. In addition, we defined technology 
development roadmaps for each of these objectives and challenges.
    Upon completion of the review, the Comptroller General of the 
General Accounting Office (GAO) assessed the review's compliance with 
the law. The recently released GAO report not only found the Air Force 
in compliance with the requirements of the legislation, but was also 
very favorable of Air Force efforts. The results of the S&T Planning 
Review are now providing both a short-term and long-term focus to the 
S&T Program. They are being incorporated into the Air Force S&T Plan, 
the Air Force Strategic Plan, and are laying the foundation for future 
Air Force S&T budget planning.
    Subsequently, Section 253 of the National Defense Authorization Act 
for fiscal year 2002, Public Law 107-107, has directed the Air Force, 
in cooperation with the National Research Council of the National 
Academy of Sciences, to carry out a study to determine the effect of 
S&T program changes of the past 2 years. We expect to submit the 
results of this study to Congress not later than the May 1, 2003, 
deadline.
                       maximizing our s&t dollars
    The Air Force continues to leverage technology to transform combat 
effectiveness. Our strategy is to pursue integrated technology 
solutions that support our warfighter's highest priority needs. We must 
also pursue the fundamental enabling technologies that will transform 
tomorrow's Air Force. As technological superiority is a perishable 
commodity, we work hard to maximize the payoff of our S&T funding, by 
not only developing transformational technologies, but also by speeding 
the introduction of these new technologies into new capabilities for 
our warfighters using spiral development and reduced acquisition cycle 
times.
    Aiding in the transition of technology to the warfighter is the Air 
Force's newly established Acquisition Center of Excellence, which will 
develop new acquisition processes and concepts for accelerating 
development programs into operational use. This new initiative could 
more highly focus the S&T Program on technologies that have a clear and 
well-defined technology transition path into developmental and fielded 
systems. The spiral development concept will be an important foundation 
of this new Air Force acquisition initiative. In addition to the Air 
Force's Acquisition Center of Excellence, another avenue that could 
provide for transition of maturing S&T technologies is the 
congressionally-directed Challenge Program. This program as described 
in Section 244, ``Program to Accelerate the Introduction of Innovative 
Technology in Defense Acquisition Programs,'' of H.R. 2586, directs the 
Office of the Secretary of Defense to increase the introduction of 
innovative and cost-saving technology in acquisition programs.
    Since deployed technology may remain in use for decades, the Air 
Force S&T Program not only focuses on enhancing performance, but also 
on increasing our emphasis on the reliability, maintainability, and 
affordability of weapon systems. Emphasizing affordability from the 
very beginning through training of our management and engineering 
staff, as well as through careful review of technology transition pilot 
projects, increases our potential to reduce the costs of technology 
early in the process and throughout a product's life cycle.
    We are very selective about investing in high payoff technological 
opportunities. We constantly seek opportunities to integrate Air Force 
planning and leverage our S&T funds by cooperating with other Services, 
Agencies, the private sector, and international partners. For example, 
we rely on the Army as the lead Service for defensive chemical-
biological technology development. The Air Force also has strong inter-
Agency efforts, such as our program in aging aircraft, which is focused 
on detection and management of corrosion and fatigue in aging 
structures. It is closely coordinated with the civilian aging aircraft 
research programs at the National Aeronautics and Space Administration 
(NASA) and the Federal Aviation Administration (FAA). Finally, the Air 
Force is involved in international technology cooperative efforts for 
S&T, such as the software defined radio development, insensitive high 
explosives, and aircraft battle damage repair efforts conducted with 
France, Germany, and the United Kingdom. Another example of 
international cooperation is the bi-lateral work we are doing with 
Australia on testing small ordnance release and separation on aircraft 
with internal weapon bays at subsonic and supersonic speeds.
                          combating terrorism
    Since the September 11 attack on the United States, the Air Force 
has responded to civil and military requests for assistance providing 
both technology and scientists and engineers. For example, continental 
United States air defense systems are positioned along our borders to 
cover the air space from the shoreline to 250 miles outward. However, 
September 11 brought with it a sudden military need to cover the 
airspace over the United States as well. We sent scientists and 
engineers, equipment, and radar fusion software to the Northeast Air 
Defense Sector operations center, and integrated military and FAA radar 
data for real-time situational awareness of all air traffic in the 
Northeast United States.
    In partnership with the MITRE Corporation, we mounted sensors on a 
New York Police Department helicopter and on a Drug Enforcement Agency 
aircraft. The helicopter and aircraft over flew ``ground zero,'' using 
the video mosaic tool kit the Air Force developed to process Predator 
data, to produce a current aerial map of New York City. The police and 
fire departments used this map in their search and rescue efforts.
    The Air Force Joint Defensive Planner program, an automated tool 
recently developed to allow joint collaborative planning of theater air 
defense, was modified for use by the North American Air Defense 
Command. Air Force scientists and engineers modified the Joint 
Defensive Planner databases to include a high-resolution topographical 
map of the United States, plus the location and capabilities of all 
military and FAA radars in the continental United States. This modified 
planner was installed in the 1st Air Force CONUS Regional Operations 
Center at Tyndall Air Force Base, Florida, and gave us the first ever, 
complete picture of radar coverage of the continental United States.
    Another technology that has been deployed to support Operation 
Enduring Freedom is the Interactive Data Wall. Think of it as a very 
large computer screen. The data wall starts at waist level, goes up 3 
feet, and is 12 feet wide. It has very high resolution, with over 4 
million pixels in the display, and can overlay multiple sets of 
information and show several different displays simultaneously. 
Anything that can be displayed on a computer or television can be 
displayed on the data wall. You control the displays through voice 
recognition software and laser pens. The Air Force has been 
experimenting with data walls in joint exercises over the past 2 years 
and has met with much success in learning how best to use them. In 
December, the Commander of the Army 10th Mountain Division requested a 
data wall for immediate deployment in support of Operation Enduring 
Freedom with a second data wall to follow 90 days later. We delivered 
the first data wall the next day and the second one in less than 90 
days.
    The Air Force technology has also been directly supporting 
warfighters involved in Operation Enduring Freedom by providing fatigue 
countermeasures to B-2 bomber crews at Whiteman Air Force Base, 
Missouri, who are flying 44-hour missions to Afghanistan. The 
Warfighter Fatigue Countermeasures technology program is focused on 
optimizing warfighter survivability and combat capability during 
sustained and continuous (24/7) operations. Our primary S&T objective 
is to identify, develop, and transition tools and procedures that 
prevent and delay cognitive performance deterioration caused by acute 
and cumulative fatigue resulting from extended duty periods, disrupted 
or irregular rest periods, and circadian dysrhythmia typical of 
military operations today. Warfighter Fatigue Countermeasures research 
products primarily impact the warfighter through improved procedures, 
guidelines, and policy changes. These ``knowledge products'' derive 
from a thorough scientific assessment of the human system and the 
particular environment within which the human system must operate and 
are most frequently delivered through operational consultations. We 
also have software products in development that provide quick access to 
our expert knowledge on fatigue and cognitive performance.
                     transformational technologies
    There are many other Air Force technology areas that deserve 
special mention. Let me highlight just a few additional examples. The 
Unmanned Combat Air Vehicle (UCAV), designated the X-45A, is an area 
that is generating increased excitement and could enhance warfighting 
capabilities. The Air Force/Defense Advanced Research Projects Agency 
(DARPA) X-45A joint advanced technology demonstration program has 
entered its fifth year. Flight vehicle checkout, ground testing, and 
high-speed taxi tests of the first demonstrator are underway, with 
projected first flight in the spring of 2002. Test results to date have 
been very good, and we fully expect continued success. We plan to 
complete Phase II of the X-45A program by the fall of 2003 and the Air 
Force is planning for a follow-on acquisition program.
    To increase aircraft survivability and operational efficiencies, 
the Air Force is developing both manned (F-22 and Joint Strike Fighter) 
and unmanned (UCAV) flight vehicles that can carry and employ weapons 
from both external and internal weapons bays. To increase the number of 
weapons the flight vehicle can fit into their internal weapons bays, 
part of our investment strategy focuses S&T funding on developing and 
demonstrating smaller precision weapons.
    One of the small munitions currently being flight demonstrated is 
the Low Cost Autonomous Attack System (LOCAAS). The LOCAAS is a 100-
pound class powered munition whose primary target set is moving and 
relocatable targets. It will demonstrate the effectiveness and military 
utility of this type of munition for the Lethal Suppression of Enemy 
Air Defenses, Theater Missile Defense Attack Operations, and Armor/
Interdiction mission areas. LOCAAS will integrate a radar precision 
terminal seeker with autonomous target recognition algorithms, a multi-
modal warhead, Global Positioning System/Inertial Navigation System 
midcourse guidance, and a miniature turbine engine with a fly-out range 
of 100 miles. This advanced technology demonstration program has five 
flight tests scheduled in fiscal year 2002 and fiscal year 2003, 
culminating in an autonomous flight with active seeker and warhead 
against a real target in fiscal year 2003. The first flight test was 
recently held and demonstrated the LOCAAS ability to fly a programmed 
flight path and perform high bank turns, while maintaining aerodynamic 
stability.
    To continue the trend of miniaturization of space platforms, DARPA 
and the Air Force have provided funding to 10 universities to explore 
the military utility of innovative, low-cost nanosatellites. These 
nanosatellites, weighing 2 to 10 kilograms, will demonstrate such 
experiments as formation flying, differential Global Positioning System 
navigation, miniaturized sensors, and micropropulsion technologies.
    The Air Force is also conducting the Experimental Satellite System 
series to demonstrate increasing levels of microsatellite technology 
maturity. The XSS-10, the first microsatellite in the series, is 
scheduled to launch in fiscal year 2002. It will demonstrate semi-
autonomous operations and visual inspection in close proximity of an 
object in space--in this case a Delta II upper stage. In fiscal year 
2004, we will launch XSS-11, which will demonstrate autonomous 
operations and provide experience with command and control in proximity 
operations to another space object.
    Hypersonics is another transformational technology of high interest 
to Air Force S&T. Our HyTech program achieved major successes in fiscal 
year 2001 with the first ever ground test demonstration of a scramjet 
producing positive net thrust over the Mach 4.5 to Mach 6.5 flight 
range. The engine was developed by Pratt & Whitney, in collaboration 
with Air Force scientists and engineers, and was recently recognized by 
Aviation Week and Space Technology magazine as a 2001 Laureate in 
Aeronautics/Propulsion.
    One of the most transformational and quickly deployable 
technologies available today is command, control, and communications 
technology, also known as information technology. This technology is at 
the heart of our Moving Target Indicator Exploitation program, which is 
developing web-enabled automated tools to exploit data from current and 
future sensor systems such as the Joint Surface Target Attack Radar 
System. The effort is focused on four technology areas: ground moving 
target tracking; motion pattern analysis; behavioral pattern analysis; 
and sensor resource allocation and scheduling.
                               workforce
    The Air Force civilian and military S&T workforce is highly 
motivated and productive. The Air Force is unique in that 20 percent of 
its laboratory scientist and engineer (S&E) government workforce is 
active duty military. This gives us a direct link to the warfighter. 
Some of these military S&Es come directly from operational commands, 
while others will serve in operational commands later in their careers.
    The Air Force is committed to shaping its S&E workforce with the 
vision to enhance excellence and relevance of S&T into the 21st century 
and appreciates the support Congress has provided. This challenge 
requires the Air Force to maintain a dominant edge in technology and 
also requires us to provide clear direction and growth for our S&E 
workforce. However, we as do others, find it is difficult to recruit 
and retain S&Es. The Air Force has several initiatives that address 
recruitment and retention issues.
    The Air Force published a ``Concept of Operations for Scientists 
and Engineers in the United States Air Force'' and baselined the 
requirement for the Air Force S&E workforce. Upon analyzing the 
baseline requirement, we found our military and civilian authorizations 
to be about right, but our actual demographics are seriously short in 
some key areas. We are, therefore, shifting our focus to retaining the 
workforce we have and infusing it with the vitality of new S&Es to meet 
tomorrow's need. During the next 7 years, we are investing nearly a 
third of a billion dollars to support the containment and growth of our 
technological workforce. We are encouraging this growth through 
critical skills accession bonuses, critical skills retention bonuses, 
recruiting, and re-recruiting efforts. As we grow our S&E workforce, we 
are providing career guidance and mentoring that will enable us to meet 
our 21st century challenge. Initiatives, such as the special hiring 
legislation authorized by Congress, which provides ``DARPA-like'' 
hiring authority to the military departments, should also provide 
positive results in shaping our S&E workforce. This authority has only 
recently been delegated to the Air Force, but we are very optimistic 
about its potential.
                               conclusion
    The Air Force is in the midst of a technological and organizational 
transformation that is radically changing air and space contributions 
to the nature of war. Stealth and precision strike, in particular, have 
injected leap ahead improvements into combat power unlike any we have 
known since the introduction of the jet engine. We are also making 
important strides in command and control, long-range power projection, 
and mobility in support of an integrated Expeditionary Aerospace Force.
    In conclusion, the Air Force is fully committed to providing this 
nation with the advanced air and space technologies required to meet 
America's national security interests around the world and to ensure we 
remain on the cutting edge of system performance, flexibility, and 
affordability. The technological advantage we enjoy today is a legacy 
of decades of investment in S&T. Likewise, our future warfighting 
capabilities will be substantially determined by today's investment in 
S&T. As we face the new Millennium, our challenge is to advance 
technologies for an Expeditionary Aerospace Force as we continue to 
move aggressively into the realm of space activities. The Air Force is 
confident that we can lead the discovery, development, and timely 
transition of affordable, transformational technologies that keep our 
Air Force the best in the world. As an integral part of the Department 
of Defense's S&T team, we look forward to working with Congress to 
ensure a strong Air Force S&T Program tailored to achieve our vision of 
an integrated air and space force.
    Mr. Chairman, thank you again, for the opportunity to present 
written testimony, and thank you for your continuing support of the Air 
Force S&T Program.
                                 ______
                                 
   Prepared Statement by Dr. Tony Tether, Director, Defense Advanced 
                        Research Projects Agency
    Madam Chairman, subcommittee members and staff: I am very pleased 
to submit this discussion of DARPA's fiscal year 2002 activities and 
our fiscal year 2003 plans to continue to transform our military 
through technological superiority. I will also describe what we are 
doing to help win the war on terror in Operations Enduring Freedom and 
Noble Eagle.
    DARPA has occupied a special role and mission within the Department 
of Defense since the time of Sputnik. Our mission is to provide the 
research and development that bridges the gap between fundamental 
discoveries and their military use. The work we support is necessarily 
high-risk and high-return because we are trying to fill that gap. We 
try to imagine what a military commander would want and accelerate that 
future into being, thereby changing people's minds about what is 
technologically possible.
    The phrase, ``DARPA prevents technological surprise,'' also 
characterizes our mission over the years. To do this, we work to fill 
the gap between discovery and use before our adversaries can. However, 
DARPA, at its very best, not only prevents technological surprise, but 
creates technological surprise for our adversaries. An example of this 
is DARPA's development of stealth--a dramatic technological capability 
that continues to put our adversaries at a disadvantage.
    Our mission in the Department creates a role that complements, but 
is no substitute for, the work of the service science and technology 
establishments. A DARPA program does not start with what a military 
commander wants today. Instead, we look at what future commanders might 
want. We look beyond today's known needs and requirements because, as 
military historians have noted, ``None of the most important weapons 
transforming warfare in the 20th century--the airplane, tank, radar, 
jet engine, helicopter, electronic computer, not even the atomic bomb--
owed its initial development to a doctrinal requirement or request of 
the military.'' \1\ None of them. To this list, DARPA would add stealth 
and Internet technologies.
---------------------------------------------------------------------------
    \1\ John Chambers, ed., The Oxford Companion to American Military 
History (New York: Oxford University Press, 1999) p. 791.
---------------------------------------------------------------------------
    At DARPA, we constantly focus on dramatically changing how we will 
fight in the future. Our unique mission has made us the technological 
engine of military transformation.
    I returned to DARPA last June, having been a DARPA Office Director 
in the 1980s. When I had my job interview with the Secretary of 
Defense, I was given two charges: First, I was told to make DARPA like 
it used to be--an entrepreneurial ``hotbed.'' Second, I was told that 
DARPA was to give the United States military more robust capabilities 
in space, so that our nation can maintain unhindered access to space 
and protect United States space capabilities from enemy attack--one of 
Secretary Rumsfeld's six transformational goals.
    In his January speech on transformation at National Defense 
University, the Secretary said that he needed the Department to take 
``. . . a more entrepreneurial approach to developing military 
capabilities, one that encourages people, all people, to be proactive 
and not reactive, to behave somewhat less like bureaucrats and more 
like venture capitalists; one that does not wait for threats to emerge 
and be `validated,' but rather anticipates them before they emerge and 
develops new capabilities that can dissuade and deter those nascent 
threats.'' That is DARPA at its very best. I believe that the Secretary 
had DARPA partly in mind when he said that. Also, the Section 1101 
experimental hiring authority given to us by Congress is playing an 
important role in allowing us to hire the people we need to stay 
entrepreneurial.
    Let me tell you more about what we're doing in our role as the 
Department's technological engine of transformation. You are familiar 
with our work in stealth and information technologies. DARPA has also 
made major contributions in areas such as precision-guided munitions 
and real-time command, control, communications, computers, 
surveillance, and reconnaissance. So what are we doing today to build 
on that legacy?
    First, DARPA's vision is to fill the battle space with networked 
unmanned vehicles. Political support from Congress, particularly in 
this committee, top-level service and DOD leadership, and technical 
progress are all coming together to make that happen. One of our 
flagship efforts is the Future Combat Systems (FCS) program, which has 
major unmanned components. Under the leadership of U.S. Army Chief of 
Staff General Eric K. Shinseki and his team, we will transform how the 
Army fights.
    The Future Combat Systems is the cornerstone of the Army's efforts 
to create what it calls the Objective Force. The Objective Force will 
respond to the full spectrum of land combat. It will be, in the Army's 
words, ``responsive, deployable, agile, versatile, lethal, survival, 
and sustainable.'' Within the FCS program, we have been developing 
concepts and technologies for a force that can deploy within 96 hours 
and be highly lethal and survivable in the year 2010. FCS is conceived 
of as a system-of-systems, and not a particular platform. What makes 
FCS different is that we are starting with the network that will make 
these goals possible--we're not starting with a specific platform, or a 
set of platforms, which we then try to network together.
    Within DARPA, our FCS portfolio of programs emphasizes command-and-
control, communications, sensors, the Netfires precision missile 
system, and unmanned and semiautonomous ground and air vehicles. For 
example, our A160 Hummingbird unmanned, long-duration helicopter had 
its first flight in January of this year. Unmanned platforms and 
vehicles enable the FCS system-of-systems to put fewer warfighters 
directly in harm's way. Moreover, because unmanned vehicles do not 
require heavy armor to protect people, they are lighter and easier to 
deploy.
    Afghanistan has given us a glimpse of how unmanned air vehicles may 
shape the future. The Global Hawk, a DARPA program that transitioned to 
the Air Force in 1998, has played a key role in Operation Enduring 
Freedom by providing U.S. commanders with high-altitude, long-
endurance, unmanned aerial reconnaissance over the area of operations. 
The Predator, which was originally unarmed and grew out of the 1980s 
DARPA program called Amber, provides close-in combat surveillance and 
can now be equipped with Hellfire missiles.
    DARPA currently has three unmanned air combatant programs underway: 
the Unmanned Combat Air Vehicle (UCAV) with the Air Force, UCAV-N with 
the Navy, and Unmanned Combat Armed Rotorcraft (UCAR) with the Army. 
These innovative programs are focused on enabling the next revolution 
in unmanned aerial weapon systems. We are not adding a weapons 
capability to an existing platform. Rather, we are focusing from the 
start on the technologies, processes, and system attributes that will 
help transform each of the services: how the Air Force suppresses enemy 
air defenses, how the Navy suppresses enemy air defenses and conducts 
extended reconnaissance, and how the Army conducts armed reconnaissance 
and attack.
    The Unmanned Combat Air Vehicle is a joint program with the Air 
Force to develop an unmanned aircraft that can be used to suppress 
enemy air defenses, thereby complementing piloted aircraft for 
extremely dangerous missions, and/or to conduct strike missions. Our 
current vision is that up to four UCAVs could simultaneously be 
supervised by a single battle manager. The last sentence contains two 
aspects at the heart of the UCAV revolution. First, UCAVs are not flown 
as one flies a Predator or Global Hawk or any unmanned platform today. 
Rather, the vehicles have sophisticated on-board adaptive mission 
planning, which will allow them to conduct the entire mission without 
continuous human oversight. Second, each of those vehicles is also 
directly linked to its fellow unmanned wingmen and can perform multi-
ship cooperative targeting, tracking, attack, and assessment. UCAVs 
will hunt for relocatable and mobile targets in ``four-packs'' under 
the supervision of a skilled operator.
    This is not about autonomous machines. It is about blending the 
best traits of man and machine. There is always a person in-the-loop to 
provide the timeless qualities of human judgment and insight to 
supervise the unmanned systems and manage the battle. Operators will be 
assisted by decision aids that allow them to focus on the operational 
art of war, leaving the implementation details to the unmanned element 
of this synergistic blend of man and machine intelligence.
    While striving to mature these challenging command and control 
concepts, the UCAV program has not lost sight of keeping this new 
weapon system affordable. The program emphasizes making UCAVs low-cost 
(roughly 50 percent lower purchase price than an F-16CJ and 75 percent 
lower operating costs) and storable, unattended, for long periods of 
time--the ``wooden round'' idea.
    UCAV continues to make solid progress across the four major program 
focus areas: first flight, coordinated multi-vehicle flight, system B 
design, and acquisition planning. We have completed two of the three 
series of taxi tests required before a safe first flight, which is now 
planned for later this spring. Software is under development to support 
the critical multi-vehicle flight demonstrations scheduled for next 
summer, and we have begun designing the X-45B fieldable prototype, 
which will take the next major step toward an operational system and 
support future demonstrations of military utility and operational 
value. Overall, the program is on the maximum acceleration path in 
support of the congressional goal of fielding 30 systems by 2010. DARPA 
has managed this program in close cooperation with the Air Force. In 
fact, the early and sustained participation of Air Force warfighters 
and developers has been a key factor in our success. DARPA is leading 
the program until the critical multi-vehicle flight tests are completed 
in Summer 2003, when we will transfer program management responsibility 
to the Air Force.
    The Navy's variant of the UCAV, the UCAV-N program, is at a much 
earlier stage of development. In addition to the UCAV missions of 
suppression of enemy air defense and strike, the UCAV-N will also be 
tasked with extended surveillance. This additional requirement could 
lead to a vehicle that is significantly (i.e., 50 percent) larger than 
UCAV and it must be carrier-compatible and in-flight refuelable.
    To date, DARPA's work on UCAV-N has been the preliminary design, 
analysis, and technology risk reduction required under what we call 
Phase I. Very shortly we expect to announce selections for Phase II, in 
which the detailed design and actual fabrication of UCAV-N will take 
place.
    The Unmanned Combat Armed Rotorcraft is the newest of the three 
programs, with Phase I beginning this year. The goal of UCAR is an 
unmanned, affordable, survivable armed vertical take-off and landing 
system that can identify and attack targets farther in front of U.S. 
ground forces--doing a dangerous and critical mission while putting 
fewer soldiers in harm's way. Such a system would be an important 
element of the Army's Objective Force and will build on what we're 
learning about collaboration among unmanned vehicles in the UCAV 
program. During Phase I of the program, we will do the necessary 
studies to define the system concept, requirements, risk reduction 
roadmap, and effectiveness and affordability goals.
    A second area where DARPA is continuing to push transformation is 
precision strike, building on a long tradition of work like Assault 
Breaker in the early 1980s. The war in Afghanistan showed us how 
precision strike, in the words of the Chairman of the Joint Chiefs 
before this Committee, means ``. . . the bomb is no longer solely an 
area weapon, but is going to be used like bullets from a rifle, aimed 
precisely and individually.'' Timely, accurate, and precise delivery of 
bombs and missiles helped us overthrow a hostile regime in short order 
with very few American or unintended casualties. Yet our experience 
there has also shown us that major challenges remain in target 
detection, identification, and tracking.
    To bolster our work in this area, I have recently established a new 
office at DARPA, the Information Exploitation Office (IXO). IXO is 
assembling the sensors and the information technologies needed to find 
and destroy the right land targets in any terrain, in any weather, 
moving or not, at any time.
    Let me give you some examples of what we are doing. Currently, one 
of the best ways for our adversaries to avoid being killed is to keep 
moving. The Affordable Moving Surface Targeting Engagement (AMSTE) 
program will demonstrate how, by making only minor modifications to 
existing and planned systems, we can network and integrate multiple 
stand-off radars and long-range weapons like Joint Direct Attack 
Munitions and Joint Stand-Off Weapons to affordably, precisely, and 
rapidly destroy individual moving surface vehicles.
    Another example of our work in time-critical precision strike is 
the Advanced Tactical Targeting Technology program (AT3). Enemy air 
defense systems are using increasingly sophisticated tactics and 
technology, and AT3 is aimed squarely at this threat. The overall 
program goals are to target surface-to-air missile (SAM) launchers to 
an accuracy of 50 meters from 50 miles away within 10 seconds after the 
enemy's radar turns on, a dramatic improvement over today's 
capabilities.
    The technology produced by AT3 will provide the precise coordinates 
of an enemy air defense unit immediately after it turns on its radar. 
Providing precise coordinates quickly will allow a weapon to destroy 
the SAM threat before it can run and hide. AT3 employs non-dedicated 
platforms, such as tactical fighters, reconnaissance aircraft, UAVs, 
and UCAVs, to rapidly detect and locate enemy radars by sharing 
measurements of radar signals using existing tactical data links.
    A third program, Tactical Targeting Network Technologies (TTNT), is 
developing the wireless communications technology needed for future 
time critical precision strike by a system of systems network. TTNT 
will provide the communications glue, if you will, allowing systems 
like AMSTE and AT3 to achieve their full potential. TTNTs goals 
include: real-time capacity allocation; high-priority messaging; data 
rates high enough for secure video; low costs; and compatibility with 
existing tactical data links such as Link 16.
    Programs such as AMSTE, AT3, and TTNT will tear down the historical 
separation between sensors and shooters, the separation between the J2 
Intelligence staff and the J3 Operational staff. This is an 
extraordinarily difficult problem, both technically and 
organizationally. Our job here at DARPA is to answer those who say, 
``It can't be done,'' by demonstrating that it can.
    A third area we are transforming is how our systems will talk to 
each other. The key to network centric warfare is secure, seamless, 
high-data-rate communications, and DARPA is leading the way in 
developing those technologies for both untethered, i.e. wireless, and 
tethered networks.
    In the wireless world, four programs illustrate our goals. The FCS 
Communications program is prototyping the technologies needed for the 
high bandwidth, low probability of intercept radio links crucial to 
making FCS work. Our Small Unit Operations Situational Awareness System 
is the first ad-hoc, mobile, all-terrain radio frequency network system 
for dismounted infantry. The Terahertz Optical Reachback program will 
provide high bandwidth optical networks to tactical units in theater. 
Our Next Generation program will make 10 to 20 times more spectrum 
available to our military by dynamically allocating spectrum across 
frequency, space, and time; we call it ``tuning for daylight.''
    For tethered networks, DARPA is working aggressively to counter 
computer network attacks. For example, we are working on software 
``wrappers'' that can enfold malicious incoming attachments and prevent 
them from getting at the system resources they need to spread. Our 
Autonomic Distributed Firewall technology places a firewall inside 
every computer on a network--a firewall that can communicate with the 
other firewalls--providing much more robust protection than a 
traditional single network firewall.
    A fourth area where we are continuing to help transform our 
military is space. Recall that DARPA started off as a space agency, 
when the shock of Sputnik caused Americans to believe that our Cold War 
adversary had seized ``the ultimate high ground.'' Space continues to 
be the high ground, it has recaptured our attention, and DARPA once 
again is investing in that arena.
    The ability to maintain unhindered access to space and to protect 
our space capabilities from enemy attack is one of Secretary Rumsfeld's 
six transformational goals. In order to do so, DARPA is pursuing 
several new space programs.
    First of all, to enable us to get to space and stay there, we have 
our new Responsive Access, Small Cargo, Affordable Launch (RASCAL) and 
the Orbital Express programs. RASCAL is designing and developing a low-
cost orbital insertion capability for dedicated, micro-size (50 
kilogram) satellite payloads. RASCAL will provide flexible access to 
space using a combination of reusable and low-cost expendable vehicle 
elements. Orbital Express will demonstrate the feasibility of 
refueling, upgrading, and extending the life of on-orbit spacecraft 
using automated spacecraft. This will lower the cost of doing business 
in space and will provide radical new capabilities for military 
spacecraft, such as high maneuverability, autonomous orbital 
operations, and satellites that can be reconfigured as missions change 
or as technology advances.
    If one is going to space, one needs to know what is in space--space 
situational awareness. DARPA's new Space Surveillance Telescope program 
is developing a ground-based, large-aperture optical telescope with a 
very wide field of view using curved focal plane array technology. This 
will facilitate the detection and tracking of very faint objects in 
deep space. It is not intended as an imaging system, but, rather, as a 
search-and-detect capability. Both detection sensitivity and search 
coverage rate will be approximately an order-of-magnitude better than 
current capabilities.
    To use space-based assets to gather information about objects on 
the ground, we are beginning the Innovative Space-based radar Antenna 
Technology program. The physics of this mission calls for a much larger 
antenna than has previously been considered. This drives the program's 
development of novel technologies and conceptual designs aimed at 
producing extremely lightweight, compact, and affordable space-based 
radar antennas that meet the stressing requirements of continuous, 
tactical tracking of ground moving targets for intelligence, 
surveillance and reconnaissance.
    Finally, to protect our space satellites DARPA is initiating 
programs like the Satellite Protection and Warning/Space Awareness 
(SPAWN) program. SPAWN will demonstrate the feasibility of using micro-
satellites to provide enhanced, near-field space situational awareness 
for U.S. space assets in geosynchronous orbit.
    Since September 11, the war on terrorism has been foremost in 
everyone's minds. I want to take a few minutes to tell you about some 
of the DARPA technologies that are being used to support Operation 
Enduring Freedom.
    In Afghanistan today, warfighters are using 6-inch-long, pen-sized 
water purification kits developed by DARPA that consume plain salt 
tablets and purify up to 300 liters of water on a single camera 
battery. They're using hand-held phrase translation devices in the 
field and at our embassy in Kabul that convert phrases spoken by our 
soldiers directly into local, native languages such as Pashto, Urdu, 
and Dari. Having worked with the Air Force to reduce critical Link 16 
network shortfalls demonstrated in Kosovo, DARPA-developed software 
tools are being used in Operation Enduring Freedom to reconfigure a 
theater-wide Link 16 network for military aircraft in a few hours--a 
task that previously took many weeks. Lastly, small ground robots 
developed in DARPA's Tactical Mobile Robotics program deployed to 
Afghanistan in support of Operation Enduring Freedom.
    On the American homefront, DARPA technology has been used in 
homeland defense, Operation Noble Eagle. A commercial version of the 
DARPA consequence management program, LEADERS, provided medical 
surveillance for signs and symptoms of a biological attack in New York 
State within 24 hours of the attack on the World Trade Center. The 
Centers for Disease Control and Prevention (CDC) also used LEADERS to 
monitor for specified syndromes from hospitals within in the New York 
City area and report them back in real-time to CDC in Atlanta via the 
Internet. Robots from the Tactical Mobile Robotics program were sent to 
New York City to assist in search and rescue operations. Lastly, DARPA 
personnel served as science advisors to the team responsible for the 
anthrax decontamination on Capitol Hill. After analyzing the 
decontamination technologies that might be used for the cleanup of the 
Hart Building, the team selected the chlorine dioxide approach 
developed under DARPA's ongoing Immune Building program; this 
technology proved both effective and safe.
    All these technologies were available to respond to the terrorist 
attacks on our nation because Congress had provided years of patient 
funding to develop them. Patience pays off.
    DARPA has several ongoing programs to help prosecute the war on 
terrorism. Since the mid-1990s, DARPA has had a significant program in 
biological warfare defense, covering sensors to detect biological 
agents, vaccines to prevent infection, therapies to treat people who 
have been exposed, and decontamination technologies to recover the use 
of contaminated equipment and locations.
    An example of this work, and one that illustrates why it is so 
exciting, is the Unconventional Pathogen Countermeasures program, which 
is focused on developing therapies broadly useful across many classes 
of biological warfare agents. For example, we are working on a new 
class of drug designed to attack the DNA of bacteria, viruses, and 
malaria, and that may eventually prove useful against threats ranging 
from anthrax and plague to smallpox.
    One of the great challenges in the war on terrorism is to know our 
enemy--who he is, where he is, and what he's doing. In order to focus 
our efforts, I established another new DARPA office, the Information 
Awareness Office (IAO). IAO is developing the information systems 
needed to find, identify, track, and understand terrorist networks and 
vastly improve what we know about our adversaries. We will use the 
light of information technology to take away the shadows they hide in.
    For example, IAO's Evidence Extraction and Link Discovery program 
is aimed at finding terrorist networks hidden in the mountains of 
diverse data that we collect. The Wargaming the Asymmetric Environment 
program is explicitly aimed at predicting the behavior of terrorist 
groups in some detail, an extremely difficult challenge. Usually what 
we do now is issue broad warnings to the public to be on guard, like 
the several that were announced following September 11. Wargaming the 
Asymmetric Environment seeks to move from those broad warnings to more 
specific predictions. In short, we want to go from predicting the 
terrorist ``climate'' to predicting the terrorist ``weather.'' Some 
would argue that this is an outrageous goal, one that is not possible 
to achieve. I agree it sounds outrageous, but what if we can do it? 
That is why it is a DARPA program.
    In addition, IAO's Total Information Awareness program is now 
setting up a testbed at the Army's Intelligence and Security Command to 
test our new technologies on real-world threat data.
    I'd like to now discuss some of our investments in fundamentally 
new technologies, particularly at the component level, that have often 
been the technological feedstocks enabling quantum leaps in U.S. 
military capabilities.
    Building on our long tradition in cutting edge information 
technology, DARPA is pursuing cognitive computer systems--computer 
systems that know what they are doing. Our current information systems 
are crucial to national defense, but are expensive to create and debug, 
require us to adapt to them, cannot coordinate effectively with one 
another, and are inefficient and prone to failure. We want to develop 
computing systems that think--that are self-monitoring and self-
healing. Cognitive computers can reconfigure themselves as necessary, 
generate their own code, respond to naturally expressed human 
directives, and be configured and maintained by non-experts, and 
therefore last much longer than current systems. We are developing 
software, networks, components and full systems that are self-aware. We 
don't expect to reach our ultimate goal for many years, but we are 
starting now on the underlying technology.
    Another traditional DARPA strength has been microelectronics, 
including photonics and microelectromechanical systems (MEMS), which 
continue to be core enablers for military systems. As the commercial 
microelectronics world approaches the end of Moore's Law within the 
next decade, the chips that emerge, containing trillions of nano-scale 
complementary metal-oxide semiconductor (CMOS) devices, will have a 
revolutionary impact on chip-scale, high-speed digital processing for 
future military systems. Integrating this advanced CMOS technology with 
radio frequency and analog components, including photonic sources and 
sensors and MEMS devices, will allow far more adaptable sensor and 
actuation systems. We foresee intelligent chips that can adapt in real-
time, maintaining peak performance while tracking signals over a wide 
spectral range, and MEMS-based resonators for compact chip-scale 
oscillators with atomic clock precision. DARPA's goal is to create 
chips that reason and adapt, enable smarter sensors, and achieve human-
like performance. Ultimately, our vision is a more adept human 
warfighter who uses microelectronics to achieve machine-like precision.
    In the last few years, DARPA has had a significant and growing 
emphasis in the biological sciences, above and beyond what we're doing 
in biological warfare defense. We are taking inspirations from biology 
and combining these with DARPA's existing core competencies in the 
physical sciences, information technology, engineering and materials, 
to create new devices and systems for the warfighter that incorporate 
the incredible capabilities of living systems. That is, they are more 
adaptive, fault-tolerant, and dynamic in their response to an ever-
changing environment.
    For example, we are looking to biological systems to enable us to 
create better hardware. DARPA's Controlled Biological and Biomimetic 
Systems program is designing shoebox-sized, legged robotic vehicles 
that can clamber over rough and overgrown terrain where wheeled and 
tracked vehicles can't. We are exploring the use of distributed animal 
sentinels--foraging, social insects like honeybees--as environmental 
sentinels to collect and report on bioagents and explosives. Living, 
swarming sensors if you will.
    We are also working to harness biology itself to directly enhance 
the performance of our warfighters via several programs to make our 
soldiers stronger and safer. For example, our Continuous Assisted 
Performance program is looking for ways to prevent fatigue and enable 
soldiers to remain awake, alert, and effective for up to 7 days 
straight without suffering mental or physical deleterious effects. Our 
Metabolic Engineering program is investigating whether naturally 
occurring states such as hibernation might one day be temporarily 
induced in soldiers who have been severely injured. DARPA's Persistence 
In Combat program is looking for ways to take hospital-level emergency 
trauma care to the farthest-forward battlefield area of operations, 
i.e., directly to the individual, injured warfighter, by equipping him 
with non-invasive therapeutics he can self-administer to control 
bleeding and pain and dramatically accelerate wound healing. This will 
enable all but the most severely wounded warfighters to stay in the 
fight and reduce additional casualties among fellow soldiers who would 
otherwise come to his aid.
    Thus far in my testimony, I have dwelt on DARPA systems for which 
the military applications are fairly clear. However, one of the most 
exciting things about DARPA is our work on technologies whose exact 
military uses are not clear, but their usefulness is. This is part of 
what makes being the DARPA Director such a fun job.
    For example, our Brain Machine Interface program has demonstrated 
that a monkey can control a robot arm using only his thoughts. Let me 
be clear about this: we are not tapping into the monkey's nerve 
impulses that control his arm. Rather, we are monitoring his actual 
thoughts and intentions: the monkey thinks about moving a robotic arm, 
an implanted probe detects his brain's neurological impulses, those 
impulses are wirelessly transmitted to a robotic arm located in another 
room, and the robot arm moves. Simultaneously, the monkey's thought 
signals are also sent out via another DARPA development, the Internet, 
to a lab 700 miles away, where he simultaneously controls another 
robotic arm. So the monkey also uses his brain to do mechanical work 
via the Internet!
    Thus, we are finding ways to turn thoughts into acts. We do not yet 
fully understand the potential implications of this work. But imagine 
how useful and important it could be for a warfighter to use only the 
power of his thoughts to do things at great distances.
    Think about our military commanders years from now. Envision them 
commanding warfighters who then can do things merely by thinking about 
them; who remain in action and effective for seven days and nights 
without sleep; who, if injured, can self-administer rapid-healing 
medications that enable them to stay in the fight, and who, if 
seriously injured, could be placed in temporary hibernation to prolong 
their lives until they can be evacuated to a hospital.
    Will all these technologies work? We don't know yet. But I would be 
willing to bet you this: if we pursue these technologies now, develop 
them successfully, and get them into the hands of our future 
warfighters, the U.S. military commander in the field years from today 
will value them highly. Our Nation's adversaries will fear them.
    Finally, I note the Department is frequently hampered by a 
demanding set of statutory requirements, which restricts our 
flexibility and, thus, our ability to adapt to changing circumstances. 
I ask the Committee to support the President's ``Freedom to Manage'' 
initiative, so that we would be better able to efficiently and 
effectively execute the programs you entrust us with.
    Thank you for this opportunity to submit testimony to the 
subcommittee.

    [Questions for the record with answers supplied follow:]
            Questions Submitted by Senator Mary L. Landrieu
                    computer security/cyberterrorism
    1. Senator Landrieu. Dr. Sega, Dr. Marburger, and Dr. Younger, one 
emerging terrorist threat is increasingly frequent attacks on computer 
networks. What research and development is being done to protect 
critical military systems from computer hackers? How is this knowledge 
being used to help industry and private citizens at home?
    Dr. Sega. The Department of Defense (DOD) has a long-term 
commitment to computer network security science and technology (S&T) 
going back to the origins of the Internet. DOD is concerned with all 
aspects of computer network defense, information assurance and critical 
infrastructure protection as it impacts critical military systems, 
including those owned and operated by the private sector upon which the 
warfighter is dependent. DOD S&T investment in this area was $212 
million in fiscal year 2001 and $222 million in fiscal year 2002.
    Recognizing our increasing reliance on information systems and 
potential susceptibility to attacks, our S&T program includes research 
in Analysis and Assessment, Mission Assurance, Indications and Warning, 
Threat & Vulnerabilities, Remediation, Mitigation Response and 
Reconstitution. The rapid pace of advances in information and 
communications technology continually brings new challenges and 
vulnerabilities. Commensurate with these new challenges, protection of 
information and networks will necessarily require even more vigorous 
and focused research. This is especially true given DOD's unique 
requirements for protection, which continue to be more demanding than 
what the private sector requires. The primary responsibility of 
orchestrating DOD S&T portfolio is assigned to the Director for Defense 
Research and Engineering. A majority of this research is directed by 
the Defense Advanced Research Projects Agency (DARPA), the National 
Security Agency, and the Service Research Offices and Laboratories.
    Potential adversaries have also recognized DOD's reliance on 
networked computer systems, and the tremendous potential to use this as 
an asymmetric threat to the detriment of our military effectiveness. 
DOD is developing new methodologies to mitigate the consequences of a 
successful attack and restoring its systems. Creating agile and self 
healing networks is a key S&T objective. The faster we are able to 
detect, isolate and restore a network to its intended purpose is 
fundamental to warfighter effectiveness. The events of September 11 
have provided DOD with important reasons to reconsider the most serious 
national threats facing our nation. Because of the ubiquitous nature of 
many of our critical infrastructures, increased cooperation between the 
public and private sector is needed to advance the Nation's 
cybersecurity posture. In order to achieve the high standard of 
protection envisioned by Joint Vision 2020, it is necessary for DOD to 
provide leadership in cybersecurity S&T investment in order to keep 
pace with the growing threats and our changing environment.
    DOD has four Defense Technology Objectives (DTOs) in this area: 
Information Assurance and Survivability Technology Base, Ultralog, 
Information Dominance, and National Infrastructure Protection. These 
DTOs are descripted in detail within the Defense Science and Technology 
Strategy and Plans which has been previously provided to the Senate 
Armed Services Committee. There is also a wide range of research 
outside of the DTOs covering topics such as wireless information 
assurance, steganography, security wrappers for commercial-off-the-
shelf software, cyberforensics, intelligent agents, intrusion detection 
for mobile and high speed networks, situational awareness and network 
management, active response, and models for assessing damage from 
information attacks.
    In 2001, my office established two new University Research 
Initiatives focused on cybersecurity. Twenty six grants totaling $9.3 
million were awarded in fiscal year 2001 ($16 million in fiscal year 
2002) to academic institutions. These grants were designed to enhance 
universities' capabilities to perform research related to critical 
infrastructure protection and high confidence software to meet DOD 
needs. In addition, $4.5 million was awarded in fiscal year 2001 for a 
DOD Critical Infrastructure Protection and Information Assurance 
Fellows program. These awards are intended to increase the number of 
postdoctoral and faculty scientists and engineers conducting high 
quality research computer defense and information assurance.
    Technology transfer and widespread adoption by industry are 
important elements of our efforts. We work with other departments 
through the Information Security Research Council, a working group of 
U.S. Government research sponsors. More formally, DOD actively 
participates in the committee for Research and Development, chaired by 
OSTP under Executive Order 13212, to coordinate Federal research and 
development for protection of information systems for critical 
infrastructures. The committee seeks a coordinated outreach policy for 
private sector cybersecurity. DOD's Technology Transfer Program is 
focused on creating partnerships between the defense laboratories and 
the private sector, working through mechanisms like Cooperative 
Research and Development Agreements, to transfer dual-use technology to 
the private sector. DOD research has led to commercial spin-offs that 
benefit private citizens. An example is the DARPA funded development of 
the first firewalls, which are now in common use in the home and 
businesses. My office oversees the Software Engineering Institute 
(SEI). SEI's Computer Emergency Response Team (CERT) is a national 
clearinghouse on computer vulnerability notifications, security best 
practices preventive information, and incident warnings for viruses and 
other threats. They have a strong program of training and education 
available to private industry. The information available from the CERT 
is used extensively by industry, is accessible to the public at large, 
and reflects our commitment to ``raise the bar'' on computer security 
nationally.
    Dr. Marburger. The Department of Defense (DOD) has traditionally 
supplied the lion's share of R&D support for critical infrastructure 
protection (CIP) almost exclusively in the area of Information 
Assurance. Total Federal CIP, R&D funding has been between $480-600 
million over the last few years, with defense providing typically about 
80 percent of the total funding in this area.
    Recognizing the increasing reliance on information systems by other 
critical infrastructures and their potential susceptibility to attacks, 
DOD is engaged in a wide range of activities that focus on protection 
of computer networks. Examples of some of the R&D activities currently 
underway include:
Assurance Methodologies
    (1) Detecting subtle information integrity attacks, developing 
algorithms for self-repair, and creating techniques to map mission-
critical services to remaining trustworthy resources; and
    (2) quantifying and analyzing security and survivability 
requirements and assessing the degree of compliance and assurance 
achieved.
Cyber Panel
    (1) Designing attack detection sensors and sensor placement and 
developing the correlation algorithms to detect highly sophisticated 
stealthy distributed attacks spread out over time and space;
    (2) allowing operators to monitor the operation and attack state of 
information systems and networks on which they depend, at theater 
scales and in operationally relevant terms, and to observe and 
manipulate the operation of security and survivability features;
    (3) modeling of system and application configuration and resource 
requirements while accounting for dynamic characteristics such as 
migration of mobile processing or operation of automatic load-balancing 
or failover features,
    (4) the creation of rich and general models of coordinated and 
large-scale attacks, rather than the low level and anecdotal 
representations that now exist; and
    (5) validation of network monitoring and response research efforts.
Organically Assured and Survivable Information Systems
    (1) Ensuring the continued availability and graceful degradation of 
the system under partially successful attacks, minimizing resources 
available to attackers while maximizing the residual capacity available 
to legitimate users;
    (2) determining the difference between malicious and accidental 
faults; and
    (3) effectively integrating the resulting wide variety of intrusion 
detection, correlation, intrusion tolerance, and response technologies 
to provide the maximum possible protection while simultaneously 
minimizing the performance degradation and additional cost incurred by 
these mechanisms.
Fault Tolerant Networks
    (1) Eliminating network services single points of failure;
    (2) fortifying network elements to defeat or resist denial of 
service attacks; and
    (3) developing tools and techniques to restore degraded networks to 
an acceptable operating level.
    Several organizations exist that facilitate the exchange of 
information regarding R&D activities across the Federal Government. One 
such organization is the INFOSEC Research Council (IRC), a self-
chartered coordination body of U.S. Government sponsors of information 
security research. The IRC has evolved from being primarily a DOD 
oriented activity to a group that now spans a greater portion of the 
Federal Government. In a more formal way, the DOD, CIP, and R&D efforts 
are coordinated under Executive Order 13212. This Executive Order 
established a Standing Committee for Research and Development, chaired 
by OSTP, to coordinate a program of Federal Government research and 
development for protection of information systems for critical 
infrastructure.
    With regard to your question about how the R&D knowledge is being 
used to help industry and private citizens at home, I call your 
attention to DOD's Technology Transfer Program. The Technology Transfer 
Program is focused on creating partnerships between the defense 
laboratories and the private sector, working through mechanisms like 
Cooperative Research and Development Agreements, to bring commercial 
technology into defense systems and transfer dual-use technology to the 
private sector. Designated personnel within each Defense R&D facility 
are responsible for seeking opportunities to match defense and 
commercial technology needs. A Defense Technology Transfer Information 
System has been established to help match.
    Dr. Younger. DTRA is not involved in information operations. That 
is out of the scope of our charter. We focus on Chemical, Biological, 
Radiological Nuclear and High Explosives, a.k.a. Weapons of Mass 
Destruction (WMD). Nevertheless, we do look at information operations 
during our single point vulnerability assessments done under the 
Balanced Survivability Assessment (BSA) program sponsored by the 
Assistant Secretay of Defense for Command, Control, Communications, and 
Intelligence.

                               corrosion
    2. Senator Landrieu. Dr. Sega, the Department of Defense spends 
billions of dollars annually in repairing corrosion damage to ships, 
tanks, planes, and other facilities. What research and development is 
being used so that future systems will not suffer the same rust and 
corrosion problems of current systems? What is the current and planned 
investment level in this area in each service and agency?
    Dr. Sega. The Service Components and Office of the Secretary of 
Defense have various science and technology (S&T) programs (6.1, 6.2, 
and 6.3) investigating advanced means to detect, evaluate, and control 
hidden and visible corrosion in platform structures and subsystems. The 
S&T projects emphasize the sustainment of current aircraft, ships, and 
ground vehicles as well as developing more corrosion resistant advanced 
materials and processes, which are also inherently environmentally 
benign. Four of our Defense Technology Objectives (DTOs), which are 
focused and relatively near-term joint projects, directly support 
corrosion control projects with high potential impact on materiel life 
extension and affordable maintainability. These joint Service DTOs with 
their associated fiscal year 2003 proposed funding are ``Nondestructive 
Evaluation for System Life'' funded at $4.9 million, ``Materials and 
Processes for Metal Cleaning, Corrosion Control, and Coatings'' funded 
at $1.8 million, "Condition-Based Maintenance/Integrity Monitoring" 
funded at $7.5 million, and ``Materials Technologies to Enable Enhanced 
Life Management and Combat Readiness of Weapon System Assets'' funded 
at $0.8 million. In addition to these very focused DTO programs, there 
is enabling applied research and advanced technology development being 
conducted by each of the Services and several agencies in projects such 
as non-chromate primers, hydrolytically stable resin systems for 
coatings, mission tailorable topcoats, stainless steel hull materials 
and appropriate coatings, applique coatings, many sensor and wireless 
communication projects for corrosion and health monitoring of 
structures, and environmentally benign processes for coating removal 
and disposal. The direct 6.2 plus 6.3 investment in these and related 
research for fiscal year 2003 is $3.1 million for the Army, $9.6 
million for the Navy, and $18.4 million for the Air Force. The total 
basic research budget associated with corrosion and closely related 
topics is robust and forward-looking with an annual investment 
estimated at $8 million per year for advanced corrosion resistant 
coatings, advanced detection techniques, and fundamental understanding 
of corrosion and degradation processes. The Multidisciplinary 
University Research Initiative (MURI), administered by my office, 
regularly sponsors programs, usually nearly $1 million per year for 3 
to 5 years, in corrosion and related areas. Most recently in fiscal 
year 2000 a program on ``Science Underpinning Prime Reliant Coatings'' 
was begun. In fiscal year 1996 two MURI programs were funded 
specifically addressing corrosion and one was begun on nondestructive 
inspection. The Strategic Environmental Research and Development 
Program, which is also administered by my office, supports several 
projects to reduce environmental impact of corrosion control materials 
and processes. Historically Strategic Environmental Research and 
Development Program (SERDP) awards in the area of corrosion control 
have been approximately $6 million annually and we anticipate there 
will be no change in fiscal year 2003.

                    intellectual property/royalties
    3. Senator Landrieu. Dr. Sega, how much intellectual property 
revenue does the Department of Defense generate from its past 
technology developments? How can we work to ensure that the Department 
generates revenue from the commercial spinoff of defense technologies? 
How does the Department get a return on investment on its basic and 
applied research funding?
    Dr. Sega. The Defense Department has seen a gradual increase in its 
royalty income from patenting and then licensing technology developed 
for mission requirements. In fiscal year 2001, $6.3 million was 
received in royalty income. This income is derived from technologies 
patented in fiscal year 2001 as well as technologies developed within 
the past 15 years. Commercialization of a technology can take years of 
additional work after initial invention disclosure and because DOD 
invests in basic and some applied research, many times significant 
additional investment is required for commercial firms to be able to 
fully utilize the technology in its product line.
    The Defense Department differs from most other Federal Departments 
because we are the customer for the technology we develop: our 
investments are based on mission need and commercial application is a 
secondary consideration. Having said this, we are working to educate 
our scientists and engineers on the value of intellectual property (IP) 
and the need to protect it before releasing it to the public. We are 
developing an Intellectual Property Management Information System 
(IPMIS) to allow us to better manage IP within the Department, in 
valuing these assets, and in marketing it to the private sector. 
Additionally, we have directed our partnership intermediary, TechLink, 
to focus its primary efforts on assisting in licensing our patents.
    The DOD's primary return on its investment in basic and applied 
research funding is the ability to draw on technical expertise and new 
capabilities for DOD systems. Teaming with our colleagues in industry 
and academia allows DOD to get the ``best of the best,'' leverage 
resources to accomplish our research and development, and transfer 
technology/expertise/information into and out of the DOD.

                      global scientific leadership
    4. Senator Landrieu. Dr. Marburger, Dr. Sega, and Dr. Younger, are 
there any technology areas in which you feel that the United States is 
trailing some of our global competitors? What would you recommend we do 
to catch up in these areas? How do we keep track of which technology 
areas are critical to the military? How do we monitor if the United 
States has fallen behind in these areas?
    Dr. Marburger. The United States retains preeminence in areas of 
national security science and technology. Our scientific and 
technological excellence spans the range of physical, chemical, 
biological and engineering sciences. Noteworthy examples are U.S. 
leadership in information technology and nanotechnology. Sustaining our 
outstanding capabilities in science and technology that underpin our 
global leadership will depend on continued judicious collaboration and 
partnership with our military allies and other international partners. 
Technology areas that are critical to our military excellence are 
tracked through a number of mechanisms. One means is through the 
deliberations of interagency working groups I established as part of 
the Antiterrorism Task Force under the National Science and Technology 
Council (NSTC). In particular, two of these working groups, co-chaired 
by OSTP--the Radiological, Nuclear, and Conventional Detection and 
Response Working Group and the Biological and Chemical Preparedness 
Working Group--coordinate Federal antiterrorism R&D efforts and are 
responsible for setting a 5-year research agenda.
    In addition, OSTP also is engaged fully in such interagency groups 
as the Non-Proliferation and Arms Control Technology Working Group, led 
by the Department of State, and the Counterproliferation Program Review 
Committee, chaired by the Department of Defense. These groups serve to 
coordinate programs in areas of treaty verification and counter 
proliferation, and in doing so, monitor science and technology on a 
global scale. OSTP also maintains awareness of innovation and the 
global state of science and technology through its close interactions 
with the National Academies, and, in particular, through the committee 
on Science, Engineering, and Public Policy and the committee on the 
Science and Technology for Countering Terrorism.
    OSTP also interacts with the Technical Support Working Group (TSWG) 
to monitor the global state of science and technology for national 
security and combating terrorism. The TSWG, also an interagency group, 
rapidly develops technology and equipment to meet the high-priority 
needs of the combating terrorism community, and addresses joint 
international operational requirements through cooperative R&D with the 
United Kingdom, Canada, and Israel.
    Finally, as I stated at the American Association for the 
Advancement of Science Symposium, our nation today is a science 
superpower. The scope of our scientific activity, both basic and 
applied, is breathtaking and unmatched. We are not, however, a science 
monopoly, and we have much to learn from colleagues elsewhere in the 
world. We cannot limit scientific interactions with other nations 
without paying a scientific price.
    Dr. Sega. There are a few notable capabilities, concentrated in 
niche technical areas around the globe, where the U.S. trails. Many of 
these are dual-use technologies whose development is driven by 
commercial markets. Others are areas that we have elected not to 
aggressively pursue in order to focus our research on higher value 
areas. Additionally, some world class capabilities result from unique 
situations and experiences. It is important we identify countries that 
have equal or better capabilities in certain areas, particularly those 
areas related directly to national security. The Department's 
Militarily Critical Technologies List (MCTL) is continually updated to 
provide this information.
    As a minimum, we need to continue to monitor world-wide technical 
capabilities, assess the criticality of foreign technology leads and 
focus research and development funds, as appropriate, to remedy any 
critical technology gaps. In some cases we rely on the marketplace to 
drive U.S. industry to catch up. In militarily critical areas we also 
use cooperative research and development arrangements such as joint 
project development arrangements and information exchanges to leverage 
the technology advances of Allies and friendly countries.
    In some cases, the U.S. may purchase commercially available 
technologies, eliminating development costs in terms of time and money.
    For example, three areas we are focusing on to increase research 
and development are: hypersonics technologies; wide-band gap 
semiconductor and material processing technologies; robotics, energetic 
materials, and energy storage and generating devices.
    The Defense Threat Reduction Agency maintains the MCTL. The MCTL 
lists two categories of technologies with potential military 
application, weapons systems technologies and developing critical 
technologies. Within each technology area critical parameters, critical 
materials, unique test production, inspection equipment and unique 
software are identified. Content of the MCTL is developed by the 
Technology Working Groups (TWGs) comprised of representatives from 
industry and academia as well as DOD research, development, test and 
engineering facilities and the operational commands with DOD guidance 
and approval. The Intelligence Community also tracks foreign technology 
threats. This information is linked to U.S. military capabilities in 
the MCTL via Intelligence Community participation in the TWGs.
    The MCTL includes assessments of foreign technical capabilities in 
the critical regions of each technology area. These assessments are 
based on the expert knowledge of the members of the TWGs augmented with 
additional information provided by knowledgable domestic and foreign 
sources.
    Additionally, the Department is actively engaged in international 
cooperative activities with our Allies. Such engagements increase our 
awareness of international capabilities. Also, the Military Departments 
operate international field offices around the globe staffed with 
technical experts who support cooperative activities and monitor 
research and development within the regions they support.
    Dr. Younger. The DOD maintains a MCTL that is a detailed compendium 
of information on technologies that the Department of Defense assesses 
as critical to maintaining superior U.S. military capabilities. Within 
those technologies that are in the DTRA mission charter, we monitor and 
sponsor research in academia, industry, allied countries, and through 
the Intelligence Community we track progress by potential adversaries. 
These sources permit us to maintain a good estimate of our relative 
technological position, but we can never be fully sure that we will not 
be surprised. The best way to avoid a surprise that results in damage 
to our national interests is to maintain robust technology programs for 
agility to respond quickly to mitigate emerging asymmetries. One area 
in which the U.S. may trail others is in the area of energetic 
materials. The Russians have made a considerable investment in this 
area and we are learning more about the progress they have made.

                                 actds
    5. Senator Landrieu. Dr. Sega, your testimony highlighted the 
important role that ACTDs play in technology transition. However, 
despite the elaborate approval process, some ACTDs do not transition 
quickly or at all. Would the transition success rate of ACTDs be 
improved by funding a smaller number of projects, but at more robust 
levels?
    Dr. Sega. We continue to work to improve technology transition 
through ACTD. We have many transition successes for ACTDs, including 30 
ACTDs contributing products that have participated in either Operation 
Enduring Freedom or Operation Noble Eagle. Global Hawk and Predator, 
two highly visible systems in recent combat operations, started as 
ACTDs. Forty-eight ACTDs transitioned over 108 products including 36 
that entered production. The 108 also includes a small number of ACTDs 
that have been terminated and another small number returned for 
additional technical development. I consider these terminations and 
returns to the tech base as successes because if ACTDs do not have a 
small, but measurable failure rate, we are not accepting enough risk.
    We can and will do better on transition results, but we do not 
necessarily achieve greater success by lowering the bar. In the past 
year we established a dedicated transition office within our Advanced 
Systems and Concepts organization. We are establishing Transition 
Managers as a required element of new ACTDs and mandating an agreed 
Transition Plan as a part of our management documentation. The purpose 
is to have several people who know their job is to transition ACTD 
products. We are also experimenting with a new funding profile that 
will pay a higher percentage of funds overall and increase our share 
(as compared to the Service/Agency funding) in the early and final 
years of an ACTD. The early increase is designed to jump start an ACTD 
when Service funding is already committed to other projects. The final 
year funding increase is designed to enable successful ACTDs to develop 
more of the necessary attributes of normal acquisition programs like 
sustainability, maintainability and reliability.
    The Department has set a goal of starting 15 new ACTDs per year, 
though many more ACTDs are proposed annually. However, we will not 
start an ACTD that does not have a combatant commander and a Service or 
Agency as sponsors, that does not have adequate funding to complete a 
demonstration, that does not have a plan for transition pending 
successful demonstration, and that does not have Joint Requirements 
Oversight Council validation as a military need. With the many 
Departmental needs for joint solutions to warfighter problems, 15 ACTDs 
per year is a goal towards which we should strive.

    6. Senator Landrieu. Dr. Sega, one of the issues in transitioning 
ACTDs into follow-on acquisition programs is funding discontinuities. 
There is often no funding programmed into follow-on programs to 
leverage the concepts demonstrated by the ACTD. Why doesn't the 
Department plan its budget assuming the success of ongoing ACTDs, so 
that funding is available immediately when the ACTD is completed?
    Dr. Sega. Funding discontinuities have been a challenge for ACTD as 
well as for any Departmental program that attempts to rapidly move 
important new technology to the warfighter. The budget system 
essentially requires the Services to plan their funding programs 2 
years in advance. When innovative technologies emerge through ACTDs or 
experimentation, there is often a need for a funding bridge to enable 
that technology to survive until the budgeting process can support it. 
We are working hard to solve this problem.
    We are experimenting with a new funding profile that will pay a 
higher percentage of funds overall and increase our share (as compared 
to the Service/Agency funding) in the early and final years of an ACTD. 
The early increase is designed to jump start an ACTD when Service 
funding is already committed to other projects. The final year funding 
increase is designed to enable successful ACTDs to develop more of the 
necessary attributes of normal acquisition programs like 
sustainability, maintainability and reliability. The additional funding 
requirements partially explain the department's increased budget 
request for ACTDs in fiscal year 2003. We also insist that ACTD 
transition managers are from the acquisition/program management side of 
the Department to ensure successful ACTDs find a home early in 
established programs.
    Another argument against presuming the success of ACTDs and fully 
budgeting for their transition from the start is that we want a small 
percentage of ACTDs to fail or we are not accepting enough risk in the 
ACTD program. One downside to having transition funding identified for 
ACTDs at their commencement is this funding could negatively impact the 
objectivity of the military utility assessment, since there will be 
tremendous pressure to declare success so that follow-on funding will 
not be placed at risk.
    The Department has set a goal of starting 15 new ACTDs per year. 
However, we will not start an ACTD that does not have a combatant 
commander and a Service or Agency as sponsors, that does not have 
adequate funding to complete a demonstration, that does not have a plan 
for transition pending successful demonstration, and that does not have 
Joint Requirements Oversight Council validation as a military need. 
With the processes described above, the Department has the funding 
flexibility to ensure successful ACTDs are able to transition into 
acquisition programs.

                          test and evaluation
    7. Senator Landrieu. Dr. Sega, what science and technology efforts 
are underway to improve our test and evaluation capabilities, 
especially in new technology areas such as space, high energy lasers, 
and unmanned systems?
    Dr. Sega. The Department recognizes that weapons systems testing 
and evaluation is an intrinsic part of the entire research, 
development, and acquisition process. Modern weapons systems are 
designed and fabricated with much more on-board sensing and diagnostic 
tools and capability that assist in both the test and evaluation and 
subsequent operation of the systems. We also realize that, as Defense 
systems become more complex and need to operate more autonomously, the 
technical sophistication of our testing and evaluation infrastructure 
must be increased to match. To that end in fiscal year 2002, the 
Department initiated a new program within the Office of the Director of 
Operational Test and Evaluation (DOT&E) called Test and Evaluation/
Science and Technology (T&E/S&T), PE603941D8Z. This program is designed 
to exploit new technologies and expedite their transition from the 
laboratory into the test and evaluation community. The T&E/S&T program 
will specifically focus resources on test technologies to support test 
and evaluation of transformation initiatives such as the ones you 
noted.
    In fiscal year 2002 the program is investing in spectrum efficient 
technologies, multi-spectral test technologies, and hypersonics test 
technologies. Technologies pursued under these crosscutting focus areas 
begin to address test shortfalls derived from the transformational 
weapons technologies cited in the Quadrennial Defense Review. 
Additionally, a test technology investment-roadmap is being developed 
that identifies the technical challenges to testing advanced weapon 
systems and the required solution paths to meeting those challenges. My 
office is working very closely with DOT&E and is co-hosting the 
workshops to develop the needed investment strategy.
    This T&E/S&T planning will be the foundation for building our 
outyear budgets and will encompass the breadth of challenges that face 
us, including testing directed energy weapons, space based systems, 
unmanned systems, smart munitions, hard and deeply buried target 
weapons, network centric warfare, and homeland defense systems. 
Additionally, the Under Secretary of Defense for Acquisition, 
Technology and Logistics, DOT&E, and the Under Secretary of Defense for 
Personnel and Readiness are committed to better integration of test and 
training facilities/events by pursuing new technologies leading to 
embedded instrumentation and common control systems.
    I fully support the need to accelerate the development of advanced 
test technologies and integrated design for testability and believe 
that a robust T&E/S&T program is critical to ensuring that we have the 
capability to fully and completely test the weapons systems that are 
fielded in the future.

    8. Senator Landrieu. Dr. Sega, the Department has set a goal of 3 
percent of the President's budget dedicated to science and technology 
in order to support transformation. A robust science and technology 
program, research and development program, and procurement budget will 
require a robust test and evaluation infrastructure. Should the 
Department set a similar percentage goal for test and evaluation 
capabilities?
    Dr. Sega. No. Test and Evaluation is an integral part of Research, 
Development, Test, and Evaluation and should be budgeted accordingly.

                                 jason
    9. Senator Landrieu. Dr. Tether and Dr. Sega, what role has JASON 
played in developing past science and technology goals and programs? 
What is the status of the JASON contract? What is the proposed fiscal 
year 2003 funding level for JASON? What types of questions will the 
JASONs be tasked to analyze?
    Dr. Tether. The JASONs have conducted numerous studies and analyses 
since their inception. DARPA has used the group to investigate and 
evaluate new technologies and concepts, to better inform DARPA 
management's investment decisions.
    DARPA did not use the JASONs to formulate programs, but used the 
information provided by the JASONs as we put together our vision for 
militarily useful and technically feasible programs.
    Because DARPA does not intend to serve as sole sponsor for the 
JASONs after fiscal year 2002, we did not include any funding in our 
fiscal year 2003 President's Budget Request.
    As I understand the situation, the JASONs are now under contract to 
the Director of Defense Research and Engineering. We do expect that we 
will continue to use the JASONs' expertise for as yet undetermined 
studies and analyses in the future. When we do, we will pay for the 
study, as do all other users of the JASONs.
    Dr. Sega. The JASONs, like other formal Department of Defense 
advisory groups, have played an important role in providing 
independent, outside review and advice to the Department's science and 
technology program. A key role has been linking the Department to the 
state-of-the-art theory, primarily in physics and engineering. By 
providing advice on the technological feasibility of different proposed 
solutions, JASONs provide input to DOD science and technology (S&T) 
goals and programs, but do not formulate the goals directly.
    A new contract was finalized and signed between the government and 
MITRE in early May, running through December 31, 2002. MITRE acts as 
the JASONs administrator. This new contract is for approximately $3.3 
million, with DDR&E sponsorship of approximately $1 million. Other 
government agencies, both within and outside the DOD, fund the JASONs 
on a task-order arrangement under the Director Defense Research and 
Engineering (DDR&E) contract up to the ceiling of $3.3 million. We have 
not yet created a separate budget item for the JASONs in fiscal year 
2003, but intend to support them at about the same level of investment 
in fiscal year 2003 as in fiscal year 2002 (approximately $1 million 
from DDE) with additional funds coming from other government agencies.
    This year, the DDR&E has asked the JASONs to conduct two studies. 
The first is a study on technological feasibility of hypersonic flight 
systems (to Mach 25), to include a review of current activity and 
recommendations of future technology residules. The second study is an 
assessment of technology available or planned that will reduce the 
power and energy dependence of the soldier, sailor, airman, and marine 
while examining best avenues for research and development into power 
generation and energy storage systems. This will include an assessment 
of the viability of devices such as fuel cells for the warrior, higher 
energy density batteries, and so forth.

                          darpa strategic plan
    10. Senator Landrieu. Dr. Tether, a recent Defense Science Board 
study called for the development of a strategic plan for DARPA. Does 
DARPA have a strategic plan? How is this plan developed? What other 
defense organizations are involved in the development of this plan?
    Dr. Tether. DARPA's strategy is described in my written testimony 
and implements DARPA's role as DOD's central technology research and 
development arm with the mission to conceive, explore, and demonstrate 
the most advanced breakthrough concepts and technologies that will 
ensure continuing U.S. technological superiority.
    While my testimony describes our strategy, it admittedly does not 
describe how it was developed.
    The research priorities in my testimony are based on a number of 
inputs that we receive from a host of sources. Since DARPA is 
opportunity driven, our strategy is continuously updated.
    Ideas for new warfighting capabilities are suggested to the DARPA 
Office Directors, DARPA's Deputy Director and me from: (1) our Program 
Managers; (2) industry and universities; (3) formal science boards such 
as the Defense Science Board, Army Science Board, Air Force Scientific 
Advisory Board, Navy Research Advisory Council; and (4) informal groups 
such as Information Science and Technology Study Group and Defense 
Science Research Council.
    In addition, I personally learn which new capabilities are needed 
from frequent meetings with the Service Secretaries, Service Chiefs, 
Commanders in Chief of Joint Commands, Directors and senior leadership 
of Defense Agencies such as National Security Agency, Defense Threat 
Reduction Agency, National Imagery and Mapping Agency, Defense 
Information Systems Agency, Defense Logistics Agency, as well as the 
Central Intelligence Agency, National Academy of Sciences, and the 
National Science Foundation. My Deputy Director and DARPA's Office 
Directors and Program Managers also do this outreach at all levels.
    As stated in my testimony, a DARPA program does not start with what 
a military commander wants today. Instead, we look at what future 
commanders would need to maintain our forces' decisive superiority at 
all levels of warfare.
    DARPA looks beyond today's known needs and requirements. As 
military historians noted, ``None of the most important weapons 
transforming warfare in the 20th century--the airplane, tank, radar, 
jet engine, helicopter, electronic computer, not even the atomic bomb--
owed its initial development to a doctrinal requirement or request of 
the military.''\1\ None of them. To this list, DARPA would add stealth, 
unmanned air vehicles, and the advanced military information systems 
enabled by internet technologies.
---------------------------------------------------------------------------
    \1\  John Chambers, ed., The Oxford Companion to American Military 
History (New York: Oxford University Press, 1999) p. 791.
---------------------------------------------------------------------------
    DARPA Office Directors and Program Managers are required to focus 
on the ideas that would dramatically change how our forces would fight 
in the future, to go after the capabilities that would enable U.S. 
forces to dominate the battlefield. Our unique mission has made DARPA 
the technological engine of military transformation, and that is what 
DARPA's strategy is all about.
    One of the major values for having a clear strategy is to 
communicate what we think is important so that creative people who are 
interested in working high risk, high payoff projects can recommend 
ideas and concepts. DARPA is always open to new ideas, from any source.
    We communicate our strategy in many ways. One important way is 
through the written testimony I have provided. I am sure you realize 
that your publication of the testimony will be studied by many who are 
interested in science and technology projects here in the United States 
and around the world.
    Additionally, we brief our strategy when we are asked to appear 
before a formal body or an industrial association.
    Finally, DARPA has a major symposium approximately every 18 months 
where our strategy is presented in great detail over several days. The 
next time this will be done is DARPATech 2002, which is being held from 
July 30 to August 3 in Anaheim, California. We expect well over 1000 
attendees from industry, universities, other parts of DOD, and 
Congress.

                       annual review of contracts
    11. Senator Landrieu. Dr. Tether, DARPA has recently begun to 
annually review contracts for renewal. This may have the effect of 
driving research programs to focus on near-term deliverables, rather 
than the revolutionary, long-term research that DARPA has excelled in. 
This may be particularly difficult for university researchers who 
employ and fund graduate students using DARPA funding. What is the 
effect of the DARPA contract review and renewal policy on university 
participation in DARPA-sponsored research?
    Dr. Tether. Reviewing awards for renewal is not new at DARPA. 
DARPA's multiple year efforts are incrementally funded and are reviewed 
for renewal at the start of every fiscal year. Typically this renewal 
requires a certification by the Program Manager that the contractor has 
performed as expected and that the project is still worthwhile and 
likely to benefit the Department of Defense.
    More recently I have formalized establishing Go/No-Go milestones 
for multiple year efforts. These milestones are not based on the fiscal 
calendar but on what makes sense in the context of the project, which 
usually seems to be approximately every 18 months.
    The Program Manager, Office Director, and I jointly develop the Go/
No-Go milestones as a series of interim achievements required to 
achieve the ultimate goals of the project. The milestones are then 
communicated to all performers so they also know what needs to be done 
by whom and by when.
    Setting these expectations results in fewer misunderstandings and 
more healthy relationships between DARPA and our performers. Our Go/No-
Go milestones will not make our work less revolutionary nor do I think 
they will interfere with university participation in DARPA programs. 
Instead, I view them as a technique for providing solid management and 
accountability for the significant investments we make with taxpayer 
dollars.
    My experience has shown this to be a very effective way to manage 
the development of technical capability that is truly revolutionary but 
that may not be achieved for many years, perhaps beyond the tenure of 
the current researchers. This technique allows progress to occur 
quickly and keeps everyone focused on accomplishing goals they can see 
happen yet that will still have a big long-term impact. Industry 
understands this method because it is a technique used by the best 
industrial managers for executing a difficult multiyear contract.
    If a Go/No-Go milestone is not satisfied, one of several options 
can occur.
    Option 1. It may be that the effort to date proved that the 
criteria could not be satisfied. In this case, there is no need to go 
on since it was established at the beginning that this Go/No-Go was 
necessary to reach the long-range capability.
    Option 2. It may be that the effort showed that a technology that 
was assumed to be available for use in the effort and satisfying the 
Go/No-Go is not available. In this case, the effort might be re-
directed to further develop the required requisite technology.
    Option 3. It may be that the effort initially estimated for 
achieving the Go/No-Go was underestimated. In this case, the effort may 
be continued but rather than going on to the next phase, the effort 
would continue to work on satisfying the current Go/No-Go.
    At a recent meeting I had with the deans of several prominent 
engineering schools I explained the purpose of the Go/No-Go milestones; 
I believe I received a ``buy-in'' from them. After all, it's analogous 
to the process by which the ultimate goal of students is to graduate, 
but they have to pass courses and take demanding tests all along the 
way.
    That said, I understand how researchers who may be more familiar 
with grants awarded by National Science Foundation (NSF) or National 
Institute of Health (NIH) might be uncomfortable with the more focused 
demands DARPA places on them. NSF and NIH do an outstanding job 
building scientific knowledge and capacity. Only a portion of DARPA 
funding is awarded via a grant since we are in the business of creating 
specific technical capabilities to transform our national security. 
Accordingly we use a different set of management approaches, including 
Go/No-Go milestones.

                        unfunded s&t priorities
    12. Senator Landrieu. Dr. Sega, Dr. Tether, Admiral Cohen, Dr. 
Andrews, and Dr. Engle, if more money were to become available for 
science and technology programs, in what technology areas would you 
like the opportunity to make increased investment?
    Dr. Sega. There are three particular areas that warrant special 
attention to support transformation; (1) aerospace technologies; (2) 
surveillance and knowledge systems; and (3) energy and power 
technologies. The technology programs in these areas have broad 
application toward transformation. They also have intrinsic 
``jointness'' characteristics. I think we have an opportunity to 
rapidly advance the Department's goal of transforming the military by 
enhancing ``aerospace'' capabilities. I believe this can be 
accomplished through an integrated technology development and 
demonstration approach in three major aerospace areas: hypersonic 
flight, access to space, and advanced space technologies. We are 
currently in the process of developing an aerospace technology plan 
within this framework which has parallel, synergistic thrusts across 
these areas and is characterized by an aggressive ``stepping stone'' 
approach, to include flight demonstrations, in order to push technical 
frontiers. This has the potential to offer new capabilities to the 
warfighter incrementally through ``off ramps'' from the flight 
demonstrations for fielding systems. This effort could develop and 
demonstrate leap-ahead technologies providing enhanced knowledge, 
speed, agility and lethality applicable to time critical targets; long 
range strike options; efficient, affordable, and responsive access to 
space; and new approaches to space control and missile defense.
    The second area is surveillance and knowledge systems. The outcomes 
from this research could provide joint and coalition forces an optimal, 
persistent, common battlespace view for rapid decision making and 
execution through seamless and timely exploitation of all surveillance 
assets. The four technical thrust areas we plan to seek future funding 
in are sensors and unmanned vehicles; high bandwidth communications and 
information assurance; information/knowledge management systems; and 
cyber warfare.
    The third area is energy and power which should have a direct 
bearing on future aerospace systems, enabling significant reductions in 
size and weight of platforms while improving performance. Four 
technical thrust areas we plan to seek future funding in are power 
generation, energy storage, power management and control, and directed 
energy. These areas impact transforming capabilities and should provide 
much greater capabilities to generate, store, and supply electrical and 
other forms of energy to nearly all air, ground, sea, and space 
platforms.
    Additionally, we have identified information operations, space, 
robotics, hard and deeply buried targets, advanced energetics, advanced 
electronics, and military medicine as other joint areas of importance.
    Dr. Tether. The fiscal year 2003 President's budget provides for a 
balanced science and technology program and correctly places much of 
the Department's emphasis on transformation squarely on the shoulders 
of the Defense Advanced Research Projects Agency. While transformation 
can, and will, occur with existing resources, there are several 
technology areas that offer substantial promise for the next generation 
of warfighters and are areas that would benefit from increased funding.
    The first area is space. Military leaders are always taught to seek 
and defend the high ground, and space is the ultimate high ground.
    The Secretary of Defense has directed DARPA to develop the 
technologies necessary to ensure rapid access to space, protect U.S. 
space assets, control adversary space-borne resources, and exploit the 
unique advantages that space provides, particularly for surveillance 
and response.
    DARPA's fiscal year 2003 request funds a number of initiatives in 
these areas within its topline but additional funds could be used to 
develop a greater array of space capabilities and could also be applied 
to existing efforts to accelerate their development.
    Another exciting area is what DARPA terms ``cognitive computing.'' 
DARPA has been at the forefront of the information technology 
revolution and has fostered a number of the technologies essential to 
the information age.
    DARPA envisions cognitive computing as the next ``leap'' in 
information processing. It would enable direct linkage between mind and 
machine, enable a computing system to gauge the physiological state of 
the user and modify its presentation to suit the needs of that user, 
and re-design computing system architectures to handle the kinds of 
multi-variable and uncertainty-riddled problems that the current 
linear/digital computer structures have trouble solving.
    The initial phases of this technology development are funded in the 
fiscal year 2003 request but greater funding would allow more expansive 
efforts.
    Biologically based technologies are another area that offers 
significant promise to the future warfighter. If lessons from the 
astounding survival of existing organisms could be adapted to the 
warfighter, operations in extreme environments could be enhanced.
    Precious and perishable supplies of organic substances like blood 
could be safely stored and transported. The advanced concealment 
techniques of animals could hold the promise of improved camouflage.
    DARPA has established a new project in fiscal year 2003 whose focus 
is development and demonstration of biologically based devices and 
concepts. Additional resources would allow further attention to be 
placed on programs in this area.
    The House Armed Services Committee has proposed substantial 
reductions in all three of the aforementioned areas. In this 
environment, DARPA would be grateful if it could maintain the proposed 
programs at the level requested in the President's budget.
    Senate support of the budget requests for these three areas is 
essential if the Department is to realize its transformation goals and 
be prepared for the next generation of threats.
    Admiral Cohen. Increased Navy investment opportunities for Anti-
Terrorism include:

                        [In millions of dollars]
Littoral Surface Craft/Experimental........................         15
Force Protection...........................................         15
Free Electron Laser Weaponization..........................         10
High Power Microwave.......................................         15
Hypersonic Weapon..........................................         10
Affordable Weapon..........................................          5
Hairy Buffalo..............................................          9
Project M Shock Mitigation.................................          5
Naval fire Support Barrage Round...........................          5
Agile Vaccines.............................................          3
CINC-21 ACTD for FORCEnet..................................          5


    Dr. Andrews. Our first priority in Army science and technology 
(S&T) is to accelerate technologies for the Future Combat Systems 
(FCS). Specifically we would like to increase investments in hybrid 
electric vehicle components, active protection system technologies, and 
mission equipment packages for unmanned aerial vehicles, common (air/
ground) operating picture integration technologies, and Objective Force 
Warrior (OFW) technology to synchronize these efforts with FCS 
fielding. We also seek additional funding for modeling and simulation 
technologies to speed concept and technology development for the FCS 
and OFW system of systems development and acquisition approaches.
    Dr. Engle. The results of the Fiscal Year 2001 Science and 
Technology (S&T) Planning Review point to several technology areas that 
warrant increased investment if additional funding were available. As 
directed by Congress in the fiscal year 2001 National Defense 
Authorization Act, this S&T review identified both Short-Term 
Objectives and Long-Term Challenges. Two technology areas reflected in 
the Short-Term Objectives are Information Technology and Advanced 
Weapons. Key Information Technology efforts include Joint Battlespace 
Infosphere (JBI), Effects-Based Operations (EBO), and Time-Critical 
Targeting. Key Advanced Weapons efforts include High Power Microwaves 
for Airborne Applications, Effects-Based Weapons, and Airborne Tactical 
Lasers. In the Long Term Challenges arena increased emphasis is 
highlighted in the nanostructure materials area. This has broad 
applications to several transformational warfighter capabilites 
providing improved performance in embedded sensors, self-diagnostic 
structures, and electromagnetic shielding.

                         future combat systems
    13. Senator Landrieu. Dr. Andrews and Dr. Tether, how has the 
acceleration of the Future Combat Systems (FCS) schedule affected your 
technology development efforts? What are some technology areas that are 
not likely to be mature enough to include in FCS Block I? Are these 
areas being funded adequately, so that they may be ready for future 
versions of FCS?
    Dr. Andrews. We have carefully reviewed all FCS technology efforts 
and focused resources on the highest priority technologies that also 
have the greatest probability of being transitioned in time for the FCS 
Milestone B decision. The Army has requested $654 million in the fiscal 
year 2003 President's budget to mature and accelerate FCS enabling 
technologies such as advanced armor and active protection, hybrid 
electric vehicle drive components, advanced sensors and signature 
management.
    Technologies still needed, but requiring further development and 
continued investment for insertion into future versions of FCS include:

        <bullet> Compact Kinetic Energy Missile
        <bullet> Extended Range Precision Attack Missile and increased 
        endurance Loiter Attack Missile with Netted Inter-Missile 
        Connectivity
        <bullet> Advanced Multi-Spectral Payloads for Unmanned Aerial 
        Vehicles
        <bullet> Fully-Autonomous Unmanned Ground Vehicles
        <bullet> Multi-Role (Direct and Indirect Fire) Cannon with 
        Extended Range Ammunition Suite

    Dr. Tether. The acceleration affected some of our development 
efforts.
    Technologies are naturally maturing at differing rates. We have 
divided the technologies into two categories. First, technologies that 
will be ready for transition in FCS Block I. Second, those technologies 
that require further development and definition for successful 
deployment in Block II and later.
    Technologies that have been accelerated to ensure sufficient 
maturity for fielding under FCS Block I include NetFires, Organic Air 
Vehicles, Small Unit Operations: Situational Awareness System, and FCS-
Communications.
    Those technologies still undergoing development and design include-
A160 and the Unmanned Ground Combat Vehicle concepts. These will be 
ready for Block II.
    The DARPA/Army FCS program is fully funded through fiscal year 2003 
at levels that will allow us to meet the Army's desired fielding 
schedule.

                               workforce
    14. Senator Landrieu. Dr. Sega, Dr. Marburger described the 
Department of Energy's lab workforce issues as being very different 
than DOD's. Would a similar system in which the DOD labs are 
contractor-operated be useful in addressing workforce issues? Would 
this model be consistent with the mission of the DOD labs?
    Dr. Sega. The workforce issues of the DOD laboratories are 
different from those of Department of Energy. I do not believe that 
converting our DOD laboratories to contractor operated facilities is a 
useful way to address our workforce issues. We currently have a 
significant number of contractor personnel in our labs assisting the 
civilian-military workforce in accomplishing the defense laboratory 
missions. We also have strong collaborations between our laboratories 
and universities. The DOD Laboratory Model is a good one, but 
improvements are needed to insure they continue to produce the research 
and technology successes needed by the Nation in the future.

    15. Senator Landrieu. Dr. Sega, would a pilot program that 
authorized a limited number of excepted service personnel slots for 
defense laboratories and test and evaluation centers help address the 
issue of attracting and retaining the technical workforce? Would the 
Department utilize such authority?
    Dr. Sega. We have initiated action to implement a pilot program 
under the authority provided in Section 1113 of the National Defense 
Authorization Act of 2001. The Services have been given the authority 
to proceed in filling their respective allocation of 40 positions in 
coordination with the Under Secretary of Defense (Personnel and 
Readiness) and the Under Secretary of Defense (Acquisition, Technology, 
and Logistics). Once the pilot program in complete, and the results are 
in, we will consider requesting additional excepted service personnel 
slots as appropriate.

                        small business outreach
    16. Senator Landrieu. Dr. Sega and Dr. Marburger, what 
informational materials and programs are available to non-traditional 
contractors who are seeking to understand the defense contracting 
process?
    Dr. Marburger. OSTP works closely with Department of Defense 
science and technology organizations and with the Technical Support 
Working Group (TSWG) to ensure that anyone seeking to understand the 
defense contracting process is provided an appropriate point of contact 
for information and programs that are available to non-traditional 
contractors. DOD and TSWG maintain a number of websites with 
informational materials on solicitations that are also published in the 
Federal Business Opportunities (FedBizOpps).
    Dr. Sega. There are numerous avenues available to non-traditional 
small business firms seeking to understand the Defense contracting 
process. The Department (DOD) has several publications designed to 
assist companies interested in Defense work. Two such key publications 
include the ``Guide to DOD Contracting Opportunities'' that outlines 10 
key steps for a company interested in defense opportunities and 
``Selling to the Military'' intended to assist a company in marketing 
its product to the appropriate defense buying offices. These 
publications and other information are available on the DOD Small 
Business website: www.acq.osd.mil/sadbu. Additionally, the DOD posts 
notices of all business opportunities on the Federal Business 
Opportunities website: http://www.fedbizops.gov. The website has an 
automatic notification feature that allows companies to be notified 
electronically of a business opportunity related to the codes a company 
enters describing their business and geographical areas of interest.
    Small business firms involved in research and development are 
encouraged to participate in the Small Business Innovation Research and 
Small Business Technology Transfer Programs. These programs solicit 
proposals on specific topics of interest to DOD. Through the submission 
of a simplified proposal, research firms not only become acquainted 
with the DOD contracting process but have the opportunity to 
participate in DOD research programs in the developmental stage.
    The DOD Mentor-Protege Program provides incentives to large DOD 
prime contractors that mentor qualified small business proteges. Under 
this program DOD develops the requisite capabilities within the small 
business community to satisfy mission requirements at both the prime 
contracting and subcontracting levels. Proteges are provided training 
in procurement, quality, and technical areas to meet their individual 
needs.
    One excellent starting point for a firm interested in becoming 
familiar with DOD contracting procedures and opportunities is through 
its local Procurement Technical Assistance Center. These centers are 
located within most states and are partially funded by DOD to provide 
procurement assistance to firms interested in the Federal marketplace, 
and DOD in particular. They offer training and one-on-one counseling as 
needed by the individual firm. Once the firm has identified a target 
market within DOD the small business specialists at the procuring 
activity can assist small business firms in marketing to their 
respective command.

    17. Senator Landrieu. Dr. Sega and Dr. Marburger, what is the 
process for evaluating unsolicited white papers and proposals submitted 
to the Federal Government and, in particular, the Department of 
Defense?
    Dr. Marburger. OSTP has been working closely with TSWG, DOD and 
other agencies to explore how best to evaluate unsolicited white papers 
and proposals related to technologies for combating terrorism. As an 
interim measure, we have been forwarding proposals received at OSTP to 
TSWG, and TSWG has been referring some of these unsolicited proposals 
to other agencies for review. For the longer term, OSTP has been 
working with the Office of Homeland Security to develop a more 
comprehensive, single point system for review of these proposals, and 
we look forward to reporting back to your committee on this subject.
    Dr. Sega. The DOD follows the process set forth in the Federal 
Acquisition Regulation (FAR), subpart 15.6, regarding unsolicited 
proposals. The FAR establishes the criteria to be considered in 
determining whether the proposal qualifies as a valid unsolicited 
proposal. To qualify the proposal must be: (1) innovative and unique; 
(2) independently originated and developed by the offeror; and (3) 
prepared without Government supervision, endorsement, direction, or 
direct Government involvement. The FAR also sets forth the procedures 
for an initial review by the agency point of contact to determine 
relevancy of the proposal to the agency mission and whether sufficient 
information is included in the proposal for a comprehensive evaluation. 
The FAR sets forth criteria to be considered during the comprehensive 
evaluation. If a favorable comprehensive evaluation results and funding 
is available, the contracting officer must make a final determination 
that the sole source award is justified, synopsize and negotiate the 
final price of the contract.

                   emerging threats from new science
    18. Senator Landrieu. Dr. Sega, how does the DOD science and 
technology community plan to assess and evaluate the threats to our 
national security from such new science initiatives as biocomplexity 
and nanotechnology?
    Dr. Sega.The Director of Defense Research and Engineering works 
closely with the Defense Intelligence Agency's directorate for Policy 
Support in the Pentagon, as well as the Central Intelligence Agency, to 
receive periodic assessments and evaluations of emerging threats to our 
national security from rapidly developing new science areas such as 
biotechnology, nanoscience, biocomplexity and information technology. 
Such assessments enable us to devise innovative technology solutions to 
defeat such potential threats to our national security should they 
arise.

                      technology readiness levels
    19. Senator Landrieu. Dr. Sega, the nine technology readiness 
levels recently published by the DOD provide good descriptions of 
performance, but do not mention whether it is possible to manufacture 
or acquire the materiel in either prototype or larger quantities. Will 
this capability be considered in describing technology readiness in the 
future?
    Dr. Sega. The maturity of manufacturing processes is an issue we 
are currently looking at. Normally, prototype manufacturing processes 
are developed by the industry sponsor for the weapon system during the 
design and development stage of acquisition. Within our formal 
acquisition process, manufacturing development and maturity is normally 
assessed by our Integrated Product Teams as a system enters Milestone C 
and low rate initial production. However, there is a growing 
recognition that manufacturing readiness needs earlier consideration as 
part of the technology maturity assessments. In fact, manufacturing was 
a critical technology assessed by the Director Defense Research and 
Engineering review team prior to the decision for the Joint Strike 
Fighter to enter the System Development and Demonstration phase. We 
found this to be of value to all participants, and anticipate 
manufacturing will continue to be assessed in future technology 
reviews, as needed. I expect to make adjustments in our processes and 
polices as we gain more experience in using technology readiness 
levels.

                       overdue report on vaccines
    20. Senator Landrieu. Dr. Klein, Section 1044 of the Fiscal Year 
2002 National Defense Authorization Act required the Secretary of 
Defense to develop a long-range plan for the production and acquisition 
of vaccines for the Defense Department. That provision also required 
the Secretary to provide a report to Congress on the plan by February 1 
of this year. Neither that report nor the plan have yet been submitted 
to Congress. Can you explain the delay in the report, and can you 
explain the Department's position on the question of vaccine production 
and acquisition? Do you expect the Department to act alone on the 
production of vaccines, or to join with other federal agencies for a 
national effort?
    Dr. Klein. The congressional language in Section 1044 requires DOD 
to consult with ``the heads of other appropriate departments and 
agencies of the Federal Government'' to generate this report. Thus, it 
has been necessary for DOD to hold several meetings with the Department 
of Health and Human Services (DHHS), Centers for Disease Control (CDC), 
Food and Drug Administration (FDA), and the National Institutes of 
Health (NIH), among others, in order to put together a far-reaching 
plan for vaccine acquisition. The report was submitted to Congress July 
12, 2002.

    21. Senator Landrieu. Dr. Klein, when do you expect a decision on 
how to proceed with the production of vaccines, and when would you 
expect vaccines to be available from such new production?
    Dr. Klein. The Department of Defense is in discussions with other 
Federal agencies including the Department of Health and Human Services, 
Centers for Disease Control, the Food and Drug Administration (FDA), 
and the National Institute of Health to determine the best method for 
meeting the Nation's need for biodefense vaccines. Discussion is also 
ongoing with major pharmaceutical manufacturers regarding their 
interest to assist the Nation to supply this vital requirement. It is 
undecided at this time if DOD or other Federal agencies will call for 
construction of a national vaccine production facility to augment 
existing vaccine production capabilities. Therefore, no time line can 
be given for production of vaccines from a new facility. Typically, the 
total development time for research and development, production, and 
FDA licensure for a new vaccine is 10-18 years.

                        vaccine testing capacity
    22. Senator Landrieu. Dr. Klein, before vaccines can be licensed by 
the Food and Drug Administration and produced for our military, they 
must go through rigorous scientific testing and clinical trials to 
demonstrate that they are safe and effective. Typically this process 
takes years. Do we currently have sufficient capacity within Defense 
Department facilities to conduct the necessary pre-clinical testing and 
clinical trials of newly developed vaccines for defense against 
biological warfare agents? If not, how can we remedy this situation? 
Are there existing or planned facilities we could use for this purpose?
    Dr. Klein. This is a critical question because it addresses the 
costly and time consuming work that must be accomplished between 
discovery of a new vaccine and the production of a licensed product. In 
the past, the DOD had sufficient animal testing capabilities to 
evaluate new products being developed. At the present time, they do not 
have sufficient pre-clinical animal testing capacity to handle the 
influx of new vaccines and drugs for DOD, the Department of Health and 
Human Services, and industry. The Biosafety Level (BSL-3/BSL-4) animal 
testing capabilities at the U.S. Army Medical Research Institute of 
Infectious Diseases (USAMRIID) and Battelle Memorial Institute (BMI), a 
defense contractor, are currently the only locations where pre-clinical 
animal testing of biodefense products can be performed at such exposure 
levels.
    There is no immediate solution for expanding animal testing 
capabilities. However, the BMI is in the process of expanding its 
animal capacity in West Jefferson, Ohio, which should be completed by 
late 2002. In addition, the U.S. Army Medical Research and Materiel 
Command is in the process of identifying solutions for increasing its 
high containment animal holding capacity at USAMRIID until a more 
permanent solution is available.

    23. Senator Landrieu. Dr. Klein, the budget request proposes to 
create a new facility at Fort Detrick for biological defense research. 
Could that facility conduct the kinds of tests and trials needed for 
developing vaccines for clinical trials and then demonstrating vaccines 
before they are licensed?
    Dr. Klein. Our $5.0 million military construction request contained 
in the fiscal year 2003 President's budget is for the Countering 
Biological Terrorism Research Center. The funding is intended to 
support the determination of laboratory requirements, planning and 
design for a facility in which to conduct RDT&E to support the proposed 
Countering Biological Terrorism Research Program. This program includes 
biological forensics, threat assessment research for biological agents 
and emerging threats, demonstration of proof of principle for 
countermeasures to emerging threats, and rapid assessment of emerging 
countermeasures. The requirement and design specifications for this 
facility are not yet determined.
    Since submission of the budget request, the Army has become aware 
of the National Institutes of Health (NIH) plan to construct a 
biocontainment clinical vaccine testing laboratory at Fort Detrick. We 
believe that it would be in the best interest of the Nation to develop 
a coordinated effort with the NIH in planning and constructing 
biological containment laboratory capabilities at Fort Detrick, to 
include recapitilization of the USAMRIID and countering biological 
terrorism research. Accordingly, the Army is planning to host a meeting 
with NIH officials to develop a joint DOD/NIH strategic plan to clearly 
identify biocontainment laboratory requirements and construction plans 
for a biocontainment campus concept at Fort Detrick. If designed with 
the appropriate capabilities, such a facility could support the kinds 
of tests needed for developing vaccines and demonstrating their 
efficacy prior to human clinical trials and licensure.

                 accelerated chemical demilitarization
    24. Senator Landrieu. Dr. Klein, the Department of Defense approved 
a plan for accelerated demilitarization of chemical agents, and 
included a request for $300 million to implement this accelerated 
demilitarization plan in its fiscal year 2002 Supplemental 
Appropriations request to the Office of Management and Budget (OMB). 
However, the $300 million was not included in the final OMB-approved 
supplemental request.
    The funding would permit the Department to accelerate by up to 5 
years the destruction of chemical agents at several chemical stockpile 
sites, thus eliminating potential terrorist targets years ahead of 
schedule. Acceleration would also reduce life-cycle demilitarization 
costs by billions of dollars. In addition, accelerated demilitarization 
would permit the United States to meet its Chemical Weapons Convention 
treaty deadlines for interim agent destruction, and possibly to meet 
the final destruction deadlines for most if not all stockpile sites. 
How does the Department propose to fund the accelerated 
demilitarization plan so as to achieve these numerous benefits as early 
as possible?
    Dr. Klein. The Department is currently looking at options to 
resource the proposed accelerated chemical weapons disposal programs 
for the Newport, Indiana and Aberdeen, Maryland stockpile sites.
                                 ______
                                 
           Questions Submitted by Senator Joseph I. Lieberman
                          air force s&t budget
    25. Senator Lieberman. Mr. Engle, funding for Air Force science and 
technology has declined dramatically over the last 10 years while the 
other service science and technology budgets have grown substantially. 
Moreover, there is concern that the proposed Air Force science and 
technology budget for 2003 includes a number of programs that are 
inappropriately categorized as 6.3 programs. These are the 
Transformational Wideband MILSATCOM, which is targeted to be funded at 
$195 million and appears to have been categorized as 6.4 in the year 
prior, and Special Programs, which is targeted to be funded at $97.3 
million. When you remove these two programs, the Air Force has science 
and technology cut by 13 percent. Please describe the nature of these 
programs and how 6.3 priorities were shifted to pay for them. What is 
the rationale for the insertion of these programs into 6.3? Where are 
these programs being managed, and (if applicable) why are they not 
being managed out of a research facility?
    Mr. Engle. The Transformational Wideband MILSATCOM program 
accelerates current Advanced Wideband MILSATCOM System efforts and 
provides capabilities such as laser communications and additional 
protection for tactical users. In fiscal year 2003, this program will 
initiate an Advanced Wideband System that incorporates interoperable 
laser communications and its planned first launch in fiscal year 2009. 
This program addresses only acceleration of the design of the first two 
satellites; acceleration of the procurement effort is not included 
here.
    Inclusion of the Transformational Wideband MILSATCOM program within 
the Air Force Science and Technology (S&T) Program provides for 
increased Air Force investment in space technology to develop and 
demonstrate laser communications technologies. These efforts could 
prove a number of attributes that could provide higher date throughput 
and higher frequencies that could transform our military communications 
infrastructure. While laser communications have a high potential to 
revolutionize satellite communications, there are several critical 
technologies that require maturation to reduce risk prior to fielding 
an operational system. This maturation of technology can best be 
accomplished within the S&T community. However, because of the overall 
maturity of this concept we want to posture ourselves to be able to 
rapidly move these maturing technologies to development.
    For this reason, the Air Force Space and Missile Systems Center 
(SMC) is executing this reason, the Air Force Space and Missile Systems 
Center (SMC) is executing this in S&T not only because of the desire to 
rapidly transition this technology into operational use, but also 
because of the significant amount of manpower required to manage the 
effort. SMC will be working closely with a consortium of government 
labs, lead by the Air Force Research Laboratory.
    Special Programs provide for classified S&T efforts.
    Both of these programs came into the S&T Program with funding, 
thus, increasing S&T topline funding. There was no requirement to shift 
6.3, Advanced Technology Development, priorities to pay for these S&T 
efforts.

    26. Senator Lieberman. Mr. Engle, the Air Force Materiel Command 
has set a funding target for science and technology at 2.0 percent to 
2.4 percent of the total Air Force budget. The fiscal year 2003 
President's budget request proposes to fund Air Force science and 
technology at well below 2 percent. Does the Air Force leadership 
subscribe to the Air Force Materiel Command's goal, and if so, how do 
you intend to support it?
    Mr. Engle. The Air Force investment strategy is to fund a broad 
spectrum of different mission areas that support our warfighting 
capabilities. This philosophy requires a flexible funding strategy that 
can be readily changed as demands on the different mission areas 
change. Therefore, as a matter of general policy, the Air Force does 
not set a fixed funding percentage for any mission area, including the 
Air Force Science and Technology Program. Having said that, we do 
receive and follow guidance of this nature provided by OSD and when 
specific percentage guidance is included, we will attempt to meet that 
guidance. Finally, we permit our MAJCOMS to set their own goals during 
their planning and programming process and they use these goals to make 
arguments within a broader Air Force debate in the competition for 
limited resources.

                        air force s&t leadership
    27. Senator Lieberman. Mr. Engle, the Air Force has instituted 
internal policy changes in response to criticisms that there has not 
been sufficient advocacy and leadership support for science and 
technology at the corporate policy and decision-making level. What is 
your assessment of leadership support for science and technology, what 
changes have been made, how effective have they been, and do additional 
policies need to be developed to encourage leadership buy-in?
    Mr. Engle. Air Force leadership is committed in its support of its 
Science and Technology (S&T) Program. The S&T Planning Review, directed 
by Congress in the fiscal year 2001 National Defense Authorization Act, 
helped bring S&T to the forefront and results of this review have been 
incorporated into the current Air Force S&T Plan. In the last year or 
so, we have also started a new process that brings the operational 
user, the Product Centers, and the Air Force Research Laboratory 
together early in the development process to identify those 
technologies that are most important to warfighter capabilities. These 
new Applied Technology Councils (ATCs) highlight S&T efforts and offer 
great potential for improving our ability to rapidly and effectively 
transition technologies into advanced capabilities. Additionally, the 
Air Force has begun to use our semi-annual S&T Summits, where the 
Secretary of the Air Force, the Air Force Chief of Staff, and the Air 
Force four stars and other senior leaders review the S&T portfolio, to 
increase the awareness of senior leadership of the technologies in 
development that could provide new capabilities.
    While many of these changes are still relatively new, we believe 
that the S&T Study, directed by Congress in the Fiscal Year 2002 
National Defense Authorization Act, should reflect the positive impact 
these changes are having on the Air Force S&T planning process and 
advocacy.

                  reducing air force operations costs
    28. Senator Lieberman. Mr. Engle, the Air Force's explanation for 
the lack of science and technology and RDT&E funding has been that 
operations costs (the costs to repair and fly aircraft) have been 
escalating and drawing away from other areas of funding. On the other 
hand, the President's budget request for fiscal year 2003 would 
eliminate certain programs that are designed to drive down operations 
and support costs, such as the Aging Aircraft Systems Program Office 
and the Productability, Reliability, and Maintainability programs. Why 
are these programs being cut if they are intended to help reduce 
operations costs--costs that are so high that they supposedly justify 
draining funds that would otherwise go into science and technology?
    Mr. Engle. During development of the Fiscal Year 2003 President's 
Budget (PB), the Air Force had to make difficult decisions, balancing 
near-term high priority mission requirements against long-term 
investments. The fiscal year 2003 PB request reflects Air Force funding 
priorities to meet near-term operational requirements within current 
budgetary constraints. The Air Force structured its budget to maintain 
a balance between the different investment accounts within Research, 
Development, Test, and Evaluation (RDT&E) and other investment areas. 
The Aging Aircraft and Productivity, Reliability, Availability, and 
Maintainability (PRAM) programs are thus funded at the highest level 
possible given the fiscal constraints imposed by the need to fund 
higher priority operational mission requirements.

                  air force restructuring initiatives
    29. Senator Lieberman. Mr. Engle, there have been indications that 
the Air Force is planning to implement workforce restructuring 
initiatives. Can you describe these initiatives and what additional 
tools or authority the Air Force needs to ensure their success?
    Mr. Engle. The Air Force identified 27 civilian restructuring or 
force shaping initiatives in the areas of hiring, development, and 
retention/separation management and the legislation, funding, and 
policy or regulatory changes required. In addition to attracting new 
employees with critical skills, we also must manage the projected loss 
of mid to senior-level personnel--approximately 42 percent of our 
workforce will be eligible to retire by 2005. Air Force civilians 
represent one quarter of the total force.
    Your support and sponsorship of our fiscal year 2003 legislative 
initiatives is critical for their passage. Specifically, we need to 
streamline the hiring process, expand performance-based compensation 
across larger parts of our workforce, and continue with separation 
incentives to shape our civilian force. We also need to ensure we 
invest in training and developing our current workforce to avoid losses 
in institutional knowledge as our senior, technical and managerial 
employees retire.
    Senator Lieberman, the roles Air Force civilians play in 
accomplishing the Air Force mission are, in and of themselves, 
compelling reasons to invest in the civilian workforce. They are an 
integral part of the complex system that keeps the fighters, bombers, 
tankers and rockets flying as well as playing a critical role in DOD's 
homeland security mission. However, we need your support to ensure that 
we have the tools, authority, and funding necessary to ensure our 
success with this effort. Thank you for your time and the opportunity 
to present our vision for the future.

                       biological weapons attacks
    30. Senator Lieberman. Dr. Klein, current DOD organizational 
structures and capabilities do not appear to be well-suited for the 
management of a major biological weapons attack such as smallpox or 
other agents with similar capability to spread rapidly. Please provide 
your views and opinions on this problem, as well as with current and 
future plans for how it will be addressed.
    Dr. Klein. The spread of a contagious disease, like smallpox, from 
person to person presents unique public health issues for both DOD and 
the Nation's public health structure. The most effective way to deal 
with such diseases is by immunization with an effective vaccine while 
at the same time developing both detection and diagnostic capabilities. 
DOD has very active programs for both detection and diagnosis of 
biological agents.
    Two agents that are highly contagious are smallpox and plague. DOD 
is currently developing vaccines to counter both threats, as well as 
diagnostic capabilities. In addition, DOD is meeting regularly with 
other Federal agencies (e.g., Department of Health and Human Services, 
National Institutes of Health, Centers for Disease Control, and Food 
and Drug Administration) to develop a national immunization policy 
should a smallpox outbreak occur in the U.S. At the present time, DOD 
has not made any decision regarding a specific smallpox immunization 
policy.

                      connections between agencies
    31. Senator Lieberman. Dr. Klein, it appears that major ``fault 
lines'' may exist between different levels of the DOD and government 
(federal, state, and local), between the government and private sector, 
among different institutions and agencies, and within the public and 
private sector. These ``disconnects'' could impede situational 
awareness and compromise the ability to limit loss of life, suffering, 
and economic damage. Please provide your views and opinions on this 
problem, as well as with current and future plans for how it will be 
addressed.
    Dr. Klein. There are numerous relationships between DOD and other 
Federal agencies, and between the Federal Government and state and 
local governments and agencies. While many of these relationships are 
sound and effective there are also opportunities for improvement. In 
order to ensure improved situational awareness and capabilities to 
respond to a variety of threats to the United States, it is important 
to emphasize that these relationships are ongoing processes, not static 
achievements.
    Many technologies under development through the Chemical Biological 
Defense Program (CBDP) may have application for other than the 
traditional warfighter mission. In order to ensure coordination on the 
development and fielding of equipment for homeland security purposes, 
DOD actively participates with several Federal, state and local 
government organizations. These relationships include participation 
from the private and public sector to leverage their capabilities for 
the research and development. DOD has an established Memorandum of 
Understanding with the Department of Energy (DOE). Through the DOE 
Chemical and Biological Nonproliferation Program (CBNP), the DOE 
National Laboratories are engaged in responding to the threat posed by 
chemical and biological weapons to U.S. civilians.
    The DOD is one of the funding departments for the Interagency Board 
(IAB) for Equipment Standardization and Interoperability. The IAB is a 
working group of state and local first responders, standards setting 
organizations, and Federal Government agencies working cooperatively to 
establish and coordinate local, state, and Federal standardization, 
interoperability, and responder safety to prepare for, respond to, 
mitigate, and recover from any incident by identifying requirements for 
Chemical, Biological, Radiological, Nuclear or Explosive (CBRNE) 
incident response equipment. Detailed information is available on the 
IAB web site at http://www.iab.gov.
    DOD largely funds the activities of the Technical Support Working 
Group (TSWG). The TSWG is an interagency forum that rapidly develops 
technology and equipment to meet the high priority needs of the 
combating terrorism community, and addresses joint international 
operational requirements through cooperative research and development 
efforts with the United Kingdom, Canada, and Israel. TSWG membership 
includes representatives from nearly eighty organizations across the 
Federal Government. Policy oversight is provided by the Department of 
State and execution oversight is provided by the Department of Defense, 
specifically the Assistant Secretary of Defense for Special Operations 
and Low Intensity Conflict (ASD (SO/LIC)). Detailed information is 
available on the TSWG web site at http://www.tswg.gov.
    In May 2000, the DOD participated in a series of exercises (known 
as the top officials, or TOPOFF), which were combined interagency 
exercises for all agencies who participate in the consequence 
management of a weapon of mass destruction (WMD) terrorist event, 
including officials from state, local, and Federal organizations. DOD 
will also participate in a follow-on exercise, TOPOFF 2, in May 2003.
    In summary, DOD is involved, and we continue to expand our outreach 
between Federal agencies and state and local governments to increase 
the level of knowledge and awareness, and increase our preparedness on 
countering WMD attacks.

                      vaccines/biological weapons
    32. Senator Lieberman. Dr. Klein, there does not appear to be a 
surge capability in both the DOD and the U.S. health care and public 
health systems, or the pharmaceutical and vaccine industries. This 
institutionally limited surge capacity could result in both the DOD and 
federal, state, and local hospitals being overwhelmed and becoming 
inoperable; could impede public health agencies' analysis of the scope, 
source, and progress of the epidemic, the ability to educate and 
reassure the public, and the capacity to limit causalities and the 
spread of disease. Do you think the DOD has sufficient stockpiles of 
selected vaccines for all DOD personnel, distribution systems designed 
to rapidly vaccinate DOD personnel, and capability/plans (on a large 
scale/multi-state) to augment civil agencies in case of a major 
biological weapons attack?
    Dr. Klein. There is no simple answer to the issue of a sufficient 
vaccine stockpile. BioPort is now manufacturing licensed anthrax 
vaccine, which is accumulating pending a decision on an anthrax 
vaccination policy. Our anthrax vaccine stockpile will continue to 
increase as we purchase the BioPort output.
    For smallpox vaccine, the Secretary of Health and Human Services 
has announced there will be several hundred million doses of vaccine 
available by fall 2002. The DOD is developing agreements with the 
Department of Health and Human Services (DHHS) for access to this 
stockpile. However, there is no Food and Drug Administration (FDA) 
licensed smallpox vaccine in this stockpile; and the vaccine will have 
to be administered with informed consent as an Investigational New Drug 
(IND).
    Finally, there is a question of a sufficient stockpile of other 
biological defense vaccines that protect against lower profile agents. 
The DOD is currently developing new vaccines against some of these 
agents based on validated requirements.
    IND vaccines against botulinum toxins, tularemia, and plague may be 
available in the next 12 to 24 months, if these products demonstrate 
safety and efficacy in early clinical trials. Like smallpox vaccine, we 
can produce IND stockpiles for use with informed consent while we work 
toward product licensure. We are evaluating requirements for 
establishing these stockpiles.
    DOD policy for vaccinating military personnel is clearly 
established (DOD Directive 6205.3) and our ability to implement an 
effective distribution system designed to rapidly vaccinate DOD 
personnel was demonstrated through the Anthrax Vaccine Immunization 
Program (AVIP). The policies for vaccinating the civilian population 
are being widely debated. The Department of Health and Human Services 
is the lead Federal agency for establishing such plans and policies. In 
addition to the production issues discussed above, several other issues 
need to be addressed before vaccinating the civilian population. 
Physiological differences between the military and civilian population 
need to be addressed. For example, the civilian population includes a 
large pediatric and geriatric population, and it would include a larger 
percentage of people who are immune suppressed or have medical 
contraindications. Legal issues also need to be addressed. For example, 
who would be liable for adverse effects associated with vaccines? Or 
when should vaccines be administered to protect against diseases that 
are not naturally occurring? In short, several issues need to be 
addressed in order to initiate vaccinations of civilians against 
biological warfare threats.

                    biological threat communication
    33. Senator Lieberman. Dr. Klein, does the DOD possess the 
capability to deal with the immediate challenges for all levels of DOD 
and government that a significant biological weapons incident may cause 
for information management and communication systems (e.g., dealing 
with the press effectively, communication with citizens, and 
maintaining the information flows necessary for command and control at 
all institutional levels)? Other than FEMA serving as the backbone of 
any major regional response which the DOD supplements, does the DOD 
have an internal integrated information management and communications 
system designed to either supplement or replace FEMA capabilities 
should it not be able to respond and organize quickly enough?
    Dr. Klein. The Department's present capability would be limited to 
its existing command and control networks for military forces only. The 
DOD is not structured to cope with the command, control, 
communications, and intelligence (C\3\I) demands of a major biological 
weapons incident or employment for all levels of both DOD and 
government.
    With respect to the second part of your question regarding 
supplemental or replacement systems to FEMA, DOD has been working since 
last November to address issues related to emergency response 
information technology, to include information management and 
communications systems. DOD and FEMA co-chair the Emergency Response 
Network Initiative (ERNI), an interagency working group that was 
established to coordinate and coalesce efforts to deliver an emergency 
response network, collaboration tools, and information access for first 
responders.
    The Defense Threat Reduction Agency and the Department of Energy 
participate in the ERNI consortium. It is critical that DOD identify 
and solve the coordination and communications challenges that exist at 
the civil-military interface, and the ERNI consortium is our vehicle 
for making progress in coordination with the other Federal partners.

                     multi-state biological threat
    34. Senator Lieberman. Dr. Klein, in the event that a contagious 
bio-weapon pathogen is deployed on U.S. soil, containing the spread of 
disease will present significant ethical, political, cultural, 
operational, and legal challenges starting with state and local 
agencies and eventually requiring DOD involvement. The DOD may be 
required to respond with not only soldiers to contain movement of 
personnel but also with medical supplies and assistance. Do you believe 
we have sufficient capability, plans, exercises, and protocols to 
handle a multi-state situation like this?
    Dr. Klein. With regard to supporting the effort to improve security 
here at home, there are three circumstances under which the Department 
of Defense would be involved in activity within the United States.
    First, under extraordinary circumstances, which require the 
department to execute its traditional military missions. In these 
circumstances, DOD would take the lead. Combat air patrols and maritime 
defense operations are examples of such missions. As with military 
missions abroad, DOD has the lead role in the conduct of traditional 
military missions in defense of the people and the territory of our 
country. In these instances, DOD is supported by other Federal 
agencies. Plans for such contingencies, to the extent possible, would 
be coordinated, as appropriate, with the National Security Council and 
with the Homeland Security Council.
    Second, in emergency circumstances of a catastrophic nature--for 
example, responding to an attack or assisting in response to forest 
fires, floods, hurricanes, tornadoes and so forth. In these instances, 
the Department of Defense may be asked to act quickly to provide 
capabilities that other agencies simply do not have.
    Third, missions or assignments, which are limited in scope, where 
other agencies have the lead from the outset. An example of this would 
be security at a special event, like the Olympics. Another example is 
assisting other Federal agencies in developing capabilities to detect 
chemical and biological threats.
    The first of those three categories, extraordinary circumstances, 
when DOD conducts military missions to defend the people or territory 
of the United States at the direction of the President, falls under the 
heading of homeland defense. In these cases, the Department is prepared 
to take the lead.
    The second and third categories are emergency or temporary 
circumstances, in which other Federal agencies take the lead, and DOD 
lends support. These are appropriately described as homeland security. 
In these cases, Governor Ridge, as the President's adviser for homeland 
security, coordinates the planning among civilian Federal agencies, as 
well as state and local agencies. DOD is represented in these 
deliberations of the Homeland Security Council and is prepared to 
support the plans that are developed in this process.
    In the event of multiple requests for DOD assets, whether domestic 
or international, the President would be the one to make the allocation 
decisions, using the coordinating mechanisms of the National Security 
Council and the Homeland Security Council.
    To take another example, in the case of an incident that might 
exceed the capacity of a state or local authority to address such an 
attack such as employing chemical or biological weapons, the Federal 
response plan assigns to FEMA responsibility for coordinating and 
directing the activities of Federal agencies. Under this plan, 
resources of the Department of Defense could be made available to 
support these activities. This could include the deployment of soldiers 
to control crowds, assist in evacuation, the provision of 
transportation, medical facilities and supplies, or communications 
equipment.
    In sum, the Department of Defense has two roles to play in 
providing for the security of the American people where they live and 
work. The first is to provide forces to conduct those traditional 
military missions under extraordinary circumstances, such as the 
defense of the Nation's airspace or its maritime approaches. The second 
is to support the broader efforts of the Federal domestic departments 
and agencies and indeed the state and local government, as coordinated 
by and in cooperation with the Office of Homeland Security under 
emergency conditions for special purposes.

                         dod health monitoring
    35. Senator Lieberman. Dr. Klein, with respect to surveillance 
detection systems and improved communication and warning systems, do 
DOD surveillance systems provide information crucial to monitoring the 
health of the DOD population, identifying DOD health problems and 
priorities, taking DOD health action to prevent further illness, and 
evaluating the effectiveness of these actions? Public health and DOD 
sources of data for disease surveillance seem nearly as varied as the 
diseases or conditions of concern. Because there are multiple data 
sources, different information requirements, multiple, distinct users, 
and different partners with whom the DOD may be required to collaborate 
to obtain data for specific program areas, is there is a single 
surveillance system that captures all the information required to 
monitor DOD health?
    Dr. Klein. DOD currently uses the ``Global Emerging Infections 
System'' (GEIS) to detect and track potential infectious diseases on a 
global basis. DOD-GEIS provides an early warning surveillance and 
response system for emerging infections. It accomplishes this through 
an integrated surveillance program involving six cooperative, host 
nation/DOD medical research units and the operational surveillance 
programs of the three military services. It is the only U.S. entity 
that is devoted to infectious diseases globally and that has broad-
based laboratory capacities in overseas settings.
    GEIS uses various means for global disease surveillance including 
an ``electronic surveillance system for the early notification of 
community-based epidemics'' known as ESSENCE. This system looks for 
early detection of aberrant clinical patterns, rapid epidemiology-based 
targeting of limited assets, provides leaders with outcome based 
exposure estimates, and provides risk communication to reduce the 
spread of panic and civil unrest. At the present time, ESSENCE has been 
implemented for daily analysis of outpatient data from the Military 
Treatment Facilities in the greater District of Columbia area. In the 
future, GEIS plans to include other geographic areas, collaboration 
with local civilian surveillance systems, and addition of other health 
indicators (e.g., pharmacy usage, lab test ordering, school 
absenteeism, etc.). Therefore, DOD is developing a more effective 
surveillance system to monitor DOD health.
                                 ______
                                 
               Questions Submitted by Senator Bill Nelson
                       new technology development
    36. Senator Bill Nelson. Dr. Sega, Dr. Marburger, Dr. Klein, Dr. 
Younger, and Mr. Waldron, since September 11, thousands of flowers are 
blooming in American industry and universities eagerly developing 
counter terror or counter weapons of mass destruction (WMD) 
technologies. My office has been approached by nearly a dozen companies 
or universities with ``breakthrough'' technology in the detection of 
biological or chemical agents, systems for tracking contamination, 
systems for alerting the nation, systems for consequence management, 
and on and on. What are your selection criteria for prioritizing among 
these technologies to ensure you meet the established requirements 
across all service and agencies?
    Dr. Sega. The Department of Defense continues to seek the best 
available technology or concepts to counter weapons of mass destruction 
from all available sources. Our recent Broad Agency Announcement 
focused on Operation Enduring Freedom objectives and emergent homeland 
security counter terrorism needs and included, in part, a solicitation 
for new and novel approaches to counter weapons of mass destruction. 
The overall solicitation was well received by academia and industry and 
we collected over 12,000 responses. The individual requirements 
selected for advertisement were prioritized by user subgroups within 
the Technical Support Working Group. The vendor submissions were 
reviewed against a combination of cost, schedule, technical risk, past 
performance, and most importantly the ability to meet the needs of the 
Department. The submissions were reviewed by user agencies and by 
technical experts from the interagency community.
    Dr. Marburger. Technology areas that are critical to our ability to 
develop counter terror or counter weapons of mass destruction 
capabilities are identified through a number of mechanisms. One means 
is through the deliberations of interagency working groups I 
established as part of the Antiterrorism Task Force under the National 
Science and Technology Council (NSTC). In particular, two of these 
working groups, co-chaired by OSTP--the Radiological, Nuclear, and 
Conventional Detection and Response Working Group and the Biological 
and Chemical Preparedness Working Group--coordinate both near-term and 
long-term Federal antiterrorism R&D efforts and are responsible for 
setting a 5-year research agenda.
    In addition, OSTP's interaction with the Technical Support Working 
Group (TSWG), is another interagency mechanism for identifying near-
term research and development priorities for science and technology for 
combating terrorism. TSWG is a requirements-driven organization that 
rapidly develops technology and equipment to meet the high-priority 
needs of the combating terrorism community.
    Dr. Klein. The Department of Defense continues to seek the best 
available technology or concepts to counter weapons of mass destruction 
from all available sources. Our recent Broad Agency Announcement 
focused on Operation Enduring Freedom objectives and emergent homeland 
security counter terrorism needs and included, in part, a solicitation 
for new and novel approaches to counter weapons of mass destruction. 
The overall solicitation was well received by academia and industry and 
we collected over 12,000 responses. The individual requirements 
selected for advertisement were prioritized by user subgroups within 
the Technical Support Working Group. The vendor submissions were 
reviewed against a combination of cost, schedule, technical risk, past 
performance, and most importantly the ability to meet the needs of the 
Department. The submissions were reviewed by user agencies and by 
technical experts from the interagency community.
    Dr. Younger. We consider urgency of requirements, gaps in 
capability, technology feasibility, potential operational utility and 
cost as criteria to select technologies that will provide the greatest 
benefit to countering terror or weapons of mass destruction. One 
illustration of how we address this situation can be taken from the 
recent highly successful DOD Combating Terrorism Technology Task Force 
(DCT3F) commissioned shortly after September 11 of last year. The Task 
Force generated a number of technology candidate lists and obtained 
multiple inputs across the DOD and other Federal agencies, both 
technical and operational. The Task Force assessed each proposed 
project against two criteria: utility and product. The utility 
criterion reflected the extent to which the effort provided utility 
across the full spectrum of the Nation's needs for combating terrorism. 
The sub-criteria within utility were prevention, protection, and 
response, weighed equally. The perspective of this analysis was 
intended to consider combat support and homeland security. The product 
criterion reflected the extent to which the product, report, or 
deliverable was clearly defined. The Task Force obtained parallel 
assessments from the Joint Staff using a quantitative method that 
reflected the military utility and importance to combatant commands. 
The Task Force made its final recommendations based on technology 
feasibility, operational utility, and cost.
    In addition to the Task Force, the Technical Support Working Group 
(TSWG) sponsored a call for proposals that generated over 16,000 
responses. They are completing their process of selecting candidate 
efforts for funding. In addition to the TSWG efforts, DTRA is reviewing 
those entries to identify potential additional technology contributions 
to countering terror and WMD. DTRA will use the criteria used in the 
Task Force to evaluate the TSWG submittals since they are generally 
offered as near-term solutions.
    An example from our model development efforts is our hazard 
predictions and consequence assessment models for release of chemical 
or biological agents due to accidental, terrorist or targeting 
activities. These models try to use the best technologies available, 
based on time to deliver and cost/benefit. Ideas and proposals come 
from various means--unsolicited proposals, conferences, and interagency 
meetings. Examples include Interservice/Industry Training, Simulation 
and Education Conference (I/ITSEC), Office of the Federal Coordinator 
for Meteorology, and panel discussions on WMD. DTRA's prioritizations 
are based heavily on inputs from the warfighting CINCs elicited during 
extensive DTRA participation in exercises and war games. The annual 
Hazard Prediction and Assessment Capability (HPAC) users' conference is 
a DTRA-sponsored forum specifically for identifying user needs and 
priorities. All technologies are reviewed for new ideas, technology 
gaps that need to be filled, and requirements. Our program plans and 
budget are built to first meet stated requirements and then to look at 
new technologies or integrate with existing technologies.
    Our response thus far has emphasized selecting technologies that 
would provide near-term solutions. The selection criteria we use to 
evaluate potential longer-term efforts put greater emphasis on 
potential operational utility while placing less weight on technical 
risk.
    Mr. Waldron. The National Nuclear Security Administration's R&D 
Program for countering terrorist use of weapons of mass destruction is 
focused on detecting nuclear/radiological and chemical/biological 
weapons. We are evaluating ``breakthrough'' technologies for both of 
these areas. We first look to the underlying science and engineering 
and the proposed improvement in detection and identification 
capability. Other criteria include: the ability to support multiple 
users or applications; cost effectiveness of the mature technology or 
system in terms of purchase price and operations; anticipated 
reliability of the technology during operations--extremely low to no 
false positives and long life time; and ease of operation.

    37. Senator Bill Nelson. Dr. Sega, clearly the research, 
development, and acquisition of counter terror/counter WMD technology 
is a management challenge within the Department of Defense. 
Technological development is no less a total government challenge and 
begs the question of how we are managing this laterally across Federal 
agencies and vertically with state and local authorities. How are we 
working to ensure that the counter terror/counter WMD systems that we 
develop and procure in the DOD are interoperable with those among the 
relevant Federal agencies, Office of Homeland Defense, and at the state 
and local levels?
    Dr. Sega. The Technical Support Working Group (TSWG) was 
established to support lateral integration across the government for 
requirements and proof of technology projects in this area. TSWG has 
nearly 80 members across the Federal, State and Local Government. 
Interoperability of systems is but one area focused upon by the TSWG 
process. Furthermore, a TSWG program manager is the current Co-chair of 
the Technology Panel of the Interagency Board for Equipment 
Standardization and Interoperability. This group, known as the 
Interagency Advisory Board (IAB), provides a forum for coordinating 
weapons of mass destruction (WMD) requirements and setting standards 
for equipment. The IAB is made up of Federal and Civilian responders 
from across the country. Both the TSWG and the IAB support state and 
local authorities by developing equipment to meet their requirements 
and promulgating information to make them more effective. More 
generally, the Department works within the framework of the National 
Security Council and the Homeland Security Council, which provide for 
top-level integration.

    38. Senator Bill Nelson. Dr. Sega, Dr. Marburger, Dr. Klein, Dr. 
Younger, and Mr. Waldron, the Nation is demanding protection from 
terror and WMD right now and we are all working hard to get there. 
Nonetheless, as is often the case in science and technology, additional 
money does not necessarily mean that technological development will 
progress toward procurement any faster. We are always in danger of 
wasting a lot of money and time, but we have to try. With the 
technologies that each of you are considering now, how long are you 
estimating it will take to develop the systems that meet our protection 
requirements--months, years?
    Dr. Sega. Protection from terror and weapons of mass destruction is 
a complex problem for which we must continually scan our research and 
engineering program for opportunities. The time to develop systems 
varies based on many factors such as technology maturation, system 
complexity, etc. When feasible, we alter our investment to accelerate 
urgently needed programs. Examples of this acceleration are two 
projects identified for immediate investment following the September 11 
terrorist attacks. They were Nuclear Quadrupole Resonance (NQR) 
Detection Systems and Thermobaric Weapons.
    Nuclear Quadrupole Resonance (NQR) technology was developed by the 
Naval Research Laboratory and is being used by the Federal Aviation 
Administration for detection of bulk explosives. There are many 
advantages of NQR over x-ray detectors but of particular significance 
is that little interpretation is required. The existing technology is 
now being modified for use in examining ``bulk'' packages.
    A thermobaric explosive weapon system was accelerated, tested, and 
certified from the concept stage within 90 days. From ``chemistry-to-
weapon,'' the thermobaric explosive was developed and tested in a 
laboratory setting in October 2001, successfully flight tested in 
December, and made available to the warfighter earlier this year.
    The Department's S&T program has numerous program activities well 
underway, such as ACTDs, which will help to meet the near- and long-
term, critical warfighter needs. Other programs and technologies are 
being developed to provide future options and capabilities. We are 
focusing in areas such as counterterrorism and protection from weapons 
of mass destruction, and working to balance the demands of today with 
those of the future. The Department would benefit from additional 
flexibility to carry new ideas rapidly through exploration, 
development, and insertion into the field.
    Dr. Marburger. Some of the technologies that are being considered 
now will meet protection requirements in a period of months while other 
technologies may not be ready for deployment for years. For example, in 
the short term, there are a number of technologies available for 
screening baggage at airports, including x-ray backscatter, neutron 
activation, acoustic frequency-swept interrogation and radiometry. In 
this area we have been working with the FAA, with the purpose of 
ensuring that good candidate technologies are considered rapidly, but 
without interfering with FAA's process for introducing new 
technologies.
    In the longer term, technologies for countering bioterrorism, such 
as fast and cost-effective ways to detect specific pathogens and 
development of new vaccines, may take years.
    In some areas, we need improved tools with which to prevent, 
detect, protect, and treat victims of chemical, biological, 
radiological, nuclear, and conventional terrorist attacks. 
Additionally, we will need new and improved tools to recover facilities 
from attacks, should they ever occur. In many cases, this may call for 
a ``systems approach,'' rather than simply perfection of a single 
device.
    In addition, we should remember that countering terrorism is a 
constantly evolving process. Over time, terrorists develop new means of 
imposing violence on their targets, and those who oppose terrorism must 
anticipate and counter those means. We are engaged in a continual 
process of thrust and counter.
    Dr. Klein. Protection from terror and weapons of mass destruction 
is a complex problem for which we must continually scan our research 
and engineering program for opportunities. The time to develop systems 
varies based on many factors such as technology maturation, system 
complexity, etc. When feasible, we alter our investment to accelerate 
urgently needed programs. Examples of this acceleration are two 
projects identified for immediate investment following the September 11 
terrorist attacks. They were Nuclear Quadrupole Resonance (NQR) 
Detection Systems and Thermobaric Weapons.
    Nuclear Quadrupole Resonance (NQR) technology was developed by the 
Naval Research Laboratory and is being used by the Federal Aviation 
Administration for detection of bulk explosives. There are many 
advantages of NQR over x-ray detectors but of particular significance 
is that little interpretation is required. The existing technology is 
now being modified for use in examining ``bulk'' packages.
    A thermobaric explosive weapon system was accelerated, tested, and 
certified from the concept stage within 90 days. From ``chemistry-to-
weapon,'' the thermobaric explosive was developed and tested in a 
laboratory setting in October 2001, successfully flight tested in 
December, and made available to the warfighter earlier this year.
    The Department's S&T program has numerous program activities well 
underway, such as ACTDs, which will help to meet the near- and long-
term, critical warfighter needs. Other programs and technologies are 
being developed to provide future options and capabilities. We are 
focusing in areas such as counterterrorism and protection from weapons 
of mass destruction, and working to balance the demands of today with 
those of the future. The Department would benefit from additional 
flexibility to carry new ideas rapidly through exploration, 
development, and insertion into the field.
    Dr. Younger. Because the terrorist and WMD threats are so urgent 
and so broad in scope, we have pursued both near-term solutions to 
enhance protection, and longer-term programs that will provide more 
complete and higher confidence security. To provide transformational 
advances in protection requires more than technology. It requires 
creative ways of integrating and applying technologies to derive the 
maximum protective improvements while imposing the least possible 
disruption or diminution of the unique freedoms we Americans enjoy. 
Some of the protection technologies may be available in months since we 
are exploiting ``off-the-shelf'' material to develop protection 
equipment. Others may be available in years as they are follow-on and 
adaptations of the off-shelf equipment that is being currently 
exploited. Specifically:

        <bullet> Unconventional Nuclear Warfare Defense (UNWD)--
        Congress appropriated $75 million in fiscal year 2002 for a 
        joint DTRA-NNSA program to demonstrate an installation nuclear 
        warfare protection system designed to have an operational 
        capability to detect, identify, respond, and prevent the threat 
        brought upon by stolen nuclear weapons, improvised nuclear 
        devices (INDs), or radiological dispersal devices (RDDs) by 
        unconventional delivery methods. Congress directed four test 
        beds be established for this program. The first test bed to be 
        operational at Kirtland AFB by September 2002.
        <bullet> Terrorist Device Defeat (TDD) Program--This program is 
        designed to rapidly develop the technologies and operational 
        concepts to defeat the threat of nuclear terrorism in the form 
        of nuclear weapons, Improvised Nuclear Devices (INDs) or 
        Radiological Dispersal Devices (RDDs). Some of the technologies 
        and concepts developed are currently being tested and employed 
        by operational elements. They will be used in combating 
        terrorism, facility/site protection and to rapidly identify the 
        organization responsible for the weapon/device, if detonation 
        occurs. The program consists of three sub-programs: (1) Special 
        Nuclear Program (SNP) which is an operational-technical mix 
        that currently provides the regional CINCs with a militarized 
        capability to counter this type threat; (2) Improvised Device 
        Defeat (IDD) which is developing the capability to locate, 
        access and provide advanced diagnostics to defeat INDs in the 
        field in support of a classified Chairman, Joint Chiefs of 
        Staff (CJCS) plan; and (3) Domestic Nuclear Event Attribution 
        (DNEA)--A nuclear forensics capability using nuclear debris and 
        signature analysis tools to rapidly identify the organization 
        responsible for an unclaimed domestic nuclear event.
        <bullet> Remote detection of High Explosives--Following 
        September 11 DTRA helped field new technologies that allow 
        remote detection of high explosive materials, and more advanced 
        versions of the technology will follow in the next couple of 
        years.
        <bullet> Biodefense Initiative. Our biodefense initiative will 
        create a national multi-component, multiorganization biological 
        defense capability that will provide early detection and 
        characterization of biological terrorism, assist the 
        Metropolitan Medical Response System, and support the 
        Departments of Justice and Health & Human Services as they work 
        with state and local governments. In 2 years we will have a 
        prototype system of systems achieved by integrating existing 
        systems and fielding two next generation urban biological 
        detection systems by early fiscal year 2004.

    For the longer term, we have two programs that are building our 
knowledge of the critical infrastructures that are so important to the 
well-being of our nation. The National Infrastructure Simulation and 
Analysis Center (NISAC) is a cooperative effort between DTRA and 
several of the National Labs. NISAC is building the databases on our 
critical infrastructures so we can better assess the system 
vulnerabilities and can determine how to mitigate these 
vulnerabilities, both for the National well-being and for the 
dependencies for military missions. A second infrastructure program, 
the Mission Degradation Analysis Support (MIDAS) program is focused 
specifically on the infrastructures needed to support military missions 
and functions. Both of these infrastructure programs are designed to 
provide tangible benefits within the next year, but will continue to 
grow incrementally in their ability to analyze vulnerabilities of the 
critical infrastructures.
    Mr. Waldron. I believe the answer is a combination of both months 
and years for some systems to be available. In the nearer term, we will 
be providing technologies that require more human operation or 
intervention and do not have the highest level of sensitivity. In the 
longer term, we will be developing technologies that are more 
autonomous and with greater sensitivity.

    39. Senator Bill Nelson. Dr. Sega, Dr. Marburger, Dr. Klein, Dr. 
Younger, and Mr. Waldron, generally speaking, are counter terror/
counter WMD technologies sensitive to additional funding--that is will 
additional resources mean we will develop technologies faster; or, is 
the pace of development fairly limited such that the advantage of 
additional money is really how many more technologies we can explore?
    Dr. Sega. Technologies that are potentially useful in countering 
either terrorism or weapons of mass destruction (WMD) are widely 
disparate, requiring the Department to consider the entire range of 
possible investment strategies. For example, at the early or discovery 
end of technology development, added resources always allow the 
research community to explore more options, which aids good science. At 
the other end of the development, medical technology for eventual 
licensure has many rate-limiting steps, only some of which can be 
accelerated by adding funds. It is important for the Department to have 
stable funding for fundamental work while maintaining flexibility to 
move quickly, as many technologies develop rapidly. In research and 
development, new and innovative ideas ``arrive'' unexpectedly so we 
need some flexibility to take full and timely advantage of them. When 
preparing for uncertain methods from terrorist adversaries, the ability 
to move quickly and smartly is especially critical if we are to provide 
the Nation broader options for preempting or defeating the use of 
terror or WMD. In this area as in others, flexibility within a balanced 
program gives us the ability to invest in a wide array of possible 
solutions as well as focusing resources on particularly promising 
technologies.
    Dr. Marburger. There is a need to achieve a balance between 
innovation versus implementation in the war against terrorism. As I 
have learned more about the challenges of terrorism, I've realized that 
the means for reducing the risk and consequences of terrorist incidents 
are for the most part already inherent in the scientific knowledge and 
technical capabilities available today. Only in a few areas would 
additional basic research be necessary, for example in research in 
connection with bioterrorism. Beyond this, the greater challenge for us 
is to define the specific tasks we want technology to perform, and to 
deploy technology effectively throughout the diffuse and pervasive 
systems the technology is designed to protect.
    Dr. Klein. Technologies that are potentially useful in countering 
either terrorism or weapons of mass destruction (WMD) are widely 
disparate, requiring the Department to consider the entire range of 
possible investment strategies. For example, at the early or discovery 
end of technology development, added resources always allow the 
research community to explore more options, which aids good science. At 
the other end of the development, medical technology for eventual 
licensure has many rate-limiting steps, only some of which can be 
accelerated by adding funds. It is important for the Department to have 
stable funding for fundamental work while maintaining flexibility to 
move quickly, as many technologies develop rapidly. In research and 
development, new and innovative ideas ``arrive'' unexpectedly so we 
need some flexibility to take full and timely advantage of them. When 
preparing for uncertain methods from terrorist adversaries, the ability 
to move quickly and smartly is especially critical if we are to provide 
the Nation broader options for preempting or defeating the use of 
terror or WMD. In this area as in others, flexibility within a balanced 
program gives us the ability to invest in a wide array of possible 
solutions as well as focusing resources on particularly promising 
technologies.
    Dr. Younger. Additional resources can accelerate some ongoing 
programs. For example, the hazard prediction and consequence assessment 
modeling is sensitive to additional funding. Model development, test, 
and verification can be done faster. Detector technology, particularly 
for biological agents can be accelerated. However, the largest benefit 
for hardware development efforts would be to increase the breadth of 
the technologies being worked. This would result in less risk in the 
overall progress of solutions of Homeland Security tasks. Even with 
additional breadth in the scope of technologies being examined, we may 
be limited by the difficulty, time, skilled personnel and testing 
required to integrate the new technologies into integrated systems that 
are operationally suited to the need.
    Mr. Waldron. Typical of most technology development programs, you 
will find a mix of sensitivity to additional funding. Some technology 
development projects can readily apply more funds to finalize 
development sooner, and some development will not happen sooner no 
matter how much money is applied. This is more typical of technologies 
that depend upon a very thorough understanding of the supporting 
science. The breadth of science and technology needs to expand to 
maintain the flexibility to respond to future threats.
                                 ______
                                 
              Questions Submitted by Senator Jeff Bingaman
                 technical support working group budget
    40. Senator Bingaman. Dr. Sega, you mentioned a recent broad agency 
announcement (BAA) that attracted 12,500 responses through a web server 
for combating terrorism. I've heard this amazing number in testimony to 
this Armed Services Committee from other senior officials in the office 
of the Under Secretary for Acquisition, Technology, and Logistics. I 
assume you are talking about the Technical Support Working Group, or 
TSWG. My office, like others on Capitol Hill, have been overwhelmed 
with the responses from companies in our state that are looking for a 
venue to have their ideas evaluated. We have steered all these 
companies to the TSWG. We have steered our companies to the TSWG 
because it has a long track record of fielding hardware that meets an 
interagency requirements list on a short time frame with proven 
utility. It is my understanding that this BAA has generated 
approximately $176 million in new concepts. It is my understanding that 
your office will commit only $30 million over 2 years to fund this 
effort or $15 million a year. I find this response disappointing. The 
reason I find this increase disappointing is that I am very aware of 
the large budgets that agencies such as DARPA have received for 
combating terrorism when they do not nearly have the experience of the 
TSWG nor are they the National Security Council chartered forum for 
combating terrorism. Why is there such a large unfunded requirements 
gap between the TSWG as compared to DARPA? Would you be averse to 
doubling the current budget of the TSWG? Doubling the TSWG's budget 
would still fall short of that allocated to DARPA for combating 
terrorism. Please explain.
    Dr. Sega. Thank you for recognizing the outstanding work the TSWG 
accomplished through the Combating Terrorism Technology Support (CTTS) 
Program for rapidly providing hardware to meet interagency 
requirements. The response to the BAA was overwhelming. Of the 12,500 
submissions, approximately 150 are high priority areas for the DOD. 
Over the next 2 years we plan to fund $30 million of these promising 
high priority technologies.
    This supplements a baseline investment of several hundred million 
dollars already being invested in combating terrorism technologies 
throughout the Department. While we received a significant number of 
submissions, many were similar to efforts underway. Our focus was on 
the ``golden nuggets'' that could be fielded quickly. Both Defense 
Advanced Research Projects Agency (DARPA) and Defense Threat Reduction 
Agency (DTRA) have funding in their budgets supporting elements key to 
combating terrorism and developing chem/bio technology. DARPA's funding 
focuses on longer term revolutionary new approaches to biowarfare 
defense vice the near term focus that enables rapid delivery of 
capabilities into the hands of the warfighter. In addition to the 
``quick hitting'' responses, there is also a compelling need for a 
longer term integrated combating terrorism program, such as developed 
by DARPA and DTRA. It is the balance we seek. The basic ground rules 
for the BAA were that technologies proposed could be funded and fielded 
within an 18 month timeframe. The more promising ideas identified 
through the BAA evaluations will also be reviewed by both the TSWG 
office and the Defense Agencies for funding considerations prior to 
release of any additional general combating terrorism BAAs.
    In June, as part of the annual review process, all programs are 
reviewed to ensure current investments reflect the Department's 
priorities. Findings and recommendations may include reallocation of 
resources.

                        threat reduction budget
    41. Senator Bingaman. Dr. Younger, what is your spending rate for 
the CTR and other threat reduction programs with Russia and the newly 
independent states? It is my understanding that some of these programs 
have not had released their fiscal year 2002 funds. Is this true? Who 
is issuing this hold and why?
    Dr. Younger. The following shows the CTR obligation rates for the 
current fiscal year and the two prior fiscal years:

------------------------------------------------------------------------
                                                   Millions of Dollars
             Fiscal Year Execution                      Obligated
------------------------------------------------------------------------
2002...........................................                   $ 59.7
2001...........................................                    328.9
2000...........................................                    459.0
------------------------------------------------------------------------

    I want to underscore these are the execution rates for these years, 
and involve multiple year funding ranging from fiscal year 1994 to 
fiscal year 2001.
    The obligation totals for the specific years of appropriation (i.e. 
how much of the fiscal year appropriation has been obligated) are:

------------------------------------------------------------------------
                                                   Millions of Dollars
           Fiscal Year Appropriation                    Obligated
------------------------------------------------------------------------
2002...........................................                   $    0
2001...........................................                     80.7
2000...........................................                    233.9
------------------------------------------------------------------------

    Before DOD can obligate CTR funds, the current legislation requires 
several steps be completed. The first step is to certify that the 
recipient country is committed to six courses of action including 
complying with all relevant arms control agreements and forgoing any 
military modernization program that exceeds legitimate defense 
requirements of the fiscal year 1994 National Defense Authorization Act 
(Public Law 103-160). This certification must come from the President 
(delegated to the Secretary of State) and normally occupies the first 3 
to 6 months of each fiscal year. However, in considering whether to 
certify Russia to receive CTR assistance this year, the administration 
identified concerns with Russia's commitment to comply with the 
Biological and Chemical Weapons Conventions. Because of these concerns 
in the face of the administration's desire to continue to provide 
nonproliferation assistance to Russia, the administration has asked 
Congress to amend the existing law to allow the administration to waive 
the certification requirements when it deems it important to the 
National security interest.
    The second step is to submit any reports to Congress required to 
remove any congressional constraints on obligation of funds for CTR 
programs. Preparation and coordination of such reports is concurrent 
with step one.
    The third step is to prepare a notification of DOD intention to 
obligate funds for CTR programs to submit to the Senate Armed Services, 
Foreign Relations and Appropriations Committees and the House Armed 
Services, International Relations and Appropriations Committees, as 
required by Section 1205 of fiscal year 1996 National Defense 
Authorization Act (Public Law 104-106). The Secretary of Defense is 
required to provide these notifications and Congress has up to 15 days 
to comment on them before the Department may obligate funds. The 
notification must follow the certification and reporting requirements. 
Partial notifications are prepared and signed by the Secretary when 
some of the recipient countries have satisfied the certification and/or 
some of the reporting requirements have been met and the remainder is 
judged to require additional time.
    The fourth step is to amend the implementing agreements with the 
recipient country. These documents are used to reaffirm through 
individual Executive Agents (ministries) each recipient nation's intent 
to continue to comply with the implementing agreement, and specify the 
up to funding level available for agreed and notified tasks. These 
amendments may take only a few weeks or, in some cases, many months. 
The long delays are usually caused by internal issues within the 
recipient country (e.g., a governmental reorganization that abolished 
the Ministry of Economics in Russia, creating a delay while a new 
Executive Agent was identified by Russia for the Strategic Offensive 
Arms Elimination Program). Some program areas, such as Defense and 
Military Contacts, do not require implementing agreements.

                             darpa funding
    42. Senator Bingaman. Dr. Tether, the DARPA optoelectronics centers 
have proven to be a wealth of innovation for providing new generations 
of physical scientists in the area of photonics, electronics materials, 
and information theory. These university centers of excellence, working 
in concert with industry, provide innovative research fueling future 
capabilities that include: high performance RF and digital 
communications, complex information processing, and new and improved 
sources, detectors, modulators, and storage, all of which are critical 
for enhancing the effectiveness of military platforms providing 
warfighter comprehensive awareness and precision engagement. This year 
the budget for these centers decreases from an fiscal year 2002 amount 
of $11.5 million to $5.7 million. Would DARPA have any issue with 
providing essentially a level funding for these centers in fiscal year 
2003 at $12 million?
    Dr. Tether. Our current support for University Optoelectronics 
Centers has been limited to a period of 36 months extended over 4 
fiscal years. The University Optoelectronics Centers program has been 
an outstanding success for DARPA.
    The most recent program has generated a number of novel and 
innovative technologies that are now ready for application to some of 
DOD's most demanding problems. The fiscal year 2003 decrease in funding 
for the University Optoelectronics Centers program reflects the fact 
this will be the final year of funding as this program reaches a 
successful conclusion.
    The program is in the process of finishing efforts that are ready 
for transfer to industry. This is a normal occurrence and consistent 
with past practices in this type of development program.
    However, the planned decrease in fiscal year 2003 of this single 
program does not mean that DARPA's funding of university-based 
optoelectronics research is declining. While it is still too early to 
determine the exact extent of university involvement, we expect in 
fiscal year 2003 to spend close to $25 million on optoelectronics 
research at universities (over and above the amount allocated through 
the University Optoelectronics Centers program).
    Those institutions that have participated in the University 
Optoelectronics program are in an excellent position to compete for 
those funds should they choose to respond to DARPA's Broad Agency 
Announcements.
    Given the highly successful integration of university-based 
optoelectronics research into so many of our mainstream programs, we 
are evaluating several options in an effort to determine the best way 
to move forward.
    As we develop our fiscal year 2004 budget and Future Years Defense 
Program, we will determine the most appropriate funding level for the 
future.
    I have no doubt that our future funding level for university-based 
optoelectronics research will exceed the annual funding for the 
University Optoelectronics Centers program.

                chemical and biological defense spending
    43. Senator Bingaman. Dr. Klein, it is estimated that the Chemical 
and Biological Defense Program (CBDP) research and development 
portfolio would jump 70 percent to $933 million, more than double the 
fiscal year 2001 funding level. I am glad that the Department of 
Defense is taking seriously the protection of the warfighter from these 
asymmetric threats. Can you please explain your spending rates for 
costing the fiscal year 2002 appropriation? Will you be able to 
obligate the fiscal year 2003 request if provided in full?
    Dr. Klein. The increase in the fiscal year 2003 budget request for 
CBDP research and development is primarily due to two new initiatives 
that evolved as part of the Department's response to the events of 
September 11. The Office of Homeland Security, working with the Office 
of Management and Budget (OMB), provided additional funds for the 
Department to resource these initiatives, which were not part of our 
fiscal year 2002 budget request. The ultimate goal of these initiatives 
is to rapidly ramp up a capability to meet urgent chemical and 
biological defense requirements supporting homeland security missions. 
These two initiatives, the Biological Counter-terrorism Research Center 
and the Biological Defense Homeland Security Support Program, contain a 
fiscal year 2003 funding request of $385 million over and above the 
core program R&D request.
    The CBDP, working in close coordination and oversight with the 
Office of Homeland Security, fully intends to obligate the full amount 
of the additional funding if appropriated. Toward this goal, we are 
currently developing the plans and strategies necessary to enable the 
Department to begin execution of these programs as soon as fiscal year 
2003 funds are made available. We view these initiatives as critical to 
the overall objective of securing the homeland against biological 
terrorist attacks and are committed to rigorous and expeditious 
execution of these programs.

                        nuclear weapons council
    44. Senator Bingaman. Dr. Klein, can you please explain the current 
requirements from the Nuclear Weapons Council regarding any 
modifications to the W-76 warhead?
    Dr. Klein. The NWC conditionally approved Development Engineering 
(Phase 6.3) for the W-76/Mk4 refurbishment (i.e., the Life Extension 
Program (LEP)). The conditions were satisfied in December 2000 and the 
unconditional Phase 6.3 is proceeding. The W-76 LEP will consist of 
refurbishment activities required in the Nuclear Explosive Package and 
in several of the non-nuclear components. A new transfer system is also 
being deployed in the W-76 warhead. The LEP will eliminate most of the 
existing production defects and most (but not all) of the aging 
concerns.

    45. Senator Bingaman. Dr. Klein, has the Nuclear Weapons Council 
had any discussion that might lead to requirements for a nuclear 
warhead as part of a missile defense system? If so can you please 
provide me with a briefing on this issue.
    Dr. Klein. This issue has not been discussed by the Nuclear Weapons 
Council.

                      counterproliferation council
    46. Senator Bingaman. Dr. Klein, do the activities of the 
Counterproliferation Council receive adequate funding and contractor 
support to adequately provide Congress with their annual report?
    Dr. Klein. The Counterproliferation Program Review Committee (CPRC) 
has had no funding since the transfer of all Office of the Secretary of 
Defense Counterproliferation related funding to the Defense Threat 
Reduction Agency (DTRA) as part of the Defense Reform Initiative. DTRA 
has always supported the activities of the CPRC adequately in order to 
provide Congress with the annual report. As you are aware, the 
Department has recently submitted the CPRC report for 2002. Subsequent 
to the events of September 11, an increased emphasis is evident within 
the report on efforts to negate paramilitary and terrorist threats 
involving weapons of mass destruction (WMD) as part of the Department 
of Defense's homeland defense initiatives. Within the current and 
future reports, this emphasis on countering these paramilitary and 
terrorist WMD threats will reflect changing mission requirements, 
reorganizations, transformations, and research development and 
acquisition programs in support of the homeland defense and homeland 
security roles and missions of the CPRC's constituent membership. As in 
the past, I am confident that DTRA will provide funding and contractor 
support adequate to provide the annual report of the CPRC to Congress. 
I will continue to monitor DTRA efforts in these and other related 
areas in my role as principal staff assistant for DTRA activities in 
the Office of the Secretary of Defense.

                     unfunded requirements for r&d
    47. Senator Bingaman. Mr. Waldron, in your brief to Congress you 
list four primary areas of research and development:

          1. Develop and demonstrate technologies needed to remotely 
        detect the early stages of a proliferant nation's nuclear 
        weapons program;
          2. Develop, demonstrate, and deliver technologies to detect, 
        locate, identify, and characterize nuclear explosions 
        underground, underwater, in the atmosphere, and in space;
          3. Develop and demonstrate technologies to improve our 
        national capability to detect nuclear materials, to counter 
        nuclear smuggling, and to identify the origins of nuclear 
        materials; and
          4. Develop and demonstrate technologies and systems that 
        dramatically improve our ability to detect the proliferation or 
        use of chemical and biological agents, and to minimize the 
        consequences of potential terrorist use of chemical or 
        biological agents.

    Please list your unfunded requirements by category for items 1-3.
    Mr. Waldron. Senator Bingaman, we do not have any unfunded 
requirements. However, as is typical with R&D programs, we could 
accelerate development of some technologies and explore new 
technologies with additional funding.

                protecting research by foreign students
    48. Senator Bingaman. Dr. Marburger, please explain what efforts 
your office has undertaken to protect the right to publish and exchange 
basic research and attract the best foreign students in light of recent 
terrorist events?
    Dr. Marburger. Of the 30+ million international visitors who enter 
the U.S. each year, roughly 500,000 students and research scholars 
enter the U.S. on F, M, or J visas to attend U.S. universities or 
learning institutions. Approximately 175,000 of these enter as science 
students or scholars. The vast majority of these students are here to 
gain knowledge that will benefit themselves and their homelands. But a 
small number of international students may come with other motives, 
seeking to gain unique, sensitive education and training that might 
eventually be used against us in a terrorist attack.
    To prevent uniquely available, sensitive education and training 
from falling into the wrong hands, the President directed, through 
Homeland Security Presidential Directive HSPD-2, that, ``The Government 
shall implement measures to end the abuse of student visas and prohibit 
certain international students from receiving education and training in 
sensitive areas, including areas of study with direct application to 
the development and use of weapons of mass destruction.'' But the 
Directive also cautioned that these measures should be implemented with 
great care because, ``The United States benefits greatly from 
international students who study in our country. The United States 
Government shall continue to foster and support international 
students.''
    To fulfill the requirements of Homeland Security Presidential 
Directive (HSPD)-2.3, the Office of Homeland Security (OHS) and the 
Office of Science and Technology Policy (OSTP) established an 
interagency working group which included members from the Departments 
of State, Justice (headed by the Immigration and Naturalization Service 
(INS)), Agriculture, Commerce, Defense, Education, Energy, the National 
Science Foundation, the National Institutes of Health, and 
representatives from the intelligence, counterintelligence, and law 
enforcement agencies. This working group labored over several months to 
find the right balance between scientific openness and national 
security in implementing the requirements of HSPD-2.
    To address the concerns raised in HSPD-2.3, the administration will 
create an Interagency Panel on Advanced Science and Security (IPASS) to 
perform an enhanced review process for advanced students and visiting 
scholars seeking education or training in uniquely available, sensitive 
science and technology areas. The IPASS co-chairs would be appointed by 
the Secretary of State and the Attorney General, and the members would 
be drawn from the State Department, the INS, Federal science and 
technology agencies, and the intelligence, counterintelligence, and law 
enforcement communities. The goal of the IPASS would be to ensure that 
international students or visiting scholars do not acquire uniquely 
available education or training in U.S. educational institutions or 
facilities that may be used against us in a terrorist attack. The 
Attorney General and the Secretary of State, along with OHS and OSTP, 
will routinely monitor the work of the IPASS to ensure that the right 
balance between scientific openness and national security is being 
realized.

                   review criteria for basic research
    49. Senator Bingaman. Dr. Marburger, please explain what efforts 
your office has undertaken to independently evaluate the review 
criteria for applied and basic research by the Office of Management and 
Budget? It is my understanding that the DOE Office of Science received 
one of the few green lights for management of basic research and 
development and received virtually no increase in budget.
    Dr. Marburger. OSTP is actively engaged with the relevant Federal 
agencies and OMB in discussions aimed at developing and implementing 
investment criteria for R&D, as mandated by the President's Management 
Agenda. This effort includes a working group formed under the National 
Science and Technology Council, which is staffed and chaired by my 
office. This working group is actively discussing approaches to 
implement the investment criteria. This forum provides input to the 
implementation of the criteria, which will improve the management of 
the Federal R&D process.
    As a point of clarification, the DOE Office of Science received an 
``effective'' rating for its overall program performance. Only NSF 
received a ``green light'' in any of the management initiatives, and 
that was for its financial management practices.

    50. Senator Bingaman. Dr. Marburger, do you think this review of a 
coveted green light is equitable when no increase is given?
    Dr. Marburger. I do. The effectiveness ratings provide a tool to 
help make funding decisions, but they do not directly correspond to 
funding increases or decreases. Decisions on a funding level for a 
particular program will depend on the specific circumstances of that 
program, including reasons it is effective or ineffective. For example, 
DOE's Office of Science was rated ``effective'' because it met or 
exceeded expected performance within the resources available. In other 
cases, a program rated ``ineffective'' might receive a funding increase 
if it was determined that additional funding would be the best way to 
improve program performance.
                                 ______
                                 
                Questions Submitted by Senator Bob Smith
                        nuclear weapons effects
    51. Senator Smith. Dr. Younger, in recent testimony before the 
House Armed Services Committee, General Kadish reaffirmed that the WMD 
threat, including adversarial use of nuclear weapons, has not abated. 
It continues to evolve as our adversaries advance technologically. In 
his recent foreword to the Nuclear Posture Review, Secretary Rumsfeld 
points out that since the end of the Cold War, the U.S. nuclear defense 
infrastructure has atrophied. I am also aware of recent reports 
confirming that the technical community that represents the total of 
U.S. capabilities for understanding and mitigating atmospheric nuclear 
weapons effects is at risk due to inadequate funding and management 
neglect. At the same time, the U.S. military and civilian 
infrastructure is becoming increasingly dependent on space assets for 
communications systems, surveillance and reconnaissance systems, and 
precision targeting/precision strike. All of these systems rely on 
satellites and ground-to-space links using evolving technologies which 
can be vulnerable to the effects of nuclear weapons. It is my 
understanding that significant vulnerability issues have not yet been 
evaluated and mitigation strategies developed. The responsibility for 
maintaining nuclear weapons effects capabilities rests with, DOD and 
DTRA, as its agent.
    As the new Director of DTRA, what is your position on the status of 
the capabilities for modeling, predicting, and mitigating the effects 
of nuclear weapons in the atmosphere and space and what plans do you 
have to address the growing evidence that increased funding and 
management attention is required to maintain a critical level of 
capability in this technical area?
    Dr. Younger. As the world has changed since the end of the Cold 
War, the nature of threats to the United States has become much broader 
than the past. With a broader range of credible asymmetrical threats to 
our nation's security, the resources we focused on nuclear weapons in 
past decades are applied to a broader set of WMD technical issues. 
Thus, we must rely on the decades of data collected from atmospheric 
and underground tests, coupled with the expanding capability to conduct 
ever more realistic simulations of nuclear weapons to maintain a core 
expertise for nuclear weapons effects. Unfortunately, the state of our 
government and industry team has been slowly eroding over the past 
decade. Our challenge is to apply limited resources to maintain the 
expertise on the effects of the traditional large nuclear weapons while 
also working on the issues of the 21st century. There is not an easy 
solution to the long-standing issue of the atrophying base of 
expertise, but it is one that DTRA is addressing before the critical 
mass of expertise vanishes. I have begun two efforts in nuclear weapons 
effects. The first is a study of what is required to maintain an 
understanding of relevant phenomena. This includes experimental and 
test facilities, modeling, archiving of past data, and the training of 
new technical experts. Secondly, I am working with industry, where 
another source of expertise in nuclear weapons effects resides, to help 
establish a sustainable nuclear base in this important area.

    52. Senator Smith. Dr. Younger, I am aware of some discussion for 
the establishment of the Nuclear Weapon Effects Institute, which, if 
constituted correctly, appears at this level to be a viable long term 
solution for maintaining a responsive national technical infrastructure 
for nuclear weapons effects matters. However, I note that there is no 
request for funding for the institute and I am not yet aware any effort 
to address the fragile health of the nuclear weapons effects technical 
community in the near-term. I am concerned that what remains of the 
expertise in the current community, which will be required in the 
establishment of a viable institute, will be lost.
    How do you propose to address the funding and management 
requirements for re-constituting the nuclear weapons effects technical 
community in the near term while diverting funds to the establishment 
of the Nuclear Weapon Effects Institute?
    Dr. Younger. We are considering this among other alternatives but 
have made no formal decision.

                    defense threat reduction agency
    53. Senator Smith. Dr. Younger, the charter given by Congress to 
DTRA (and its predecessor agencies) in nuclear matters calls for the 
Agency to be the primary DOD resource for all information, research, 
analysis, and technology relating to effects of nuclear explosions. 
Nuclear weapon technologies have proliferated beyond the original 
superpowers, and today we have grave concerns about nuclear threats 
from a number of adversaries. Consequently, I believe it is important 
that the DTRA program for nuclear weapon effects of many varieties be 
actively pursued by the Agency. Can you summarize for the efforts the 
Agency is currently undertaking in each of the following technical 
areas:

          1. Nuclear effects pertinent to mid-course missile defense 
        systems;
          2. Nuclear effects pertinent to boost-phase and terminal 
        missile defense systems (quite different since detonations 
        associated with these systems would be in the atmosphere rather 
        than space);
          3. Nuclear effects that impact the operations of 
        communications systems, the global position system used most 
        effectively for precision targeting and precision strike, and 
        space-based surveillance systems;
          4. Nuclear effects that degrade or destroy satellite assets 
        through radiation effects;
          5. Nuclear effects that relate to the survivability and 
        functionality of our offensive missile systems; and
          6. Nuclear effects on the national infrastructure, including 
        effects such as electromagnetic pulse.

    In your response, I would like to know the funding level for each 
of these topic areas, along with an estimate of the number of DTRA 
staff and technical contractor personnel involved.
    Dr. Younger. The DTRA Nuclear Weapons Effects Technology supports a 
wide customer base. Warfighters and weapon systems, including the 
associated Command, Control, Communications, Computers, Intelligence, 
Surveillance and Reconnaissance equipment, missile defense and support 
systems/equipment, must be able to survive and operate effectively 
through a spectrum of hostile environments. DTRA efforts emphasize the 
development and demonstration of innovative and cost effective 
technologies to sustain the functional survivability of U.S. and Allied 
Forces and systems when confronted with threats from advanced 
conventional weapons, special weapons and limited nuclear attack.
    The DTRA Nuclear Technology program constitutes the DOD's resident 
S&T expertise in nuclear phenomenology and mitigation technology. It 
develops and demonstrates affordable strategies and hardening 
technologies for U.S. systems; transfers the technical products to 
acquisition program offices; conducts component, subsystem, system and 
end-to-end performance tests and assessments as requested by the 
Services and CINCs; and provides support to the Office of the Secretary 
of Defense on technical and policy matters that relate to the 
acquisition of survivable systems and strategic system sustainment. The 
program also provides the S&T basis for use of the nuclear stockpile as 
a realistic deterrent against the use of VMD by foes of the U.S. and 
our allies. DTRA's Nuclear Technology Program provides a balance 
between direct response to specific customer needs and a rigorous R&D 
program to provide technology solutions to anticipated future 
requirements.
    The DTRA Nuclear Technology has four major thrusts. First the 
Radiation Hardened Microelectronics projects respond to DOD space and 
missile system requirements for hardened microelectronics and photonics 
technology to support mission needs. This activity is done in 
coordination with the DOD, USD (AT&L) Radiation Hardened Electronics 
Oversight Council (RHOC) roadmap to ensure coordination with DOD 
program requirements. Second, the Nuclear Phenomenology projects 
develop a full spectrum of analytical tools for evaluating battlefield 
survivability and lethality; develops instrumentation to quantify risks 
for warfighters in radiation environments; and captures, archives, and 
adapts WMD knowledge to apply to emerging DOD challenges. Third, the 
Simulation and Assessment Technology program develops technologies and 
provides assistance to ensure system operability and survivability in 
nuclear weapon effects environments. This is accomplished by providing 
response models, radiation simulators, testable design protocols, 
hardware-in-the-loop test technologies, and assessments for CINCs and 
SPOs to determine operability in a nuclear environment. Finally, the EM 
and Infrastructure Protection projects provide the science and 
technology to ensure protection of military and civilian infrastructure 
electronic systems against multiple electromagnetic (EM) environments, 
including nuclear electromagnetic pulse and high power microwaves, as 
well as WMD threats.
    The following summarizes the efforts the Agency is currently 
undertaking in each of the technical areas of interest by the 
committee. Please note that there is extensive overlap of the nuclear 
weapon effects programs (and resources) for the specified technical 
areas. For example, our work on understanding and mitigating the 
effects of electromagnetic pulses (EMP) spans the areas of missile 
defense, communications systems, offensive missile systems, and the 
National infrastructure.
    1. Nuclear effects pertinent to mid-course missile defense systems. 
Many of DTRA's nuclear weapons effects projects described above deal 
with portions of the technical issues related to mid course missile 
defense systems. These systems are required to operate in a potential 
space nuclear environment and encompass the actual kill vehicles, 
sensors, communications, and associated ground sites. The nuclear 
environment includes effects from ionizing radiation, the 
electromagnetic pulse, and disturbed environment effects. Portions of 
the efforts from all four program areas relate to this technical area.
    2. Nuclear effects pertinent to boost-phase and terminal phase and 
terminal missile defense systems (quite different since detonations 
associated with these systems would be in the atmosphere rather than in 
space). The nuclear effects would be quite different since the ionizing 
radiation from the burst would be absorbed by the surrounding 
atmosphere (range for absorption very height/density dependent). 
However, if the nuclear event is above about 20 kilometers, the gamma 
rays interacting with the atmosphere would still produce an 
electromagnetic pulse that could effect the supporting ground systems. 
Therefore, parts of the program dealing with assessments of intercept 
scenarios, the additional effects of Source Region EMP (if the nuclear 
event is close enough to the surface that the fireball diameter touches 
the ground), and phenomenology efforts related to the output of the 
device, electromagnetic effects, and potentially other codes related to 
blast, shock, and thermal effects (again depending upon the height of 
the event) are relevant to this technical area.
    3. Nuclear effects that impact the operations of communications 
systems, the global position system used most effectively for precision 
targeting and precision strike, and space-based surveillance systems. 
The effects on these systems would be the result of a nuclear event at 
any altitude, hence parts of all 4 areas in the nuclear program are 
relevant and portions of the resources allocated, based upon judgment 
of proportion for these specific systems.
    4. Nuclear effects that degrade or destroy satellite assets through 
radiation effects. Again, many of the programs described above include 
effects on the supporting satellite systems related to a missile 
defense system. While a missile defense scenario is normally concerned 
with approximately a 30-minute window, there are also longer-term 
effects from ``pumping'' the natural radiation belts that could produce 
persistent effects on satellite assets for many months. This effect is 
related to DTRA's phenomenology and hardened microelectronics efforts.
    5. Nuclear effects that relate to the survivability and 
functionality of our offensive missile systems. The offensive missile 
system includes the entire end-to-end architecture from the space- and 
land based sensors and radars, to the command, control, and 
communications systems, to the actual delivery systems. These systems 
must be survivable from nuclear bursts at any altitude. Hence, there is 
again considerable overlap with the technical areas described in the 
first two questions. Not only is their overlap in some of the 
satellites and ground support facilities for both missile defense and 
offensive systems, the related phenomena and effects are the same. In 
addition to the above programs, efforts within the phenomenology 
program relate to the effectiveness/functionality of the offensive 
systems in producing the desired effects. Resources are allocated by 
the estimated portions of the nuclear program described above dealing 
with the offensive missile assets.
    6. Nuclear effects on the National infrastructure, including 
effects such as electromagnetic pulse. In addition to efforts focused 
directly on EMP, the Electromagnetic Protection Technology Program 
includes the Mission Degradation Analysis program and management of DOE 
execution of the National Infrastructure Simulation and Analysis 
Center. Both of these efforts are directed at various threats to the 
National infrastructure and related networks, and can be extended to 
include nuclear effects. Portions of the Phenomenology program dealing 
with the electromagnetic pulse, as well as maintenance/upgrade of 
existing codes dealing with blast/shock/thermal effects are included in 
this area.
    Due to the overlap of the four thrusts of the DTRA Nuclear 
Technology Program in each of the six areas above, it is not possible 
to precisely allocate the funding and personnel to each area. For 
fiscal year 2003 President's Budget Request, the DTRA Nuclear 
Technology RDT&E is $111 million and there are 51 government personnel, 
20 support contractors and approximately 300 scientists and engineers 
in industry supporting the program.

                   chemical demilitarization program
    54. Senator Smith. Dr. Klein, although this is a subject not under 
consideration at today's hearing, due to the national and international 
importance of the chemical demilitarization program, I am compelled to 
make the following inquiry and wish to solicit your response. In 
December, the Secretary of Army announced the transfer of the chemical 
demilitarization program from the Assistant Secretary for Acquisition, 
Logistics, and Technology (AS-ALT) to the Assistant Secretary for 
Installations and Environment (AS-I&E), Dr. Mario Fiori. Currently, the 
chemical demilitarization program is a Major Defense Acquisition 
Program (Acquisition Category ID) with milestone decision authority 
residing with OSD Under Secretary Aldridge. Moreover, in responding to 
this committee's questions in November, you indicated that your duties 
include oversight of this program.
    Since this is an acquisition program under Under Secretary 
Aldridge, why is oversight of the program within the Army and now 
outside the acquisition elements of the Army (AS-I&E)?
    Dr. Klein. The Milestone Decision Authority for the DOD Chemical 
Demilitarization Program, as an Acquisition Category I-D program, will 
continue to reside within the OSD acquisition community. I am actively 
involved with senior Army officials regarding the chemical 
demilitarization program [and currently meet with them each week] to 
maintain program oversight. The December 2001 Army decision to place 
AS-I&E in charge of the program is subject to Office of the Secretary 
of Defense review and indeed is under review. It is premature to state 
whether or not the program will remain outside the acquisition elements 
of the Army.

    55. Senator Smith. Dr. Klein, is it true that current Assistant 
Secretary of Army for Installations and Environment, Dr. Mario Fiori, 
is pursuing the transfer of this program away from the acquisition 
oversight and authority completely?
    Dr. Klein. I am of the firm view that the chemical demilitarization 
program will remain under Office of the Secretary of Defense 
acquisition oversight and authority. To this end, I currently meet 
weekly with Dr. Fiori and other key staff members and the same 
individuals will meet monthly with the Under Secretary of Defense 
(Acquisition, Technology, and Logistics). The Milestone Decision 
Authority for the DOD Chemical Demilitarization Program, as an 
Acquisition Category I-D program, will continue to reside within the 
OSD acquisition community.

    56. Senator Smith. Dr. Klein, do you support removing this program 
from under the acquisition oversight authority? How would you view this 
type of action?
    Dr. Klein. I am of the firm view that the chemical demilitarization 
program will remain under the Office of the Secretary of Defense 
acquisition oversight and authority. The Milestone Decision Authority 
for the DOD Chemical Demilitarization Program, as an Acquisition 
Category I-D program, will continue to reside within the OSD 
acquisition community. Accordingly, I would resist an effort to remove 
OSD acquisition oversight authority from the chemical demilitarization 
program.
                                 ______
                                 
             Questions Submitted by Senator Tim Hutchinson
                          vaccine acquisition
    57. Senator Hutchinson. Dr. Klein, I have grave concerns about our 
military's vaccine acquisition strategy. We do not have vaccines 
available for a variety of biological weapons that we know are being 
produced by our enemies. Iraq continues to develop increasingly 
virulent pathogens. One of my greatest fears is that al-Qaeda, or 
another terrorist group, utilizes these kinds of weapons against the 
military or the American people. Do you agree that vaccination is the 
best protection against biological weapons? Do we have access to 
adequate vaccine stocks for ricin?
    Dr. Klein. Vaccines offer the best protection in terms of 
performance and cost, if we know a threat exists and have time to 
immunize. For the surprise attack or untoward event, we need other 
products that provide immediate immunity or protection. Vaccines, 
drugs, and therapeutics are complementary, and the DOD must look at 
protection against biological weapons from a systems standpoint. Newer 
immune globulin preparations (e.g., monoclonal antibodies) and non-
specific immune stimulators may add to our arsenal. However, the costs 
for these products are not cheap, and they will take time to develop 
and license.
    Ricin is an easily manufactured toxin by-product of the castor bean 
industry. It is highly lethal when injected but far less effective when 
inhaled or ingested. The DOD is currently funding applied research on a 
new vaccine against ricin, however, a vaccine will not be available for 
many years.

                      chemical/biological defense
    58. Senator Hutchinson. Dr. Klein, the opening statements would 
indicate that the DTRA is the singular DOD agency for defense from WMD 
that is nuclear and chemical/biological defense. Given that Congress in 
P.L. 103-160 directed the establishment of a Joint Services Chemical 
and Biological Defense Program with the Army as Executive Agent, how 
does this dominant DTRA role in chemical/biological defense fit within 
the law?
    Dr. Klein. The Defense Threat Reduction Agency (DTRA) is a Combat 
Support agency that provides support to the warfighting Combatant 
Commanders for all aspects of chemical and biological defense. DTRA 
currently works for the Assistant to the Secretary of Defense (Nuclear, 
Chemical and Biological Defense Programs) who also has responsibility, 
mandated in P.L. 103-160, for the Chemical Biological Defense Program 
(CBDP). DTRA works within the current framework of and supports the 
CBDP to ensure an integrated chemical and biological defense research, 
development and acquisition program is maintained.

    59. Senator Hutchinson. Dr. Klein, how does the Secretary of the 
Army's duties as Executive Agent for chemical/biological defense align 
with the Director of DTRA's role? Is there a duplicative function 
engendering confusion and unnecessary cost?
    Dr. Klein. The Chemical and Biological Defense Program (CBDP) was 
established by 50 U.S.C. 1522 in 1994. Since the inception of the CBDP, 
there have been numerous changes in the worldwide environment regarding 
chemical and biological threats resulting in its growth. As part of the 
increased emphasis to address threats from weapons of mass destruction, 
the DOD established the Defense Threat Reduction Agency (DTRA) on 
October 1, 1998. DOD is analyzing and reviewing the functions of the 
CBDP with the Army, as Executive Agent, and DTRA to ensure we have a 
management structure that is streamlined and responsive to meet the 
ever growing chemical and biological threat. Steps are being taken in 
consultation with Army and DTRA officials to develop a management 
structure that is more efficient.

    60. Senator Hutchinson. Dr. Klein, the services, specifically the 
Army, has had the lead role for chemical/biological defense for 85 
years. The services have the chemical/biological defense force 
structure, research and development infrastructure and acquisition work 
force/resources to satisfy the Service Secretary's Title 10 
responsibilities. Would it not make more sense for the responsibilities 
to continue to be executed by the services with Army lead and OSD ATSD 
(NCB) oversight to integrate the nuclear and chemical/biological 
defense?
    Dr. Klein. The Department of Defense is certainly aware of the 
experience and breadth of expertise offered by the Army in the defense 
against chemical and biological (CB) agents. Because of the increased 
threat from CB agents and the increased scope and emphasis on CB 
defense, the Under Secretary of Defense (Acquisition, Technology and 
Logistics) chartered a comprehensive analysis of the current management 
structures supporting this effort. Once complete, the Under Secretary 
of Defense (Acquisition, Technology and Logistics) will approve a 
reorganization that will provide a streamlined and responsive program 
while ensuring that the warfighters needs and Title 10 responsibilities 
are addressed.
                                 ______
                                 
 Questions Submitted by Senator Mary L. Landrieu on Behalf of Senator 
                              Conrad Burns
                                                     10 April 2002.
Senator Mary Landrieu,
Chairman, Emerging Threats and
Capabilities Subcommittee,
Senate Armed Services Committee,
United States Senate,
Washington, DC.
    Dear Chairman Landrieu. On April 10, 2002, the Emerging Threats and 
Capabilities Subcommittee held a hearing on technology for combating 
terrorism and weapons of mass destruction in review of the Defense 
Authorization Request for Fiscal Year 2003. I would appreciate it if 
the following questions for the record that I have could be submitted 
to The Honorable Ronald Sega, Director, Defense Research and 
Engineering, for response.
    Thank you for your continued support of our Nation's Armed Forces. 
I look forward to working with you in the days and weeks to come. As 
always, if I can be helpful in any way, please do not hesitate to let 
me know.
            Sincerely,
                                              Conrad Burns,
                                             United States Senator.
                       acquiring new technologies
    61. Senator Burns. Dr. Sega, how is the DDR&E's Domestic Technology 
Transfer Program helping the DOD to identify and acquire innovative 
technologies for combating terrorism that are being developed by the 
private sector?
    Dr. Sega. The DOD Domestic Technology Transfer Program, managed 
from my office, promotes transfer of DOD-developed technologies to the 
private sector for commercial use, transfer of commercially developed 
technologies into the DOD for military application, and joint 
development of technologies for both military and commercial 
applications. This is accomplished by the Military Departments and 
Defense Agencies through a variety of technology transfer mechanisms 
such as Cooperative Research and Development Agreements (CRADAs), 
Patent License Agreements (PLAs), Educational Partnership Agreements 
(EPAs), testing agreements, and programs such as the Small Business 
Innovation Research (SBIR) program. While this is not an exhaustive 
list, some examples where technology transfer tools are used to 
identify and acquire innovative technologies for combating terrorism 
are:

        <bullet> Army CRADA for technical evaluation of an optics-
        based, rapid pathogen identifying device, designed to recognize 
        pathogens in real-time from food and water samples.
        <bullet> Army CRADA to conduct collaborative research and 
        development towards an optimal fermentation process for CC10, a 
        recombinant human protein, and to collaborate on related issues 
        such as scale-up, purification, characterization, and 
        biological activity.
        <bullet> Navy for nine licensed patents to produce an 
        explosives detection scanner for use in airports to detect 
        small quantities of concealed explosives in carry-on baggage.
        <bullet> Air Force CRADA to perform Research and Development 
        (R&D) on the production of reagents that facilitate detection 
        of anthrax in the environment and in biological systems.
        <bullet> Air Force CRADA to perform R&D on the testing and 
        evaluation of a prototype of an effective, yet economical, 
        glovebox designed for use in handling materials and/or objects 
        that are potentially contaminated with biological agents.

    The Department's Dual Use Science and Technology (S&T) program also 
plays a role in helping identify and acquire innovative technologies 
being developed by the private sector that can be used for combating 
terrorism. One example of the technologies with application to counter-
terrorism is the testing of the use of selectively permeable membrane 
technology fabric systems for military and civilian clothing 
applications (e.g., HAZMAT protective clothing). These selectively 
permeable membrane based garments are extremely thin, lightweight, 
flexible, waterproof, and allow water vapor through their membrane 
structures thus minimizing heat stress to the users, while resisting 
permeations of toxic chemical vapors and dangerous microorganisms in 
liquid, vapor, and aerosol forms. Another example of a technology being 
developed through the Dual Use S&T program is the world's smallest 
infrared camera. The camera can be mounted on soldiers' weapons or 
helmets and also has wide application by firefighters in smoke-filled 
environments. The camera was used in part of the search and rescue 
operation at the World Trade Centers.

                    commercializing dod development
    62. Senator Burns. Dr. Sega, how successful has the Technology 
Transfer Program been at commercializing new technology developed by 
the DOD's research laboratories, so that this technology is cost-
effective and readily available for homeland security and the war on 
terrorism?
    Dr. Sega. DOD is actively working to encourage commercial 
applications for technologies originally developed for military 
applications. In line with 15 USC 3710(a) (2) and (3), and to encourage 
participation in the technology transfer program, our scientists and 
engineers job performance is based partly on their technology transfer 
efforts. In addition to joint development with industrial partners 
using Cooperative Research and Development Agreements CRADAs, 
cooperative agreements, and other partnership vehicles, we have seen an 
increase in DOD-held patents licensed to the private sector which 
attest to the success of this program. In fiscal year 2001, there were 
283 active patent license agreements for use of DOD-developed 
technologies. Some examples of those which relate to homeland security 
and the war on terrorism are:

        <bullet> Survival, Inc., in Seattle, WA, is working with the 
        U.S. Navy's Naval Surface Warfare Center, Dahlgren Division, to 
        evaluate a Navy-developed bio/chemical decontamination compound 
        for use in cleanup of contaminated sites. Survival, Inc. plans 
        to license the technology and make it available to the U.S. 
        military and first-responders in the domestic market.
        <bullet> Quantum Magnetics, Inc., in San Diego, CA, signed 
        patent license agreements with the U.S. Navy's Naval Research 
        Laboratory for nine patents/patent applications for use in its 
        line of QScan<INF>TM</INF> explosive detection devices. Quantum 
        Magnetics QScan QR 160 is designed to detect small amounts of 
        explosives concealed in mail, briefcases, purses, carry-on 
        bags, and shoes. The QScan QR500 is designed to scan larger 
        items, such as mail bags, boxes, and large suitcases.
        <bullet> EnVirion, L.C. has licensed technology from the U.S. 
        Army's Edgewood Chemical and Biological Center to produce and 
        market a device and method for the detection and identification 
        of submicron particles.
        <bullet> The National Law Enforcement and Corrections 
        Technology Center Northeast and its Law Enforcement Analysis 
        Facility are using the Air Force Research Laboratory/
        Information Directorate's Web Enabled Timeline Analysis System 
        (WebTAS). WebTAS is a computerized program which graphically 
        plots events and presents visual and statistical data on 
        timelines, graphs, tables, and maps. It can be used as a 
        predictor of behavior or events and, by using an algorithm 
        called the Temporal Transition Model, analysts take information 
        about a suspect's behavior and use it to predict what the 
        suspect might do next.

                technology transfer and small businesses
    63. Senator Burns. Dr. Sega, how successful has DOD's Technology 
Transfer Program been at partnering U.S. small business with the DOD to 
develop, test, and rapidly transition innovative new concepts into war-
winning capabilities?
    Dr. Sega. The Department's technology transfer program focuses on 
research and development of technologies for both military and 
commercial applications. We have over 2,000 active Cooperative Research 
and Development Agreements (CRADAs) with small and large business to 
jointly develop technologies to improve our war-winning capabilities. 
Approximately 40 percent of our CRADAs are with small business firms. 
``The Influence of Federal Laboratory R&D on Industrial Research,'' a 
paper prepared in response to the National Science Foundation grant, 
states, ``Our results suggest that CRADAs may be more beneficial to 
firms than other public-private interactions, precisely because of the 
mutual effort that they demand of firms and government laboratories.'' 
In addition to CRADAs, the technology transfer program helps transition 
new concepts into war-winning capabilities by licensing DOD-developed 
technologies to U.S. companies that, in turn, commercially produce this 
technology to support the DOD mission.
    To give a brief example of recent successes, one DOD Technology 
Transfer program partnership intermediary has facilitated 62 different 
technology transfer partnerships between the DOD and U.S. companies in 
a little over 2 years. These include 22 CRADAs and 11 patent licensing 
agreements.

    64. Senator Burns. Dr. Sega, how successful have DOD's partnership 
intermediaries, such as the TechLink Center at Montana State 
University, been at developing partnerships between the DOD and U.S. 
small business for new technology development and commercialization?
    Dr. Sega. The TechLink Center at Montana State University (MSU) is 
the only Defense Department-wide partnership intermediary. The Air 
Force has four partnership intermediaries and is the executive agent 
for TechLink. Partnership intermediaries have been successful in 
assisting the DOD and U.S. small business develop partnerships for new 
technology development and commercialization. The TechLink Center at 
MSU, in the 2\1/2\ years it has been supporting DOD, facilitated 62 
partnership arrangements involving Army, Navy, Air Force, and Defense 
Agencies, including 6 company start-ups around DOD-related 
technologies. TechLink has assisted 11 small companies in licensing DOD 
technologies for commercial use and has facilitated 22 partnerships 
between DOD laboratories and private sector companies in the 
northwestern United States to jointly develop new technology with both 
military and commercial applications. TechLink is helping small 
companies succeed in the DOD Small Business Innovation Research 
program. TechLink is encouraging small companies to submit summaries of 
their research into the DOD Independent Research and Development 
database, including technology for combating terrorism.

    [Whereupon, at 11:14 a.m., the subcommittee adjourned.]

                                 <all>

</pre></body></html>
